           REPORT ON THE
FEDERAL COMMUNICATIONS COMMISSION
          FISCAL YEAR 2004
       FINANCIAL STATEMENTS

   04-AUD-05-07       November 15, 2004




        Office of Inspector General

                  *******

    Federal Communications Commission
                                        OFFICE OF INSPECTOR GENERAL
                                                                     MEMORANDUM




DATE:         November 15, 2004

TO:           Chairman
              Managing Director
              Chief Financial Officer

FROM:         Inspector General

SUBJECT:      Audit of the Federal Communications Commission’s
              Fiscal Year (FY) 2004 Financial Statements


This letter transmits Clifton Gunderson LLP’s report on its FY 2004 financial statement
audit of the Federal Communications Commission (FCC) and the results of the Office of
Inspector General’s (OIG) review thereon.

In accordance with the Accountability of Tax Dollars Act of 2002, FCC prepared
consolidated financial statements in accordance with Office of Management and Budget
(OMB) Bulletin No. 01-09, Form and Content of Agency Financial Statements, amended,
and subjected them to audit. The Chief Financial Officers Act of 1990 (Public Law 101-
576 referred to as the “CFO Act”), amended, requires the FCC OIG, or an independent
external auditor as determined by the Inspector General, to audit agency financial
statements in accordance with Government Auditing Standards issued by the Comptroller
General of the United States. Under a contract monitored by the OIG, Clifton Gunderson
LLP, an independent certified public accounting firm, performed the audit of FCC’s
FY 2004 consolidated financial statements in accordance with the aforementioned
standards; OMB Bulletin No. 01-02, Audit Requirements for Federal Financial
Statements, amended; and applicable sections of the U.S. Government Accounting Office
(GAO)/President’s Council on Integrity & Efficiency (PCIE) Financial Audit Manual.



Opinion on the Financial Statements

In its report dated November 1, 2004, Clifton Gunderson LLP issued an unqualified
opinion on FCC’s Consolidated Balance Sheets as of September 30, 2004 and 2003, and
the related Consolidated Statements of Changes in Net Position and Custodial Activity.
Clifton Gunderson LLP opined, the financial statements referred to above present fairly,
in all material respects, the financial position of the FCC as of September 30, 2004 and
2003, its changes in net position and custodial activity for the years then ended in
conformity with accounting principles generally accepted in the United States of
America.

Additionally, Clifton Gunderson LLP issued a qualified opinion on FCC’s Statement of
Net Cost for the year ended September 30 2004 and an unqualified opinion for the year
ended September 30, 2003. As a result of FCC management, in its representation letter to
the auditor, not providing assurance on the accuracy and completeness of the fiscal years
2004 and 2003 Combined Statement of Budgetary Resources and the Consolidated
Statement of Financing, Clifton Gunderson LLP disclaimed its opinion on these financial
statements. As noted in its report, Clifton Gunderson LLP’s disclaimer of opinion is
different from that expressed in a previous report dated December 8, 2003.



Matters Pertaining to Effectiveness of Internal Control Identified During the Audit

In performing its internal control testing of controls necessary to achieve the objectives in
OMB Bulletin No. 01-02, Clifton Gunderson LLP identified matters relating to
significant deficiencies in the design or operation of FCC’s internal control that, in its
judgment, could aversely affect FCC’s ability to record, process, summarize, and report
financial data consistent with the assertions by management in the financial statements.
Specifically, these matters were categorized as material weaknesses and reportable
conditions per definitions of the American Institute of Certified Public Accountants.

Material weaknesses are reportable conditions in which the design or operation of one or
more of the internal control components does not reduce to a relatively low level the risk
that misstatements in amounts that would be material in relating to the financial
statements may occur and not be detected within a timely period by the employees in the
normal course of performing their assigned functions. Clifton Gunderson LLP identified
material weaknesses in the areas of:

       •       Auction Transactions
       •       Oversight of Reporting Components
       •       Universal Service Fund Financial Accounting and Reporting Controls
       •       Reporting Components’ Budgetary Accounting
       •       Information Technology
       •       Cost Allocation Logic

Clifton Gunderson LLP identified additional reportable conditions not considered to be
material weaknesses, which include:

       •       Financial Reporting
       •       Cost Accounting
       •       Payroll Activities


                                             2
       •       Debt Collection Improvement Act of 1996 Reporting
       •       Electronic Data Processing Controls
       •       Collateral for Deposits Held Outside of Treasury
       •       Federal Managers’ Financial
               Integrity Act of 1982 Compliance and Reporting



Results of Tests of Compliance with Laws and Regulations

FCC management is responsible for complying with laws and regulations applicable to
the agency. To obtain reasonable assurance about whether FCC’s financial statements
are free of material misstatements, Clifton Gunderson LLP performed tests of compliance
with certain provisions of laws and regulations, noncompliance with which could have a
direct and material effect on the determination of financial statement amounts and certain
other laws and regulations specified in OMB Bulletin No. 01-02, including the
requirements referred to in the Federal Financial Management Improvement Act of 1996.
As appropriate, Clifton Gunderson LLP limited its tests of compliance to these provisions
and it did not test compliance with all laws and regulations applicable to FCC.

Clifton Gunderson LLP’s tests disclosed instances of noncompliance with specific laws
and regulations required to be reported under Government Auditing Standards and OMB
Bulletin No. 01-02 as follows:

       •       Chief Financial Officers Act of 1990
       •       Antideficiency Act
       •       OMB Circular No. A-129, Polices for Federal Credit Programs and Non-
               Tax Receivables
       •       Debt Collection Improvement Act of 1996
       •       Federal Financial Management Improvement Act of 1996


OIG Evaluation of Clifton Gunderson LLP’s Audit Performance

In connection with the contract, the OIG reviewed Clifton Gunderson LLP’s reports and
related documentation and inquired of its representatives. Specifically, we:

       •       reviewed Clifton Gunderson LLP’s approach and planning of the audit,
       •       evaluated the qualifications and independence of its auditors,
       •       monitored progress of the audit at key points,
       •       examined working papers and audit documents to evaluate compliance
               with Government Auditing Standards,
       •       reviewed Clifton Gunderson LLP’s audit reports to ensure compliance
               with Government Auditing Standards and OMB Bulletin No. 01-02, and
       •       performed other procedures we deemed necessary.



                                            3
TABLE OF CONTENTS


TRANSMITTAL MEMORANDUM


SECTION I             FEDERAL COMMUNICATIONS COMMISSION’S
                      MAJOR MANAGEMENT CHALLENGES

      Inspector General Statement on the Federal Communications
      Commission’s Major Management Challenges

      Chairman’s Response to Inspector General Statement on the
      Federal Communications Commission’s Major Management Challenges


SECTION II            INDEPENDENT AUDITOR’S REPORT

      Opinion on the Financial Statements                                        1


SECTION III           INDEPENDENT AUDITOR’S
                      REPORT ON INTERNAL CONTROL

      Material Weaknesses:

      I.       Auction Transactions

               A. Auction Receivables                                            2

               B. Spreadsheet Subsidiary Ledger System                           4

      II.      Oversight of Reporting Components                                 5

      III.     Universal Service Fund (USF) Financial Accounting and
               Reporting Controls                                                7

      IV.      Reporting Components’ Budgetary Accounting                        9

      V.       Information Technology

               A. OMB Circular No. A-130 Requirement for a
                  Comprehensive Security Plan                                    10

               B. FCC’s Contingency Plans                                        12

               C. Disaster Recovery Plan for USF                                 13

               D. Security Policies and Procedures for USF                       14




04-AUD-05-07          REPORT ON THE FEDERAL COMMUNICATIONS              Page i
                      COMMISSION’S FY 2004 FINANCIAL STATEMENTS
TABLE OF CONTENTS


      VI.      Cost Allocation Logic                                                       14


      Reportable Conditions:

      VII.     Financial Reporting

               A. Integrated Financial Management Systems                                  16

               B. Federal Financial System Setup and Posting Model Definitions             18

               C. Financial Statement and Federal Agencies’ Centralized
                  Trial Balance System II Differences                                      18

      VIII.    Cost Accounting

               A. Minimum Level of Cost Accounting                                         19

               B. Matching Revenue to Cost                                                 20

      IX.      Payroll Activities                                                          20

      X.       Debt Collection Improvement Act                                             21

      XI.      Electronic Data Processing Controls

               A. Review of the Revenue Accounting and Management
                  Information System (RAMIS) Application Controls                          22

               B. Transmission of Sensitive Data                                           23

               C. IT Security Training and Education                                       23

               D. Employee Duties and Position Risk Designation                            24

               E. Access to Equipment Authorization System and
                  Experimental Licensing System                                            25

               F. USF Password Controls                                                    25

               G. OMB Circular No. A-130 Requirements for USF                              26

               H. OMB Circular Nos. A-127 and A-130 Reviews                                27

       XII.    Collateral for Deposits Held Outside of Treasury                            27




04-AUD-05-07           REPORT ON THE FEDERAL COMMUNICATIONS                      Page ii
                       COMMISSION’S FY 2004 FINANCIAL STATEMENTS
TABLE OF CONTENTS


           XIII.    Federal Managers’ Financial Integrity Act Compliance and Reporting                            28


           Status of Prior Year Comments:

                        •    Condition – Loans Subsidiary Ledger System                                           29

                        •    Condition – Cost Accounting System                                                   29

                        •    Condition – RAMIS Application and Processes                                          29

                        •    Condition – Collections in RAMIS                                                     30


SECTION IV                   INDEPENDENT AUDITOR’S REPORT
                             ON COMPLIANCE WITH LAWS AND REGULATIONS

           Chief Financial Officers Act of 1990                                                                   1

           Antideficiency Act                                                                                     2

           OMB Circular No. A-129, Policies for Federal Credit Programs and
           Non-tax Receivables                                                                                    3

           Debt Collection Improvement Act of 1996                                                                3

           Federal Financial Management Improvement Act of 1996                                                   4


SECTION V                    FEDERAL COMMUNICATIONS COMMISSION
                             FISCAL YEAR (FY) 2004 PERFORMANCE AND
                             ACCOUNTABILITY REPORT*

           Message from the Chairman

           1. Management’s Discussion and Analysis                                                                1

           2. Program Performance                                                                                 19

           3. Financial Statements                                                                                73

                    Consolidated Balance Sheet                                                                    77

                    Consolidated Statement of Net Cost for FY 2004                                                78

*
    This report has been abridged by removing pages 121 to 170, which contain the auditor’s reports.



04-AUD-05-07                 REPORT ON THE FEDERAL COMMUNICATIONS                                      Page iii
                             COMMISSION’S FY 2004 FINANCIAL STATEMENTS
TABLE OF CONTENTS


               Consolidated Statement of Net Cost for FY 2003                  80

               Consolidated Statement of Changes in Net Position               82

               Unaudited Combined Statement of Budgetary Resources             83

               Unaudited Consolidated Statement of Financing                   84

               Consolidated Statement of Custodial Activity                    85

               Notes to Consolidated Financial Statements                      87

               Required Supplementary Information                              111

               Appendix A: Glossary of Acronyms                                171


SECTION VI            STATUS OF RECOMMENDATIONS
                      FROM PRIOR YEAR FINANCIAL STATEMENT AUDIT


SECTION VII           ACRONYMS & ABBREVIATIONS




04-AUD-05-07          REPORT ON THE FEDERAL COMMUNICATIONS           Page iv
                      COMMISSION’S FY 2004 FINANCIAL STATEMENTS
             SECTION I

FEDERAL COMMUNICATIONS COMMISSION’S
   MAJOR MANAGEMENT CHALLENGES
This page intentionally left blank
                                       OFFICE OF INSPECTOR GENERAL
                                                                     MEMORANDUM




DATE:            October 15, 2004

TO:              Chairman
                 Managing Director

FROM:            Inspector General

SUBJECT:         Inspector General Statement on the Federal Communications
                 Commission’s (FCC) Major Management Challenges


In November 2000, the President signed the Reports Consolidation Act of 2000 (Public
Law No. 106-531), which requires Inspectors General to provide a summary and
assessment of the most serious management and performance challenges facing Federal
agencies and the agencies’ progress in addressing them. This document responds to the
requirements and provides the fiscal year 2004 submission to include in the Fiscal Year
2004 FCC Performance and Accountability Report.

We identified six significant management issues facing FCC for fiscal year 2004.

             •      Reporting Component Investigations and Fraud
             •      Financial Reporting
             •      Reporting Components
             •      Information Technology and Information Systems Security
             •      Revenue Gap
             •      Physical Security and Protection of Personnel
SECTION I             FEDERAL COMMUNICATIONS COMMISSION’S
                      MAJOR MANAGEMENT CHALLENGES


Reporting Component Investigations and Fraud

Fraud is an inherent risk in the Universal Service Fund (USF) core business process:
collection, certification, and disbursement of funds for advanced telecommunications
services. As of fiscal year end 2004, 55 investigations have been initiated. Of those
investigations, 37 are on-going and 18 are closed. Investigations have led to indictments
as well as subsequent sentencing relating to fraudulent actions. To date, five indicted
individuals and one indicted corporation have accepted plea agreements in four separate
investigations. Additionally, five individuals have been indicted in another case that is
currently scheduled for trial. FCC has taken action to address fraud in the USF business
process; however, additional efforts are needed. FCC and the USF Administrator, in
conjunction with the Office of Inspector General and the Department of Justice,
developed processes for suspected fraudulent activity monitoring, investigation, and
referral.

In addition to law enforcement activities, audits conducted of the E-Rate program
disclosed significant potential recoveries. Currently, these recoveries are in excess of $20
million. FCC has taken action to improve oversight of the E-Rate program; however,
additional efforts are needed. Controls over management oversight and accountability for
receipts of USF funds by program beneficiaries have been materially weak because of
inadequate management controls, lack of a sufficient independent audit program to deter
future fraudulent activity, and weaknesses in the structure of the program.

Additionally, the Office of Inspector General is aware of an ongoing investigation of the
Telecommunications Relay Service (TRS) Fund. FCC informed the Office of Inspector
General there is the possibility of settlement for monetary recovery of disbursed funds.
The TRS Fund compensates providers for the reasonable costs of providing interstate
telephone transmission services that enable a person with a hearing or speech disability to
use such services to communicate with a person without hearing or speech disabilities.


Financial Reporting

FCC does not maintain current and accurate financial data during the course of the year.
As a result, FCC undertakes a massive, manually intensive effort to compile, analyze, and
correct its financial data to prepare accurate financial statements quarterly and at fiscal
year end. FCC can enhance both its processes and timing of financial reporting practices,
improve its policies and procedures to ensure consistent accounting practices, and
continue its endeavor for an updated, integrated financial management system entity-
wide.

FCC has made progress in correcting financial management weaknesses given the
resources available. Recent improvements in its loan receivable and cost accounting




04-AUD-05-07          REPORT ON THE FEDERAL COMMUNICATIONS                            Page 1
                      COMMISSION’S FY 2004 FINANCIAL STATEMENTS
SECTION I             FEDERAL COMMUNICATIONS COMMISSION’S
                      MAJOR MANAGEMENT CHALLENGES


processes addressed this challenge. Additionally in fiscal year 2004, FCC fully
outsourced its loan portfolio operations and instituted a new cost accounting system
which greatly improved its costing for performance. Despite these achievements, FCC
needs to take additional steps to ensure proper financial management reporting.
Specifically, it has not made the major changes needed to address a long-standing
weakness in financial reporting. Significant elements of this weakness include the need
for:

               •   integrated financial management system(s) within FCC as well as its
                   reporting components,
               •   timely recording and analysis of financial activities for certain
                   accounts,
               •   a cost accounting system that accounts for unit costs per generally
                   accepted accounting principles, provides information for performance
                   measurement, and routinely provides this information to program
                   managers,
               •   complete budgetary accounting for consolidating reporting
                   components,
               •   a complete and thorough process for compiling the entity consolidated
                   statements with minimum errors, and
               •   expanded oversight of component accounting activities.


Reporting Components

Throughout its history, FCC created subsidiary organizations and administrative
components, subject to various levels of FCC oversight, to conduct Commission business
and meet the agency mission. Fundamentally, these organizations were created without a
complete assessment or determination of how component functions or responsibilities
would comply with Federal laws and regulations, policy, or concepts. This issue exists to
date and creates considerable confusion.

In fiscal year 2003, FCC adopted Commission Order FCC 03-232, the first of what was
expected to be a series of Orders defining the applicability of certain laws and regulations
to these organizations and components. Although the Order defined applicability of
certain requirements for two of three current financial reporting components, it did not
address the remaining component. Additionally, the scope of the new requirements was
fairly ambiguous as to which relevant provisions of Federal financial management and
reporting statutes and laws it applied. To date, FCC has not issued similar Orders
addressing this issue or clarified the relevancy of the other existing provisions. Thus, the
applicability of key provisions of Federal financial management and reporting statutes
and laws, as well as some in their entirety, remains undecided.




04-AUD-05-07          REPORT ON THE FEDERAL COMMUNICATIONS                            Page 2
                      COMMISSION’S FY 2004 FINANCIAL STATEMENTS
SECTION I             FEDERAL COMMUNICATIONS COMMISSION’S
                      MAJOR MANAGEMENT CHALLENGES


During fiscal year 2004, the reporting components addressed by the aforementioned
Order progressed toward meeting the October 1, 2004 effective date. Near fiscal year
end 2004, component management informed FCC it would not meet the implementation
date for key elements. To the best of our knowledge, no temporary, interim, or corrective
actions to mitigate this challenge have been provided to or by FCC management.

Furthermore, bureau and offices which facilitate reporting component oversight are slow
to address known problem areas and fundamental questions. This observation is not
limited to those directly responsible for component oversight, but to other relative areas
including: legal, planning, financial management, information technology, and general
management. Identified issues and problem areas languish for multiple fiscal years with
limited or no resolution. Although proposed solutions are discussed, many get diverted
to address critical problems. This fact was highly evident in late fiscal year 2004 as FCC
responded, and continues to respond, in what could be categorized as a reactive versus a
proactive mode of oversight.


Information Technology and Information Systems Security

As technology advances and our reliance on technology increases, the need for a strong
information technology infrastructure becomes more important. FCC’s operations have
become increasingly more reliant on automated systems and further integration of FCC
data and services with external users via the internet is escalating. Along with explosive
growth in computer connectivity comes the ability to disrupt or sabotage critical
operations, read or copy sensitive data, and tamper with critical processes.

FCC’s information technology control environment and systems security need to be
enhanced. FCC is noncompliant with a number of Federal statutes and policies.
Commission systems have been susceptible to malicious attacks via viruses and worms,
and unauthorized access. Inadequacies and inconsistencies exist in the mainframe and
network access request process and efforts to develop and test FCC’s contingency plans
have been slow. Additionally, FCC lacks a viable capital asset plan, needs to further
enhance its audit trail facility utilization and review, and strengthen its password access
controls.

FCC has taken steps to address its information technology and information systems
security vulnerabilities. FCC developed its agency-wide security plan and is working
toward compliance with required Federal policies and statutes; however, completion
dates for key items to address this challenge have repeatedly been revised. In the area of
information systems security, the Information Technology Center has developed a
disaster recovery plan for its information technology infrastructure and the Wireless
Technology Bureau's Auctions Operation Branch has implemented a robust network




04-AUD-05-07          REPORT ON THE FEDERAL COMMUNICATIONS                           Page 3
                      COMMISSION’S FY 2004 FINANCIAL STATEMENTS
SECTION I             FEDERAL COMMUNICATIONS COMMISSION’S
                      MAJOR MANAGEMENT CHALLENGES


intrusion detection system. Furthermore, the Commission has begun implementing its
capital investment program.


Revenue Gap

Although FCC collects approximately $250 million in regulatory fees each year, FCC can
not determine if all required fees are collected. The difference between what is collected,
an amount subject to Congressional determination, and what should have been collected
if all regulated parties fully paid their fees, is deemed a revenue gap.

Recent systems development and the mandatory use of the FCC Registration Number
provide the Commission with a record of each collection which facilitates bill generation
to non-payees. In fiscal year 2004, FCC billed 3,449 payees comprising $141.5 million
in regulatory fee. As of fiscal year end, FCC received $136.8 million of the billed
regulatory fee. FCC’s ability to bill regulatory fee payees is significant progress relating
to collection of known payees. However, since FCC does not have a complete universe
of potential regulatory fee payees, it cannot determine the total regulatory fee subject to
collection, and it does not have a complete universe to facilitate regulatory fee rate
assessment in future years.


Physical Security and Protection of Personnel

This challenge is not unique to FCC. Since September 11, 2001, physical security and
protection of personnel have been critical issues in the Federal government and the
United States in general.

The FCC has taken steps to identify and implement security measures to protect FCC
personnel and its physical infrastructure. Specifically, FCC created a program to inform
personnel regarding potential threats and threat management, prepared measures to
address potential catastrophic events, and made security enhancements to FCC facilities.
In the area of physical security, the Commission has significantly upgraded the security
of its Gettysburg facility and has enhanced the physical access to the Portals II building
with the addition of concrete barriers. Despite these efforts, the Commission has related
personnel and physical infrastructure issues to complete. For example, the FCC has not
completed a Commission-wide continuity of operations plan. Security and protection
enhancements to some facilities have not been completed. And, recommendations
regarding work place violence need to be addressed by an appointed task force.




04-AUD-05-07          REPORT ON THE FEDERAL COMMUNICATIONS                            Page 4
                      COMMISSION’S FY 2004 FINANCIAL STATEMENTS
                                                              UNITED STATES GOVERNMENT


                                                     MEMORANDUM
  DATE:         November 15, 2004



      TO:       Inspector General




  FROM:         Chairman




SUBJECT:        Response to the Inspector General's Statement on the Federal Communications
                Commission's Major Management Challenges

Thank you for the October 15, 2004 memorandum providing your office’s assessment of the
management challenges the Federal Communications Commission (FCC) is now facing. Progress
has been made since receipt of your first report for FY 2003, and in FY 2004 improvements
continued on each of these challenges. A summary of the progress and status of each challenge
identified is attached. I remain committed to a complete and successful resolution of all these
concerns.




Attachment
This page intentionally left blank
                                    Management Responses to
                                   Major Management Challenges
                                            9/30/04


Reporting Component Investigations and Fraud

The Commission has taken numerous steps to improve Universal Service Fund (USF) oversight.
To combat the risk of waste, fraud, and abuse in the USF program, the Commission took the following
steps during Federal fiscal year (FY) 2004:

      Adopted new rules to revise the Commission’s recovery approach such that recovery actions are
       now directed against any party or parties (including service providers and E-rate applicants) that
       have committed statutory or rule violations;

      Adopted new rules to strengthen audit and investigation processes, including the establishment of
       heightened scrutiny for applicants and service providers that have violated the statute or the
       Commission’s rules in the past;

      Adopted and oversaw a targeted independent audit to address significant allegations of waste,
       fraud, and abuse concerning one Territorial Department of Education and its service providers;

      Ensured that USAC improved its own efforts to detect and deter waste, fraud, and abuse in the
       USF program. During FY 2004, USAC took steps to improve its oversight of the USF program,
       including: (a) developing a comprehensive plan to promote awareness of program rules in the
       E-rate community; (b) engaging an independent auditor to conduct 100 audits of E-rate program
       beneficiaries; (c) implementing an internal audit strategy focused on beneficiaries of all USF
       programs, as well as contributors to the USF; (d) working with the Commission’s Office of
       Inspector General (OIG) to develop a plan for conducting hundreds of audits of USF
       beneficiaries; (e) initiating recovery of improperly disbursed funds; and (f) improving its review
       and processing of applications; and

      Improved its own managerial controls addressing USF oversight, including dedicating additional
       Commission staff to USF audit and oversight issues and revising the independent audit of USAC
       required by the Commission’s rules to determine whether USAC is administering the program to
       prevent waste, fraud, and abuse.

During Federal fiscal year 2004, the Commission ensured that the Universal Service Administrative
Company (USAC) conducted audits of USF beneficiaries, including audits performed by an independent
auditor of $311,591,578 in USF monies provided to 79 randomly-selected Schools and Libraries Support
Mechanism (E-rate) program beneficiaries. The 79 independent audits during Federal fiscal year 2004
resulted in recommended recovery of $8,899,897, or 2.86 percent of the total audited amount. To date,
USAC, an independent auditor, or the Commission’s Office of Inspector General (OIG) has issued a total
of 198 audit reports of the E-rate program addressing a combined $1,141,400,629 in disbursements of
E-rate program USF monies, or 13.3 percent of the total E-rate program USF monies disbursed since
1998. The 198 audits have resulted in a total recommended recovery amount of $43,949,362, or 3.85
percent of the $1.14 billion in E-rate program USF monies that were audited.
Safeguarding the USF program from the risk of waste, fraud, and abuse is an ongoing process that we
continue to strive to improve. In this regard, the Commission continues to work on other measures
intended to further safeguard the USF, including on-going rulemaking proceedings that address the
appropriate amount of USF monies that should be disbursed in the program, the competitive bidding
process, and mandatory independent audits of program beneficiaries. The Commission anticipates taking
additional policy and program management steps in these areas during FY 2005.

With regard to the ongoing investigation of the Telecommunications Relay Service Fund, a settlement
agreement between the defendant and the US Attorney's Office was signed as of September 30, 2004, and
is currently awaiting approval by the court.

Financial Reporting

Major strides have been made by the FCC over the past several years in financial reporting. During
FY 2004, a new cost accounting system was implemented that provides both budgetary and financial
reporting of the goals included in the FCC’s Strategic Plan. This is the first system that has allowed us to
report on our results of operations as they correspond to our performance measurements. In addition, we
implemented an additional module in our subsidiary revenue system that allows us to account for all the
financial transactions relative to the auctions held by the FCC. Our previous manual process documented
only by spreadsheets now resides in an automated financial system. Another major accomplishment is the
completed outsourcing of loans operations to a service provider. The provider has been operational for the
entire year and has provided monthly, quarterly and year-end reports to support our loan activity and
balances.

Of course, we still have more to achieve in the financial reporting arena. The FCC has initiated a review
for a replacement of our existing automated financial accounting system, which would integrate more of
the systems than currently linked. Expected completion of that review is during FY 2005. In addition, a
final module in our subsidiary revenue and accounting system will be implemented fully. This final
module will account for all International Telecommunications Settlements. And finally, we continue to
work on the consolidation of financial information of the FCC and its reporting components. This
process remained fully manual for FY 2004, however with the implementation of GovGAAP by the
components, consistency of financial transactions and data will allow a more expeditious consolidation of
financial data on a monthly, quarterly and year-end basis to generate the required financial reports.

Reporting Components

The establishment and utilization of the reporting components by the Commission has been instrumental
in accomplishing critical strategic objectives. They play a key part in carrying out the Commission’s
direction and provide an avenue for the Commission to accomplish its goals.

During FY 2004, the Commission took significant steps towards strengthening oversight of the Universal
Service Administrative Company. In particular, the Commission implemented the following measures:

               Established an inter-bureau and office working group to more effectively coordinate
                oversight issues affecting the Universal Service Fund and USAC;

               Monitored USAC’s efforts to ensure compliance with the Commission’s Debt Collection
                Implementation Act (DCIA) rules adopted in April 2004;

               Reviewed and approved USAC’s quarterly administrative expense filings and projected
                program demand;
               Responded to USAC’s request for guidance pertaining to Federal budgetary accounting
                requirements. This process involved gaining an understanding of the legal, policy, and
                accounting issues related to USAC’s transition to Government accounting standards,
                coordinating with other agencies within the Federal Government, and providing written
                instructions to USAC in less than eight weeks after these issues were raised to senior
                Commission staff; and

               Improved its own managerial controls addressing USF oversight, including dedicating
                additional Commission staff to USF audit and oversight issues, revising the independent
                audit of USAC’s administration of the USF, attending USAC’s quarterly meetings of its
                Board of Directors, and implementing a tracking system to assist in identifying and
                resolving policy and program management issues. In addition, the Commission initiated
                regular coordination meetings between senior and mid-level staff of USAC and the
                Commission.

Ensuring proper oversight of USAC and the USF is an ongoing process that we continue to strive to
improve. The Commission anticipates taking additional policy and program management steps to
strengthen oversight of USAC and the USF during FY 2005, including both reevaluating the
Commission’s internal policies and procedures governing oversight of USAC and the USF and
considering oversight issues in on-going rulemakings and other proceedings.

Information Technology and Information Systems Security

The FCC is taking proactive steps to address its information technology infrastructure and information
systems security vulnerabilities, such as developing agency-wide security plans and working towards
compliance with all required Federal policies and statutes. We recognize that completion dates for some
key milestones have been revised due to resource and budget constraints.

One challenge we continually face is to sustain a secure and compliant IT infrastructure from internal and
external threat. Our efforts towards the development and testing of the FCC’s Information Technology
Disaster Recovery Plan (IT DRP) were hampered by budgetary constraints, but we successfully
completed and tested the Continuity of Operations Plan (COOP) and IT DRP during the first ever Federal
Government-wide COOP test, Forward Challenge in May 2004. Additional work is underway to enhance
COOP and IT DRP capabilities to include business applications and other related efforts.

We are also working to better manage our information technology investment portfolio and meet all
applicable Federal policies, such as OMB Circular A-130 and the Clinger-Cohen Act. Efforts are already
underway to formalize and implement a formal, documented information technology Capital Planning
and Investment Control process, including procedures with defined criteria for the selection, control, and
evaluation of investments. An IT Steering Committee (ITSC), comprised of representatives from the
Bureaus and Offices, has been formally chartered by the Chairman and has been meeting monthly since
March 2004. The purpose of the ITSC is to ensure an agency-wide approach to leveraging information
technology in support of the mission critical activities of the FCC. In addition, the ITSC will prescribe
policy and responsibilities for IT capital planning and investment processes throughout the FCC.
Revenue Gap

The FCC made substantial progress in the assessment and billing of regulatory fees. In particular, the
Commission implemented the following measures: directly billed satellite licensees and interstate service
providers (the largest fee category), instead of notifying them of charges through a general public notice;
assessed fees on CMRS licensees and cable owners for the first time; and mailed postcards to media
licensees and their legal representatives. We expect to directly bill the media licensees in FY 2005.

Based upon the agency's best current understanding of the universe of regulatory fee payers, we believe
that the billing and assessment of interstate service providers, CMRS, cable, satellite and media licensees
represents in excess of 94% of all regulatory fees owed. Specific recommendations for improving the
agency's collection process are being considered in FY 2005.

Physical Security and Protection of Personnel

The COOP was developed and practiced in FY 2002, including a tabletop exercise involving about 50
FCC personnel at all levels. In FY 2003, the FCC's disaster recovery plan (DRP) was developed and
initial information technology and telecommunications testing was conducted. During FY 2004, briefings
for essential personnel were conducted in February, another tabletop exercise was conducted in March,
and the FCC participated in the first-ever government-wide COOP exercise, Forward Challenge, in May.
Forty-four agencies and 4,000 staff from across Government participated in that exercise, designed to
further improve COOP and DRP execution. The FCC is planning to participate in Pinnacle 2005, an even
larger-scale COOP exercise next May. Each time we conduct a COOP or DRP briefing, tabletop
exercise, or actual deployment, the underlying documents and processes are revised based on lessons
learned and best practices.

The FCC appointed a task force in January 2002 to address recommendations regarding workplace
violence. The task force developed a zero tolerance policy, the FCC Policy Statement on the Prevention
of Workplace Violence, and distributed this policy to all employees and contractors in June 2002. In
addition, the FCC established and trained an advisory Threat Assessment Team. The agency is currently
conducting workplace violence briefings for all supervisors, managers and Contracting Officer’s
Technical Representatives. To date, 97% of FCC supervisors and managers have attended this training.
         SECTION II

INDEPENDENT AUDITOR’S REPORT
This page intentionally left blank
SECTION II                      INDEPENDENT AUDITOR’S REPORT




                                 Independent Auditor’s Report

To the Inspector General of the
Federal Communications Commission


We have audited the Consolidated Balance Sheets of the Federal Communications Commission
(FCC) as of September 30, 2004 and 2003, and the related Consolidated Statements of Net Cost,
Changes in Net Position, and Custodial Activity for the years then ended. These financial
statements are the responsibility of the FCC’s management. Our responsibility is to express an
opinion on these financial statements based on our audits.

Except as discussed in the following paragraph, we conducted our audits in accordance with
auditing standards generally accepted in the United States of America; the standards applicable
to financial audits contained in Government Auditing Standards, issued by the Comptroller
General of the United States; and Office of Management and Budget (OMB) Bulletin No. 01-02,
Audit Requirements for Federal Financial Statements, as amended. Those standards require that
we plan and perform the audit to obtain reasonable assurance about whether the financial
statements are free of material misstatement. An audit includes examining, on a test basis,
evidence supporting the amounts and disclosures in the financial statements. An audit also
includes assessing the accounting principles used and significant estimates made by
management, as well as evaluating the overall principal statements’ presentation. We believe
our audits provide a reasonable basis for our opinion.

FCC implemented a new cost system in fiscal year 2004 to allocate cost and revenue to the
respective goals reported on the Consolidated Statement of Net Cost. The new cost system
allocated revenue of $395 million based on incorrectly allocated costs of $343 million resulting
in incorrect allocated revenue by goals. Although the allocated costs were subsequently
corrected, the reallocation of revenue occurred after the last day of fieldwork and we were not
able to apply auditing procedures to satisfy ourselves with the revenue allocations.

In our opinion, except for the effects of such adjustments to the fiscal year 2004 Consolidated
Statement of Net Cost, if any, as might have been necessary had we been able to perform
adequate audit procedures on the allocated revenue referred to in the preceding paragraph, the
financial statements referred to in the first paragraph present fairly, in all material respects, the
financial position of the FCC as of September 30, 2004 and 2003, and its net cost, changes in net
position, and custodial activity for the years then ended in conformity with accounting principles
generally accepted in the United States of America.




04-AUD-05-07            REPORT ON THE FEDERAL COMMUNICATIONS                                   Page 1
                        COMMISSION’S FY 2004 FINANCIAL STATEMENTS
SECTION II                     INDEPENDENT AUDITOR’S REPORT



We were also engaged to audit the Combined Statements of Budgetary Resources and the
Consolidated Statements of Financing as of September 30, 2004 and 2003. These financial
statements are the responsibility of the FCC’s management.

FCC management, in its management representation letter to the auditor, could not provide
assurance on the accuracy and completeness of the fiscal year 2004 and 2003 Combined
Statement of Budgetary Resources and the Consolidated Statement of Financing as explained in
Note 24, and we were not able to apply other auditing procedures to satisfy ourselves as to the
budgetary resources and reconciliation of net cost to budgetary resources. The scope of our work
was not sufficient to enable us to express, and we do not express an opinion on these financial
statements.

In our report dated December 8, 2003, we expressed an opinion that the fiscal year 2003
Combined Statement of Budgetary Resources and the Consolidated Statement of Financing fairly
present the FCC’s budgetary resources and reconciliation of net cost to budgetary resources. As
described in the preceding paragraph, management could not provide current representations
related to the fiscal year 2004 and 2003 statements. Therefore, we have disclaimed our opinion
as presented herein, which is different from that expressed in the previous report.

In accordance with Government Auditing Standards, we have also issued our reports dated
November 1, 2004 on our consideration of the FCC’s internal control over financial reporting,
and on our tests of the FCC’s compliance with certain provisions of laws and regulations. The
purpose of those reports is to describe the scope of our testing of internal control over financial
reporting and compliance and the results of that testing, and not to provide an opinion on the
internal control over financial reporting or on compliance. Those reports are an integral part of
our audit performed in accordance with Government Auditing Standards and should be
considered in assessing the results of our audit.

Our audits were made for the purpose of forming an opinion on the basic financial statements
taken as a whole. The Management Discussion and Analysis and Required Supplemental
Information are not a required part of the basic financial statements but are supplementary
information required by OMB Bulletin No. 01-09, Form and Content of Agency Financial
Statements. We have applied certain limited procedures to such information, which consisted
principally of inquiries of FCC management regarding the methods of measurement and
presentation of the supplementary information. However, we did not audit the information and
express no opinion on it.




Calverton, Maryland
November 1, 2004




04-AUD-05-07           REPORT ON THE FEDERAL COMMUNICATIONS                                  Page 2
                       COMMISSION’S FY 2004 FINANCIAL STATEMENTS
         SECTION III

INDEPENDENT AUDITOR’S REPORT
    ON INTERNAL CONTROL
This page intentionally left blank
SECTION III                   INDEPENDENT AUDITOR’S REPORT
                              ON INTERNAL CONTROL




                      Independent Auditor’s Report on Internal Control

To the Inspector General of the
Federal Communications Commission


We have audited the financial statements of the Federal Communications Commission (FCC) as
of and for the year ended September 30, 2004, and have issued our report dated
November 1, 2004. In our report, we disclaimed on the Combined Statement of Budgetary
Resources and Consolidated Statement of Financing due to a scope limitation, and qualified on
the Consolidated Statement of Net Cost because we were not able to apply auditing procedures
to satisfy ourselves with the revenue allocations. Except as described above, we conducted our
audit in accordance with auditing standards generally accepted in the United States of America;
the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB)
Bulletin No. 01-02, Audit Requirements for Federal Financial Statements, as amended.

In planning and performing our audit, we considered FCC’s internal control over financial
reporting by obtaining an understanding of FCC’s internal control, determined whether internal
controls had been placed in operation, assessed control risk, and performed tests of controls in
order to determine our auditing procedures for the purpose of expressing our opinion on the
financial statements. We limited our internal control testing to those controls necessary to
achieve the objectives described in OMB Bulletin No. 01-02. We did not test all internal
controls relevant to operating objectives as broadly defined by the Federal Managers’ Financial
Integrity Act (FMFIA) (31 U.S.C. 3512), such as those controls relevant to ensuring efficient
operations. The objective of our audit was not to provide assurance on internal control.
Consequently, we do not provide an opinion on internal control.

Our consideration of the internal control over financial reporting would not necessarily disclose
all matters in the internal control over financial reporting that might be reportable conditions.
Under standards issued by the American Institute of Certified Public Accountants, reportable
conditions are matters coming to our attention relating to significant deficiencies in the design or
operation of the internal control that, in our judgment, could adversely affect the agency’s ability
to record, process, summarize, and report financial data consistent with the assertions by
management in the financial statements. Material weaknesses are reportable conditions in which
the design or operation of one or more of the internal control components does not reduce to a
relatively low level the risk that misstatements caused by error or fraud in amounts that would be
material in relation to the financial statements being audited may occur and not be detected
within a timely period by employees in the normal course of performing their assigned functions.


04-AUD-05-07           REPORT ON THE FEDERAL COMMUNICATIONS                                   Page 1
                       COMMISSION’S FY 2004 FINANCIAL STATEMENTS
SECTION III                   INDEPENDENT AUDITOR’S REPORT
                              ON INTERNAL CONTROL



Because of inherent limitations in internal controls, misstatements, losses, or noncompliance may
nevertheless occur and not be detected. However, we noted certain matters discussed in the
following paragraphs involving the internal control and its operation that we consider to be
reportable conditions and material weaknesses.

Finally, with respect to internal control related to performance measures reported in FCC’s
Performance and Accountability Report, we obtained an understanding of the design of
significant internal controls relating to the existence and completeness assertions, as required by
OMB Bulletin No. 01-02. Our procedures were not designed to provide assurance on internal
control over reported performance measures, and, accordingly, we do not provide an opinion on
such controls.

                             ********************************

MATERIAL WEAKNESSES

I.     Auction Transactions (Modified Repeat Condition)

       A. Auction Receivables

           Wireless Telecommunications Bureau (WTB) is the primary source of substantial
           activities on auctions and licensing that trigger accounting transactions to be acted
           upon by the Financial Operations Center (FOC). These activities include loan
           information, licensing decisions, assignments and assumptions, results of an auction,
           winning bid, bidding credits, upfront payments, first and second down payments,
           negotiations, waivers, penalties, auction rules and regulations, and many more. When
           auctions and licensing activities have a financial impact, the operating procedure is
           for WTB to notify and provide FOC with the necessary information and supporting
           documentation. This procedure, however, is not documented in the form of a FCC
           directive to ensure continuous, consistent, and proper implementation.

           In fiscal year 2003, our audit identified instances where FCC did not record auction
           receivables originating from auction activities in accordance with orders released by
           the WTB. In fiscal year 2004, FCC continues to identify unrecorded receivables and
           has not completed the task of identification and billing auction participants for
           withdrawal and default penalties. FCC has determined that the net realizable value of
           these receivables, if recorded, would be zero based on its policy to reserve
           100 percent for receivables more than one year old. In addition, FCC believes that
           the chance of collecting the receivable is diminished when a default occurs.
           Nevertheless, FCC has not completed the collection enforcement procedures for these
           outstanding auction receivables nor can it ensure gross receivables related to these
           events are recorded in the financial record of the agency.




04-AUD-05-07          REPORT ON THE FEDERAL COMMUNICATIONS                                   Page 2
                      COMMISSION’S FY 2004 FINANCIAL STATEMENTS
SECTION III                   INDEPENDENT AUDITOR’S REPORT
                              ON INTERNAL CONTROL



          Also, license information from the original auction to subsequent re-auction is not
          maintained in a database or system that could facilitate tracking the details of each
          license. Rather the information is maintained in multiple spreadsheets and other
          supporting documents from various sources. Because auctioning licenses is a
          significant FCC operation, it is essential that information about the current status of a
          license and its history be easily accessible, providing bureaus and offices with the
          ability to update and share both financial and non-financial information.

       Recommendations:

       1. Establish a directive or written policy and procedures to ensure that all auction and
          licensing activities with financial impact are timely recorded.

       2. Establish a database linked to or interfaced with the Revenue Accounting and
          Management Information System (RAMIS) to create an audit trail and record of
          delinquent winning bidders whose licenses were cancelled and then re-auctioned, and
          the amounts collected or receivable from the re-auction. Until this database becomes
          operational, FCC should create and maintain a comprehensive schedule that will
          provide this information. The resulting comprehensive schedule should be subjected
          to periodic quality control review and reconciliations should be performed on a
          routine basis.

       3. Establish and implement collection enforcement procedures for outstanding
          receivables.

       Management Comment:

       Management concurs. FCC is working to close-out unbilled withdrawal and default
       penalties which includes reviewing each auction to identify defaulted/withdrawn licenses.
       To date, all such licenses are identified, and as demand letters are prepared and reviewed,
       corresponding receivables are created. Related procedures have been drafted and are
       being reviewed and finalized.

       The majority of outstanding licenses await re-auction. Once re-auction occurs, penalties
       will be calculated and demand letters prepared, reviewed, and issued, as well as the
       corresponding receivable will be created, if applicable. It is expected all outstanding
       demand letters and resulting receivables will be processed no later than the first quarter of
       2005. However, there is still a need for better coordination between related offices and
       the financial group to ensure all transactions are accounted for in a timely manner. A
       working group will be established during fiscal year 2005 to address these issues and
       prepare formalized policies and procedures on the auction process.




04-AUD-05-07          REPORT ON THE FEDERAL COMMUNICATIONS                                    Page 3
                      COMMISSION’S FY 2004 FINANCIAL STATEMENTS
SECTION III                  INDEPENDENT AUDITOR’S REPORT
                             ON INTERNAL CONTROL



       B. Spreadsheet Subsidiary Ledger System (Repeat Condition)

          FCC has assessed the requirements to integrate auctions accounting and has begun
          programming in RAMIS. FCC management represents that the auction accounting
          module in RAMIS will perform daily interfaces with the general ledger system to
          record the auction accounting events that occur, such as license status changes.
          However, implementation of the auction accounting module in RAMIS is not
          expected until fiscal year 2005. As a result, licensing events, such as the issuance of
          a Prepared to Grant Public Notice, were not recorded in the general ledger when the
          accounting event occurs; instead, these accounting events were journalized at the end
          of every month.

          In the meantime, FCC continues to rely on various spreadsheets as the auction
          subsidiary ledger system. The data maintained on the spreadsheets include: gross
          winning bids, net winning bids, first down payment from upfront payment, additional
          first down payment paid, penalties, second down payment paid, outstanding balance,
          collections, deferred revenue, transferred to revenue, and revenue.          These
          spreadsheets support the flow of transactions throughout the year.

          The inherent risks and limitations associated with a spreadsheet-based application are
          as follows:

          •    Substantial manual intervention, thereby increasing the risks of human errors;
          •    Formulas can be changed easily, affecting the flow through the rest of the
               spreadsheets;
          •    Difficulty in tracking changes made to spreadsheets, including formula changes;
          •    Difficulty in verifying change controls and that error correction changes were
               made;
          •    Unique transactions are difficult to incorporate;
          •    Difficulty in performing automatic checks and balances on the transactions in the
               spreadsheets;
          •    Delay in recording transactions in the general ledger; and
          •    Increase in the use of journal vouchers as a means of posting transactions to the
               general ledger.

       Recommendations:

       4. Ensure that the spreadsheet-based applications are reviewed periodically for correct
          formulas, changes are reviewed and authorized, and formula cells are protected.

       5. Test the RAMIS auction accounting module prior to implementation to confirm the
          interface and data integrity and maintain documentation supporting these tests.



04-AUD-05-07          REPORT ON THE FEDERAL COMMUNICATIONS                                 Page 4
                      COMMISSION’S FY 2004 FINANCIAL STATEMENTS
SECTION III                  INDEPENDENT AUDITOR’S REPORT
                             ON INTERNAL CONTROL




       6. Implement and document transition and conversion controls from the current system
          to RAMIS in fiscal year 2005.

       Management Comment:

       Management concurs. The RAMIS Auctions module was tested and implemented in
       June 2004. Prior to it being accepted and implemented, several series of tests were
       performed to address the auction process from start to finish. A second phase which will
       incorporate receipt of files from the lockbox provider in the format necessary to liquidate
       the associated bills and provide for recordation to the general ledger is expected to be
       completed by March 2005. Until the module is fully operational, the current spreadsheet
       subsidiary ledger system will be maintained for no less than a minimum of six months
       beyond implementation to ensure postings occur properly. FCC has taken steps
       necessary to limit spreadsheet access to a select few people to avoid unauthorized access
       and limit the possibility of errors.

II.    Oversight of Reporting Components (Modified Repeat Finding)

       FCC has the ultimate oversight of the reporting components’ financial accounting
       activities. In many instances, the reporting components consult with FCC or obtain
       FCC’s written approval, concurrence, or direction before implementing critical
       accounting issues; wherein some of these issues may impact on program policies. During
       fiscal year 2004, resolution and analysis of critical accounting issues were not performed
       timely by FCC resulting in uncertainty as to the proper accounting of the reporting
       components’ outstanding accounting issues. Accordingly, the reporting components have
       not acted upon certain significant accounting transactions while awaiting FCC written
       direction.

       In addition, FCC did not apply or implement adequate review procedures to ensure that
       financial information provided for the Universal Service Fund (USF), a reporting
       component, are accurate, reasonable, and properly supported prior to inclusion in the
       consolidated financial statements. Moreover, financial information for the USF was
       provided and limitedly reviewed just prior to inclusion in the consolidated financial
       statements. Although FCC communicated with the component entities’ management
       regarding consolidation efforts, significant material errors and adjustments relating to the
       USF were identified only as a result of the audit process. These errors were not identified
       by FCC’s internal control.

       Additionally, it is apparent that FCC management, particularly those who make decisions
       impacting financial transactions, need to clearly define and establish key areas of
       authority and responsibility for FCC consolidated financial reporting and officially
       communicate those decisions to the USF administrator. During our testing of USF



04-AUD-05-07          REPORT ON THE FEDERAL COMMUNICATIONS                                   Page 5
                      COMMISSION’S FY 2004 FINANCIAL STATEMENTS
SECTION III                  INDEPENDENT AUDITOR’S REPORT
                             ON INTERNAL CONTROL



       activities, we observed many instances where FCC financial accountants were subjected
       to and quickly responded to, limited action or untimely financial actions by the USF to
       meet internal financial statement compilation time frames.

       Furthermore, the timing of key USF decisions and the communication of significant
       elements, as they relate to the consolidated financial reporting of the FCC, need to be
       improved. In late fiscal year 2004, FCC and the USF administrator made significant
       changes to the operating environment, which resulted in material effects to the
       consolidated financial statements. Additionally, it was communicated in September 2004
       by the USF administrator that an expected conversion to its new accounting system
       scheduled for July 2004 did not occur. This was unknown by FCC financial management
       since the last accounting data was reported for consolidating interim financial statements
       dated June 30, 2004.

       Three of the five standards for internal control as stated in the Government
       Accountability Office (GAO) Standards for Internal Control in the Federal Government
       are (a) control environment, (b) information and communications, and (c) control
       activities.

          (a) A good internal control environment requires that the agency’s organizational
              structure clearly define key areas of authority and responsibility and establish
              appropriate lines of reporting. The environment is also affected by the manner of
              which the agency delegates authority and responsibility throughout the
              organization. This delegation covers authority and responsibility for operating
              activities, reporting relationships, and authorization protocols.

          (b) Information should be recorded and communicated to management and others
              within the entity who need it and in a form and within a timeframe that enables
              them to carry out their internal control and other responsibilities.

          (c) Examples of control activities are: Reviews by management at the functional or
              activity level, proper execution of transactions and events, and accurate and
              timely recording of transactions and events.

       Recommendations:

       7. Formalize and document the financial working policy and processes, by clearly
          defining key areas of authority and responsibility for operating activities, reporting
          relationships and authorization protocols between FCC and its reporting components.

       8. Communicate information or decisions (by FCC or USF) within a timeframe that
          enables the reporting components to carry out their internal control and other
          responsibilities timely.



04-AUD-05-07         REPORT ON THE FEDERAL COMMUNICATIONS                                  Page 6
                     COMMISSION’S FY 2004 FINANCIAL STATEMENTS
SECTION III                  INDEPENDENT AUDITOR’S REPORT
                             ON INTERNAL CONTROL



       Management Comment:

       Management concurs. FCC will continue to communicate with the reporting components
       relative to their responsibilities. Although several steps were taken in fiscal year 2004
       towards strengthening the oversight of the reporting components, FCC anticipates taking
       additional policy and program management steps to strengthen control of the Universal
       Service Administrative Company (USAC) and USF during fiscal year 2005, to include
       reevaluating the FCC’s internal policies and procedures governing oversight. The
       internal policies and procedures governing the oversight of the other reporting
       components will be reviewed for possible improvements.

       9. Finalize and implement the FCC policies and procedures related to the reporting
          components’ financial reporting, compilation, and review process to include review
          procedures that will assess and assure data integrity, completeness, existence, quality
          and reliability of the financial data.

       Management Comment:

       Management concurs. It is critical that more formalized policies and procedures are
       completed and distributed to the reporting components to ensure compilation of the
       financial information is reliable and timely. FCC will complete its internal compilation
       procedures and work with the reporting components to ensure their revised procedures
       meet timelines FCC sets to meet its financial reporting requirements.

III.   USF Financial Accounting and Reporting Controls (Modified Repeat Condition)

       The USF is a special receipt fund and a special account expenditure fund administered by
       USAC. USAC is responsible for maintaining adequate internal control of the fund and
       provides FCC with specific financial information on a monthly basis for external
       reporting and quarterly financial statement consolidating purposes.

       The USF financial operations are maintained independently of FCC. FCC relies heavily
       on USAC’s financial reporting controls and processes for the USF. At various times
       during fiscal year 2004, USAC took over all accounting and reporting functions
       previously performed by various contractors. We identified significant errors in USAC’s
       interim financial statements that questioned USAC’s management controls, and
       ultimately FCC’s consolidating compilation controls, over financial accounting and
       reporting.

       The USF Schools and Libraries support mechanism is one of four programs administered
       by USAC. This program provides discounts to assist schools and libraries in obtaining
       affordable telecommunications and Internet access from service providers. We found
       instances where service providers received payments without additional verification after



04-AUD-05-07         REPORT ON THE FEDERAL COMMUNICATIONS                                  Page 7
                     COMMISSION’S FY 2004 FINANCIAL STATEMENTS
SECTION III                  INDEPENDENT AUDITOR’S REPORT
                             ON INTERNAL CONTROL



       USAC’s Schools and Libraries Division (SLD) placed them on the watch list. Omitting
       the additional verification of invoices from service providers on the watch list could
       result in improper payments to those service providers. This situation occurs when a
       service provider’s invoice is approved by SLD before the on-watch date; however,
       disbursements by USAC Finance occurred for providers after being placed on-watch
       status. There are no controls currently in place whereby USAC Finance can crosscheck
       authorized disbursements with the watch list prior to sending the payment files to the
       bank for processing.

       GAO Standards for Internal Control in the Federal Government state, “Internal control
       activities help ensure that management’s directives are carried out. The control activities
       should be effective and efficient in accomplishing the agency’s control objectives.”
       Examples of control activities include proper execution of transactions and events,
       accurate and timely recording of transactions and events, and appropriate documentation
       of transactions and internal control. In addition, “Internal controls should generally be
       designed to assure that ongoing monitoring occurs in the course of normal operations. It
       is performed continually and is ingrained in the agency’s operations. It includes regular
       management and supervisory activities, comparison, reconciliation, and other actions
       people take in performing their duties.”

       Recommendations:

       10. Perform effective quality control reviews of the financial statements prior to
           submission to FCC.

       Management Comment:

       Management concurs. With the strengthening of controls by FCC and the formalization
       of policies and procedures, it is expected financial statement submissions provided by the
       reporting components should improve. During fiscal year 2005, FCC will review
       reporting components’ policies and procedures to ensure effective controls are in place.

       11. Design and implement controls whereby USAC Finance can crosscheck authorized
           disbursements with the watch list prior to sending the payment files to the bank for
           processing.

       Management Comment:

       Management concurs. It is understandable the seriousness of this process and USAC feels
       current controls are adequate. FCC will work with USAC to ensure controls remain
       adequate.




04-AUD-05-07          REPORT ON THE FEDERAL COMMUNICATIONS                                  Page 8
                      COMMISSION’S FY 2004 FINANCIAL STATEMENTS
SECTION III                  INDEPENDENT AUDITOR’S REPORT
                             ON INTERNAL CONTROL



IV.    Reporting Components’ Budgetary Accounting

       FCC’s reporting components’ general ledger systems are not United States Standard
       General Ledger (USSGL) compliant. There were no budgetary entries in these general
       ledgers nor were transactions with budgetary impacts recorded at the transaction level.

       OMB Bulletin No. 01-09, Form and Content of Agency Financial Statements, states
       “When the reporting entities of which these components are a part, issue consolidated or
       consolidating statements that included such components, generally accepted accounting
       principles (GAAP) for Federal entities shall be applied to these components.”

       On October 3, 2003, FCC released Order 03-232, which requires the administrators of the
       reporting components [USF and Telecommunications Relay Services Fund (TRS)] to
       prepare financial statements for the funds consistent with GAAP for Federal entities and
       to keep the funds in accordance with USSGL. This order, however, will not take effect
       until fiscal year 2005.

       Recommendations:

       12. Ensure that the reporting components properly implement GAAP for Federal entities.

       13. Monitor and control any corrective action plans if the reporting components cannot or
           do not meet the effective date required by FCC Order 03-232.

       Management Comment:

       Management concurs. FCC required all of its outside entities, either through
       Commission order or through incorporation into a contract, to adhere to federal
       accounting requirements beginning in fiscal year 2005. All entities have established
       transition plans and are working towards full USSGL compliance in fiscal year 2005.
       During fiscal year 2004, monthly working sessions were held with the reporting
       components to discuss open issues relative to implementation. Sessions will continue
       through fiscal year 2005 to ensure implementation.

V.     Information Technology (IT) (Modified Repeat Condition)

       The reportable conditions below, when evaluated together, make information technology
       a material weakness.




04-AUD-05-07         REPORT ON THE FEDERAL COMMUNICATIONS                                 Page 9
                     COMMISSION’S FY 2004 FINANCIAL STATEMENTS
SECTION III                   INDEPENDENT AUDITOR’S REPORT
                              ON INTERNAL CONTROL



       A. OMB Circular No. A-130 Requirement for a Comprehensive Security Plan
          (Modified Repeat Condition)

          Some of the key components of an entity-wide security program are the performance
          of risk assessments and the development of a comprehensive security plan. Every
          organization needs a set of management procedures for identifying and assessing
          risks, and deciding what policies and controls are needed to achieve effective security
          controls.

          OMB Circular No. A-130, Management of Federal Information Resources, Appendix
          III, Security of Federal Automated Information Resources, as revised in November
          2000, established a minimum set of controls for federal agencies, including risk
          assessments, assigning responsibility for security, security planning, periodic review
          of security controls, and management authorization of systems to process
          information.

          Deficiencies in security controls that significantly impact FCC’s ability to protect its
          sensitive or critical resources include:

          •    The FCC Directive 1131.1, Information Security Manual, has expired. FCC has
               not issued a new directive to replace the expired information security directive.
               FCC’s IT environment has existed for an extended period of time without such a
               directive.
          •    FCC has not completed the implementation of its entity-wide security program
               plan. Also, FCC has not certified and accredited its entity-wide security program
               plan.

          •    FCC did not complete risk assessments for two of its 19 major applications
               (Internal Bureau Filling System, and Universal License System) and for one of its
               critical general support systems until the last week of September 2004.

          •    FCC does not have adequate audit trails facility utilization and review. The
               Computer Security Officer has not developed and distributed a Commission-wide
               policy to make mandatory the use of audit trails utilization and review.

          •    FCC has not conducted security awareness training for its loan servicing
               contractor employees who are part of the loan processing system.
          •    FCC has not determined whether the contractor loan servicing database is a major
               application. Given FCC identified RAMIS and the loan servicing spreadsheets as
               major applications, it can be reasonably assumed that the contractor loan servicing
               database which replaced the other processes should similarly be considered as a
               major application now that it has become the loan servicing system of record.



04-AUD-05-07          REPORT ON THE FEDERAL COMMUNICATIONS                                 Page 10
                      COMMISSION’S FY 2004 FINANCIAL STATEMENTS
SECTION III                  INDEPENDENT AUDITOR’S REPORT
                             ON INTERNAL CONTROL



       Recommendations:

       14. Issue a new directive to replace the expired Directive 1131.1, Information Security
           Manual.

       Management Comment:

       Management concurs. FCC drafted a replacement to Directive 1131.1. Upon completion
       of review, the directive will be available for dissemination. Distribution is expected in
       early fiscal year 2005.

       15. Complete the implementation, certification and accreditation of an FCC-wide security
           plan as prescribed by OMB Circular No. A-130.

       Management Comment:

       Management concurs. Activities are ongoing to complete the entity-wide security plan.
       Completion of the entity-wide plan is planned for December 2004.

       16. Implement and develop a Commission-wide policy to make mandatory the use of
           audit trails utilization and review.

       Management Comment:

       Management concurs. Activities are ongoing to complete the central audit management
       system. Completion of the entity-wide plan is scheduled for December 2004.

       17. Conduct security awareness training for the contractor loan servicing employees who
           are part of the loan processing system.

       Management Comment:

       Management concurs. Though the FCC has no management control of the loan service
       provider staff, FCC agrees that security awareness training should be provided to its staff.
       The Computer Security Officer will provide FCC training guides to loan servicer
       management for implementing training standards similar to or above the standards set
       forth in FCC Instruction 1479.2, and request evidence indicating that training has been
       developed and provided. The Computer Security Officer will ensure FCC users of the
       loan processing system receive required security awareness training as required by FCC
       Instruction 1479.2.




04-AUD-05-07          REPORT ON THE FEDERAL COMMUNICATIONS                                  Page 11
                      COMMISSION’S FY 2004 FINANCIAL STATEMENTS
SECTION III                  INDEPENDENT AUDITOR’S REPORT
                             ON INTERNAL CONTROL



       18. Make a determination on whether the contractor loan servicing application should be
           a major application. Once that determination is made, develop security plans for this
           system and certify and accredit the application.

       Management Comment:

       Management concurs. The Computer Security Officer assists FCC system owners and
       management in classifying major applications based on OMB policy and other standards.
       The loan servicing system became a system of record in fiscal year 2004 and is scheduled
       for review of its OMB Circular No. A-130 status during fiscal year 2005.

       B. FCC’s Contingency Plans (Modified Repeat Condition)

          FCC developed significant elements of a full continuity of operations plan (COOP);
          however, there are still some issues to be resolved such as contingency plans for
          bureaus or offices major applications and contingency plans for field offices and
          reporting components. Also, FCC has not completed the integration of the individual
          plans of its data centers, networks, and telecommunications facilities as part the
          COOP.

          Losing the capability to process and protect information maintained on FCC’s
          computer systems can significantly impact FCC’s ability to accomplish its mission.
          The purpose of service continuity controls is to ensure, when unexpected events
          occur, critical operations continue without interruption or are promptly resumed.

          The Chief Information Officer (CIO) and staff are in the process of developing a
          COOP to support the recovery of IT systems if an incident disrupts services. In April
          2003, FCC developed its business impact analysis and alternate processing options
          analysis as part of its COOP. FCC developed its disaster recovery plan (DRP) as part
          of the COOP. Although the DRP was successfully activated during Forward
          Challenge in 2004, the DRP only establishes procedures to recover the FCC
          headquarters IT infrastructure and automated services functionality following a
          disruption. It does not include field offices and reporting components.

       Recommendations:

       19. Complete the development and implementation of a comprehensive contingency plan
           that integrates the individual plans of FCC’s data centers, networks, and
           telecommunications facilities.

       20. Ensure that the COOP also includes the recovery of FCC’s major applications in
           accordance with recovery times deemed critical to mission and operations of the
           bureaus and offices and reporting components.



04-AUD-05-07         REPORT ON THE FEDERAL COMMUNICATIONS                                Page 12
                     COMMISSION’S FY 2004 FINANCIAL STATEMENTS
SECTION III                  INDEPENDENT AUDITOR’S REPORT
                             ON INTERNAL CONTROL



       Management Comment:

       Management concurs. The FCC COOP and DRP have been completed and were
       successfully tested in the May 2004 Forward Challenge Exercise. FCC has completed its
       Business Impact Analysis and the Alternate Processing Options Analysis, which were
       used as a basis for the development of the DRP. As part of FCC’s effort to enhance the
       DRP capabilities and to reduce the recovery time of FCC systems, FCC has implemented
       a phased approach in the development and incorporation of FCC’s applications inclusion
       into the IT DRP and Bureau/Office specific Business Continuity Plans. FCC has
       increased its efforts to enhance the FCC’s DRP capabilities in order to prepare for the
       fiscal year 2005 interagency COOP exercise. In fiscal year 2004, FCC successfully
       participated in the COOP tests for FFS and PPS with its business partners. In addition,
       the Information Technology Center (ITC) will work to ensure that FOC service providers
       create independent COOPs and that those plans are integrated into the FCC’s DRP and
       COOP processes, and are tested as part of the FCC yearly testing.

       C. Disaster Recovery Plan for USF (Modified Repeat Condition)

          As the administrator of the USF, USAC is responsible for ensuring the security of the
          data used to maintain the USF. USAC currently does not have a DRP for USF.
          Accordingly, no disaster recovery tests have been performed. FCC Order 03-232
          mandated USAC to have a DRP and to complete testing of the DRP by October 2004.
          USAC is scheduled to complete the DRP by October 2004.

          OMB No. A-130, Appendix III, and Federal Information Processing Standards
          Publication (FIPS PUB) 87, Guidelines for ADP Contingency Planning, require
          federal agencies to develop and periodically test disaster recovery plans. These
          standards also require continuous updates to the disaster recovery plan and tests in
          case of a disaster or business interruption.

       Recommendation:

       21. Develop and test a disaster recovery plan for the USF in coordination with or with the
           oversight of the FCC Computer Security Officer (CSO) to ensure compliance with
           FCC Order 03-232, OMB Circular No. A-130 and FIPS PUB 87.

       Management Comment:

       Management concurs. The USAC disaster recovery plan for four of the programs of the
       USF will be completed by October 2004. An annual test will be completed prior to the
       end of the first quarter 2005 and documentation noting that on the project plan was
       provided. In addition, the FCC Computer Security Officer will review all disaster
       recovery plans of the USF, TRS and North American Numbering Plan (NANP).



04-AUD-05-07         REPORT ON THE FEDERAL COMMUNICATIONS                                 Page 13
                     COMMISSION’S FY 2004 FINANCIAL STATEMENTS
SECTION III                  INDEPENDENT AUDITOR’S REPORT
                             ON INTERNAL CONTROL



       D. Security Policies and Procedures for USF

          USAC has not developed security policies and procedures in compliance with OMB
          Circular A-130, Appendix III. This policy should detail the actions that employees
          must take in order to ensure sensitive data is protected within USAC systems.

       Recommendations:

       22. Develop and implement security policies and procedures that details controls to
           protect data on the USAC network. These policies and procedures should be
           coordinated with the FCC’s CSO to insure that they meet FCC standards.

       23. Make USAC computer security policy available to all employees and update the
           policy regularly to reflect new environmental factors that can potentially affect USF
           data.

       Management Comment:

       Management concurs. USAC has performed risk assessments on and developed security
       plans for each USF major application. Additionally, USAC developed a general support
       system security plan. USAC is implementing changes to these applications and systems
       based upon the security plans. Certification and accreditation are performed to ensure
       compliance with the plans. In addition, USAC developed internal controls to protect
       entity sensitive data within the general security plan and the security plans for each major
       application.

VI.    Cost Allocation Logic

       FCC implemented the Budget Execution and Management System (BEAMS) in fiscal
       year 2004 to allocate cost and revenue to the respective goals reported on the
       Consolidated Statement of Net Cost (SNC). We identified during our audit that the new
       cost system’s allocation logic for costs recorded in USSGL 6330 and USSGL 6730
       amounting to $343 million and $3 million respectively were incorrect. The amounts in
       USSGL 6330 should be a direct cost and in USSGL 6730 should be unassigned cost
       instead of being allocated to various goals. As a result, because BEAMS was
       programmed to allocate revenue on the basis of each goal’s final cost, which included the
       incorrect allocated cost, the allocated revenue reported on the SNC was incorrect. The
       total revenue incorrectly allocated was $395 million. Although the allocated costs were
       subsequently corrected, the reallocation of revenue occurred after the last day of our
       fieldwork and we were not able to apply auditing procedures to satisfy ourselves with the
       revenue allocations.




04-AUD-05-07          REPORT ON THE FEDERAL COMMUNICATIONS                                  Page 14
                      COMMISSION’S FY 2004 FINANCIAL STATEMENTS
SECTION III                  INDEPENDENT AUDITOR’S REPORT
                             ON INTERNAL CONTROL



       GAO Standards for Internal Control in the Federal Government states that as it relates to
       application controls, systems should be designed to help ensure completeness, accuracy,
       and the validity of all transactions during the application processing. Control should be
       installed at application’s interfaces with other systems to ensure that all inputs are
       received and are valid and outputs are correct and properly distributed. Also, Joint
       Financial Management Improvement Program (JFMIP) functional requirements require
       that cost assignment rules maintenance process support the costing methodologies, cost
       objectives, and resources chosen by the agency for its use.

       Recommendation:

       24. Review, test and correct existing BEAMS allocation logic.

       Management Comment:

       Management concurs. Management concurs the original allocation methodology was not
       accurate for the interim and yearend SNC. During the year, transactions to these
       accounts were immaterial and did not present an unusual allocation. However, in the
       month of September 2004, large transactions for both accounts 6330 and 6730 were
       booked. In analyzing the yearend reports, the allocations were highlighted and identified
       as entries which should be allocated differently than programmed. An adjustment to
       properly allocate the costs in the SNC as on-top adjustments prior to submitting the draft
       yearend statements for audit was presented. No adjustments were made to the revenue
       allocations to account for the cost adjustments in the yearend statements. In the
       meantime, the BEAMS allocation process was modified to allocate both accounts
       correctly. Due to the length of time to regenerate the cost module, management
       determined it would be beneficial to only rerun the module once to include the revised
       allocation process and include any audit adjustments provided by the auditors. When the
       auditors demanded that FCC rerun the program in order to view a corrected SNC rather
       than wait for the audit adjustments, the FCC ran the cost module. The revised yearend
       SNC reports were rerun reflecting the revised allocation process and submitted to the
       auditors within the agreed upon date which was after the end of fieldwork. The fiscal
       year 2004 SNC presented to the auditors and included in the PAR reflects the modified
       allocation methodology.

REPORTABLE CONDITIONS

VII.   Financial Reporting (Modified Repeat Condition)

       FCC’s financial reporting process continues to improve when compared with prior years.
       The most significant changes that occurred during fiscal year 2004 were the
       implementation of two new systems, (1) the contractor loan servicing system, which now
       serves as the subsidiary system for loans, and (2) the BEAMS. On a daily basis, both



04-AUD-05-07         REPORT ON THE FEDERAL COMMUNICATIONS                                 Page 15
                     COMMISSION’S FY 2004 FINANCIAL STATEMENTS
SECTION III                  INDEPENDENT AUDITOR’S REPORT
                             ON INTERNAL CONTROL



       systems interface with the FCC’s general ledger, the Federal Financial System (FFS).
       However, some conditions continue to exist, which are reported below.

       A. Integrated Financial Management Systems (Repeat Condition)

          OMB Circular No. A-127, Financial Management Systems, requires that each agency
          establish and maintain a single integrated financial management system. Without a
          single integrated financial management system to ensure timely and accurate financial
          data, poor policy decisions may occur due to inaccurate or untimely information.
          Managers are less likely to be able to report accurately to the President, Congress, and
          the public on Government operations in a timely manner. In addition, scarce
          resources are more likely to be directed toward the collection of information rather
          than to delivery of the intended programs.

          •    FCC’s Core Financial System
               FCC utilizes FFS as its general ledger and core financial management system.
               Software applications such as property management system, license databases,
               and various spreadsheets [for International Telecommunication Services (ITS)
               transactions and auction transactions] were independent systems, not integrated
               with the FFS.

               In addition, FCC consolidated financial statements were compiled and prepared
               from four separate core financial systems administered by four separate reporting
               components. At financial statement preparation time, FCC goes through the
               exercise of compiling financial data in separate spreadsheets in a complex and
               time-consuming process. The financial data included in the spreadsheets is
               consolidated for financial statement preparation.

          •    Contractor Loan Servicing Database
               The design of FCC’s contractor loan servicing database did not include certain
               functional requirements for direct loan systems as required by the JFMIP.
               Therefore, the loan-servicing database is not fully JFMIP compliant.

          •    USF Standard General Ledger (Modified Repeat Condition)
               USAC runs an old general ledger (GL) system parallel to its replacement GL
               system. The old GL system was not compliant with the Federal Financial
               Management Improvement Act (FFMIA) standards. It did not interface with the
               accounts receivable sub-ledger, accounts payable sub-ledger, or cash journal. All
               disbursement and collection transactions were provided via excel spreadsheets for
               data entry into the USF GL.




04-AUD-05-07          REPORT ON THE FEDERAL COMMUNICATIONS                                 Page 16
                      COMMISSION’S FY 2004 FINANCIAL STATEMENTS
SECTION III                 INDEPENDENT AUDITOR’S REPORT
                            ON INTERNAL CONTROL



               The old GL application was scheduled for replacement as of July 1, 2004.
               However, USAC encountered problems with the processing time for loading files
               to new GL. As a result, USAC has rescheduled the implementation date for the
               new system. USAC anticipates implementation of the new system by the close of
               September 2004.

       Recommendations:

       25. Assess the degree and adequacy of the planned or actual integration for the overall
           financial management systems. These integrations should include all receivable
           transactions to be recorded in RAMIS, the fee billing system, the auction subsidiary
           systems, and various stand-alone systems such as the property management system,
           databases, spreadsheets and reporting components’ financial reporting.

       Management Comment:

       Management concurs. Continuing to work towards a fully integrated financial
       management system, FCC substantially integrated most of the financial sub-systems as of
       fiscal year end 2004. During fiscal year 2004, there were two modules planned for
       implementation in RAMIS. The Auctions module was implemented and placed into
       production and the International Telecommunications Settlement module was
       implemented during third and fourth quarter fiscal year 2004, respectively.
       Enhancements to both modules are scheduled during fiscal year 2005. Additionally, FCC
       is performing requirements analysis for implementing a new financial accounting system
       with plans to integrate all financial systems for all components relative to the FCC.

       26. Review the JFMIP requirements for direct loan systems and ensure that contractor
           loan-servicing database is in compliance with those requirements.

       Management Comment:

       Management concurs. The system utilized to maintain and report on the loan program of
       the FCC is fully operational with the requirements requested in the selection of the
       provider. Although the system is capable of some specific database requirements of
       JMFIP, the FCC has maintained authority for certain processes and has not authorized the
       loan service provider to implement those requirements, and those will continue to remain
       at the FCC. FCC will review the system to see what processes can be fully utilized to
       ensure compliance with JFMIP.

       27. Ensure USF general ledger system compliance with FFMIA and USSGL.




04-AUD-05-07         REPORT ON THE FEDERAL COMMUNICATIONS                               Page 17
                     COMMISSION’S FY 2004 FINANCIAL STATEMENTS
SECTION III                 INDEPENDENT AUDITOR’S REPORT
                            ON INTERNAL CONTROL



       Management Comment:

       Management concurs. FCC required all of its outside entities, either through
       Commission order or through incorporation into a contract, to adhere to Federal
       accounting requirements beginning in fiscal year 2005. FCC worked throughout fiscal
       year 2004 with its reporting components providing guidance and reviewing transition
       plans surrounding the conversion to full Federal accounting effective fiscal year 2005.
       FCC will continue to work with the reporting components to ensure compliance with
       GAAP for Federal entities.

       B. Federal Financial System Setup and Posting Model Definitions (Repeat
          Condition)

          In fiscal year 2004, FCC continued to use FFS system setup and posting model
          definitions that were not completely updated. While the incorrect posting models
          were now limited to auction and ITS transactions, the outdated definitions continued
          to require corrections to the transaction postings through monthly journal vouchers.
          The incorrect posting model definitions resulted in non-compliance with the
          transaction posting models consistent with USSGL guidance and policies when
          recording and classifying some transactions. This system deficiency may continue to
          impair the quality and reliability of the auction financial management information.

       Recommendation:

       28. Perform a periodic or quarterly update of FFS system setup and posting model
           definitions to ensure timely correction of outdated models and compliance with the
           latest transaction posting models consistent with USSGL guidance and policies for
           recording and classifying transactions.

       Management Comment:

       Management concurs. FCC will continue to review its existing posting models for
       improvements and efficiency.

       C. Financial Statement and Federal Agencies’ Centralized Trial-Balance System II
          (FACTS II) Differences

          The FACTS II is a computer program for agencies to submit mostly budgetary
          information required for the Report on Budget Execution and Budgetary Resources,
          the Year-end Closing Statement, and much of the data that will appear in the prior
          year column of the Program and Financing Schedule of the President’s budget.




04-AUD-05-07         REPORT ON THE FEDERAL COMMUNICATIONS                              Page 18
                     COMMISSION’S FY 2004 FINANCIAL STATEMENTS
 SECTION III                 INDEPENDENT AUDITOR’S REPORT
                             ON INTERNAL CONTROL



           Our audit identified significant differences between third quarter FACTS II account
           balances and the balances reported on the FCC’s third quarter financial statements.

           GAO’s Standards for Internal Control in the Federal Government states that,
           “Internal control should provide reasonable assurance that the objectives of the
           agency are being achieved in the reliability of financial reporting, including reports
           on budget execution, financial statements and other reports for internal or external
           use.”

        Recommendation:

        29. Ensure timely communications and reconciliations between all groups with financial
            reporting responsibilities.

        Management Comment:

        Management concurs. FCC will continue to maintain coordination and communication
        between all the groups responsible for financial reporting.

VIII.   Cost Accounting (Modified Repeat Condition)

        A. Minimum Level of Cost Accounting (Modified Repeat Condition)

            Statement of Federal Financial Accounting Standards (SFFAS) No. 4, Managerial
            Cost Accounting Concepts and Standards for the Federal Government, requires
            reporting components to perform a minimum level of cost accounting and provide
            basic information necessary to accomplish the many objectives associated with
            planning, decision-making, and reporting. This minimum level includes, among
            others, measuring full cost of outputs, providing information for performance
            measurement, and providing useful information, and accommodating any or
            management’s special cost information needs that may arise due to unusual or
            special situations or circumstances. BEAMS, as presently implemented, does not
            provide the minimum level identified above.

        Recommendation:

        30. Ensure that the minimum level required in a cost accounting system by SFFAS No. 4
            is incorporated in BEAMS.

        Management Comment:

        Management concurs. FCC has defined its responsibility segments for financial reporting
        purposes and accumulates costs by responsibility segment. In addition the FCC defined



 04-AUD-05-07         REPORT ON THE FEDERAL COMMUNICATIONS                                Page 19
                      COMMISSION’S FY 2004 FINANCIAL STATEMENTS
SECTION III                   INDEPENDENT AUDITOR’S REPORT
                              ON INTERNAL CONTROL



       and accumulates outputs, assign costs to outputs (both directly and indirectly) based on
       its definition of an output, and calculates the cost per unit of each type of output as part of
       its cost allocation methodology. Finally, the performance measures information is
       directly associated with program cost of each responsibility segment. Management
       continues to refine both the process and the agency’s definition of an output.

       B. Matching Revenue to Cost (Repeat Condition)

           FCC continued to allocate earned revenues in the same proportion as allocated costs
           instead of matching related revenues to costs. Initially, BEAMS was configured to
           allocate revenue based on cost by goals. However, implementation of BEAMS
           allocation on the interim statement of net cost was later found to be unreasonable.
           Accordingly, the use of BEAMS configuration was abandoned this year. SFFAS
           No.7, Accounting for Revenue and Other Financing Sources and Concepts for
           Reconciling Budgetary and Financial Accounting, states, “Related revenue should be
           matched with the cost.”

       Recommendation:

       31. Review the propriety of the costing methodology and the matching of earned revenue
           against costs. Include a review of different program activities that generate revenue
           and apply the revenue to the activities that produce the earned revenue.

       Management Comment:

       Management concurs. FCC is aware of the requirement to assign revenues to related
       costs and will address this issue as a possible enhancement to the new cost accounting
       system.

IX.    Payroll Activities (Modified Repeat Condition)

       Weaknesses identified in the past audits on payroll activities have not been corrected.

       •   Leave error reports received from the National Finance Center (NFC), showing
           differences between NFC’s leave record for each employee and FCC’s leave records
           were not reconciled. Our audit disclosed significant differences for all categories of
           leave balance such as annual leave, sick leave, compensatory time, and credit hour
           categories.

       •   Other deficiencies noted included improperly completed timesheets and
           reconciliations not being performed on corrected data sent from FFS to the FCC’s
           desktop payroll reconciliation system.




04-AUD-05-07          REPORT ON THE FEDERAL COMMUNICATIONS                                    Page 20
                      COMMISSION’S FY 2004 FINANCIAL STATEMENTS
SECTION III                  INDEPENDENT AUDITOR’S REPORT
                             ON INTERNAL CONTROL



       Recommendations:

       32. Perform a periodic reconciliation of all the leave categories from the two systems,
           NFC and FCC records.

       Management Comment:

       Management concurs. FCC is aware of the variations between the leave balances on the
       Statement of Earnings and Leave and timecards. Periodic reconciliations are being
       performed between the systems. In fact, audits have been conducted on over 1200
       employees to ensure that the leave balances on the system matches the timecards.
       Reports are run bi-weekly and are reviewed for variances. FCC payroll staff works with
       timekeepers, employees, and supervisors to immediately correct any errors that occur
       after the audits have been completed.

       33. Ensure that timekeepers reconcile time and attendance report errors generated from
           the FCC’s desktop payroll reconciliation system.

       Management Comment:

       Management concurs. Reconciliation is performed on any errors generated and it is
       provided for correction. The timekeeper processes a corrected timesheet and the error is
       corrected through the appropriate system. FCC will review its existing procedures to
       ensure a follow-up process is included to ensure corrections are made timely.

X.     Debt Collection Improvement Act (Modified Repeat Condition)

       The Debt Collection Improvement Act of 1996 (DCIA) requires agencies to: (1) notify
       the Department of Treasury of all debt delinquent by more than 180 days for offset, and
       (2) refer to the Department of the Treasury, with some exclusions, all debts delinquent
       more than 180 days for cross-servicing debt collection.

       Our review of the Treasury Report on Receivables as of June 30, 2004, disclosed that no
       amounts of administrative receivables had been referred to Treasury for offset, and only
       $1.7 million of eligible administrative receivables out of a total of $51.5 million had been
       referred for cross-servicing. FCC’s condition of limited referrals for cross servicing has
       been noted in prior year audit reports and continues to exist.

       Our audit also noted several instances where debts that were delinquent were not assessed
       interest, penalties, or administrative fees as allowed by the DCIA and FCC’s rules, 47
       CFR Part 1.1940 Interest, Penalties, Administrative Costs and Other Sanctions
       Assessment.




04-AUD-05-07          REPORT ON THE FEDERAL COMMUNICATIONS                                  Page 21
                      COMMISSION’S FY 2004 FINANCIAL STATEMENTS
SECTION III                  INDEPENDENT AUDITOR’S REPORT
                             ON INTERNAL CONTROL



       Recommendations:

       34. Refer all eligible delinquent debt, more than 180 days old, to the Department of the
           Treasury for offset or timely cross servicing.

       Management Comment:

       Management concurs. FCC instituted procedures that require more consistent reviews of
       documents in order to determine which debts are eligible for referral when they reach
       more than 180 days. Additionally, FCC performs an audit of each delinquent folder to
       determine if all supporting documents are included and interest and administrative fees
       are in compliance with the Department of the Treasury requirements prior to referral. In
       conjunction with the Department of Treasury, FCC is working to establish a system that
       will enable it to electronically refer delinquent debts. An expectation is that this system
       will accelerate the process significantly.

       35. Perform a review of the delinquency debt letter procedures to ensure that all
           delinquent debtors receive dunning letters and interest, penalties, and administrative
           fees are assessed in conjunction with the submission of the letters to the debtors.

       Management Comment:

       Management concurs. Automation of this process is currently an open item for
       implementation. The FCC revenue and accounting system does have the functionality in
       the software to automatically assess interest, penalties, and administrative fees; however,
       during the initial development, this business requirement was not implemented. The plan
       is to implement this requirement in the first quarter of fiscal year 2005.

XI.    Electronic Data Processing (EDP) Controls (Modified Repeat Condition)

       A. Review of the RAMIS Application Controls.

          FCC Office of Inspector General (OIG) engaged a firm to review the RAMIS
          application controls in fiscal year 2003. The report resulting from the RAMIS review
          identified several weaknesses in internal EDP controls that collectively are considered
          a reportable condition. The weaknesses are explained in more detail in a separate
          report dated November 24, 2003, and titled, Report on Audit of the Revenue
          Accounting and Management Information System (RAMIS) released by the FCC OIG.
          During fiscal year 2004, FCC closed 9 out of 22 the weaknesses identified in the
          report.




04-AUD-05-07          REPORT ON THE FEDERAL COMMUNICATIONS                                 Page 22
                      COMMISSION’S FY 2004 FINANCIAL STATEMENTS
SECTION III                  INDEPENDENT AUDITOR’S REPORT
                             ON INTERNAL CONTROL



       Recommendation:

       36. Complete the implementation of recommendations made in the OIG report on
           RAMIS.

       Management Comment:

       Management concurs. FCC Finance Office and ITC initiated efforts to resolve the issues.
       Efforts are ongoing to complete a majority of the issues with anticipated completion in
       fiscal year 2005. Of the items identified, areas requiring network infrastructure
       enhancements or additional resources such as the inclusion of an intrusion detection
       system, implementation of data encryption, development of the RAMIS business
       continuity plan, and inclusion of audit trail utilization and reviews will be completed once
       resources and funding become available.

       B. Transmission of Sensitive Data

          FCC’s loan-servicer security policy requires that information classified as sensitive to
          be evaluated by its customer (i.e. FCC) to determine whether encryption and digital
          signature or message are required during transmission and storage. Although data is
          considered sensitive, FCC has not made the determination whether to encrypt the
          transmission and storage of loan-servicing information. Consequently, loan-servicing
          information is transmitted in plain text, unencrypted. Without encryption, the
          transmission of sensitive information can be disclosed, manipulated or repudiated.

       Recommendation:

       37. Require all of FCC contractors encrypt transmission of sensitive financial and
           financial related information both to and from FCC.

       Management Comment:

       Management concurs. FCC determined the information is sensitive and it is developing
       an encryption process for all loan data and information to be implemented in fiscal year
       2005.

       C. IT Security Training and Education (Modified Repeat Condition)

          For our fiscal year 2003 audit of FCC, we were provided with the Rules of Behavior
          Tracking Sheet. This sheet provides the names of FCC employees (during a given
          time frame) and whether the employee has signed the A-201, Rules of Behavior
          Form, which is required prior to allowing new IT user access rights and before




04-AUD-05-07          REPORT ON THE FEDERAL COMMUNICATIONS                                  Page 23
                      COMMISSION’S FY 2004 FINANCIAL STATEMENTS
SECTION III                  INDEPENDENT AUDITOR’S REPORT
                             ON INTERNAL CONTROL



          employees are given security training. Our review of this document in fiscal year
          2004 disclosed that 44% or more of the individuals had not signed the form.

          Also, we obtained a tracking sheet for all key IT staff that documented the type and
          date of training received. This sheet shows that many of the staff received specialized
          training to assist them in their job task. However, there are still many employees who
          have not received any training to support their job’s roles and responsibilities.

       Recommendations:

       38. Require that upon an employee’s acceptance of an FCC position, he or she should
           receive a packet with training courses and dates, and the FCC’s Rules of Behavior for
           his or her review.

       39. Ensure and require that on the first day of work, each employee should have to turn in
           the Rules of Behavior form to his/her supervisor as a term of employment.

       40. Require each employee to accomplish a certain amount of training per year to
           continue in his or her job role.

       Management Comment:

       Management concurs. The FCC Computer Security Officer currently provides the FCC
       Rules of Behavior during new employee computer security orientation briefings. The
       Computer Security Officer initiated efforts to enhance the computer security training
       program by purchasing and implementing computer based training modules for FCC
       users and key staff that will be available in the first quarter of fiscal year 2005.

       D. Employee Duties and Position Risk Designation (Modified Repeat Condition)

          As in fiscal year 2003, FCC did not provide the Personnel and Security Suitability
          Manual for our verification of the alignment of employees’ duties and position risk
          designation. We were informed that the manual has not been approved, therefore,
          could not be provided to us for our review. Also, FCC has not prioritized individual
          position reviews and has not made the necessary funds available to perform the task.

       Recommendations:

       41. Review and approve the Personnel and Security Suitability Manual.

       42. Prioritize individual position reviews and make the necessary funds available to
           perform the task.




04-AUD-05-07         REPORT ON THE FEDERAL COMMUNICATIONS                                 Page 24
                     COMMISSION’S FY 2004 FINANCIAL STATEMENTS
SECTION III                  INDEPENDENT AUDITOR’S REPORT
                             ON INTERNAL CONTROL



       Management Comment:

       Management concurs. FCC drafted a Personnel Security/Suitability Manual. Upon
       completion of its review, the manual will be available for dissemination. Expected
       distribution is early in fiscal year 2005.

       E. Access to Equipment Authorization System and Experimental Licensing System

          The Office of Engineering and Technology (OET) does not follow a formal request
          process for granting access to internal users of the Equipment Authorization system
          (EAS) and/or Experimental Licensing System (ELS). FCC's Computer Security
          Program Directive 1479.2 states that the computer resource center staff and the CSO
          establish procedures, which in conjunction with appropriate request forms (such as
          form A-202) that will allow personnel to access FCC computer system resources.

          OET has not implemented a formal process to ensure compliance with existing FCC
          procedures and requirements on the use of forms for requesting a user's system access
          for the relatively small community of internal EAS and ELS users. Not having a
          formal request process in place to request, approve, and grant access to a system
          creates the risk that a user could be granted a level of access that is too high for their
          assigned job responsibilities. Within the context of EAS and/or ELS, this could lead
          to improperly granting equipment authorization or experimental licenses,
          respectively, as well as the ability to alter data on vendors and applicants.

       Recommendation:

       43. FCC should develop and implement a formal request process for granting access to
           EAS and ELS. This process should be similar to the form A-202 process used by
           other system owners to grant access. The form should include the specific areas of
           the system that a new user of EAS and/or ELS would require access.

       Management Comment:

       Management concurs. Formal procedures for ensuring appropriate approval and tracking
       of logins into the systems are in the process of being developed. The procedure will be
       implemented upon approval by the Computer Security Officer. It is anticipated that this
       will be completed in fiscal year 2005.

       F. USF Password Controls (Modified Repeat Condition)

          USAC’s service provider contracts its data entry services to an outside company
          (contractor). The contractor users are granted access to the service provider’s internal
          website. The service provider’s security administrator sets up the contractor



04-AUD-05-07         REPORT ON THE FEDERAL COMMUNICATIONS                                    Page 25
                     COMMISSION’S FY 2004 FINANCIAL STATEMENTS
SECTION III                 INDEPENDENT AUDITOR’S REPORT
                            ON INTERNAL CONTROL



          employee’s user ID and password. The passwords for the contractor users are defined
          by the service provider and do not have expiration date.

          The security provided by a password depends on its composition, its length, and its
          protection from disclosure and substitution. The risk associated with an undetected
          compromise of a password can be minimized by frequent change. If a password has
          been compromised and if a new password is created that is totally independent of the
          old password, then the continued risk associated with the old password is reduced to
          zero. Thus, passwords should be changed on a periodic basis and must be changed
          whenever a compromise is suspected or confirmed.

          FIPS PUBS 112, Password Usage, identifies fundamental EDP management
          functions pertaining to passwords and specifies some user actions required to satisfy
          these functions. In addition, it specifies several technical features, which should be
          implemented in an EDP system in order to support a password system. These
          provisions have not been implemented as noted above.

       Recommendation:

       44. Strengthen password controls to comply with FIPS PUBS 112 Password Usage.

       Management Comment:

       Management concurs. Password controls were modified during fiscal year 2004.

       G. OMB Circular No A-130 Requirements for USF (Modified Repeat Condition)

          USAC has not provided documentation of the certifications and accreditations for its
          major applications and general support system. USAC recently provided draft
          version of a combined risk assessment for its new general ledger application; the
          accounting, billing, collections, and disbursement application; and the disbursement
          aggregation system. The security plans, risk assessments, and certifications as
          required by FCC Order 03-232, are to be finalized on October 1, 2004.

       Recommendation:

       45. Complete and implement security plans, risk assessments, and certification and
           accreditations for each of USF’s major applications and general support system.

       Management Comment:

       Management concurs. During the first quarter 2005, USAC plans to complete a
       Government requirements gap analysis, develop a risk assessment and security plan for



04-AUD-05-07         REPORT ON THE FEDERAL COMMUNICATIONS                                Page 26
                     COMMISSION’S FY 2004 FINANCIAL STATEMENTS
SECTION III                 INDEPENDENT AUDITOR’S REPORT
                            ON INTERNAL CONTROL



       each of its major applications and network, and remediate manageable discrepancies
       between the plans and the systems state.

       H. OMB Circular Nos. A-127 and A-130 Reviews (Repeat Condition)

          FCC has identified its major financial applications and general support systems, and
          established a timetable for meeting the requirements of OMB Circular No. A-127 and
          A-130 review of these applications. Although FCC had begun conducting some
          OMB Circular Nos. A-127 and A-130 reviews in fiscal year 2002, not all identified
          systems have been reviewed. Until these reviews are performed and completed, FCC
          cannot determine compliance with these circulars to include in its annual FMFIA
          report and to ensure substantial compliance with the Federal Financial Management
          Improvement Act of 1996.

       Recommendations:

       46. Institute a program for conducting periodic reviews in accordance with OMB Circular
           Nos. A-127 and A-130 and perform the reviews timely.

       47. Establish policy and procedures in a proper manner for conducting periodic reviews
           of the reporting components in accordance with OMB Circular Nos. A-127 and A-
           130.

       48. Institute a program for conducting periodic reviews to include USF and other
           reporting components in accordance with OMB Circular Nos. A-127 and A-130.

       Management Comment:

       Management concurs. During fiscal year 2005, a joint project will be performed within
       FCC to formalize the performance of OMB Circular Nos. A-127 and A-130 reviews.
       Procedures will be written and finalized outlining the program, review requirements and
       responsible parties.

XII.   Collateral for Deposits Held Outside of Treasury

       The Treasury Financial Manual (TFM) 2-3400, Accounting for and Reporting on Cash
       and Investments Held Outside of the U.S. Treasury, states that “The Federal
       Government’s interest in cash and investments held outside of Treasury accounts further
       extends to requiring that the deposits be made by Federal agencies in non-Treasury bank
       accounts be secured by collateral to the extent that the deposits exceed the protection
       covered by the Federal Deposit Insurance Corporation.”




04-AUD-05-07         REPORT ON THE FEDERAL COMMUNICATIONS                              Page 27
                     COMMISSION’S FY 2004 FINANCIAL STATEMENTS
SECTION III                   INDEPENDENT AUDITOR’S REPORT
                              ON INTERNAL CONTROL



        Through our confirmation of deposits and investments held outside of Treasury with the
        financial institutions, we were notified that there were 2 days where funds were deposited
        overnight in a money market account without collateral. For those 2 days, the amounts
        invested were $81.5 million and $295 million respectively.

        The contracts with financial institutions where USF funds are deposited do not include
        the requirement for collateral arrangements when funds are temporarily placed on deposit
        account.

        Recommendation:

        49. Amend the contracts with financial institutions to include a requirement for
            collateral when funds are temporarily placed on deposit account.

        Management Comment:

        Management concurs. In coordination with the FCC, the Department of the Treasury,
        and the Federal Reserve Bank of St. Louis, a collateral account is being established for
        the USF. The established account will be is in accordance with 31 CFR 202, which
        requires agencies to secure public money under its control, in accordance with "Securing
        Government Deposits in Federal Agency Accounts". The account is expected to be
        finalized in November 2004.

XIII.   Federal Managers’ Financial Integrity Act (31 U.S.C. 3512) Compliance and
        Reporting

        As required by OMB Bulletin No. 01-02, we compared the material weaknesses and
        material non-conformances in the FMFIA report included in FCC’s fiscal year 2004
        Performance and Accountability Report (PAR) to our report on internal control dated
        November 1, 2004. There was one material weakness relating to BEAMS Allocation
        Logic that was not disclosed in the FMFIA report.

        We do not believe that failure to report this material weakness constitutes a separate
        reportable condition or material weakness, because different criteria are used in
        determining material weaknesses for both reports, and management has reported some of
        the material weaknesses. However, FCC did not take timely and effective actions to
        correct material internal control deficiencies identified in prior years’ Independent
        Auditor’s Report on Internal Control. Also, many of the original target correction dates
        for the deficiencies reported in the FMFIA report were not met and had to be revised.
        OMB Circular No. A-123, Management Accountability and Control (Revised June 21,
        1995), Section IV, states, “…management has a responsibility to complete action, in a
        timely manner, on audit recommendations on which agreement with the IG has been
        reached.”



04-AUD-05-07          REPORT ON THE FEDERAL COMMUNICATIONS                                 Page 28
                      COMMISSION’S FY 2004 FINANCIAL STATEMENTS
SECTION III                  INDEPENDENT AUDITOR’S REPORT
                             ON INTERNAL CONTROL



       Management Comment:

       Management submitted its PAR on October 20, 2004, with updates on October 26, 2004,
       which included updates to material weaknesses and reportable conditions identified in
       prior year FMFIA reports. The draft audit report provided on November 8, 2004, was the
       first time management was notified there was a new material weakness. There would
       have been no ability on the part of the FCC to include this newly identified material
       weakness in the FMFIA when its deadline for the FMFIA input was the date the first
       draft of the PAR was due. This new material weakness will be incorporated in next
       year’s FMFIA input.

STATUS OF PRIOR YEAR COMMENTS

As required by Government Auditing Standards and OMB Bulletin No. 01-02, we have reviewed
the status of FCC’s corrective actions with respect to the findings and recommendations from the
previous year’s report on internal controls. For those items not addressed in various sections of
our Independent Auditor’s Report on Internal Control, summarized above, the following
discusses the current status of resolutions for matters raised:

•   Condition – Loan Subsidiary Ledger System. Prior to fiscal year 2004, FCC maintained its
    loan portfolio in numerous manually prepared, elaborate and complex spreadsheets. The
    applications applied in the loan subsidiary system were implemented to their maximum
    potential use, thereby creating certain problems in addition to the inherent risks and
    limitations in spreadsheet-based applications. Effective October 1, 2003, a loan servicing
    company operated the system of record, servicing FCC’s loan portfolio and maintaining the
    loan portfolio in a database that was created to perform all of the necessary billing,
    collecting, and record keeping functions. Therefore, we have excluded this reportable
    condition in fiscal year 2004.

•   Condition – Cost Accounting System. In prior years, FCC downloaded program costs from
    FFS into a spreadsheet application because it lacked an effective cost accounting system.
    FCC used the spreadsheets and implemented cost finding techniques to allocate costs to FCC
    programs. The use of these complex allocation spreadsheets increased the risk of errors not
    being detected timely in the normal course of operation. FCC implemented BEAMS in fiscal
    year 2004, which replaced the spreadsheet based cost allocation system used in prior years.
    Therefore, we have excluded this reportable condition in fiscal year 2004.

•   Condition – RAMIS Application and Processes. In fiscal year 2003, our audit disclosed
    instances of incorrect accounts receivable information in the RAMIS subsidiary ledger. This
    information included dates in RAMIS differing from dates on the supporting documentation,
    receivables that were recorded in the wrong fund, the amount recorded in RAMIS differed
    from the supporting documentation, and incorrect fines and forfeiture classifications.




04-AUD-05-07          REPORT ON THE FEDERAL COMMUNICATIONS                                Page 29
                      COMMISSION’S FY 2004 FINANCIAL STATEMENTS
SECTION III                   INDEPENDENT AUDITOR’S REPORT
                              ON INTERNAL CONTROL



    In fiscal year 2004, we identified some non-financial information exceptions in RAMIS,
    which are reported separately in the management letter.

•   Condition – Collections in RAMIS. In fiscal year 2003, our audit identified certain
    weaknesses related to the process of recording collections in RAMIS and the nightly
    interface with FFS. Our audit disclosed only a few instances where collections were not
    posted timely to the correct funds in RAMIS. This condition was reported in the
    management letter.

                            ********************************

In addition to the material weaknesses and reportable conditions described above, we noted
certain matters involving internal control and its operation that we reported to the management of
FCC in a separate letter dated November 1, 2004.

This report is intended solely for the information and use of the management of FCC, FCC
Office of Inspector General, OMB, and Congress, and is not intended to be and should not be
used by anyone other than these specified parties.



Calverton, Maryland
November 1, 2004




04-AUD-05-07          REPORT ON THE FEDERAL COMMUNICATIONS                                 Page 30
                      COMMISSION’S FY 2004 FINANCIAL STATEMENTS
              SECTION IV

      INDEPENDENT AUDITOR’S REPORT
ON COMPLIANCE WITH LAWS AND REGULATIONS
This page intentionally left blank
SECTION IV            INDEPENDENT AUDITOR’S REPORT
                      ON COMPLIANCE WITH LAWS AND REGULATIONS




         Independent Auditor’s Report on Compliance with Laws and Regulations

To the Inspector General of the
Federal Communications Commission


We have audited the financial statements of the Federal Communications Commission (FCC) as
of and for the year ended September 30, 2004, and have issued our report thereon dated
November 1, 2004. In our report, we disclaimed on the Combined Statement of Budgetary
Resources and Consolidated Statement of Financing due to a scope limitation, and qualified on
the Consolidated Statement of Net Cost because we were not able to apply auditing procedures
to satisfy ourselves with the revenue allocations. Except as discussed above, we conducted our
audit in accordance with auditing standards generally accepted in the United States of America;
the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB)
Bulletin No. 01-02, Audit Requirements for Federal Financial Statements, as amended.

The management of FCC is responsible for complying with laws and regulations applicable to
FCC. As part of obtaining reasonable assurance about whether FCC’s financial statements are
free of material misstatements, we performed tests of its compliance with certain provisions of
laws and regulations, noncompliance with which could have a direct and material effect on the
determination of financial statement amounts, and certain other laws and regulations specified in
OMB Bulletin No. 01-02, including the requirements referred to in the Federal Financial
Management Improvement Act of 1996 (FFMIA). We limited our tests of compliance to these
provisions and we did not test compliance with all laws and regulations applicable to FCC.

The results of our tests of compliance with laws and regulations described in the preceding
paragraph, exclusive of FFMIA, disclosed instances of noncompliance with the following laws
and regulations that are required to be reported under Government Auditing Standards and OMB
Bulletin No. 01-02, which are described below.

Chief Financial Officers Act of 1990 (CFO Act)

The Government Management Reform Act of 1994 (GMRA) amended the requirements of the
CFO Act by requiring, among other things, the preparation and audit of organization-wide
financial statements of 24 executive departments and agencies. The Accountability of Tax
Dollars Act of 2002 extends the requirements of the GMRA to certain other agencies including
FCC.




04-AUD-05-07          REPORT ON THE FEDERAL COMMUNICATIONS                         Page 1
                      COMMISSION’S FY 2004 FINANCIAL STATEMENTS
SECTION IV            INDEPENDENT AUDITOR’S REPORT
                      ON COMPLIANCE WITH LAWS AND REGULATIONS



The government has a responsibility to use timely, reliable, and comprehensive financial
information when making decisions, which have an impact on citizens’ lives and livelihood. To
meet this responsibility, the CFO Act establishes a leadership structure, provides for long-range
planning, requires audited financial statements, and strengthens accountability reporting.
Specifically, the CFO Act establishes the authority, functions and responsibilities of a Chief
Financial Officer (CFO). These include, among others, that the CFO:

   •   Develop and maintain integrated accounting and financial management systems that
       comply with applicable accounting principles, standards, and requirements; internal
       control standards; and requirements of OMB, Department of the Treasury, and others;

   •   Direct, manage, and provide policy guidance and oversight of all agency financial
       management personnel, activities, and operations; and

   •   Implement agency asset management systems, including systems for cash management,
       credit management, debt collection, and property and inventory management and
       controls.

FCC did not fully meet the above criteria as explained in more detail in our Independent
Auditor’s Report on Internal Control (IC Report). The key items we identified include:

   •   FCC’s financial management systems do not comply with certain accounting standards
       and requirements, and internal control standards;

   •   FCC’s financial information system is not fully integrated. Data comes from various
       subsystems and spreadsheet programs for the accounting, preparing, and reporting of
       financial statements; and

   •   Direction, policy guidance memorandum for FCC’s financial statement preparation and
       oversight of the reporting components’ financial operations are inadequate. A
       memorandum for the preparation of fiscal year 2004 financial statements was not issued
       by the CFO.

Antideficiency Act

The Universal Service Fund (USF) is a special receipt fund and a special fund expenditure
account accounted for as non-exchange revenue earmarked dedicated collections. Receipts are
reported as appropriations (through invisible warrant) not subject to apportionment in accordance
with Treasury Financial Manual (TFM) 2-1500, Description of Accounts Relating to Financial
Operations.

The Antideficiency Act requires that OMB apportion the appropriations. In fiscal year 2004,
OMB issued an apportionment for the USF for the first time. OMB’s decision to apportion the


04-AUD-05-07          REPORT ON THE FEDERAL COMMUNICATIONS                         Page 2
                      COMMISSION’S FY 2004 FINANCIAL STATEMENTS
SECTION IV            INDEPENDENT AUDITOR’S REPORT
                      ON COMPLIANCE WITH LAWS AND REGULATIONS



USF was explained to FCC as a correction of a previous error, as OMB believed that the USF
should have been apportioned starting with the first time it appeared in the President’s Budget to
Congress in 1997. As a result of this apportionment and in preparation for the implementation of
the FCC released order FCC 03-232 dated October 3, 2003 requiring the administrator of the
USF to prepare financial statements for the funds consistent with generally accepted accounting
principles for Federal entities effective in fiscal year 2005, a determination was made by the FCC
Office of General Counsel that USF’s School and Library and the Rural Health Care Support
Mechanisms’ commitment letters were obligations as defined in OMB Circular No. A-11,
Preparation, Submission and Execution of the Budget. In addition, a change in the budgetary
accounting of each investment purchase in non-federal securities was determined to be an
obligation and outlay in fiscal year 2003 and 2004 in accordance with TFM 2-3400, Accounting
for and Reporting on Cash and Investments Held Outside of the U.S. Treasury. The combination
of these changes could have resulted in an Antideficiency Act violation in fiscal year 2003 and
fiscal year 2004.

Subsequent to the end of fiscal year 2004, FCC management informed the Office of Inspector
General of an apparent violation of the Antideficiency Act. To date, FCC has not informed the
President of the United States, through the OMB Director, and Congress, as required by the
Antideficiency Act. FCC management states that once it can determine the amount involved, if
any, in the violation and the date on which the violation occurred, it will report as required.

OMB Circular No. A-129, Policies for Federal Credit Programs and Non-Tax Receivables

In fiscal year 2004, as in the prior year, FCC’s Narrowband licenses did not have installment
payment plan notes stating the loan amounts and terms. In addition, security agreements were not
issued by FCC for this block of loans. These loans, with outstanding balances of $78 million as
of May 31, 2004, are direct loans accounted for under the Federal Credit Reform Act of 1990.
Sec. 502 of the Federal Credit Reform Act defines “direct loan” as a disbursement of funds by
the Government to a non-Federal borrower under a contract that requires repayment of such
funds with or without interest.

OMB Circular No. A-129, Section III, Loan Documentation, states “Loan origination files
should contain loan applications, credit bureau reports, credit analyses, loan contracts, and other
documents necessary to conform to private sector standards for that type of loan.” Additionally,
Section IV, Loan Servicing Requirements, states that “Approved loan files (or other systems of
records) shall contain adequate up-to-date information reflecting the terms and conditions of the
loan, payment history, including occurrences of delinquencies and defaults, and any subsequent
loan actions which result in payment deferrals, refinancing or rescheduling.”

Debt Collection Improvement Act of 1996

FCC’s Treasury Report on Receivables for administrative receivables submitted to the
Department of the Treasury as of June 30, 2004, disclosed that no amounts have been referred



04-AUD-05-07          REPORT ON THE FEDERAL COMMUNICATIONS                           Page 3
                      COMMISSION’S FY 2004 FINANCIAL STATEMENTS
SECTION IV            INDEPENDENT AUDITOR’S REPORT
                      ON COMPLIANCE WITH LAWS AND REGULATIONS



for off-set, and only $1.7 million of the $51.5 million of eligible receivables was referred to the
Department of the Treasury for cross-servicing. See IC Report, Section X, for a more detailed
explanation.

The results of our tests of compliance disclosed no instances of noncompliance with other laws
and regulations discussed in the preceding paragraphs, exclusive of FFMIA, that are required to
be reported under Government Auditing Standards or OMB Bulletin No. 01-02.

Federal Financial Management Improvement Act of 1996 (FFMIA)

Under FFMIA, we are required to report whether FCC’s financial management systems
substantially comply with the Federal financial management systems requirements, applicable
Federal accounting standards, and the United States Standard General Ledger (USSGL) at the
transaction level. To meet this requirement, we performed tests of compliance with FFMIA
Section 803(a) requirements.

The results of our tests disclosed instances described below, where FCC’s financial management
systems did not substantially comply with Federal financial management systems requirements,
applicable Federal accounting standards, and the USSGL at the transaction level.

Federal Financial Management Systems

•   Integrated Financial Management System – The Federal Financial System and a few of the
    feeder systems (auction-related systems, property management system, license database
    systems, certain accounts receivable systems, and various spreadsheets) are not integrated or
    electronically interfaced. The reporting components’ core financial systems are also not
    integrated. A user is not able to have one view into systems such that, at whatever level the
    individual is using the system, he or she can obtain the information needed efficiently and
    effectively through electronic means. See our IC Report, Sections I.A and VII.A. for a more
    detailed explanation.

    The primary reason for noncompliance is that FCC was not able to meet its timetable and the
    length of time needed to implement several financial management systems’ enhancements
    developed over the last five years.

•   Agency-wide Financial Information Classification Structure – As explained in detail in the
    IC Report, Section VII.B, FCC’s and its reporting components’ core financial systems have
    not been fully consistent with the USSGL. Although a new posting model was designed for
    auctions revenue postings and was scheduled for implementation for fiscal year 2004, the
    implementation schedule was delayed to fiscal year 2005. Also, the International
    Telecommunications Settlements (ITS) posting model is to be designed and implemented in
    fiscal year 2005. Once the auctions and ITS transactions have been fully transitioned to the
    Revenue Accounting and Management Information System, these posting model changes are



04-AUD-05-07          REPORT ON THE FEDERAL COMMUNICATIONS                           Page 4
                      COMMISSION’S FY 2004 FINANCIAL STATEMENTS
SECTION IV             INDEPENDENT AUDITOR’S REPORT
                       ON COMPLIANCE WITH LAWS AND REGULATIONS



    expected to allow FCC to eliminate manual adjustments currently made to correct posting
    model deficiencies.

•   Security – In fiscal year 2004, as in prior years, we identified several weaknesses, which
    collectively are considered a material weakness, and are described in more detail in our IC
    Report, Section V. The weaknesses include noncompliance with OMB Circular No. A-130,
    Management of Federal Information Resources, requirement for a comprehensive security
    plan, and lack of a fully developed and tested contingency plan. FCC has not completed,
    implemented, certified, and accredited its entity-wide security program plan. The initial
    stage of this process, which includes a risk assessment as part of an all-inclusive security test
    and evaluation, was not completed for two major applications, and one general support
    system until the last week of September 2004. In addition, there was a lack of an agency-
    wide contingency plan to address continuity of operations in the event of a disaster.

    Information protection-related weaknesses identified in FCC’s information systems
    environment are repeat conditions. Impacted areas include FCC’s distributed computer
    system as well as its mainframe computers. These vulnerabilities expose FCC and its
    computer systems to risks of external and internal intrusion, subject sensitive FCC
    information related to its major applications to potential unauthorized access, modification,
    and/or disclosure, and increase the risks of fraud, waste, and abuse.

    The weaknesses noted above have been identified since the fiscal year 1999 audit and
    progress in correcting the deficiencies has been slow. FCC explained that the primary reason
    for this noncompliance is the length of time needed to implement the corrective actions and
    the availability of resources.

Federal Accounting Standards

Our audit disclosed the following instances of non-compliance with Federal Accounting
Standards:

    •   Statement of Federal Financial Accounting Standards (SFFAS) No. 1, Accounting for
        Selected Assets and Liabilities, paragraph 77, states, “When an entity accepts title to
        goods, whether the goods are delivered or in transit, the entity should recognize a liability
        for the unpaid amount of the goods." FCC recognizes accounts payable only when an
        invoice is received and logged into the financial system rather than when goods and
        services are received.

    •   The FCC implemented Budget Execution and Management System (BEAMS) in fiscal
        year 2004, as the cost accounting system to satisfy the requirements of SFFAS No. 4,
        Managerial Cost Accounting Concepts and Standards for the Federal Government.
        While BEAMS met some of the requirements of SFFAS No. 4, it still could not
        accumulate outputs, assign costs to outputs, or calculate cost per unit of each type of



04-AUD-05-07           REPORT ON THE FEDERAL COMMUNICATIONS                            Page 5
                       COMMISSION’S FY 2004 FINANCIAL STATEMENTS
SECTION IV            INDEPENDENT AUDITOR’S REPORT
                      ON COMPLIANCE WITH LAWS AND REGULATIONS



       output. In addition, BEAMS does not provide information needed to determine and
       report service efforts and accomplishments and information necessary to meet the
       requirements of Government Performance and Results Act or interface with a system that
       provides such information. See Section VIII.A. in our IC Report.

   •   SFFAS No. 7, Accounting for Revenue and Other Financing Sources and Concepts for
       Reconciling Budgetary and Financial Accounting, states, “Related revenue should be
       matched with the cost.” Specific earned revenue should be matched against specific
       program costs in accordance with the program costs and revenue description in the
       budget submission to Congress. FCC allocates the earned revenue among its programs
       based on the ratio of the program costs to the total costs. See Section VIII.B. in our IC
       Report.

U.S. Standard General Ledger at the Transaction Level

Substantial compliance with the USSGL at the transaction level requires the agency’s recording
of financial events to be consistent with all applicable account descriptions and posting model
attributes reflected in the USSGL issued by the Department of the Treasury, Financial
Management Service, effective for the period covered by the audit. As discussed in our IC
Report, Section VII.B, the setup and posting model definitions do not fully comply with the
transaction posting models consistent with the USSGL guidance and policies when recording and
classifying transactions.

Also, as discussed in Section IV of the IC Report, the accounting transactions of the Universal
Service Fund, the Telecommunications Relay Services Fund, and the North American
Numbering Plan, collectively called "reporting components," were not recorded in a manner
consistent with the account definitions and posting model attributes specified in the USSGL. The
reporting components also did not record budgetary entries.

FCC’s Managing Director and the CFO have been assigned the responsibility of ensuring the
substantial compliance with the FFMIA. A discussion of the actions taken by FCC and our
recommendations to strengthen FCC’s financial management systems are outlined in our IC
Report. FCC management plans to continue with the corrective actions started or implemented
in prior years.

Management Comment:

Management concurs. The aforementioned laws and regulations are addressed within the
findings on the Independent Auditor’s Report on Internal Controls. As FCC corrects and
resolves identified issues, the occurrences on non-compliance will diminish.

                            ********************************




04-AUD-05-07          REPORT ON THE FEDERAL COMMUNICATIONS                         Page 6
                      COMMISSION’S FY 2004 FINANCIAL STATEMENTS
SECTION IV            INDEPENDENT AUDITOR’S REPORT
                      ON COMPLIANCE WITH LAWS AND REGULATIONS



We also noted certain immaterial instances of noncompliance that we have reported to
management of FCC in a separate letter dated November 1, 2004.

Providing an opinion on compliance with certain provisions of laws and regulations was not an
objective of our audit, and, accordingly, we do not express such an opinion.

This report is intended solely for the information and use of the management of FCC, FCC
Office of Inspector General, OMB and Congress, and is not intended to be and should not be
used by anyone other than these specified parties.




Calverton, Maryland
November 1, 2004




04-AUD-05-07          REPORT ON THE FEDERAL COMMUNICATIONS                      Page 7
                      COMMISSION’S FY 2004 FINANCIAL STATEMENTS
This page intentionally left blank
              SECTION V

  FEDERAL COMMUNICATIONS COMMISSION
            FISCAL YEAR 2004
PERFORMANCE AND ACCOUNTABILITY REPORT
This page intentionally left blank
Federal
Communications
Commission




           Fiscal Year 2004
 Performance and Accountability Report
         (October 1, 2003 – September 30, 2004)
Message from the Chairman

                        I am pleased to present the Fiscal Year 2004 Performance and Accountability
                        Report for the Federal Communications Commission (FCC). As now required
                        under the Accountability for Tax Dollars Act of 2002, this Performance and
                        Accountability Report combines performance and financial reporting in a single
                        document.
                         Today’s telecommunications networks are the conduits through which the
                         Nation’s economic, educational, informational, and entertainment resources flow.
                         Digital broadband technologies, both wired and wireless, are providing a limitless
                         combination of voice, video, and data services that are changing the way
                         Americans of all ages work, learn, live, and earn. These networks boost our
economy by opening new markets and by creating new businesses and new jobs. And they improve our
quality of life by making the resources of the world’s great universities and hospitals available to any who
would use them, and by connecting us in real time to events as they unfold locally, nationally, or
internationally.
It is not surprising, then, that computer ownership and Internet access are growing remarkably. Today 48
million Americans have high-speed Internet access at home, a more than fourfold increase since I became
chairman less than four years ago. During this same period the number of Americans using wireless
Internet services also jumped from less than 2.5 million to over 14 million, as the number of Wi-Fi units
sold per year rose more than fourfold.
To link our performance to the achievement of the Commission’s strategic objectives, we have identified
six pillars that underpin all the FCC’s efforts: broadband, competition, spectrum, media, homeland
security, and modernizing the FCC.
Continued economic growth and increased consumer welfare depend on making high-speed broadband
technology accessible and affordable for all. To ensure accessibility, the FCC must provide adequate
spectrum for these devices to operate. To promote affordability, the FCC must ensure that competition
among telecommunications service providers remains vibrant, because competition is a proven spur to
lower prices and more innovative choices. And finally, the FCC must also ensure that existing
telecommunications technologies and providers have a fair opportunity to adapt to and participate in the
new digital broadband-based market.
The cornerstone of our regulatory efforts has been to foster competition in the communications sector.
Continuing to refine and streamline our rules to foster lasting competition in and among communications
networks and providers will remain a priority.
This year, we have also undertaken a number of significant actions in the areas of spectrum and media. In
response to recommendations from the Spectrum Policy Task Force, the FCC increased the amount of
unlicensed spectrum available for new and innovative uses. We also revised our regulations for licensed
spectrum to ensure greater efficiency. These actions reduce regulatory burdens, thereby allowing market
forces to play a greater role in determining how spectrum can best be used.




Federal Communications Commission                                                                      iii
                                         FEDERAL COMMUNICATIONS COMMISSION

With respect to media, the FCC comprehensively reviewed its longstanding media ownership rules in an
effort to make them better reflect the realities of today’s new multichannel digital telecommunications
market. We will continue to revise these rules as appropriate. In addition, we continue our day-to-day
licensing and regulatory activity while acting to implement the transition to digital television. The
ultimate good at the end of that transition – freeing more spectrum for important uses such as public
safety – is well worth this effort.
The FCC has continued to advance the important goal of homeland security. Communications
technology is integral to our ability to safeguard the public, combat risks, and ensure our freedoms.
Recent FCC initiatives helped create networks that can provide “on the scene” information about building
architecture during a fire, or locate hidden suspects during a chase. We also continue to work with local
public safety authorities to overcome the challenges of E911 deployment, and we recently adopted a plan
that will provide much-needed new spectrum for emergency responders and alleviate the harmful
interference that currently inhibits public safety radio use in many locales. We are also working with
commercial licensees to establish industry standards for network reliability and redundancy. This
groundwork will help ensure that our networked society functions smoothly in normal times and can be
restored promptly in the event of another terrorist attack.
The FCC’s modernization is critically important. To make sure that our rules keep pace with the ever-
changing telecommunications market and to ensure that consumers get the maximum benefit from new
telecommunications services, the FCC must stay up-to-date on new technologies and industry trends. To
ensure that consumers have the benefit of new services as quickly as possible and to cut down on the
costs imposed by regulatory delay, we have improved our systems by implementing an advanced new
electronic filing system. To further help reduce the time needed to authorize the use of new
telecommunications equipment, since FY 2000 we have spent nearly $3.4 million to improve our
engineering lab, and we have increased the number of engineers on staff from 270 to 300. And to ensure
that all FCC staff has access to the latest in training, we inaugurated an FCC University that currently
offers a wide range of courses in telecommunications law, engineering, economics, management, and
related topics. The results of these initiatives are clear: despite the numerous challenges the FCC faced
throughout the year, the agency’s staff provided unwavering service quality to the American people.
We also faced significant management issues in the course of the past year related to the universal service
program. At the beginning of FY 2004, the Commission adopted a rule requiring the Universal Service
Administrative Company (USAC) to account for and maintain the financial transactions of the Universal
Service Fund (USF) in accordance with the same principles and practices that apply to Federal agencies.
We believe this strengthens the financial foundation of the USF, particularly as we confront widely
publicized allegations of waste, fraud, and abuse in this multi-billion dollar program. The conversion to
these accounting standards has not been easy for the USAC or the Commission. As the fiscal year closes,
we continue to work in close consultation with the USAC and the Office of Management and Budget to
advance the goals of the universal service program, while ensuring that the program operates on the
soundest of economic footings, free of waste, fraud, and abuse.
In the two prior years, the FCC exceeded the requirements of the Federal Manager’s Financial Integrity
Act and received a “clean” or unqualified audit opinion on all of the consolidated financial statements.
However, as a result of the management issues regarding the USF, the audit opinion for FY 2004
disclaimed on two of the six consolidated financial statements. We have evaluated our management
controls and financial management systems and identified those areas of material weakness. Plans are in
place and significant progress has been made towards resolving these items expeditiously.




iv        PERFORMANCE AND ACCOUNTABILITY REPORT                 FISCAL YEAR 2004
I am pleased to officially certify with qualified assurance that, except for the material weaknesses and
instances noted of non-conformance with laws and regulations, specifically identified in this report (see
pages 14-17), the Commission is in compliance with the provisions of the Federal Manager’s Financial
Integrity Act. We acknowledge our weaknesses, and plans are progressing to resolve each of them. In
this report, we have made every effort to provide financial and performance data that are complete and
reliable. The integrity of our management is high, and we continue to vigorously pursue prompt
resolution of all of the reported instances of weakness and instances noted of non-conformance and to
reduce susceptibility to waste, fraud, and mismanagement.




Michael K. Powell
Chairman
Federal Communications Commission
November 15, 2004




Federal Communications Commission                                                                     v
                                FEDERAL COMMUNICATIONS COMMISSION



This page intentionally blank




vi      PERFORMANCE AND ACCOUNTABILITY REPORT   FISCAL YEAR 2004
1. Management’s Discussion and Analysis

                                                   satellite, and cable. The FCC also regulates
OVERVIEW OF THE FCC                                intrastate telecommunications services for
                                                   hearing-impaired        and        speech-impaired
                                                   individuals, as set forth in Title IV of the
Introduction                                       Americans with Disabilities Act (ADA). The
This Performance and Accountability Report         FCC’s headquarters is located in Washington,
(PAR or report) contains management,               D.C., with three regional offices, sixteen district
performance, and financial information about the   offices, and nine resident agent offices
Federal Communications Commission (FCC,            throughout the Nation. The FCC’s jurisdiction
Commission, or agency).                            spans the 50 states, the District of Columbia, and
                                                   U.S. possessions.
Chapter 1 presents the Management’s Discussion
and Analysis, including: the FCC’s mission; an     The FCC is directed by five commissioners,
overview of the agency’s reporting structure;      appointed by the President and confirmed by the
Fiscal Year (FY) 2004 performance and financial    Senate for five-year terms, except when filling an
highlights; descriptions of legal compliance,      unexpired term. The President designates one of
systems, and controls; summary information         the commissioners to serve as chairman. No
related to the Federal Manager’s Financial         more than three commissioners may be members
Integrity Act material weaknesses and instances    of the same political party, and commissioners
noted of non-conformance and related corrective    may not hold a financial interest in any company
actions; and potential future issues that could    or entity that has a significant interest in activities
affect the FCC. Chapter 2 contains the annual      regulated by the Commission.
program performance report. Chapter 3 presents
the FCC’s principal financial statements for       FCC Mission
FY 2004, notes to the consolidated financial
statements,    and     required   supplementary    The FCC’s mission is to ensure that Americans
information. Appendix A contains a glossary of     have access to rapid, efficient, Nation- and
acronyms used in this report.                      world-wide communication services, whether by
                                                   radio, television, wire, satellite, or cable, at
This PAR is a guide to key FCC initiatives and
                                                   reasonable costs and without discrimination.1
activities during FY 2004, or planned for future
years, that demonstrate the breadth of the
Commission’s work. An electronic version of        FCC Reporting Components
the FY 2004 PAR can be found on FCC’s
website: http://www.fcc.gov/omd/strategicplan/.    The FCC chairman leads the Commission as head
                                                   of the agency. The commissioners supervise all
                                                   FCC activities, delegating responsibilities to the
About the FCC                                      agency’s Bureaus and staff Offices.
The Commission is an independent United States     The following six operating Bureaus and one
(U.S.) Government regulatory agency. The FCC       FCC Office implement the Commission’s six
was established by the Communications Act of       strategic goals: Consumer and Governmental
1934, as amended (the Act) and is charged with
regulating    interstate   and     international   1
                                                    FCC FY 2003-2008 Strategic Plan, Page 4, 47 U.S.C. §151
communications by radio, television, wire,         – Title 1, Section 1 of the Act, as amended.

FEDERAL COMMUNICATIONS COMMISSION                                                                      1
                                        FEDERAL COMMUNICATIONS COMMISSION

Affairs, Enforcement, International, Media,         The Universal Service Administrative Company
Wireless     Telecommunications,       Wireline     (USAC) administers the four universal service
Competition, and the Office of Engineering and      support mechanisms of the USF, under the FCC’s
Technology.     They develop and implement          direction. These support mechanisms are funded
regulatory programs, process applications for       through mandatory payments from U.S.
licenses or other filings, analyze complaints,      telecommunications providers, including local
conduct investigations, and participate in FCC      and long distance phone companies, wireless and
hearings.                                           paging companies, and payphone providers. The
                                                    four universal service support mechanisms are:
Nine additional staff Offices support the FCC’s
                                                    high cost, low income, rural health care, and
activities:  Administrative     Law      Judges,
                                                    schools and libraries. These support mechanisms
Communications        Business    Opportunities,
                                                    provide money directly to service providers to
General Counsel, Inspector General, Legislative
                                                    defray the cost of serving customers who use the
Affairs, Managing Director, Media Relations,
                                                    telecommunications services.          Additional
Strategic Planning and Policy Analysis, and
                                                    information on the USAC and the USF,
Workplace Diversity.
                                                    respectively, can be found on the Internet at:
Detailed information on specific Bureau and         http://www.universalservice.org/default.asp and
Office    responsibilities   and   the   FCC’s      http://www.fcc.gov/wcb/universal_service/welco
organizational chart can be found on the FCC’s      me.html.
website at: http://www.fcc.gov/.
                                                    The National Exchange Carriers Association
Components of the        FCC     for   Financial    (NECA) administers the TRS Fund, under the
Statement Purposes                                  FCC’s direction. The TRS Fund compensates
                                                    TRS providers for the reasonable costs of
In addition to the activities directly undertaken   providing interstate telephone transmission
by the above Bureaus and Offices, the FCC           services that enable a person with a hearing or
components for financial statement purposes         speech disability to communicate with a person
include:                                            without hearing or speech disabilities. The costs
Universal Service Fund (USF):               The     of providing interstate TRS are recovered from
Telecommunications Act of 1996 (the                 subscribers of interstate telecommunications
Telecommunications Act) codified and modified       services through shared-funding cost recovery
the FCC’s longstanding policy of promoting          mechanisms. The TRS operates on a different
universal telecommunications service throughout     fiscal year from other FCC programs; TRS’s
the Nation. Pursuant to section 254 of the          fiscal year commences July 1 and ends June 30.
Telecommunications Act,2 the FCC established        Additional information on NECA and TRS can
rules and regulations governing how certain         be found at: http://www.neca.org/ and
telecommunications service providers contribute     http://www.fcc.gov/cgb/dro/trs.html,
to the USF and how those monies are disbursed.      respectively.
For the purposes of submitting the Nation’s         North American Numbering Plan (NANP): The
budget each year, the USF consists of five          NANP is the basic numbering scheme permitting
elements, four of which are universal service       interoperable telecommunications service within
support mechanisms and the fifth being the          the U.S., Canada, Bermuda, and most of the
Telecommunications Relay Service (TRS) Fund.        Caribbean. Section 251(e)(1) of the Act requires
In past years, the universal service support        the Commission to create or designate one or
mechanisms have operated on a different fiscal      more      impartial  entities   to    administer
year from other FCC programs – from January 1       telecommunications numbering and to make such
to December 31. In FY 2005, the universal           numbers available on an equitable basis. Section
support mechanisms will utilize the same fiscal     251(e)(2) of the Act requires that the costs of
year as the FCC – October 1 to September 30.        number administration arrangements and number
                                                    portability be borne by all telecommunications
2
    47 U.S.C. § 254.                                carriers on a competitively neutral basis, as


2             PERFORMANCE AND ACCOUNTABILITY REPORT        FISCAL YEAR 2004
    CHAPTER 1: MANAGEMENT’S DISCUSSION AND ANALYSIS

determined by the Commission. In implementing          Performance Goals:
Section 251, the FCC appointed a NANP
                                                       •   Ensure American consumers can choose
Administrator (NANPA), a national Pooling
                                                           among multiple reliable and affordable
Administrator (PA) to administer thousands-
                                                           means of communications.
block number pooling, and a Billing and
Collection Agent. In April 2004, the FCC               •   Ensure that all American consumers have and
announced its selection of an outside contractor           retain reliable wireless and wireline phone
to be the new NANP Billing and Collection                  services.
Agent.                                                 •   Create and maintain a dialogue with
For further clarification on the financial                 regulators around the globe to foster and
relationships between the FCC and the                      sustain the creation of pro-competitive
components, see Note 1 of the financial                    foreign and domestic markets.
statements in Chapter 3.                               •   Create and maintain a dialogue with
                                                           American consumers so that they are
Strategic Goals and Objectives                             informed about their rights, choices and
                                                           responsibilities, and ensure these rights
Consistent with the objectives of the Act, as              through strong enforcement.
amended by the Telecommunications Act, as
well as the 1993 Government Performance and            3. Strategic Goal: Spectrum
Results Act (GPRA), the FCC has identified six         Facilitate the highest and best use of spectrum
long-term strategic goals, and 14 subsidiary           domestically and internationally to promote the
performance goals:3                                    growth and rapid deployment of innovative and
1. Strategic Goal: Broadband                           efficient communications technologies and
                                                       services.
Establish regulatory policies that promote
competition, innovation, and investment in             Performance Goals:
broadband services and facilities while                • Ensure that spectrum is used efficiently and
monitoring progress toward the deployment of             effectively.
broadband services in the United States and
abroad.                                                • Facilitate   domestic      and    international
                                                         deployment     of     new      spectrum-based
Performance Goal:                                        technologies and services.
•   Broaden the deployment technologies across         • Generally shift from rigid to flexible policy
    the United States and globally.                      models.
2. Strategic Goal: Competition                         • Promote ease of access to spectrum by more
Support the Nation’s economy by ensuring that            users.
there is a comprehensive and sound competitive         4. Strategic Goal: Media
framework for communications services and
devices.    Such a framework should foster             Revise media regulations so that media
innovation and offer businesses and consumers          ownership rules promote competition and
meaningful choice in services and devices. Such        diversity in a comprehensive, legally sustainable
a pro-competitive framework should be promoted         manner, facilitate the mandated migration to
domestically and overseas.                             digital modes of delivery, and clarify and ensure
                                                       compliance with general media obligations.
                                                       Performance Goals:

3
                                                       •   Develop a sound analytic foundation for
  The strategic and performance goals are consistent       media ownership rules.
with the FCC’s FY 2003-2008 Strategic Plan and can
be found in the FCC’s FY 2005 Performance Budget.

FEDERAL COMMUNICATIONS COMMISSION                                                                   3
                                          FEDERAL COMMUNICATIONS COMMISSION

•   Facilitate the transition to digital television    integrated addition to the Commission’s financial
    and radio.                                         management systems.         The BEAMS tracks
                                                       personnel and non-personnel costs for the FCC’s
•   Clarify and ensure compliance with general         outputs, performance goals, and strategic goals.
    media obligations.                                 Consistent with OMB guidance, BEAMS also
5. Strategic Goal: Homeland Security                   supports the Statement of Net Cost, detailed
                                                       budget execution, and full time equivalent (FTE)
Provide      leadership    in    evaluating     and    reporting.
strengthening the Nation’s communications
infrastructure, in ensuring rapid restoration of
that infrastructure in the event of disruption, and    Future Challenges
in ensuring that essential public health and safety
personnel have effective communications                The Commission has identified certain demands,
services available to them in emergency                risks, uncertainties, events, conditions, and trends
situations.                                            that may affect the FCC’s ability to achieve its
                                                       goals and objectives. These external factors,
Performance Goal:                                      discussed below, may influence competition in
•   Promote a reliable, secure, and survivable         telecommunications markets.
    communications infrastructure for the United       •   Market and Economic Uncertainties.
    States.                                                Continued deployment of broadband
6. Strategic Goal: Modernize the FCC                       infrastructure        and       innovative
                                                           telecommunications technology depends
Emphasize performance and results through                  heavily on capital investment. Litigation
excellent management.      Develop and retain              over important aspects of the regulatory
independent mission-critical expertise and align           framework related to broadband services,
the FCC with the dynamic communications                    local competition, and media ownership has
markets.                                                   caused market uncertainty.
Performance Goal:                                      •   Consumer Demand. Achieving return on
•   Become a more responsive, efficient, and               investment hinges on consumer demand for
    effective agency.                                      services. The business models of many new
                                                           competitors depend on combining multiple
                                                           existing and new services on a single service
Strategies & Resources to Achieve Goals                    delivery platform and generating consumer
                                                           demand for these bundled services.
The FCC has identified strategies and resources
to achieve its performance goals for each long-        •   International Developments. The FCC’s
term strategic goal. In FY 2005, for the first time        vision of fully competitive communications
the FCC integrated the annual performance plan             markets in the U.S. is at least partially
with its budget information. Details on the                contingent on whether other nations also
FCC’s strategies and resources for achieving its           promote deregulation, competition, and
strategic goals are included in the Commission’s           increased private investment in their
strategic          plan,         found           at:       communications infrastructure. The FCC’s
http://www.fcc.gov/omd/strategicplan.           The        success will depend on vigorous enforcement
FCC’s FY 2005 performance budget provides                  of the market access commitments set forth
further information, and can be found at:                  in the 1997 World Trade Organization
http://ftp.fcc.gov/Reports/fcc2005budget.html.             (WTO)         Agreement       on      Basic
                                                           Telecommunications Services.
In support of the linkage between performance
and budget activities, the FCC’s cost allocation       •   Political Uncertainty.     The FCC cannot
software, the Budget Execution and Management              predict possible future actions by Congress,
System (BEAMS), provides a robust and                      which may change Federal laws and



4           PERFORMANCE AND ACCOUNTABILITY REPORT             FISCAL YEAR 2004
    CHAPTER 1: MANAGEMENT’S DISCUSSION AND ANALYSIS

    potentially affect FCC’s responsibilities and     performance trend data, where available, is
    workload. Nor can the FCC accurately              displayed in the Chapter 2 charts and tables. It is
    predict the outcome of pending litigation.        expected that remaining FY 2004 performance
    Further, the Commission’s ability to achieve      data will be available by the summer of 2005.
    its goals and objectives could be affected by     Where data is not yet available at the time of this
    unpredictable events.                             report, it will be included in the FY 2005 PAR.
•   Resources. Finally, the Commission’s ability      The following outcome indicator, previously
    to achieve its vision is largely dependent on     measured in FY 2003, was eliminated at the end
    the allocation of resources to carry out          of FY 2003 in the FY 2003 Annual Program
    critical activities. The FCC likely will need     Performance Report (see page 24 of the report at:
    to redeploy existing budget and staff             http://www.fcc.gov/Reports/ar2003.pdf):
    resources to address changing priorities. Our     •   Increasing deployment of Wireless Priority
    efforts to deal with this challenge, e.g.,            Access Service (WPAS).
    through workforce planning, are described
    under the Modernize goal in Chapter 2.            During FY 2003, we determined that since the
                                                      deployment of WPAS (managed by the
                                                      Department of Homeland Security, National
FISCAL YEAR 2004 HIGHLIGHTS                           Communications System) is voluntary it is not an
                                                      appropriate measurement.

Performance Highlights                                The following outcome indicator, previously
                                                      measured in FY 2003, was temporarily
The FCC assesses achievements in performance,         suspended at the end of FY 2003 because data
with regard to GPRA, by output activities and         would not be available in FY 2004:
outcome indicators.       Achievement of the          •   Increasing reporting of service outages across
outcome      indicators    is    measured       by        multiple platforms.
accomplishing output activities. Although the
actions FCC takes (output activities) are likely to   In the past, only wireline and cable telephony
influence the marketplace, they cannot control        communications providers were required to
the marketplace. The Commission generally             report service outages. In August 2004, the FCC
controls the output activities, which in turn         adopted rules extending reporting requirements
influence the outcome indicators. We measure          to wireless and satellite providers. These actions
our progress by whether we accomplish our             will facilitate more reliable telecommunications
output activities and the corresponding increase      throughout the U.S. and promote homeland
or decrease in our outcome indicators. The            security. However, data will not be available
external factors that may influence whether we        until some point in FY 2005, and performance
meet our objectives are economic, legal, and          results will be included in the FY 2005 PAR.
organizational. These factors are highlighted in
our FY 2003-2008 Strategic Plan (pages 8-9),          Financial Highlights
which         can       be        found         at:
http://www.fcc.gov/omd/strategicplan.                 The FCC has obtained unqualified opinions for
At the time of this report, the FCC had final data    FYs 2000, 2002, and 2003. This is a significant
for 12 (or 57%) of its 21 outcome indicators. Of      achievement for a small agency. Over the past
the 12 outcome indicators for which data were         year, great strides were made to enhance loan and
available, the FCC met 11 (or 92%) of the goals.      cost accounting systems, implement proper
Additionally, the FCC achieved 48 of the 49 (or       budgetary accounting requirements for our
98%) of the FY 2004 output activities.                reporting components, and continue to improve
                                                      on our record of fiscal responsibility.
Detailed information on the results achieved for
each of the FY 2004 goals is available in
Chapter 2 of this report.          Additionally,

FEDERAL COMMUNICATIONS COMMISSION                                                                    5
                                        FEDERAL COMMUNICATIONS COMMISSION


Significant Financial Events – Future               Consolidated Balance Sheet
Effects of Current Demands                          The FCC’s most significant assets are Loans
In addition to the discussion of bankruptcies       Receivable of $2.7 billion and Cash and
below, the FCC addresses the possible future        Investments of $3.3 billion. Together, these
effects of existing claims, deferred maintenance,   balances accounted for 81% of total assets as of
commitments, and major unfunded liabilities in      September 30, 2004. The Loans receivable
the notes to the financial statements as well as    balance consists of gross receivables, including
required supplementary information.                 interest and other receivables, totaling $6.5
                                                    billion, offset by an allowance of negative $3.8
Bankruptcy                                          billion.     The NextWave portion of gross
The FY 2005 subsidy reestimate reflected in the     receivables is $5.8 billion or 89% of the loan
FY 2004 financial statements was impacted by        portfolio.
two notable bankruptcies:               NextWave    The large Investments balance of $3.3 billion
Communications, Inc. (NextWave) and Leap            reflects a carryover in the USF that has grown
Wireless International, Inc. (Leap) / Cricket.      since the program’s inception as a result of
NextWave                                            annual contributions that have exceeded annual
                                                    distributions.
Recoveries received in the third quarter of
FY 2004 from the NextWave/Cingular settlement       The FCC’s most significant liability is debt of
for both the C and F Blocks totaled $714 million.   $3.9 billion, which accounted for 78% of total
For the licenses retained by NextWave, the FCC      liabilities at September 30, 2004. All of the debt
is entitled to collect an additional $398 million   is owed to Treasury for borrowing related to
from the sale of these licenses. These funds were   credit reform installment loans.
recovered in October 2004. For the NextWave         Net position consists primarily of the balance
licenses being returned to the FCC, a further       contributed by the Results of Operations, which
recovery is expected in the first quarter of FY     was nearly $2.3 billion as of September 30, 2004,
2006, based on the results of Auction No. 58.       and accounted for 99% of Net Position. Included
Leap/Cricket                                        in the Results of Operations balance is
                                                    $3.4 billion for the USF/NANP and a negative
The Leap/Cricket licenses went into potential       $1.1 billion for the FCC. The contribution
default in first quarter FY 2004. The FCC           carryover discussed previously for Investments
received a payment of $44.7 million from Leap       accounts for $3.3 billion of the USF/NANP
in the fourth quarter of FY 2004 as part of the     balance.
bankruptcy settlement.      The FCC currently
expects to recover an additional $42.6 million      Consolidated Statement of Net Cost
from the settlement as follows: $7.2 million in     The FCC made two significant changes with
the third quarter FY 2005 (April 2005) and $35.4    respect to the Statement of Net Cost in FY 2004.
million in fourth quarter FY 2005 (July 2005).      The first change was the implementation of a
Financial Statements                                new     cost     accounting    system    effective
                                                    October 1, 2003. The new system automates the
The financial statements detail the Commission’s    allocation process and is integrated with the core
financial activity and financial position. The      financial system.     This system will correct
financial statements, related notes, and the        several weaknesses noted in prior year internal
required supplementary information can be found     control reports.
in Chapter 3 of this report.
                                                    The second change was the conversion from
Following is a brief analysis of the principal      programs based on activity codes in the FCC’s
statements.                                         previous strategic plan to programs based on
                                                    goals in the revised FY 2003-2008 Strategic Plan,
                                                    which took effect in FY 2004. The conversion



6            PERFORMANCE AND ACCOUNTABILITY REPORT         FISCAL YEAR 2004
   CHAPTER 1: MANAGEMENT’S DISCUSSION AND ANALYSIS

affects the comparability between the FY 2003         Other Key Financial Statement Highlights
and FY 2004 Statement of Net Cost and reduces
                                                      Subsidy Reestimate
the number of reported programs from eight to
six.                                                  The FCC must annually adjust its allowance for
                                                      losses on the credit portfolio. In accordance with
The net cost of FCC operations for FY 2004 was
                                                      Office of Management and Budget (OMB)
$7.0 billion, of which $5.8 billion correlates to
                                                      guidance, the FCC calculates its subsidy
component entities whose funds are restricted for
                                                      reestimate based on the most recent economic
NANP and USF programmatic activities only,
                                                      and technical assumptions of current portfolio
and cannot be used by the FCC. The $7.0 billion
                                                      performance.
is allocated between the FCC and the two
components as follows:                                The FCC’s FY 2005 subsidy reestimate was
                                                      completed to reflect the actual loan performance
  Component           Net Cost of Operations          through June 30, 2004 and projected performance
  FCC                     $1,171 million              through September 30, 2004. The reestimate
                                                      resulted in a net upward adjustment (increase in
  NANP                    $     3 million
                                                      the subsidy cost) totaling $733 million in the
  USF                     $5,846 million              Spectrum Auction program.           An additional
                                                      $464.6 million increase is also recognized, due to
                                                      interest on the technical reestimate; this
Consolidated Statement of Changes in Net
                                                      represents the amount of interest that would have
Position
                                                      been paid if the technical reestimate had been
Carryover related to the USF continued to grow        included as part of the original subsidy estimate.
and increased by $499 million since                   This reestimate is reported in the FCC’s FY 2004
September 30, 2003. The increase is reflected in      financial statements, but will not be reported in
the Results of Operations increase of                 the budget until FY 2005. For more details, see
$499 million over the same period.                    financial statement Footnote 7 in Chapter 3.
Combined Statement of Budgetary Resources             Loan Repayments
A correction in the accounting related to the         Borrowers are required to repay loans on a
purchase of Non-Federal Money Market Funds is         quarterly basis and are allowed to prepay their
reflected in the FY 2004 Statement of Budgetary       loans without penalties. In FY 2004, 120 loans
Resources. The correction adjusts beginning           were paid off. Collections resulting from these
budgetary authority carried forward from              loan payoffs, which include principal, interest,
FY 2003 from $2.1 billion to $4.4 million.            suspension interest, and late fees, totaled $13.2
Additional Budgetary resources received in FY         million. When compared with the FCC’s total
2004 consisted of $297 million for FY 2004            collections of $822.1 million in principal,
Salaries & Expenses (S&E), $15.9 billion in USF       interest, suspension interest, and late fees, these
receipts, $1.0 billion in credit related receipts,    loan payoffs represent approximately 1.6% of all
borrowings, and appropriations, and $90 million       collections. In addition, in FY 2004, the FCC
attributable to reimbursable auction activities for   had non-cash transactions of $17.8 million
total authority of $17.3 billion                      related to the Qualcomm, Inc. voucher
Consolidated Statement of Custodial Activity          transactions for the GWI PCS, Inc. licenses.
The FCC reported $571 million of custodial            Regulatory Fee Collections
revenue as of September 30, 2004. Spectrum            Section 6003(a) of the Omnibus Budget
Auctions represents $205 million, Credit Reform       Reconciliation Act of 1993 (Public Law 103-66)
Interest represents $343 million, and the             added a new Section 9 to the Act. The law
remaining $23 million derives from forfeitures        requires that the FCC annually collect fees and
and penalties.                                        retain them for FCC use to offset certain costs
                                                      incurred by the Commission. The fees collected

FEDERAL COMMUNICATIONS COMMISSION                                                                    7
                                       FEDERAL COMMUNICATIONS COMMISSION

are intended to recover the non-licensing costs    transaction level. The FFMIA also requires the
attributable to the Commission’s competition,      systems to provide reliable, consistent disclosure
enforcement, consumer information, and             of financial data uniformly across the Federal
spectrum management activities. The amount the     Government from year-to-year, consistently
FCC is required to recover is included in the      using generally accepted accounting principles
FCC’s annual appropriations. Regulatory fees       (GAAP).
are collected and deposited directly into the
                                                   The FCC, as of September 30, 2004, has
Treasury to offset the FCC’s appropriations for
                                                   evaluated its financial systems:
the current fiscal year. In FY 2004, the FCC was
expected to collect approximately $273 million;    •   Federal Financial System (FFS) – the FCC’s
the Commission collected over $285 million,            central accounting system.
approximately $12 million more than required by    •   Revenue & Accounting Management
Congress.                                              Information System (RAMIS) – the system
                                                       that handles collections and accounts
Legal Compliance, Systems, and Controls                receivables specific to the FCC. It is
                                                       designed to interface with FFS and the
Legal Compliance                                       FCC’s licensing systems.
                                                   •   BEAMS – this cost allocation software
Like other Federal agencies, the FCC must              implemented October 1, 2003, supports the
comply with statutes and regulations related to        partnership between program and financial
appropriations, safety and health, and                 managers; assures the integrity of
employment. The Office of the Managing                 information for decision-making; and
Director’s     (OMD)      financial   compliance       measures the full cost of FCC’s programs.
responsibilities     include:       implementing       The BEAMS supports the Statement of Net
accounting and financial policies, systems, and        Cost for the financial statements, as well as
reports; improving the reliability of financial        detailed budget execution and FTE reporting
information; implementing debt collection; and         to improve management of Commission
implementing financial management legislation,         resources and cost effectiveness of agency
regulation, and guidance.                              programs.
In the FCC’s efforts to comply with applicable     •   The FCC contracted out the activities related
legislation, regulation, and guidance, effective       to loan servicing for the portfolio, document
management and system controls are essential.          management, and Uniform Commercial
Although the FCC has significantly improved its        Code (UCC) review and filing services. The
management controls, additional improvement is         FCC completed the transfer of loan data to
needed, as indicated by the results of the             its contractor by September 30, 2003, with
FY 2003 financial statement audit. The FCC’s           the full loan servicing implemented as of
efforts to address instances noted of non-             October 1, 2003.        The contracted loan
conformance with laws and regulations identified       servicer’s records now function as the
in the audit are described in Exhibit 2.               system of record for the FCC’s loan
Systems                                                program.
Federal Financial Management Improvement           Federal Information Security Management Act
Act of 1996                                        of 2002
The Federal Financial Management Improvement       The Federal Information Security Management
Act (FFMIA) requires each agency to implement      Act (FISMA) focuses on program management,
and maintain financial management systems that     implementation, and evaluation of the security of
comply substantially with Federal financial        non-national and national security information
management systems requirements, applicable        systems. The FISMA codifies existing OMB
Federal accounting standards, and the U.S.         security policies, OMB Circular A-130,
Government Standard General Ledger at the          Appendix     III,   and    reiterates    security


8          PERFORMANCE AND ACCOUNTABILITY REPORT          FISCAL YEAR 2004
    CHAPTER 1: MANAGEMENT’S DISCUSSION AND ANALYSIS

responsibilities outlined in the Computer Security   service disruption or disaster.      The FCC
Act of 1987, the Paperwork Reduction Act, and        successfully tested its IT DRP during the May
the Clinger-Cohen Act of 1996. In addition,          2004 Federal Government-wide continuity of
FISMA requires annual agency program reviews         operations exercise, “Forward Challenge ‘04.”
and annual independent evaluations for both non-
                                                     Security Planning
national and national security information
systems.                                             As required by OMB Circular A-130, Appendix
                                                     III, and the Computer Security Act of 1987, the
Risk Assessment
                                                     FCC Computer Security Program (CSP) has
Risk assessments are an integral aspect of the       developed and maintains system security plans
FCC's security tests and evaluations (ST&Es)         (SSP) for both FCC general support systems and
that support the certification and accreditation     all 19 major applications. The SSP’s purpose is
(C&A) process.        The ST&Es have been            to provide an overview of the system’s security
completed for all 19 major applications and two      requirements and to delineate responsibilities of
general support systems. In addition, C&As have      all individuals who access the system.
been completed as of September 30, 2004.
                                                     Computer Security Incident Response
Security Training
                                                     The CSP coordinates all FCC computer security
All FCC users are provided computer security         incidents for topics including attempted hacking,
training. Training generally includes, but is not    computer virus infection, unauthorized system
limited to, discussion of computer security          access, lost IT-related devices, and other related
basics, acceptable computer practices, and an        matters. The CSP works with internal FCC
overview of Federal and FCC computer security        Information Technology Center technical staff,
policies and procedures.        Users requiring      the Inspector General, and external agencies such
administrative privileges to FCC systems are         as the Department of Homeland Security’s
given additional advanced computer security          Federal Computer Incident Response Capability
training.     The FCC provides the following         and National Infrastructure Protection Center,
training:                                            and the Federal Bureau of Investigation. To help
• New user computer security orientation             FCC staff respond to computer security-related
     training;                                       incidents, the FCC CSP published and distributed
                                                     the FCC Computer Incident Response Guide and
• Quarterly training;                                Computer Incident Response Team Desk
• Annual training;                                   Reference Guides.
• Ad hoc security briefings;                         Through these activities, policies, and
• Monthly computer security notices; and             procedures, the system’s owners are well aware
                                                     of their responsibilities for safeguarding against
•   Computer security alerts and advisories.
                                                     known vulnerabilities, system flaws, and
Disaster Recovery Plan                               weaknesses that may be exploited by threat
                                                     sources.
The FCC has implemented significant elements
of a full Continuity of Operations Plan (COOP).      Internal Control
Additionally, the FCC has implemented an
                                                     The FCC maintains internal control for financial
Information Technology Disaster Recovery Plan
                                                     reporting that provides reasonable assurance that
(IT DRP). As part of the IT DRP, a business
                                                     the financial statements do not contain material
impact analysis (BIA) and an alternate processing
                                                     misstatement and fairly present information
options analysis (APOA) were completed to
                                                     related to assets, liabilities, and net position.
ensure that mission critical systems are included
                                                     Transactions are executed in accordance with
in the plan. The IT DRP establishes thorough
                                                     budgetary and financial laws, consistent with
plans and procedures and technical measures that
                                                     FCC statutory requirements, and are recorded in
allow the FCC network and applications to be
                                                     accordance with Federal accounting standards.
recovered quickly and effectively following a

FEDERAL COMMUNICATIONS COMMISSION                                                                  9
                                        FEDERAL COMMUNICATIONS COMMISSION

Additionally, assets are properly acquired, used,    Offices,4 which often combine internally-
and safeguarded to deter theft, accidental loss or   generated data and externally provided data from
unauthorized disposition, and fraud. Further,        Government surveys such as the Current
FCC’s internal control provides for the existence    Population Survey and industry data. In other
and completeness of the performance measures,        cases, it is provided by outside sources.
as required by OMB Bulletin 01-09, Form and
                                                     Program Evaluations & Streamlining Activities
Content of Agency Financial Statements.
                                                     Due to the compressed timetable for the financial
The FCC received an unqualified opinion in
                                                     audit and the Performance and Accountability
FYs 2002 and 2003; however, the auditors found
                                                     Report, staff attention was devoted to revising the
certain material weaknesses and reportable
                                                     format and content of the report to meet OMB’s
conditions. The Independent Auditors’ Report
                                                     new reporting requirements. However, the FCC
on Internal Control and the FCC management’s
                                                     continued to focus on key vulnerability issues in
response included at the end of this report detail
                                                     its financial and information security programs.
the Commission’s efforts to address these issues
in FY 2004.                                          Thirty-four vulnerability or risk assessments
                                                     were completed during FY 2004. Of the total, 19
Government Performance and Results Act of
                                                     were related to information technology ST&Es
1993
                                                     discussed in the FISMA section above. Four
The GPRA implemented strategic planning and          vulnerability      assessments scheduled    for
performance measurement in the Federal               completion during FY 2004 were postponed until
Government. The GPRA encourages agencies to          the first quarter of FY 2005.
shift    the     decision-making      focus   and
                                                     Additionally, the GAO completed eleven studies
accountability from program outputs to the
                                                     or reports during the fiscal year; eight studies are
results of those activities. As required by GPRA,
                                                     still ongoing. Several of the studies focused on
the FCC has developed its FYs 2003-2008
                                                     Government-wide programs while others focused
Strategic Plan; the FY 2005 performance budget,
                                                     on topics specifically related to the FCC such as
which incorporates the previously-required
                                                     the USF e-rate program (Schools and Libraries
annual performance plan; and the FY 2004
                                                     mechanism), Direct Broadcast Satellite (DBS)
Annual Program Performance Report, included
                                                     and cable competition, and the transition from
as Chapter 2 of this report.
                                                     analog to digital television.
Performance Data Completeness and Data
                                                     The FCC continues to streamline its regulatory
Reliability
                                                     fee assessment and collection program. In
The performance data presented in this report is     FY 2004, the FCC sent bills for regulatory fees
complete and reliable, as defined in OMB             owed to Interstate Service Providers and satellite
guidance. The FCC is dedicated to properly and       companies. It sent assessment letters to all
effectively managing its mission and resources.      Commercial Mobile Radio Services (CMRS),
The FCC uses numerous methods and techniques         cable companies, and media licensees. Through
to verify and validate the completeness and          this initiative, the FCC developed a
reliability of data underlying its outcome           comprehensive list of cell phone companies and
indicators. Methods include: certification of        related information, which provided the FCC
reliability from data providers; a general program   with a more accurate estimate of the number of
of review and evaluation conducted by the            active lines for which each company pays
Performance       Evaluation       and     Records   regulatory fees. The FCC plans to continue these
Management (PERM) staff in OMD; and audits,          initiatives in FY 2005 by reviewing, analyzing,
reports, and reviews performed by other groups,
such as the Office of Inspector General (OIG)
and Government Accountability Office (GAO).          4
                                                        Data sources include FCC programmatic reports and
In general, the expected data sources are internal   application processing systems, inquiry and complaint
                                                     tracking systems, enforcement reporting systems, and hiring
reports generated by various FCC Bureaus and         and training systems.


10          PERFORMANCE AND ACCOUNTABILITY REPORT            FISCAL YEAR 2004
    CHAPTER 1: MANAGEMENT’S DISCUSSION AND ANALYSIS

and updating its licensee and financial databases     The PART team plans to finalize performance
and billing additional services each year.            measures for the E-Rate Program and seek OMB
                                                      approval in FY 2005.
A workforce planning report was completed and
approved by the Chairman. The report includes         Treasury Performance Measure Summary
an assessment of the challenges confronting the
                                                      Treasury uses five key performance measures to
agency and the extent to which the agency has
                                                      assess agency compliance with Federal Agencies
the appropriate mix of skills and staff to meet
                                                      Centralized Trial Balance System (FACTS I) and
those challenges. The report pinpointed a need
                                                      intragovernmental reporting activities. Overall,
for additional attorneys, engineers and
                                                      for FY 2003 the FCC complied with the reporting
economists. The FCC obtained Voluntary Early
                                                      requirements for timely reporting, reconciliation
Retirement Authority (VERA) from the Office of
                                                      of beginning and ending net position, reliability
Personnel Management in July 2004 as a way to
                                                      of FACTS I reporting, consistency of audited
help reshape the agency's workforce.
                                                      financial statements to FACTS I reporting, and
The FCC initiated a multiyear effort to improve       intragovernmental activity for elimination of
on-line capabilities for citizens, businesses, and    differences. The FCC will report on FY 2004
other organizations that use FCC electronic           FACTS II and intergovernmental reporting
licensing systems.      Working to evolve an          activities in the FY 2005 PAR.
“enterprise-wide” strategy to integrate the diverse
                                                      Inspector General Act of 1978
licensing systems, a cross-functional team of
stakeholders was commissioned to produce a            The Inspector General Act of 1978, as amended,
shared vision for electronic licensing systems.       requires semi-annual reporting on Inspector
The modernization plan will focus on enhancing        General audits and related activities, as well as
the overall licensing experience for FCC              agency follow-up. During the period from
customers, updating the technical infrastructure,     October 1, 2003, through September 30, 2004,
integrating the customer support functions and        management completed action on 165
implementing customer-driven enhancements.            outstanding recommendations, most of them
                                                      related to issues posed by the Commission’s
During FY 2004, the Commission continued to
                                                      former collection system which was almost fully
participate in OMB’s Program Assessment Rating
                                                      replaced by RAMIS in FY 2004.             As of
Tool (PART), addressing the Schools and
                                                      September 30, 2004, 20 reports were one year or
Libraries (E-rate) program of the USF. Through
                                                      more old, with a total of 175 recommendations
this program, Congress sought to expand access
                                                      for which completion of corrective action was
of elementary and secondary schools/classrooms
                                                      pending.      The majority of these pending
and libraries to advanced telecommunications
                                                      recommendations concern matters identified in
services. The FCC took several steps to assess
                                                      the Commission’s annual financial reports issued
the program in FY 2004:
                                                      for fiscal years 1999 through 2003.
•   Established an internal PART team to review       Debt Collection Improvement Act of 1996
    and      revise     existing    performance
    measurements for the E-Rate Program.              The Debt Collection Improvement Act of 1996
•   Met with the GAO to discuss the status of E-      (DCIA) requires Federal agencies to transfer to
    Rate performance measurement revisions.           the Treasury for debt collection any non-tax debt
•   Trained PART team staff on the development        over 180 days delinquent.             In cases of
    of performance measurements.                      delinquency, the full amount of outstanding debt,
•   Discussed the timeline for developing             including outstanding principal, past-due interest,
    performance measures.                             and late fees, will be accelerated and must be
•   Conducted further research with the               paid in full. Failure to pay in full upon demand
    Department of Education.                          results in transfer of the debt to Treasury for debt
                                                      collection and assessment of additional interest,
                                                      penalties, and other administrative charges.


FEDERAL COMMUNICATIONS COMMISSION                                                                    11
                                         FEDERAL COMMUNICATIONS COMMISSION

In FY 2004, the Commission adopted a Report &             third-party fraud, waste, and abuse, the FCC
Order to fully implement DCIA, and adopted                designated two programs – USF’s Schools
rules governing the collection of debts owed the          and Libraries and High Cost Support
Commission, consistent with the DCIA and the              Programs - as subject to a significant risk for
implementing regulations adopted by the                   erroneous payments.
Department of the Treasury. The FCC’s DCIA
                                                      •   It is expected that during FY 2005 the FCC
rules also increased the Commission’s authority
                                                          will begin hundreds of audits in order to
to compromise, suspend, or terminate debts up to
                                                          draw statistical conclusions about the error
$100,000, and increased the minimum amount of
                                                          rate due to third-party fraud, waste, and
debt that may be transferred to the Department of
                                                          abuse in each of these two programs. Once
Justice to $2,500. On November 1, 2004, the
                                                          the statistical conclusions are drawn, actions
FCC implemented the “Red Light” rule, which
                                                          to address the error rate and continued
will dismiss pending applications if delinquent
                                                          corrective action to reduce that rate will be
debt is not paid or otherwise resolved. The Red
                                                          implemented over the next several fiscal
Light rule also will require all licensing systems
                                                          years.
and Bureau/Office staff to check for delinquent
debt before issuing a license, permit, or grant.      •   The FCC will complete these audits as soon
On May 17, 2004, the FCC posted the final rule            as possible, although the sheer level of audit
implementing DCIA and delegation amendments               work necessary will likely cause the project
in the Federal Register. These requirements               to continue through FY 2005.
became effective June 16, 2004, with the
                                                      As noted, the FCC has identified two key USF
exception of the Red Light rule, which took
                                                      programs, Schools and Libraries Program and High
effect November 1, 2004.
                                                      Cost Support Program, where further review will
In FY 2004, the FCC transferred to Treasury           be conducted to identify improper payment
outstanding debt totaling $26.1 million for loans     reductions in the future. The FY 2004 outlays for
and accounts receivable, of which debt                these programs were significant at $1.5 billion and
outstanding from the reporting components             $3.4 billion, respectively.
amounted to $12.3 million
                                                      Federal Managers’ Financial Integrity Act of
Improper Payments Information Act of 2002 –           1982
Narrative Summary of Implementation Efforts
                                                      In accordance with the Federal Managers’
for FY 2004 and Agency Plans for
                                                      Financial Integrity Act (FMFIA), the FCC
FY 2005-2007
                                                      identified corrective actions taken during
The Improper Payments Information Act (IPIA)          FY 2004 to address material weaknesses and
requires Federal agencies to report annually on       reportable conditions related to internal control.
the extent of improper payments and on actions
                                                      Examples of our success in improving our
taken to reduce such payments. The FCC’s
                                                      financial activities include action requiring the
FY 2003 Report to Congress on Improper
                                                      USF be maintained under Federal Government
Payments noted:
                                                      accounting standards effective October 1, 2004,
•    After conducting a complete inventory, the       and the adoption of DCIA requirements for the
     FCC identified eight programs for analysis.      Commission. The simple announcement of the
                                                      DCIA implementation and its strengthened
•    The FCC statistically tested all eight
                                                      collection procedures, and related enforcement
     programs on a pure disbursement basis; we
                                                      activities, increased USF collections sufficiently
     can state, with 90% confidence, that the error
                                                      to help reduce contribution rates for two
     rate in each of these programs is less than
                                                      quarters this fiscal year. We expect that full
     2.5%.
                                                      implementation of both changes will provide
•    Based on an abundance of caution, and            added assurance that all those dealing with the
     because the Commission is not yet in a           FCC are treated equitably and paying only their
     position to determine the error rate due to      fair share of the costs of agency operations.


12           PERFORMANCE AND ACCOUNTABILITY REPORT           FISCAL YEAR 2004
   CHAPTER 1: MANAGEMENT’S DISCUSSION AND ANALYSIS

Our success continues to create new challenges.     improvements continue and new challenges arise.
Since the passage of the Telecommunications         We maintain our commitment to strong financial
Act, the USAC has managed the USF, under the        tracking and reporting as one tool to assure the
direct supervision of the FCC, but under            most efficient use of those scarce resources
accounting rules governing not-for-profit           provided to us.
entities. In 1999, when the FCC initiated efforts
                                                    This is the first year the FCC is incorporating the
to compile its first financial statements, it was
                                                    FMFIA statement of assurance and findings into
determined      that     Federal     Government
                                                    the Performance and Accountability Report. The
management requirements apply to the USF. In
                                                    FCC has used this opportunity to align more
FY 2002, our auditors recognized the growing
                                                    closely the discussion of material weaknesses and
risk associated with the lack of system
                                                    instances noted of non-conformance identified by
integration as a material weakness.           On
                                                    the FCC’s auditors, OIG, and GAO.
September 26, 2003, the Commission acted to
require the USF to conform to governmental          In FY 2004, the auditor’s identified six material
accounting rules and other applicable rules and     weaknesses related to the Commission’s internal
regulations.                                        controls. These include auctions transactions,
                                                    oversight of reporting components, USF financial
The FCC OIG, in conjunction with the
                                                    accounting and reporting controls, reporting
Department of Justice and the Federal Bureau of
                                                    components’ budgetary accounting, information
Investigation, are conducting investigations of
                                                    technology, and cost allocation logic. The FCC
beneficiaries of the USF as an outgrowth of our
                                                    will continue to address these material
financial statement audit process. The audits
                                                    weaknesses in FY 2005.
have identified instances of both failure to
follow program rules and actual fraud. The          Due to the timing of this report, Exhibits 1 and 2
FCC increased funding to the Inspector General      detail the pending and completed FMFIA
to conduct more audits, and the USAC                material weaknesses and instances noted of non-
expanded an internal audit staff to conduct more    conformance, respectively, resulting from the
investigations. Many of the problems identified     FY 2003 audit findings, including the year first
are related to the initial years of the program     identified, the targeted corrective action date, key
and have already been corrected, though the         milestones for corrective action, and instances
amounts involved are material. The FCC              where the agency was not able to meet key
continues to pro-actively pursue changes in the     milestones from the previous year. The FCC’s
Universal Service Program to enhance                first financial statement audit in FY 1999
effectiveness and efficiency. The schools and       identified numerous recommendations related to
libraries support mechanism is significant when     material weaknesses and instances noted of non-
compared to the operations of the FCC, and          conformance. As shown in the tables below,
challenges remain to monitor and assure that the    over the past five years, the FCC has undertaken
program disbursements made obtain the greatest      many corrective actions to address the material
possible benefits.                                  weaknesses and instances noted of non-
                                                    conformance identified by OIG, GAO, and the
Reporting under FMFIA and conducting annual
                                                    independent auditors.
financial audits under the Chief Financial
Officer’s Act – and now the Tax Accountability
Act of 2002 – is challenging. We annually
exceed FMFIA requirements by including in our
report material weaknesses and instances noted
of non-conformance identified by our auditors.
For FY 2005, financial management has been
added to managers’ annual evaluation standards.
Also, a new cost accounting system is providing
information to all levels of management on the
costs of agency activities.      Our financial

FEDERAL COMMUNICATIONS COMMISSION                                                                  13
                                                          FEDERAL COMMUNICATIONS COMMISSION


                                          Exhibit 1: FMFIA Material Weaknesses
              Material Weakness                               Targeted
                                                  FY First
(Identified in the FY 2003 Financial Statement                Corrective   Milestones for Corrective Action               Status
                                                 Identified
       Audit Report on Internal Control)                       Action

I. Financial Reporting
     A. Integrate Financial Management
          Systems:

          FCC’s Core Financial System              1999         2005       Convert to an integrated loan processing       Completed
                                                                           system. (10/01/03)
                                                                           Convert to an integrated cost accounting       Completed
                                                                           system. (10/01/03)
                                                                           The Auctions module was moved to               Completed
                                                                           Production on 07/25/04. Processing in the
                                                                           module began in August 2004. (7/25/2004)
                                                                           The International Telecommunication            In progress
                                                                           Settlements (ITS) module was accepted into
                                                                           Production on 9/27/04. The ITS module will
                                                                           start to be used in October 2004. (Target:
                                                                           11/30/2004)

          FCC’s Reporting Component’s Core         1999         2005       Adopt an FCC order requiring USF               Completed
          Financial Systems                                                components to adhere to Federal GAAP by
                                                                           10/01/04. (9/26/03)
                                                                           Incorporate Federal GAAP requirements into     Completed
                                                                           the new NANP contract being issued in
                                                                           FY 2004. (04/05/04)
                                                                           Monitor and evaluate the component’s           In progress
                                                                           implementation of Federal GAAP compliant
                                                                           accounting systems. (Target: 6/30/05)

    B.    Spreadsheet Subsidiary Ledger            1999         2004       Convert to an integrated loan processing       Completed
          Systems                                                          system. (10/01/03)
                                                                           Implement the Auctions accounting module       Completed
                                                                           in RAMIS. (11/30/03)

    C.    Timely Recording and Analysis of the     1999         2004       Convert to an integrated loan processing       Completed
          FCC and its Reporting Components’                                system. (10/01/03)
          Financial Activities

    D.    FCC’s Supervisory Review of the USF      1999         2005       Conduct quality control reviews on USF and     Ongoing
          Financial Reporting Process                                      NANP financial submissions. (Ongoing)
                                                                           Monthly meetings are being held to discuss     Completed
                                                                           financial reporting issues. (Monthly)
                                                                           Obtain copies of the USAC policies and         Completed
                                                                           procedures for quick reference. (06/30/04)
                                                                           Finalize FCC policies and procedures related   In progress
                                                                           to reporting components with the adoption of
                                                                           the FCC Order dated September 26, 2003.
                                                                           (Target: 9/30/05)

    E.    Federal Financial System Setup and       2000         2004       Modify posting models to eliminate posting     Completed
          Posting Model Definitions                                        of expended appropriation entries to non-
                                                                           appropriated accounts. (03/31/04)
                                                                           Conduct, on a yearly basis, a review of the    Completed
                                                                           current SGL chart of accounts for compliance
                                                                           with the most recent Treasury Financial
                                                                           Manual. (Completed, but will be an ongoing
                                                                           process)




         14            PERFORMANCE AND ACCOUNTABILITY REPORT                     FISCAL YEAR 2004
             CHAPTER 1: MANAGEMENT’S DISCUSSION AND ANALYSIS


              Material Weakness                               Targeted
                                                  FY First
(Identified in the FY 2003 Financial Statement                Corrective   Milestones for Corrective Action                   Status
                                                 Identified
       Audit Report on Internal Control)                       Action
II. Auction Transactions                           2003         2005       Establish a working group to address unbilled      Completed
                                                                           withdrawal and default penalties. (12/31/03)
                                                                           All withdrawal and default penalties have          In progress
                                                                           been identified and a master list is being
                                                                           prepared to track licenses status. Procedures
                                                                           and final list will be in place within the first
                                                                           quarter of FY 2005 (Target: 12/31/2004)
                                                                           Receivables have been set up for all amounts       In progress
                                                                           where default letter has been released. WTB
                                                                           is in the process of completing the remaining
                                                                           letters and finalizing the list of withdrawn and
                                                                           defaulted licenses. Receivables will be set up
                                                                           as the letters are released by WTB and
                                                                           received in OMD. It is expected that all
                                                                           receivables will be set up and current within
                                                                           the first quarter of FY 2005. (Target:
                                                                           12/31/2004)
                                                                           Finalized receivables will be tracked against      In progress
                                                                           the $12 million accrued at the end of
                                                                           FY 2003. (Target: 12/31/2004)

III. Cost Accounting
      A. Cost Accounting System                    2000         2005       Convert to an integrated cost accounting           Completed
                                                                           system. (10/01/03)
                                                                           Re-define FCC units of output and modify           Planning
                                                                           BEAMS to account at that level. (Target:
                                                                           06/30/05)

     B.   Cost Allocation Process and Cost         2000         2004       Convert to an integrated cost accounting           Completed
          Finding Techniques                                               system. (10/01/03)

     C.   Matching Revenues to Costs               2000         2005       Develop a methodology for allocating               Planning
                                                                           revenues on the basis of cost incurred.
                                                                           (Target: 06/30/05)
                                                                           Modify BEAMS to implement the                      Under evaluation
                                                                           methodology. (Target: 06/30/05)

IV. USF Financial Reporting: Accounting and        2001         2005       Adopt an FCC order requiring USF                   Completed
     Reporting Controls                                                    components to adhere to Federal GAAP by
                                                                           10/01/04. (9/26/03)
                                                                           Establish monthly meetings to discuss              Completed
                                                                           financial reporting issues. (Completed, but
                                                                           monthly meetings are ongoing)                      Completed
                                                                           Obtain copies of the USAC policies and
                                                                           procedures for quick reference. (6/30/04)          In progress
                                                                           Monitor and evaluate the component’s
                                                                           implementation of Federal GAAP compliant
                                                                           accounting systems. (Target: 06/30/05)




          FEDERAL COMMUNICATIONS COMMISSION                                                                                         15
                                                            FEDERAL COMMUNICATIONS COMMISSION


              Material Weakness                                 Targeted
                                                    FY First
(Identified in the FY 2003 Financial Statement                  Corrective   Milestones for Corrective Action                Status
                                                   Identified
       Audit Report on Internal Control)                         Action
V. Information Technology (IT)
     A. Compliance with OMB Circular No.             1999         2004       Complete the Security Plan for one of the       Completed
         A-130 Requirement for a                                             major application systems. (6/09/04)
         Comprehensive Security Plan                                         Complete system for periodic reviews.           Completed
                                                                             (2/23/03).
                                                                             Complete risk assessments for all major FCC     Completed
                                                                             applications and networks. (9/24/2004)
                                                                             Issue certification and accreditation for all   Completed
                                                                             critical FCC systems and networks. (9/24/04)
                                                                             Revise existing Commission-wide security to     In progress
                                                                             include new requirements set-forth in
                                                                             FISMA. (Target: 2/28/05).
                                                                             Enhance audit trail capability. (Target:        Planning
                                                                             2/28/05)


    B.    Accelerate Efforts to Develop and Test     1999         2004       Complete testing and training on Disaster       Completed
          FCC’s Contingency Plan                                             Recovery Plan (DRP). (5/17/04)


    C.    Strengthen the Password Controls for       2003         2004       Implement password changes to comply with       Completed
          USF Major Applications to Comply                                   requirements. (9/30/04)
          with FIPS PUBS 112 Password Usage


    D.    Perform Risk Assessments and               2003         2005       Complete the FFMIA, OMB, and NIST               Completed
          Develop Security Plans for all USF                                 requirements gap analysis. (10/31/04)
          Major Applications to Ensure USF                                   Develop a risk assessment and security plan     Completed
          Compliance with OMB Circular No.                                   for each major application and network.
          A-130 Requirements                                                 (10/31/04)
                                                                             Remediate manageable discrepancies              Completed
                                                                             between the plans and the systems state.
                                                                             (10/31/04)

    E.    Periodically Review and Update the         2003         2005       See section V.D. above. (11/04)                 Completed
          Disaster Recovery Manual and Test
          Results for the USF




         16            PERFORMANCE AND ACCOUNTABILITY REPORT                       FISCAL YEAR 2004
             CHAPTER 1: MANAGEMENT’S DISCUSSION AND ANALYSIS


                                          Exhibit 2: FMFIA Non-Conformances
                 Non-Conformances                                      Targeted
                                                           FY First
(Identified in the FY 2003 Financial Statement Audit                   Corrective   Milestones for Corrective Action            Status
                                                          Identified
 Report on Compliance with Laws and Regulations)                        Action

I. Chief Financial Officers Act of 1990                     1999                    See Sections I. through V. in
     A. FCC’s financial management systems do not                                   Material Weaknesses Milestones for
          comply with certain accounting standards and                              Corrective Action.
          requirements, and internal control standards.
     B. FCC’s financial management system is not
          fully integrated.
     C. Direction, policy guidance memorandum for
          FCC’s financial statement preparation and
          oversight of the reporting components’
          financial operations are inadequate.

II. OMB Circular No. A-129, Policies for Federal
Credit Programs and Non-Tax Receivables
     A. Required loan documentation was not found           1999         2004       Licenses began as payment plans        Completed
          for Narrowband licenses.                                                  and were subsequently brought
                                                                                    under credit reform. All 11 licenses
                                                                                    have defaulted and documents will
                                                                                    never be obtained.
III. Debt Collection Improvement Act of 1996                2002         2004       Establish DCIA procedures with         Completed
      A. Reportable conditions – FCC needs to                                       outside reporting components.
          develop TROR policies and procedures to                                   (12/31/03).
          include the Treasury referral requirement
      B. Refer debt within 180 days
      C. Perform delinquency debt letter procedures

IV. Federal Financial Management Improvement Act of
1996
     A. Integrated Financial Management System              1999                    See Section I.A. in the Material
                                                                                    Weaknesses Milestones for
                                                                                    Corrective Action.

     B.   Agency-wide Financial Information                 2000                    See Section I.D. in the Material
          Classification Structure                                                  Weaknesses Milestones for
                                                                                    Corrective Action.

     C.   Security                                          1999                    See Section V. in the Material
                                                                                    Weaknesses Milestones for
                                                                                    Corrective Action.

V. Federal Accounting Standards                             2000                    See Section III. in the Material
    A. FCC was not able to produce managerial cost                                  Weaknesses Milestones for
         Information consistent with standards in the                               Corrective Action.
         SFFAS No. 4.
    B. Cost Allocation Process and Cost Finding
         Techniques.
    C. Matching Revenues to Costs.

VI. U.S. Standard General Ledger at Transaction Level                               See Section I.C. and I.D. in the
     A. Federal financial system setup and posting          1999                    Material Weaknesses Milestones for
          models do not fully comply with the                                       Corrective Action.
          transaction posting models.
     B. Accounting transactions of the reporting            2000
          components were not recorded in a manner
          consistent with the account definitions and
          posting models/attributes.




          FEDERAL COMMUNICATIONS COMMISSION                                                                                     17
                                 FEDERAL COMMUNICATIONS COMMISSION



This page intentionally left blank




18       PERFORMANCE AND ACCOUNTABILITY REPORT   FISCAL YEAR 2004
2. Program Performance




 The combinations of telecommunications networks and services that the FCC
 oversees means that any one item before the Commission touches on more than
 one of our six strategic goals. Each of our strategic goals is interrelated and
 mutually supportive. Internet Protocol-enabled services, for example, may
 involve elements of our Broadband, Competition, Media, and Homeland
 Security goals, depending on the specific issues involved. The highlights
 outlined in each of the strategic goals offer a representation of our achievement
 and may additionally provide support for our other strategic goals. In an effort
 to reduce repetition, we have placed the agency's accomplishments under the
 goals where their impact is most pronounced, but that does not mean their
 effects are isolated to that goal. Indeed, any one accomplishment may be
 directly relevant to our progress in achieving other goals as well.




FEDERAL COMMUNICATIONS COMMISSION                                              19
                                FEDERAL COMMUNICATIONS COMMISSION



This page intentionally blank




20      PERFORMANCE AND ACCOUNTABILITY REPORT   FISCAL YEAR 2004
   CHAPTER 2: PROGRAM PERFORMANCE




                                                                    BROADBAND
                                                                         Strategic Goal:
                                            Establish regulatory policies that promote
                                           competition, innovation, and investment in
                                    broadband services and facilities while monitoring
                                        progress toward the deployment of broadband
                                             services in the United States and abroad.

Broadband provides a high-speed connection enabling consumers to access an ever-increasing array of
information, applications and services that are fundamental to the communications revolution. The
technology offers consumers access to vast amounts of data, telephony applications, streaming video,
music, entertainment options, games, and commerce - enabling improved interactions among people.
Moreover, broadband networks reduce geographic barriers to information and bypass information
intermediaries.

Broadband deployment and adoption are on the rise. While adoption of broadband continues to be in
early stages, providers increasingly are offering services with increasing speed and functionality, and
consumers increasingly have choices available to them. Subscribership to broadband services continues
to grow steadily. Existing and emerging technologies are closing the gaps in access for certain groups of
consumers, including those in rural areas. In addition, consumer demand for increased connection speeds
should lead to future availability of network services with greater broadband speeds. In its effort to
expand the availability of broadband services, the FCC has established three outcome indicators to
                                          measure its progress.

                                         Performance Goal
                                             ─ Broaden the deployment technologies across the United
                                               States and globally


                                         Outcome Indicators
                                             ─ Increasing access to broadband services
                                             ─ Increasing access to broadband services and devices
                                               across multiple platforms: DSL, cable modem, satellite,
                                               terrestrial wireless, etc.
                                             ─ Increasing number of types of unlicensed/licensed
                                               wireless broadband devices




FEDERAL COMMUNICATIONS COMMISSION                                                                   21
                                         FEDERAL COMMUNICATIONS COMMISSION


HIGHLIGHTS
     •   Advanced Services Inquiry – Released Fourth Report to Congress concluding that advanced
         telecommunications capability (broadband) is being made available to all Americans on a
         reasonable and timely basis.
     •   Local Telephone Competition and Broadband Reporting Notice of Proposed Rulemaking
         (NPRM) – Released rulemaking seeking comment on extending the Form 477 local competition
         and broadband data gathering program for five years beyond the current March 2005 sunset and
         proposing specified improvements.
     •   Triennial Review Order – Established new limited unbundling regime for Fiber-to-the-Home and
         Hybrid Fiber-Copper Loops that maximizes incentives for deployment of broadband facilities by
         incumbent local exchange carriers and other entrants. The D.C. Circuit upheld this part of the
         Triennial Review Order.
     •   Voice over Internet Protocol (VoIP) Petitions – Resolved the Pulver Free World Dial Up
         Proceeding and the AT&T Internet Protocol (IP) Telephony Petitions clarifying regulatory status
         of VoIP services in question.
     •   VoIP Proceedings – Released for comment the IP Enabled Services proposed rulemaking, SBC
         VoIP Petition for a Waiver of the Commission's Numbering Rules, Inflexion Communications
         Petition for a Declaratory Ruling, Federal Bureau of Investigation’s (FBI) Communications
         Assistance to Law Enforcement Act (CALEA) Petition, SBC’s IP Platform Forbearance Petition,
         and Level 3's Petition for Forbearance. See Competition Section.
     •   BellSouth Petition – Released for comment BellSouth petition seeking declaratory ruling that
         State Commissions may not regulate broadband Internet Access Services by requiring BellSouth
         to provide such services to Competitive Local Exchange Carrier (CLEC) Voice Customers.
     •   VoIP Litigation – Filed Amicus briefs before 2nd and 8th Circuits in litigations reviewing the
         regulatory status of the Vonage VoIP over broadband service.
     •   VoIP Solution Summits – Hosted Solution Summits: VoIP and Access by Individuals with
         Disabilities, Global Roundtable Discussion on IP Based Services, and Voice over IP Forum.
     •   Rural Health Care – Expanded availability of funding to subsidize provision of broadband to
         medically underserved communities in rural areas.
     •   Schools and Libraries – Adopted measures to protect against waste, fraud and abuse in program
         that supports broadband for eligible schools and libraries.
     •   Cable Modem Service – Filed Petition for Writ of Certiorari with the Supreme Court for review
         of the judicial decision on the 2001 Declaratory Ruling that cable modem service should be
         classified as an information service. Continue to evaluate implications of current legal status for
         the cable modem service.
     •   Advanced Wireless Services (AWS) – Allocated and established licensing rules for 90 megahertz
         of spectrum that can be used for advanced wireless services; evaluating additional spectrum for
         AWS use. Worked with National Telecommunications and Information Administration (NTIA)
         on issues related to relocation of Government incumbents. On September 9, 2004, the FCC
         proposed an additional 20 MHz of spectrum that can be used to offer a variety of broadband and
         AWS, potentially including “third generation” wireless services.
     •   Multichannel Distribution Service (MDS) & Instructional Television Fixed Service (ITFS) –
         Adopted new rules to provide a less complicated and more flexible structure for the 2.5 GHz
         band. The MDS and ITFS services were renamed the Broadband Radio Service and the


22         PERFORMANCE AND ACCOUNTABILITY REPORT                FISCAL YEAR 2004
   CHAPTER 2: PROGRAM PERFORMANCE

       Educational Radio Service, respectively, which more accurately describe the kind of services the
       Commission anticipates in this band.
   •   70, 80, 90 Gigahertz (GHz) Bands – Established innovative framework for allowing commercial
       use of spectrum in the 70, 80, 90 GHz bands. Granted the first licenses for this service.
   •   Secondary Markets – Adopted new rules to promote the use of secondary markets for companies
       and to provide more commercial flexibility in obtaining spectrum. In addition, the spectrum
       leasing initiative makes spectrum more easily accessible to wireless operators interested in
       serving niche markets.
   •   Rural America – Adopted Report & Order adopting several measures designed to promote access
       to spectrum, facilitate capital formation and increase licensee flexibility in order to facilitate the
       deployment of wireless services in rural areas.
   •   Partnerships with Other Agencies – Formed a strategic partnership with the Appalachian
       Regional Commission (ARC) to address telecommunications issues, including the benefits of
       broadband deployment, holding; for example, a two-day program in Tennessee, in cooperation
       with the Tennessee Regulatory Authority and the Rural Utilities Service (RUS) of the United
       States Department of Agriculture (USDA) highlighting telemedicine, homeland security, and
       policies to bring advanced services to Appalachia. The FCC is also launching similar, broad-
       based outreach efforts in the Delta Region of the country, in cooperation with the Delta Regional
       Authority.
   •   Unlicensed Spectrum 5 GHz Band – Made available an additional 255 megahertz (MHz) of
       spectrum in the 5.470 - 5.725 GHz band for unlicensed devices.
   •   Vacant TV Channels – Proposed rules to facilitate wireless broadband services using vacant TV
       channels.
   •   Wireless Broadband Access Task Force – Established the Wireless Broadband Access Task Force
       to identify potential policy changes that will further facilitate the deployment of wireless
       broadband services.
   •   Broadband Over Powerline (BPL) – Proposed rules for carrier current systems that provide access
       to broadband services using electric utility companies’ power lines. BPL will provide broadband
       services into the homes and will give consumers a third choice in broadband providers.
   •   Satellite Broadband in the Ka-band – Licensed ten new Ka-band satellites, capable of providing
       broadband services.
   •   Additions to the Permitted List – Added four foreign licensed satellites to the Permitted List so
       that U.S. earth stations may immediately access those satellites.
   •   Introduction of New Ka-band Service – Authorized the launch of a Canadian Ka-band satellite
       that will enable WildBlue Communications to provide broadband service to U.S. consumers,
       starting in early 2005.
   •   Earth Stations on Vessels – Released a rulemaking for sharing spectrum between earth stations on
       vessels (ESVs) and terrestrial systems in order to provide broadband services to consumers and
       businesses on ocean liners and other ships.
   •   Forums – Hosted Rural Wireless Internet Service Provider (WISP) Forum, Wireless Broadband
       Forum and FCC Satellite Rural Forums to engage stakeholders on broadband issues.
   •   Technology Advisory Council – Convened the Technology Advisory Council to provide the FCC
       with industry advice on broadband, spectrum and VoIP.

FEDERAL COMMUNICATIONS COMMISSION                                                                       23
                                           FEDERAL COMMUNICATIONS COMMISSION



PERFORMANCE MEASURE RESULTS
Increasing access to broadband services. (Outcome 1)
As part of its effort to measure the
deployment of broadband services,                                          High Speed and Advanced Services Lines
                                                                                        (Year End 2001 - 2003)
the FCC classifies broadband in
two     ways:      high-speed     and                   30,000
                                                                                                                    28,230




                                            Thousands
                                                                   High Speed     Advanced Services
advanced. High-speed lines deliver
services at speeds exceeding 200                        25,000


kilobits per second (kbps) in at least                                                            19,882                     20,344
one direction, while advanced                           20,000

services lines deliver services at
speeds exceeding 200 kbps in both                       15,000
                                                                 12,793                                    12,351
directions. Providers with at least
250 high-speed connections in                           10,000
                                                                          7,404
service in a state are required to
report     state-level   data     that                   5,000

demonstrate steady growth in
subscribers to both high-speed and                         -

advanced services.                                                  Dec 2001                          Dec 2002         Dec 2003



As of December 2003,1 subscribers          Source: High Speed Services for Internet Access: Status as of December
to high-speed services were present        31, 2003, FCC Report (released June 8, 2004).
in 93 percent of the zip codes in the
United States.2 There were 28.2 million high-speed lines in service at the end of December 2003, 26.0
million of which were residential and small business.3 This constitutes high-speed line subscriber growth
of 20 percent increase over the previous six months.4 Advanced service lines increased 25 percent during
the second half of 2003, from 16.3 to 20.3 million lines.5
The FCC released a Fourth Report to Congress on September 9, 2004, concluding that advanced
telecommunications capability, or broadband, is being made available to all Americans on a reasonable
and timely basis.6




1
  Advanced Services information is gathered by the FCC on a six month cycle. December 2003 is the latest data
released by the FCC. Data for the first half of 2004 should be released by the FCC soon.
2
   The report on High Speed Services for Internet Access: Status as of December 31, 2003, released June 8, 2004 is
found at: http://www.fcc.gov/Bureaus/Common_Carrier/Reports/FCC-State_Link/IAD/hspd0604.pdf, Table 12,
page 18.
3
  Ibid., Table 1, page 6.
4
  Ibid., Table 3, page 8.
5
  Ibid., Table 2, page 7.
6
  The Fourth Report to Congress is found at: http://hraunfoss.fcc.gov/edocs_public/attachmatch/FCC-04-208A7.pdf.


24         PERFORMANCE AND ACCOUNTABILITY REPORT                                   FISCAL YEAR 2004
     CHAPTER 2: PROGRAM PERFORMANCE


Increasing access to broadband services and devices across multiple platforms: DSL, cable
modem, satellite, terrestrial wireless, etc. (Outcome 2)
Carriers report data on the number of high-speed lines in service in individual states, in total and by
technology deployed in the last few feet to the subscriber’s premises. Relatively large numbers of total
high-speed lines in service are found in the more populous states. As of December 31, 2003, the most
populous state, California, had the largest reported number of high-speed lines. The second, third, and
fourth largest numbers of high-speed lines are reported for New York, Florida, and Texas, respectively. 7
At the end of December 2003, high-speed lines connecting homes and businesses to the Internet increased
by 42%, from 19.9 million lines to 28.2 million lines, from December 2002.
     » Asymmetric digital subscriber lines (ADSL) in service increased by 47%, from 6.5 million to 9.5
          million lines; and
     » Cable modem connections increased by 45%, from 11.4 million lines to 16.4 million lines.8
The FCC continues to remove barriers to deployment, encourage investment in technologies that deliver
advanced services, and vigorously promote competition.

                                     U.S. Subscribers to High Speed Lines
                                                   (x1000)
                                                Dec 2001                    Dec 2002                     Dec 2003
    ADSL                                          3,948                       6,472                        9,509
    Other Wireline                                1,079                       1,216                        1,305
    Coaxial Cable                                 7,060                      11,369                       16,446
    Fiber                                          494                         548                          602
    Satellite or Wireless                          213                         276                          367
    High Speed Total Lines                       12,794                      19,881                       28,229
    Source: High Speed Services for Internet Access: Status as of December 31, 2003, FCC Report (released June 8, 2004).




7
  The report on High Speed Services for Internet Access: Status as of December 31, 2003, released June 8, 2004, is
found at: http://www.fcc.gov/Bureaus/Common_Carrier/Reports/FCC-State_Link/IAD/hspd0604.pdf, Table 7, page
12.
8
  Ibid., Table 1, page 6. Note that percentages are based on the totals included in Table 1.

FEDERAL COMMUNICATIONS COMMISSION                                                                                          25
                                            FEDERAL COMMUNICATIONS COMMISSION


Increasing number of types of unlicensed/licensed wireless broadband devices. (Outcome 3)
The past year witnessed substantial
growth in “Wi-Fi” devices and                          World-wide Wi-Fi Hardware Revenue and Unit Sales
services. Wi-Fi (short for “wireless       50
                                                                            (2001-2003)
                                                                                                             $4,500
fidelity”) is a trademark owned by                                                                     45.5
the Wi-Fi Alliance which refers to         45        Wi-Fi Hardware
                                                                                                             $4,000

the Institute of Electrical and            40        Wi-Fi Hardware Revenue                                  $3,500
Electronic Engineers’ (IEEE) suite
                                                                                                    $3,317



of wireless local area network
                                           35
                                                                                                             $3,000

(WLAN)         protocols,   including




                                              Millions




                                                                                                                Millions
                                           30

802.11b, 802.11a, and 802.11g. The
                                                                                                             $2,500
                                                                              $2,135
                                           25
success of Wi-Fi is evidenced by the                   $1,800
                                                                               18.4
                                                                                                             $2,000

integration of Wi-Fi capabilities into     20


laptop computers and personal              15
                                                                                                             $1,500


digital assistants (PDAs) as standard      10
                                                          9.6                                                $1,000

features. Key to these efforts has
been the implementation of Wi-Fi in         5                                                                $500


integrated circuits and devices.            0                                                                $-

Analysts indicate that the Wi-Fi                         2001                 2002                    2003

hardware        market      achieved     Sources: In-Stat/MDR, May 2004. “Wi-Fi” collectively refers to the
staggering growth in 2003. This          Institute of Electrical and Electronic Engineers’ suite of wireless
success has been driven by the           networking protocols 802.11b, 802.11g, and 802.11a.
availability of Wi-Fi products at low and declining prices. Even as the standards-based products were
rolled out with speeds of 11 Mbps and 54 Mbps, numerous vendors introduced enhancements to double
access speeds to a maximum of 108 Mbps.
This technology is rapidly gaining acceptance in many companies and homes as an alternative to a wired
LAN. The number of Wi-Fi access points or “hotspots” grew tremendously, providing Internet access in
public places such as airports, hotels, and shopping malls. Similar to hotspots, the number of companies
providing wireless Internet access (wireless ISPs or WISPs) grew. One trade magazine listed 2,273
WISPs in the U.S. as of August 2004.
Beyond Wi-Fi, a new standard called WiMax is being developed. WiMax includes fixed systems
employing a point-to-multipoint architecture operating between 2 GHz and 66 GHz. WiMax is capable of
transmitting network signals covering in excess of 30 miles of linear service area, which is much greater
than Wi-Fi’s coverage area. It provides multiple shared data rates of up to 75 Mbps. WiMax has the
potential to alter and further accelerate the evolution of broadband services. Analysts suggest that
WiMax, although still in an early state, could complement or even supplant the development of Wi-Fi
networks in the long run. It is anticipated that new standards for wireless networks will incorporate both
roaming and handoff capabilities, which will further enhance the potential for broadband fixed and
mobile applications in both licensed and license-exempt spectrum.
The Commission’s Part 15 Rules provide for limited-range use of ultra-wideband (UWB)
communications at potential rates of gigahertz bandwidths which may be extremely attractive for large
bandwidth applications and the creation of Personal Area Networks.
Several mobile wireless carriers are deploying high-speed mobile Internet access to laptops, PDAs, and
mobile devices using code division multiple access (CDMA) 1x evolution-data only (EV-DO) and
wideband CDMA (WCDMA) technologies. EV-DO increases maximum data transfer speeds to 2 Mbps,
and typical, user-experienced download speeds range from 300 to 500 kbps. WCDMA allows maximum
downstream data speeds of up to 2 Mbps, and typical user-experienced speeds of 220-320 kbps. Services
are currently being offered in Washington, D.C, San Diego, Seattle, San Francisco, Phoenix, and Detroit;



26         PERFORMANCE AND ACCOUNTABILITY REPORT                    FISCAL YEAR 2004
   CHAPTER 2: PROGRAM PERFORMANCE

services in additional markets are expected to launch in the second half of 2004. Other carriers have
taken advantage of Orthogonal Frequency Division Multiplexing (OFDM) technology to initiate service
particularly in small communities.
Several carriers use the spectrum above 10 GHz – specifically the 24 GHz, 39 GHz, and Local
Multichannel Distribution Service (LMDS) bands, often referred to as the “upperbands” – to offer fixed
wireless broadband services. Upperband technologies require a direct line-of-sight between the
transmitter and the receiver. The major upperband carriers have begun to focus on providing backhaul
transport and private line telecommunications services to other carriers and large business customers.


PERFORMANCE RESULTS AT-A-GLANCE


                                    BROADBAND
                        FCC 2004 Performance Measure Scorecard
                                                                            Did Not Meet   Data Not
                      Output Activities                       Met Goal
                                                                                Goal       Available
 1. Conduct rulemakings/issue and vigorously enforce
    regulations that influence the deployment and adoption       X
    of broadband technologies.
 2. Review and, if necessary, adjust the definition of what
                                                                 X
    constitutes broadband.
 3. Continue to measure the deployment of broadband
                                                                 X
    technology, particularly to rural America.
 4. Take further action in ongoing rulemaking proceeding to
                                                                 X
    evaluate Broadband over Power Lines.
 5. Continue to facilitate access to spectrum in order to
    encourage deployment of new and innovative broadband         X
    services.
 6. Create and maintain a dialogue with regulators at the
    state, local and tribal level and around the globe on        X
    policies to promote broadband development.



FUTURE PERFORMANCE MEASURES


 FY 2005 - 2006 Outcome Indicators:
    » Increasing access to and adoption of broadband services and devices across multiple platforms:
      DSL, cable modem, powerline, fiber, terrestrial wireless, satellite, etc.




FEDERAL COMMUNICATIONS COMMISSION                                                                  27
                                      FEDERAL COMMUNICATIONS COMMISSION



FY05 Output 1 – Adopt regulations that            FY05 Output 6 – Take further action in ongoing
encourage     deployment of broadband             rulemaking proceeding, related engineering
technologies.                                     studies, and international working groups to
                                                  evaluate Broadband over Power Lines.
FY05 Output 2 – Review and, if necessary,
adjust the definition of what constitutes         FY05 Output 7 – Maintain a dialogue with
broadband.                                        regulators at the state, local, tribal, and global
                                                  levels as well as with research communities and
FY05 Output 3 – Continue to measure the
                                                  industry groups on policies to promote
deployment       of    broadband technology,
                                                  broadband development.
particularly to rural America.
                                                  FY 05 Output 8 – Adopt or modify universal
FY05 Output 4 – Improve access to broadband
                                                  service    regulations to  encourage   the
services by facilitating the deployment of IP-
                                                  development of broadband and prevent waste,
enabled services, such as VoIP.
                                                  fraud, and abuse.
FY05 Output 5 – Vigorously defend and enforce
                                                                     ********
regulations that influence the deployment and
adoption of broadband technologies.




28        PERFORMANCE AND ACCOUNTABILITY REPORT         FISCAL YEAR 2004
   CHAPTER 2: PROGRAM PERFORMANCE




                                                                COMPETITION
                                                                         Strategic Goal:
       Support the Nation’s economy by ensuring that there is a comprehensive
            and sound competitive framework for communications services and
      devices. Such a framework should foster innovation and offer businesses
        and consumers meaningful choice in services and devices. Such a pro-
         competitive framework should be promoted domestically and overseas.

The FCC’s competition policies help to create a level playing field for American telecommunications
companies in the national and global marketplace. Moreover, they promote the American consumer’s
ability to purchase the highest quality telecommunications services at fair and reasonable rates.
Pursuant to the Telecommunications Act, the FCC is moving decisively to remove statutory, regulatory,
economic, and operational barriers to competition so that consumers have meaningful choice in providers
and services. The FCC seeks to:
   1) Foster sustainable competition across the entire telecommunications sector, including intermodal
       competition among providers using wireline, wireless, cable and satellite platforms;
   2) Facilitate an effective wholesale market through interconnection policy and other competition-
       related rules;
                                              3) Promote and advance universal service, to ensure that
                                                  consumers in all regions have access to quality
                                                  telecommunications and information services at
                                                  affordable rates;
                                              4) Ensure that consumers have choices among voice,
                                                  video and data services and are protected from
                                                  anticompetitive behavior in an increasingly
                                                  competitive telecommunications landscape; and
                                              5) Continually evaluate and report on the competitive
                                                  environment for communications services.


                                         Performance Goals
                                              ─ Ensure American consumers can choose among
                                                multiple reliable and affordable means of
                                                communications
                                              ─ Ensure that all American consumers have and retain
                                                wireless and wireline phone services




FEDERAL COMMUNICATIONS COMMISSION                                                                 29
                                           FEDERAL COMMUNICATIONS COMMISSION

     ─ Create and maintain a dialogue with regulators around the globe to foster and sustain the creation
       of pro-competitive foreign and domestic markets
     ─ Create and maintain a dialogue with American consumers so that they are informed about their
       rights, choices, and responsibilities, and ensure these rights through strong enforcement


Outcome Indicators
     ─ Increasing percentage of households with competing providers for multichannel video
       programming and information services
     ─ Increasing number of consumers and businesses have a choice among wireless and wireline
       service providers
     ─ Lower relative price for wireless and wireline services
     ─ Decreasing price for international calls


HIGHLIGHTS

     •   Multichannel Video Program Distributor (MVPD) Competition – Authorized several providers to
         initiate, expand and improve direct broadcast satellite services available to American consumers
         and have auctioned additional orbital locations for DBS providers.
     •   Wireline Telephone Competition – Launched a proceeding to establish new rules governing
         certain unbundled network elements (UNEs) and, at the same time, established interim rules
         addressing the sharing of those facilities. The Commission is also undertaking a review of the
         pricing methodology applicable to unbundled network elements. The Commission also
         vigorously enforced its telephone competition rules, including, for example, a $9 million
         forfeiture paid by a Bell Operating Company and a $12 million damage award against a Bell
         Operating Company.
     •   Voice over Internet Protocol – In March, 2004, released the IP-Enabled Services NPRM,
         initiating a comprehensive review of the regulatory treatment of new and emerging services and
         applications using IP protocol. The preceding month, the FCC ruled that one innovative service
         using VoIP, pulver.com’s “Free World Dialup,” is an unregulated information service.
     •   Advanced Wireless Services (AWS) – Allocated and established licensing rules for 90 megahertz
         of spectrum that can be used for advanced wireless services; evaluating additional spectrum for
         AWS use. Worked with NTIA on issues related to relocation of Government incumbents. On
         September 9, 2004, the FCC proposed an additional 20 MHz of spectrum that can be used to offer
         a variety of broadband and AWS, potentially including “third generation” wireless services.
     •   Local Telephone Competition and Broadband Reporting Notice of Proposed Rulemaking
         (NPRM) – Released rulemaking seeking comment on extending the Form 477 local competition
         and broadband data gathering program for five years beyond the current March 2005 sunset and
         proposing specified improvements.
     •   Universal Service – Strengthened the FCC’s audit and oversight rules related to the schools and
         libraries program; revised the rural health care support mechanism to expand beneficiary
         participation in this program; and issued rules expanding the eligibility criteria for participation in
         the Low Income program and further safeguarding this program against fraud, waste and abuse.



30         PERFORMANCE AND ACCOUNTABILITY REPORT                   FISCAL YEAR 2004
    CHAPTER 2: PROGRAM PERFORMANCE

    •   Local Number Portability – Required wireless carriers to support local number portability (LNP)
        in November, 2003. By allowing consumers to keep their numbers when switching wireless
        carriers, or when switching from wireline to wireless carriers, LNP spurs competition based on
        price, service quality and innovative product offerings. On September 16, 2004, the Commission
        released a Second Further Notice of Proposed Rulemaking (FCC 04-217) seeking comment on
        the North American Numbering Council’s recommendation for reducing the Intermodal porting
        interval. Comments are due on November 17, 2004, and reply comments are due on December
        17, 2004.
    •   International Issues – In the International Settlements Policy Reform Report and Order, took
        steps to lower costs to U.S. consumers by giving U.S. carriers more flexibility in commercial
        negotiations on settlement rates and by adopting safeguards to prevent anticompetitive conduct by
        foreign carriers.
    •   Protecting and Empowering Consumers – Issued rules prohibiting unsolicited commercial
        messages (“spam”) to wireless devices, and strengthened “slamming” rules that protect
        consumers from having their telephone service switched to a different carrier without their
        permission. In addition to approximately $9 million in formal enforcement of these and other
        consumer protection rules such as junk fax and do-not-call restrictions, the FCC handled over one
        million informal complaints and inquiries in FY 2004. As a result of case-by-case intervention,
        the FCC facilitated that approximately $8 million in credits or refunds issued to consumers.


PERFORMANCE MEASURE RESULTS
Increasing percentage of households with competing providers for multichannel video
programming and information services. (Outcome 1)
As of June 2003, 88.4% of the 106.6                                    TV Households and MVPD Subscribers as a Percentage
million total television households                                                       (2001 - 2003)
subscribed to a multichannel video         100%
                                                            Cable Subscribers     DBS Subscribers           Other   TV Households




                                                                                                                                                                 Thousands
programming distribution service, an               TV Households
                                                      102,185                           TV Households: 105,444
                                                                                                                                       TV Households
                                                                                                                                          106,642
                                                                                                                                                       100,000
increase of 3.2 percentage points          90%

                                                             3.2%                               2.7%
                                                                                                                                3.2%

over the 85.2% of all TV households        80%
                                                                                                                                19.1%
that were MVPD subscribers in June         70%
                                                            15.7%                               17.3%                                                  80,000


2002. In June 2003, 66.1% of all TV
households were cable subscribers;         60%

                                                                                                                                                       60,000
19.1% were direct broadcast satellite      50%

subscribers; and 3.2% subscribed to        40%
other MVPD services. In June 2003,                          67.0%                               65.2%                           66.1%
                                                                                                                                                       40,000


non-cable     MVPD       subscribers       30%


represented 22.3% of all TV                20%
                                                                                                                                                       20,000
households, a 2.3 percentage point
                                           10%
increase over the 20% reported in
June 2002.9                                 0%
                                                             2001                                   2002                        2003
                                                                                                                                                       0



On June 10, 2004, the FCC adopted a         Source: “Tenth Annual Report on the Status of Competition in the Market
Notice    of   Inquiry   requesting         for Delivery of Video Programming,” released January 28, 2004.
information and comment for the

9
  “Tenth Annual Report on the Status of Competition in the Market for the Delivery of Video Programming,”
released January 28, 2004, can be found at: http://hraunfoss.fcc.gov/edocs_public/attachmatch/FCC-04-5A1.pdf,
Table B-1, page 115.

FEDERAL COMMUNICATIONS COMMISSION                                                                                                                      31
                                             FEDERAL COMMUNICATIONS COMMISSION

Commission’s 2004 Report to Congress on competition in the video marketplace pursuant to section
628(g) of the Act.10 The FCC is evaluating competition in that marketplace, changes in the market since
the 2003 Report, prospects for new entrants to that market, factors that have facilitated or impeded
competition, and the effect of competition on industry groups and consumers. The FCC will update its
assessment of competition and report on changes in the competitive environment over the last year in the
2004 Report, planned for completion by the end of 2004.
Increasing number of consumers and businesses have a choice among wireless and wireline
service providers. (Outcome 2)
The accompanying chart reflects a
steady increase in the percentage of                       Percentage of U.S. Population in Areas with Three or More Providers
                                                                                        (2000 - 2003)
U.S. consumers that can choose
between multiple wireline and wireless                                               Wireline    Wireless

service providers.11 Specifically, the           100%
                                                                91%
                                                                                      94%                         95%            97%

percentage of U.S. households living              90%
                                                                                                                           84%

in zip codes served by three or more              80%                                                       78%
                                                                               73%
wireline local exchange carriers has              70%     67%
climbed from 67% in 2000 to 84% in
                                                  60%
2003. Similarly, the percentage of the
U.S. population living in counties                50%

served by three or more wireless                  40%

carriers has climbed from 91% in 2000             30%

to 97% in 2003.                                   20%

                                                  10%
The Commission took an important
step in promoting competition and        0%
                                                    2000            2001               2002            2003
consumer choice in November 2003,
by requiring wireless carriers to      Sources: Ninth Annual CMRS Competition Report, FCC 04-216 (rel.
                                       September 28, 2004), Appendix D, Table 10; Local Telephone Competition:
support local number portability.      Status as of December 31, 2003, (rel. June 18, 2004), Table 15.
Consumers can now keep their
telephone numbers when switching between wireless carriers, or even between wireline and wireless
carriers. The FCC is currently considering a Notice of Proposed Rulemaking addressing certain
implementation issues that remain.

The FCC has worked hard in 2004 to ensure that local wireline telephone competition evolves in a
manner that is sustainable and ultimately benefits consumers. In response to an appeals court decision in
2004 overturning a portion of the FCC’s network element unbundling rules, the Commission encouraged
wireline carriers to reach commercial agreements governing these facilities. Although these negotiations
led to several notable agreements, including Qwest-Covad and Qwest-MCI deals, the absence of broadly-
based industry consensus led the Commission to issue interim rules, at the same time as it launched a
proceeding in 2004 to establish new unbundling rules. The Commission is also undertaking a
comprehensive review of its total element long-run incremental cost (TELRIC) pricing methodology,
which governs the pricing of unbundled network elements.

10
  The NOI can be found on the Internet at: http://hraunfoss.fcc.gov/edocs_public/attachmatch/FCC-04-136A1.pdf.
11
  Sources: Ninth Annual CMRS Competition Report, FCC 04-216 (rel. September 28, 2004), Appendix D, Table 10;
Local Telephone Competition: Status as of December 31, 2003, (rel. June 18, 2004), Table 15. While the data for
wireless and wireline providers are loosely comparable, they are reported for different geographic areas: the
wireline data reflect the percentage of U.S. households living in zip codes served by three or more wireline carriers,
and the wireless data reflect the percentage of U.S. population living in counties served by three or more wireless
carriers.


32          PERFORMANCE AND ACCOUNTABILITY REPORT                         FISCAL YEAR 2004
     CHAPTER 2: PROGRAM PERFORMANCE


Lower relative price for wireless and wireline services. (Outcome 3)
The consumer price for telephone
services has declined over the last six                                                                      Consumer Price Indicies
                                                                                              Telephone Services Compared to All Goods and Services
years, and particularly in the past year,                            120
                                                                                                                                                      All Goods and Services
when compared to the price of other                                                                                                                         16.87%

goods and services.          The chart                               115

opposite uses data obtained from the
Bureau of Labor Statistics to compare                                110
the Consumer Price Index (CPI) for




                                             CPI (Dec. 1997 = 100)
Telephone Services with the CPI for
                                                                     105
all goods and services, using 1997
price levels as the base (equal to 100).
The Telephone Services included in                                   100
                                                                                                                                                         Telephone Services
this index include Local Telephone                                                                                                                             -3.50%

Service, Long Distance Charges,                                      95

Interstate Toll Service, Intrastate Toll
Service, and Wireless Telephone                                      90
Services.     In contrast to a 17%                                              1997     1998           1999        2000         2001         2002    2003          2004*
                                                                                                                                                               * Jan - June

increase in the CPI for all goods and
                                                                     Source: Bureau of Labor Statistics. The CPI index of telephone services is
services (from 100.2 to 117.2), the
                                                                     based on a market basket intended to represent the telephone-related
Telephone service price index has                                    expenditures of a typical urban household, includes local, long distance, and
declined by 4% (99.9 to 95.9) over the                               cellular services.
past six years (January 1998 to May
2004).



                                                                                         Average Revenue per Minute for Mobile Telephone Service
                                                                                                                      (2000 - 2003)
                                                                       $0.20

                                                                                       $0.18
                                                                       $0.18


The average price of wireless telephone                                $0.16

calls has fallen over this period as well.                             $0.14
As illustrated by the accompanying                                                                                $0.12
chart, the average revenue per-minute                                  $0.12
                                                                                                                                            $0.11

for mobile telephone service, including                                $0.10
                                                                                                                                                                 $0.10


both individual and business users, has
                                                                       $0.08
fallen over the past four years, down to
10 cents per minute in 2003.12                                         $0.06


                                                                       $0.04


                                                                       $0.02


                                                                           $-
                                                                                       2000                       2001                      2002                 2003

                                                                      Source: Cellular Telecommunications and Internet Association, Semi-
                                                                      Annual Wireless Industry Survey < http://www.wow-
                                                                      com/industry/stats/surveys/ >.


12
   Source: Cellular Telecommunications and Internet Association, Semi-Annual Wireless Industry Survey
<http://files.ctia.org/pdf/CTIA_Semiannual_Survey_YE2003.pdf >.

FEDERAL COMMUNICATIONS COMMISSION                                                                                                                                     33
                                             FEDERAL COMMUNICATIONS COMMISSION


Decreasing price for international calls. (Outcome 4)
In March 2004, the FCC released a
Report & Order altering how the                              Average Price per Minute for an International Call
International Settlements Policy                                                (2000 - 2002)
                                              $0.50
(ISP) is applied, and modifying and                        $0.43
clarifying safeguards to prevent              $0.45

anti-competitive conduct by foreign           $0.40
carriers. This Report & Order                                                           $0.33
                                              $0.35
streamlines the FCC’s ISP to give
U.S. carriers more flexibility in             $0.30
                                                                                                                  $0.27
commercial      negotiations   with           $0.25
foreign carriers on settlement rates
to achieve lower costs to U.S.                $0.20

consumers.13                                  $0.15


The Commission took additional           $0.10

actions to protect competition on        $0.05
international routes to ensure that
calls continue to be priced at            $-
                                                        2000                 2001                  2002
market-based rates. Among these
were         actions      addressing      Source: International Telecommunications Data Report (Annual Section
                                          43.61), January 2002.
anticompetitive behavior of certain
Philippine carriers, culminating in an FCC Order in June 2004, which resulted in the restoration of U.S.
carriers’ circuits.14
Staff of the FCC’s International Bureau also engages in dialogues with its regulatory counterparts
throughout the world on a regular basis, through leadership in the International Telecommunications
Union (ITU), participation in international conferences, and the FCC’s International Visitors Program.
Through the ITU’s multilateral study groups, for example, FCC staff have supported the maintenance of a
market-driven approach to Internet traffic flows, and encouraged other regulators to take steps to facilitate
global competition.




13
     The Report & Order can be found at: http://hraunfoss.fcc.gov/edocs_public/attachmatch/FCC-04-53A1.pdf.
14
     The Order can be found at http://hraunfoss.fcc.gov/edocs_public/attachmatch/FCC-04-112A1.pdf.


34            PERFORMANCE AND ACCOUNTABILITY REPORT                    FISCAL YEAR 2004
   CHAPTER 2: PROGRAM PERFORMANCE


PERFORMANCE RESULTS AT-A-GLANCE

                                    COMPETITION
                         FCC 2004 Performance Measure Scorecard
                                                                                Did Not Meet   Data Not
                         Output Activities                           Met Goal
                                                                                    Goal       Available
 1. Foster the pro-competitive goals of the Telecommunications
    Act by reforming total element long-run incremental cost
    (TELRIC), intercarrier compensation, and universal service,
    examining voice over internet protocol, local number                X
    portability, forbearance, biennial review proceeding, and
    implementing and enforcing provisions of the unbundled
    network element (UNE) proceeding.
 2. Adopt and enforce regulations which streamline and
    encourage reliable affordable communications services by            X
    multiple providers.
 3. Adopt and enforce rules to streamline administration of the
    Universal Service support mechanism and protect against             X
    waste, fraud, and abuse.
 4. Conduct quarterly reviews of carrier compliance to ensure
                                                                        X
    continuity of service requirements are met.
 5. Increase consumer awareness of their rights in relation to
                                                                        X
    phone service and enforce regulations to ensure those rights.
 6. Maintain a dialogue with regulators around the globe on
                                                                        X
    competition issues.
 7. Review and analyze merger and transfers of control requests to
    ensure that consumers retain reliable and affordable                X
    communications services that serve the public interest.
 8. Adopt and implement policies that will decrease the
                                                                        X
    price of international calls.
 9. Initiate international reporting reform.                            X



FUTURE PERFORMANCE MEASURES


FY 2005 - 2006 Outcome Indicators:
  » Increasing percentage of households with competitive choices for multichannel video programming
  » Increasing number of consumers and businesses with a choice among wireless and wireline voice
       and data service providers
  » Competitive pricing for voice, data, and video services




FEDERAL COMMUNICATIONS COMMISSION                                                                     35
                                        FEDERAL COMMUNICATIONS COMMISSION




FY05 Output 1 – Adopt and defend                   communications services that serve the public
regulations that streamline and encourage          interest.
reliable and affordable provision of
                                                   FY05 Output 6 – Increase consumers’
multichannel video programming services by
                                                   awareness of their rights in relation to
multiple providers.
                                                   communications       service     and enforce
FY05 Output 2 – Adopt, defend, and enforce         regulations to ensure those rights.
rules to streamline administration of the
                                                   FY05 Output 7 – Maintain a dialogue with
universal service support mechanism, ensure
                                                   regulators at the state, local, and global levels
fair and equitable distribution of funds, and
                                                   as well as with research communities and
protect against waste, fraud, and abuse.
                                                   industry groups on competition policies and
FY05 Output 3 – Implement, defend, and             communications technologies.
enforce Unbundled Network Elements rules,
                                                   FY05 Output 8 – Establish policies that
including broadband aspects, to increase
                                                   promote entry of competitors using other
competition among local exchange carriers.
                                                   platforms.
FY05 Output 4 – Adopt, defend, and enforce
                                                   FY05 Output 9 – Complete rulemakings and
regulations that streamline and encourage
                                                   issue regulations that further the accessibility
reliable and affordable communications
                                                   of the telecommunications network to people
services by multiple providers.
                                                   with disabilities.
FY05 Output 5 – Review and analyze merger
and transfer of control requests to ensure that
consumers retain reliable and affordable                               ********




36        PERFORMANCE AND ACCOUNTABILITY REPORT          FISCAL YEAR 2004
   CHAPTER 2: PROGRAM PERFORMANCE




                                                                          SPECTRUM
                                                                           Strategic Goal:
                         Facilitate the highest and best use of spectrum domestically
                                 and internationally to promote the growth and rapid
                            deployment of innovative and efficient communications
                                                            technologies and services.

The Commission is committed to creating a policy environment that fosters rapid deployment of
innovative and efficient radio communications technologies and services. The promise of such emerging
communications technologies could mean:
    •   Having the emergency dispatcher know exactly where your teenager is when she calls 911 for
        help from a wireless phone (Enhanced 911);
    •   Ubiquitous, mobile broadband connections via your Next Generation wireless phone that allow
        you to participate in a video conference with people around the world, wherever you travel; and
    •   Using a wireless network to link computers, an internet connection, a color printer, and a stereo
        though out your house.
These and hundreds of other services, however, are dependent on the availability of spectrum. Spectrum
refers to the entire range of electromagnetic radio frequencies used to transmit sound, data, and video.
                                         The FCC and the National Telecommunications and
                                         Information Administration share responsibility for regulating
                                         spectrum uses. NTIA manages spectrum used by the Federal
                                         Government (e.g., air traffic control and national defense), while
                                         the FCC is responsible for regulating spectrum used by others,
                                         including individuals (e.g., garage door openers and general
                                         mobile radio service), private organizations (e.g., radio and
                                         television broadcasters and cellular and PCS operators), and
                                         public safety and health officials (e.g., police and emergency
                                         medical technicians).
                                         Because there is a growing demand for rival uses of spectrum,
                                         creating rules to effectively distribute available spectrum is a
                                         critically important strategic objective for the FCC and the
                                         NTIA. FCC’s objectives are to:
                                             •    Advance spectrum reform by developing                and
                                                  implementing      market-oriented      allocation    and
                                                  assignment reform policies;
                                             •    Vigorously protect against harmful interference      and
                                                  enforce public safety-related rules;
                                             •    Conduct effective and timely licensing activities    that
                                                  encourage efficient use of the spectrum; and



FEDERAL COMMUNICATIONS COMMISSION                                                                     37
                                            FEDERAL COMMUNICATIONS COMMISSION

       •   Provide adequate spectrum and improve interoperability for better public safety and commercial
           purposes.

Performance Goals
       ─ Ensure that spectrum is used efficiently and effectively
       ─ Facilitate domestic and international deployment of new spectrum-based technologies and
         services
       ─ Generally shift from rigid to flexible policy models
       ─ Promote ease of access to spectrum by more users


Outcome Indicators
       ─ Increasing number of approvals for enhanced telecommunications equipment
       ─ Facilitate deployment of new or existing services or devices that make efficient use of spectrum
       ─ Effectively advance U.S. positions on spectrum in international negotiations and enforcement of
         treaties (number of U.S. positions partially or fully adopted)


HIGHLIGHTS
Proceedings
       •   Interference Temperature NOI/NPRM – Began an inquiry regarding the “Interference
           Temperature” approach for quantifying interference in order to create new opportunities for
           spectrum uses.
       •   Smart Cognitive Radios – Issued a Notice of Proposed Rulemaking addressing cognitive, or
           “smart,” radio technologies that will allow a radio device to adapt its spectrum use in response to
           its operating environment to improve access to spectrum and efficiency of spectrum use.15
       •   Ultra-wideband – Adopted final rules to permit the operation of Ultra-wideband radio systems on
           an unlicensed basis under Part 15 of the Commission’s rules. UWB technology can be used for a
           wide variety of new applications, including imaging systems, vehicle radars, location devices,
           security systems, and high speed, short range data communications products. The Commission
           also issued a Further Notice of Proposed Rulemaking to provide greater flexibility under the
           UWB rules. Finally, the Commission conducted a number of laboratory tests to understand the
           interference potential of the proposed new flexibility.
       •   Unlicensed Operation – Modified Commission rules for unlicensed devices to accommodate
           advanced technologies such as smart antennas that can make more efficient use of the unlicensed
           frequency bands. In addition, a number of changes to the rules were made to encourage
           development unlicensed wireless broadband service based on the Wi-Fi standard and other
           technologies, particularly in rural areas.
       •   Secondary Markets I and II – Completed two Secondary Markets Orders implementing and
           revising rules to introduce spectrum leasing in many wireless services (including a “private
           commons” option).


15
     The NPRM can be found at: http://hraunfoss.fcc.gov/edocs_public/attachmatch/FCC-03-322A1.pdf.


38            PERFORMANCE AND ACCOUNTABILITY REPORT                 FISCAL YEAR 2004
    CHAPTER 2: PROGRAM PERFORMANCE

    •    Satellite Earth Stations on Vessels – Initiated a rulemaking proceeding proposing rules for the use
         of satellite earth stations on vessels. ESVs offer the potential for more efficient use of the
         spectrum, while providing consumers the benefits of broadband services on cruise ships, cargo,
         and other large vessels.
    •    Big LEO Spectrum Sharing – Adopted a spectrum sharing plan for low-earth orbit mobile-
         satellite systems (Big LEOs) in the 1.6 GHz and 2.4 GHz bands. The spectrum sharing plan will
         increase the number of providers offering services to consumers over the same spectrum and
         promote the deployment of more innovative services to consumers.
    •    World Radiocommunication Conference 2007 (WRC-07) – Initiated its preparation process for
         the next World Radiocommunication Conference, which will be held in 2007. A WRC-07
         Advisory Committee was established in October, 2003, along with five Informal Working
         Groups. The WRC-07 Advisory Committee’s objective is to provide the FCC advice, technical
         support, and recommended proposals for the WRC-07.
    •    Wireless Broadband Services – Adopted a Notice of Proposed Rulemaking to facilitate the
         operation of wireless broadband services in the TV broadcast bands. The Notice proposed to
         allow unlicensed wireless broadband devices to operate in television channels at locations where
         specific TV channels are unused by broadcasters. Access to this spectrum by wireless internet
         service providers (WISPs) would improve their service range and allow them to reach new
         customers. Access to the spectrum would also offer broadcasters the opportunity to provide new
         services.
    •    NextWave – Settled longstanding and extensive litigation with NextWave Communications, Inc.
         over NextWave’s broadband personal communication service licenses, making immediately
         available for other uses the vast majority of the spectrum that had been tied up in litigation since
         NextWave declared bankruptcy in 1998, and recouping appropriate value from NextWave for the
         U.S. Government.

Initiatives
    •    Spectrum Policy Task Force – Commenced a number of proceedings to implement the work of
         the Spectrum Policy Task Force which was established in 2002 to assist the Commission in
         identifying and evaluating changes in spectrum policy that will increase the public benefits
         derived from the use of the radio spectrum.
    •    Satellite Rural Forum – Held a Satellite Rural Forum titled “Making the Rural Connection,”
         featuring panel discussions by experts, as well as demonstrations and exhibits, on consumer
         topics such as telemedicine and distance learning, public safety and homeland security,
         agriculture and farming, broadband access, information, and mass media entertainment. The
         Forum informed the public and users about the availability of services, encouraged development
         of new and innovative services and programs, and explored economic approaches to serving the
         communications needs of rural America.
    •    New Radio Frequency (RF) “Anechoic” Measurement Chamber – Constructed a chamber that
         allows FCC engineers to perform sophisticated RF measurements on consumer radio devices,
         such as cell phones, and on commercial devices, such as wall penetrating radars and wireless
         meter readers.
    •    Rural Wireless Internet Service Provider Showcase and Workshop – Hosted an open event to
         explore rural WISPs as a compelling solution for rural broadband service. The event also
         provided an opportunity for the Commission to learn what, if any, regulatory barriers stand in the
         way of rural WISP deployment.

FEDERAL COMMUNICATIONS COMMISSION                                                                       39
                                           FEDERAL COMMUNICATIONS COMMISSION



PERFORMANCE MEASURE RESULTS
Increasing number of approvals for enhanced telecommunications equipment. (Outcome 1)
In general, the FCC must pre-approve all radio devices for use and sale through an authorization
procedure ensuring that devices will not be marketed and available to the public unless they comply with
the Commission’s technical standards to avoid harmful interference. Certification requires a written
application, including technical specifications, stating that the device complies with the FCC rules. The
FCC may then certify the devices based on an engineering review, or may request samples and actually
test the device. To help expedite the certification process, the FCC has authorized private organizations
known as Telecommunication Certification Bodies (TCBs) to perform equipment authorizations on behalf
of the FCC when the certification process is less complicated. Enhanced Telecommunications Equipment
Authorizations are authorizations issued for new technologies.


              Enhanced Telecommunications Equipment Authorizations
                                                   Total                                 Total
                Issuer of Approval Grant                    1Q2004 2Q2004 3Q2004 4Q2004
                                                   FY03                                  FY04
     Telecommunications Certification Bodies (TCB)    4,945    1,266  1,434  1,479 1,705    5,884
     FCC Equipment Authorization Services (EAS)       521      133      124      109      147         513
     Total Authorizations                           5,466    1,399    1,558    1,588    1,852    6,397
         Source: OET Lab

The number of authorizations indicates, at least approximately, the number of new devices and
improvements likely to be on their way to the marketplace, since a manufacturer will only file for an
authorization when it believes that it can successfully market a device. The above table demonstrates an
increasing number of equipment authorizations since FY 2003, as well as an increasing percentage share
of such device authorizations completed by TCBs. This implies reduced filing burdens on corporations
hoping to market new types of radio equipment, which should promote increased spectrum use.


Facilitate deployment of new or existing services or devices that make efficient use of
spectrum. (Outcome 2)
The Commission is responsible for four main processes involved in ensuring that spectrum is used in a
manner to promote the growth and rapid deployment of innovative and efficient communications
technologies and services. Those processes are:
     •    Allocation. Developing market-based policies for provisioning various bands for a
          particular use or uses that provide the maximum flexibility to allow for the introduction
          of new and advanced technologies.
     •    Service Rules and Policy. Ensuring that our rules for use coordination and interference
          avoidance provide: (1) maximum flexibility to allow new technologies and services
          and (2) certainty to allow investment in those technologies and services, and the
          greatest possible incentives for intense and efficient spectrum use.
     •    Licensing. Developing and implementing efficient auction and other licensing
          procedures to ensure that spectrum is made available to those who can use it as rapidly
          as possible.




40           PERFORMANCE AND ACCOUNTABILITY REPORT                FISCAL YEAR 2004
   CHAPTER 2: PROGRAM PERFORMANCE

    •   Oversight. Using audits, build-out requirements, and enforcement of our rules to ensure
        the efficient and effective use of spectrum.
The chart on the following page represents each of these processes and the proceedings the Commission
has taken to advance the goal of efficient use of spectrum.
In November of 2002, the Commission’s Spectrum Policy Task Force (SPTF) released its findings and
recommendations concerning the necessary changes to modernizing spectrum policy to reflect changes in
technology and markets. Implementing many of these recommendations is essential to effective
allocation of spectrum bands. Commission staff initiated several proceedings which implement the
recommendations made by the SPTF and reached agreements with other U.S. Government agencies and
the ITU a framework for “Improving the International Spectrum Regulatory Framework,” based on the
SPTF’s work.
The Commission has adopted policies increasing flexibility of spectrum use and encouraging future
network investment, which are leading to expeditious deployment of new technologies and new services
for a growing number of users. On October 6, 2003, the Commission released the Secondary Markets
First Report and Order, which implemented rules to introduce spectrum leasing in many wireless services
and to reduce the review time for transfer/assignment applications. In the Second Report and Order, the
Commission expanded the availability of spectrum leasing to more wireless services and devices, and
further streamlined the processing of spectrum lease applications and notifications, as well as traditional
license transfers and assignments. The Second Report and Order also established a “private commons”
option for licensees who wish to provide spectrum access to individuals or groups using advanced
devices. As of September 30, 2004, the Commission received 87 spectrum lease filings under the new
rules. In addition, the International Bureau proposed rules that will enable innovative satellite
technologies, that would provide new broadband services to consumers, permit greater sharing in the
mobile satellite service band, and promote efficient spectrum.
In overseeing the spectrum uses it regulates, the Commission devoted substantial resources in the past
year to enforce the Commission’s spectrum-related requirements. For instance, the Commission
investigated 858 interference complaints, and shut down 249 “pirate,” i.e., unauthorized, broadcasters.
Furthermore, the Commission enforced its satellite milestone rules, which ensure that potential satellite
operators actually are taking steps to use the spectrum that they have been assigned. As a result, several
satellite licenses were revoked because of failure to reach a milestone and that spectrum was made
available to others that are more likely to use it.




FEDERAL COMMUNICATIONS COMMISSION                                                                     41
                                                  FEDERAL COMMUNICATIONS COMMISSION
                              Facilitate deployment of new or existing services
                               or devices that make efficient use of spectrum


            Allocation                      Policy                      Licensing                      Oversight

 • WRC-07 preparations            • Service rules for 4.9GHz     • MVDDS auction                • Spectrum audit of site-
                                   band for public safety                                        specific licenses in the
 • Public Safety access to                                       • 24 GHz auction                220-222 MHz band
     4.9 GHz band                 • Adopted flexible rules for
                                   MMDS/ITFS                     • 900 MHz SMR auction          • Satellite milestone
 • Above 28 MHz WRC                                                                              review
     implementation rules         • Big LEO-MSS and GPS          • Direct broadcast satellite
                                   operations                     auction                       • International satellite
 • Advanced Wireless                                                                             coordination
     Service “3G” band            • Ancillary Terrestrial        • New space and earth
                                   Component satellite rules      station licenses and          • Negotiations and
 • Part 74 Rewrite                                                modifications                  coordination with
                                  • Ka-Band NGSO service
 • Below 28 MHz WRC                rules                         • Schedule S automated          Mexico and Canada
                                                                  form for satellite            • Radio and TV rule and
 • Amateur Service                • Satellite Licensing
                                                                  licensing                      policy violations in the
     Allocation                    Reform rules
                                                                 • Improved satellite fleet      context of licensing
 • Sec. 337 Allocation and        • Earth Stations on Vessels
                                   rules
                                                                  management                    • Enforced regulations
     Assignment of New
     Public Safety Services                                      • Radio and TV licenses,        and investigated
                                  • Unlicensed –National                                         complaints
     Licenses                      Info. Infrastructure (U-       renewals, and
                                   NII) Rules                     modifications
 • 5.9 GHz Band (5.850-
     5.925 GHz band) for          • V-band proposed flexible     • Licensing of 70/80/90
     Dedicated Short-Range         rules                          GHz service for
     Communications                                               millimeter wave bands
     (DSRC) in the                • Secondary Markets rules
     Intelligent                   for Wireless Services         • Implemented
     Transportation Systems                                       streamlined processing
                                  • Policies to promote access    of transfer/assignment
     (ITS) Radio Service           to wireless                    and spectrum leasing
 • Additional spectrum at 2        telecommunications             filings
     GHz for Advanced              services in rural areas
     Wireless Services                                           • 700 MHz Regional
                                  • 800 MHz Band                  Planning/State
                                   Reconfiguration and
                                                                  Executive
                                   Enhanced Best Practices
                                                                  Interoperability
                                   Plan
                                                                  Committees




                                     Potential Long-term Outcomes for Spectrum
 In FY 2004, the Commission made significant progress in developing and implementing spectrum initiatives that
 contribute to overall performance goals for spectrum both domestically and internationally. Collectively, these
 activities promote:
        •    Increased access to spectrum by making new or more flexible spectrum available (via auction or other
             means) for public safety, broadband mobile and fixed, satellite and other uses, including unlicensed
             applications.
        •    Expeditious delivery of service to consumers through improved licensing mechanisms that utilize
             automation, encourage licensee due diligence and sharing of spectrum to further efficiency.
        •    Deployment of new technologies and robust services though enhanced performance standards, and other
             rules that will encourage future investment as well as research and development activities.




42            PERFORMANCE AND ACCOUNTABILITY REPORT                      FISCAL YEAR 2004
   CHAPTER 2: PROGRAM PERFORMANCE


Efficiently advance U.S. positions on spectrum in international negotiations and
enforcement of treaties (number of U.S. positions partially or fully adopted). (Outcome 3)
The Commission held regular discussions and reached new agreements with its counterparts in Canada
and Mexico regarding the use of spectrum in U.S. border areas. These discussions continue in a number
of areas, including the use of UHF television spectrum being recaptured as part of the digital television
(DTV) conversion and new digital “In Band On Channel” audio broadcasting systems. A total of 39 new
satellite coordination agreements, delineating how satellite spectrum will be shared without interference
were reached with 16 administrations. In advancing the U.S. position, the Commission has worked with
the State Department, Department of Defense, and the NTIA to develop and advance positions in the ITU.
The ITU sponsors the World Radiocommunication Conferences (WRC) which are held approximately
every three years. Outcomes at WRC establish how radio spectrum is to be used on a global basis, which
guides U.S. spectrum usage. The Commission held a workshop and issued a report reviewing the success
of its preparation efforts for the 2003 WRC. Following on this, the Commission initiated its preparation
process for the next World Radiocommunication Conference, which will be held in 2007. A WRC-07
Advisory Committee was established, along with five Informal Working Groups, to provide the FCC
advice, technical support, and recommended proposals. FCC staff represented the U.S. at nine WRC-07
preparatory meetings, including two CITEL (Comision Interamericana de Telecommunicaciones)
meetings, the Asian Pacific Telecommunication Conference, three CEPT (European Conference of Postal
and Telecommunications Administrations) conferences, an ITU-R meeting, and two ITU Conference
Preparatory Group meetings. Commission staff also participated in ITU Study Group and Working Party
meetings, providing valuable input into the preparations for WRC-07 and developing ITU
recommendations on how spectrum should be used.




FEDERAL COMMUNICATIONS COMMISSION                                                                   43
                                           FEDERAL COMMUNICATIONS COMMISSION

PERFORANCE RESULTS AT-A-GLANCE

                                     SPECTRUM
                        FCC 2004 Performance Measure Scorecard
                                                                         Did Not Meet   Data Not
                     Output Activities                       Met Goal
                                                                             Goal       Available
 1. Continue implementation of recommendations made
     by the Spectrum Policy Task Force and take steps to
     improve the efficient and effective use of spectrum        X
     such as promoting the use of spectrum for new
     efficient technologies and systems.
 2. Increase the number of new spectrum users.                  X
 3. Negotiate and enforce satellite and other coordination
                                                                X
     treaties with affected countries.
 4. Develop rules to permit the licensing of innovative
                                                                X
     satellite technologies.
 5. Advance U.S. positions on spectrum through the
     International Telecommunications Union and other           X
     fora, including preparations for WRC-07.
 6. Enforce satellite milestones.                               X
 7. Encourage the deployment of new spectrum efficient
     technologies, including spread spectrum systems,           X
     ultra-wideband systems and cognitive radio.
 8. Enforce regulations and investigate complaints
                                                                X
     affecting communications systems and infrastructure.
 9. Construct anechoic test facility for making sensitive
     measurements for advanced equipment and systems            X
     at the Columbia Engineering Laboratory.
 10. Increase reliance on market-driven transactions to
                                                                X
     promote and facilitate efficient spectrum usage.



FUTURE PERFORMANCE MEASURES

FY 2005 - 2006 Outcome Indicators:
     » Deploying new or existing services or devices that make efficient use of spectrum
     » Advancing U.S. positions on spectrum in international negotiations and enforcement of treaties
        (number of U.S. positions partially or fully adopted)




44         PERFORMANCE AND ACCOUNTABILITY REPORT                 FISCAL YEAR 2004
   CHAPTER 2: PROGRAM PERFORMANCE




FY05 Output 1 – Improve the efficient use of   FY05 Output 6 – Encourage the deployment of
spectrum, including implementation of          new spectrum efficient technologies, including
recommendations made by the Spectrum           spread spectrum systems, ultra-wideband
Policy Task Force.                             systems, and cognitive radio.
FY05 Output 2 – Develop rules for spectrum     FY05 Output 7 – Defend and enforce
reclaimed during the digital television        regulations, investigate complaints, and litigate
transition.                                    cases affecting communications systems and
                                               infrastructure.
FY05 Output 3 – Increase the number of new
spectrum users.                                FY05 Output 8 – Maintain a dialogue with
                                               officials at the state, local, and global levels as
FY05 Output 4 – Advance U.S. positions on
                                               well as with research communities and
spectrum   through    the    International
                                               industry groups on new spectrum policies and
Telecommunications Union and the other
                                               technologies.
forums.
                                                                   ********
FY05 Output 5 – Promote the use of
unlicensed spectrum for new technologies.




FEDERAL COMMUNICATIONS COMMISSION                                                             45
                                FEDERAL COMMUNICATIONS COMMISSION



This page intentionally blank




46      PERFORMANCE AND ACCOUNTABILITY REPORT   FISCAL YEAR 2004
    CHAPTER 2: PROGRAM PERFORMANCE




                                                                                          MEDIA
                                                                               Strategic Goal:
               Revise media regulations so that media ownership rules promote
               competition and diversity in a comprehensive, legally sustainable
           manner, facilitate the mandated migration to digital modes of delivery,
             and clarify and ensure compliance with general media obligations.

The FCC develops and modifies media regulations and policies to address a changing marketplace. It is a
challenging task, due to:
    •   Changing ownership patterns;
    •   Legal challenges to FCC rules and policies;
    •   Converging markets and industries; and
    •   Increasingly rapid changes in technologies employed by service providers.
These factors, consistent with statutory directives, have led the FCC to place a high priority on
reformulating the factual and analytical foundation of media ownership regulations and competition
policies. The FCC will continue to examine whether current media regulations are achieving statutory
policy objectives and will determine how changes in regulations may affect competition, diversity, and
localism.
Facilitating the full transition to digital broadcast television is critical to ensuring the public has access to
efficient, competitive media services. To facilitate this transition, the FCC will encourage the timely
development and deployment of digital services.


Performance Goals
    ─ Develop a sound analytic foundation for media ownership rules
                                                                      ─ Facilitate the transition to digital
                                                                        television and radio
                                                                      ─ Clarify and ensure compliance with
                                                                        general media obligations


                                                                 Outcome Indicators
                                                                      ─ Significant    progress     in   the
                                                                        transition to digital television and
                                                                        radio
                                                                      ─ Increasing      investment     by
                                                                        consumers in digital equipment



FEDERAL COMMUNICATIONS COMMISSION                                                                           47
                                           FEDERAL COMMUNICATIONS COMMISSION

     ─ Increasing deployment by industry in digital programming, equipment, and infrastructure


HIGHLIGHTS
     •   Digital Audio Broadcasting – Issued the digital audio broadcasting (DAB) Further Notice of
         Proposed Rulemaking and Notice of Inquiry seeking comment on issues left pending in the
         October 2002 Initial DAB Report and Order. The Commission plans to issue a Second Report
         and Order in 2005.
     •   DTV Periodic Review – The Second Periodic Review of the Commission’s Rules and Policies
         Affecting the Conversion to Digital Television facilitated the continued progress in the transition
         from analog to digital television. It establishes the timing and procedures for the channel election
         process; set deadlines for stations to replicate and maximize service areas; eliminated the
         simulcasting requirement; required broadcasters to include Program and System Information
         Protocol (PSIP) information with their digital broadcast signals; permitted limited use of
         distributed transmission technology; and clarified interference protection parameters of broadcast
         stations operating and/or authorized to operate on channels 51-69.
         •    Undertook several projects involving a review of DTV technical rules with the goal of
              furthering the completion of the transition. First, in the Notice of Inquiry on Interference
              Performance Specifications for Radio Receivers, the Commission included an issue on the
              development of voluntary standards DTV receiver performance. In response to this initiative,
              the Advanced Television Systems Committee, the DTV technical standards organization, has
              now developed draft standards for DTV performance that are being balloted by its members.
              Commission staff has continued to participate in this process, hoping that these voluntary
              DTV receiver performance standards could promote the transition by improving the quality
              of service received by viewers.
         •    Updated applicable computer programs to facilitate the DTV transition, and provided
              guidelines on implementation and use of the Longley-Rice methodology for evaluating TV
              coverage and interference.
         •    Established rules for the digital conversion of low power TV (LPTV) and TV translator
              stations (rural translator). These stations are a valuable part of the Nation’s television system,
              delivering free over-the-air TV service to millions of viewers in rural and discrete urban
              communities.
     •   DTV Outreach – Developed a Consumer Fact Sheet, “Digital Television,” to help explain digital
         television, the switch to DTV, and what DTV will mean to consumers. The Commission also
         commenced initial work on a comprehensive DTV consumer outreach campaign that explored a
         variety of outreach mechanisms: outreach messages that resonate with consumers; potential
         outreach partners (including the Consumer Electronics Association, National Association of
         Broadcasters, retail organizations and others); and developing draft print outreach materials.
         Finally, the agency has participated in a variety of meetings and consultations with foreign
         regulators concerning the transition to digital video and audio services. Additionally, the agency
         developed a new website, www.dtv.gov, as well as a Consumer Fact Sheet.
     •   Plug and Play – Adopted cable system transmission standards and support requirements,
         manufacturer labeling and consumer disclosure requirements, and copy protection encoding rules
         to promote digital “plug and play” cable compatibility. Certain of these rules are the subject of
         petitions for reconsideration, and the encoding rules are the subject of an appeal before the U.S.
         Court of Appeals for the District of Columbia Circuit, which has held the case in abeyance
         pending the Commission’s action on the petitions for reconsideration. The Commission also


48           PERFORMANCE AND ACCOUNTABILITY REPORT                 FISCAL YEAR 2004
   CHAPTER 2: PROGRAM PERFORMANCE

       requested further comment regarding pre-sale consumer disclosures, image constraint (i.e., down-
       resolution) of non-broadcast programming, and processes for approving new digital output and
       content protection technologies.
   •   Broadcast Flag – Adopted a redistribution control content protection system for digital broadcast
       television content that requires television reception equipment to respond and give effect to a
       marker, also known as the "broadcast flag," embedded in digital broadcasts. In addition, the
       Commission approved 13 output protection technologies and recording methods which would be
       used by manufacturers to implement this system in time to meet manufacturer production cycles.
   •   Media Enforcement – Continued to meet statutory and internal deadlines, with regard to its
       enforcement responsibilities for broadcast, satellite, and cable operating matters. Of particular
       note, the Commission initiated more than $3 million in indecency enforcement actions, including
       a $1.75 million consent decree with Clear Channel Communications, Inc., pursuant to which the
       company committed to implement a Compliance Plan aimed at preventing future indecency
       violations. The Commission also took numerous actions in support of the Commission’s localism
       initiative. For instance, the Commission took action that resulted in approximately $300,000 in
       forfeiture orders or settlements for violations of the main studio rule (for which they maintain
       public files containing information about their station’s operation to help local listeners and
       viewers determine whether stations are complying with FCC requirements), public file rule, and
       other non-technical rules. Also of note in FY 2004, nearly 2,000 political complaints and
       inquiries were resolved within three months of receipt; nearly 3,000 broadcast and 1,200 cable
       Equal Opportunity Program Reports were reviewed for compliance within nine months of receipt;
       and over 7,000 Children’s Television Reports were reviewed within three months of filing.
   •   DBS – Approved applications to increase the availability of Direct Broadcast Service systems.
       Among actions taken were the following:
       •   Rainbow DBS Special Temporary Authority (STA) – October 2003
       •   DBS Auction Order – January 2004
       •   WSNET/Pegasus Order – March 2004
       •   DirecTV 7S – launch authority April 2004
       •   DBS Auction – July 2004
       •   Various requests for modifications of current DBS licenses
   •   International Agreements – Implemented existing memoranda of understanding (MOUs) with
       Canada and Mexico to ensure that broadcasters can maximize facilities along the border;
       participated in negotiations with Mexico and Canada to create comprehensive broadcast
       agreements that include allocation of DTV channels near the borders; and addressed interference
       to U.S. AM radio stations caused by Mexican stations operating in violation of U.S.-Mexican
       agreements.
   •   Public Notices – Issued two Public Notices reminding broadcast, cable and satellite operators of
       1) new closed captioning benchmarks effective January 1, 2004 for English and Spanish language
       captioning, and 2) requirements to ensure that emergency information is presented in a manner
       accessible to persons who are deaf, hard of hearing, blind or visually impaired. The FCC also
       attended and presented at two large forums concerning closed captioning/access to emergency
       information issues. The Virginia Association of the Deaf sponsored one event, and the Northern
       Virginia Captioning Coalition sponsored the other event.




FEDERAL COMMUNICATIONS COMMISSION                                                                  49
                                                FEDERAL COMMUNICATIONS COMMISSION

PERFORMANCE MEASURE RESULTS
Significant progress in the transition to digital television and radio. (Outcome 1)
At the end of FY 2004, a total of
1,463 of 1,698 stations (86%) were                                              DTV Stations Authorized to be on the Air
authorized to be on the air. Of                                                                          (2001 - 2004)

these, 667 are licensed digital                  1600


facilities and facilities with program
                                                                                                                                                    1463
                                                              Special Temporary Authority
                                                 1400
test authority (those pending grant                           Licensed Facility or Program Tests
                                                                                                                               1247


of a license) for digital television             1200

(DTV) stations and 796 are                                                                                                                           796

facilities in operation pursuant to              1000

                                                                                                                                688
Special Temporary Authority. A                    800
greater number of television                                                                       643


stations     broadcasting      digitally          600

increased consumer demand for                                                                      312

improved television service and for               400
                                                                212                                                                                  667

new       DTV      technology       and           200           54
                                                                                                                                559


competition.
                                                                                                   331
                                                               158
                                                   0
                                                         November 7, 2001                   October 30, 2002             September 30, 2003   September 30, 2004


                                                   Source: Media Bureau Consolidated Database Systems (CDBS).




Implementation of AM and FM in-
band, on-channel (IBOC) hybrid                                       Transition to Digital Terrestrial Radio
                                                                                         (2002 - 2004)
digital radio continued a slow but 160
steady growth during FY 2004 rising              Radio Stations Authorized to Operate with Digital Facilities (Cumulative)

to 135 stations operating with digital 140                                                                                  135


radio authorizations as of September
30, 2004. While the overall number 120
of stations transmitting digital 100
signals remains small in relation to
the total number of eligible stations   80                                                         72
(135 of 13,499 stations), this is not
                                        60
unexpected in light of the fact that
IBOC operation is still in the          40
“interim” phase, since final rules
have not yet been adopted for IBOC      20

service, and IBOC receivers are just                    0
                                         0
beginning to enter the consumer                       2002                                       2003                      2004
marketplace. On April 20, 2004, the
                                           Source: Media Bureau Consolidated Database System (CDBS).
Commission adopted a Further
Notice of Proposed Rulemaking and Notice of Inquiry in MB Docket No. 99-325, a significant step
toward the adoption of IBOC rules. Currently, comments are being reviewed on this item and a Second
Report and Order is expected in FY 2005.




50           PERFORMANCE AND ACCOUNTABILITY REPORT                                           FISCAL YEAR 2004
    CHAPTER 2: PROGRAM PERFORMANCE


Increasing investment by consumers in digital equipment. (Outcome 2)
As identified in the chart, performance
data on DTV equipment sold and the                                       Increasing Investment by Consumers in Digital Television
                                                                                                    (Year End 2001 - 2003)
number of DTV households shows                           8,000




                                             Thousands
increased investment by consumers.                                   DTV Equipment Sold               Total Number of DTV Households
                                                                                                                                                                   7,049
                                                         7,000
As indicated by the lower bar of the
chart for each year, the amount of                       6,000

DTV equipment, which is the number
                                                         5,000
of new DTV sets sold to consumers
                                                                                                                                                    4,065
each year, has increased from                            4,000
                                                                                                                              3,965


1,403,000 DTV sets sold in 2001 to
2,433,000 DTV sets in 2002 to                            3,000
                                                                                                               2,433

4,065,000 DTV sets in 2003. The                          2,000
                                                                                     1,812


upper bar shows the total number of                                  1,403


homes with DTV sets.               DTV                   1,000


households also continue to grow,                           0
going from 1,812,000 in 2001 to                                               2001                                     2002                                 2003

3,965,000 in 2002 to 7,049,000 DTV
households in 2003.                                      Source: Year-end statistics, Kagan World Media analysis of CEA data.



Increasing deployment by industry in digital programming, equipment, and infrastructure.
(Outcome 3)
These two charts provide performance data on the deployment of digital programming, equipment and
infrastructure by industry.
                                                                          Per Day Average Number of High Definition Programs
                                                                                                        (2003 & 2004)
                                            300
                                                                                                                                                     283.4

                                                                 Broadcast TV Networks
                                            250
The chart on the right indicates that,                           Satellite-Delivered (i.e., cable, DBS) Networks


in 2004, the broadcast networks
carried an average of 8.8 programs          200


in high definition (HD) format each
day; satellite-delivered networks           150

(also known as cable networks)
distributed an average of 283.4 HD          100
programs per day in 2004.
                                                                                             54.0
                                            50


                                                                        7.9                                                            8.8
                                                0
                                                                                     2003                                                    2004

                                          Source: 2003 data are based on a 15-day sample from June 2003 and includes data
                                          from only 5 broadcast and 5 satellite-delivered networks. Kagan Digital TV
                                          Newsletter, June 20, 2003, p.2.
                                          Data for 2004 are based on a 14-day sample from September 2004 and includes
                                          data from 7 broadcast and 38 satellite-delivered networks. Decisionmark Corp.
                                          Digital TV Transition Progress Report prepared for the FCC, September 20, 2004.
                                          Although the Decisionmark data is a more complete representation of available HD
                                          programming, 2003 data are not available for this expanded universe.


FEDERAL COMMUNICATIONS COMMISSION                                                                                                                                          51
                                       FEDERAL COMMUNICATIONS COMMISSION




                                                                   Cumulative Cable Industry Infrastructure Expenditures
                                                                                       (1996 - 2003)
                                                   $90




                                        Billions
                                                                                                                           $84.5
The chart on the right shows the                                     Expenditures

                                                   $80
cable industry's investment in                                                                             $73.9

upgraded infrastructure for digital                $70

and other advanced services. From                                                     $59.4
                                                   $60
1996 through 2000, the cable
industry spent $43.3 billion.                      $50
                                                           $43.3
Cumulative expenditures through
                                                   $40
2001, 2002 and 2003 were $59.4
billion, $73.9 billion, and $84.5                  $30

billion, respectively.
                                                   $20


                                                   $10


                                                   $-
                                                         1996-2000                    2001                  2002           2003


                                          Source: National Cable & Telecommunications Association Cable
                                          Developments 2004.


OTHER ACCOMPLISHMENTS
Promoting competition, diversity and localism in the media marketplace
During the past year, the Commission has taken a number of actions to accomplish our goals of diversity,
competition, and localism. In conjunction with the Commission’s Localism Task Force, the Media
Bureau has helped organize and has participated in four field hearings on broadcast localism: Charlotte,
North Carolina, on October 22, 2003; San Antonio, Texas, on January 28, 2004; Rapid City, South
Dakota, on May 26, 2004; and Monterey, California, on July 21, 2004. The Commission released a
Notice of Inquiry, In the Matter of Broadcast Localism, on July 1, 2004.
To further competition, diversity and localism goals, the Media Bureau has been working on petitions for
reconsideration and the court remand of the 2002 Biennial Media Ownership Report and Order. On
February 19, 2004, the Media Bureau issued a Public Notice seeking additional comment on the UHF
discount in light of recent legislation affecting the national TV ownership cap. In addition, the
Commission has released a Notice of Proposed Rulemaking, In the Matter of Rules and Policies
Concerning Attribution of Joint Sales Agreements (JSAs) in Local Television Markets, to consider
attribution of TV JSAs.
With respect to the diversity goal, the FCC has released a Public Notice seeking comment on ways to
further Section 257 of the Telecommunications Act’s mandate to identify and eliminate market entry
barriers for small telecommunications businesses. Additionally, on June 4, 2004, the Commission
released a Third Report and Order and Fourth Notice of Proposed Rulemaking, In the Matter of Review
of the Commission’s Broadcast and Cable Equal Employment Opportunity Rules and Policies. On
May 28, 2004, the FCC announced that it had begun mailing EEO audit letters to randomly selected
broadcast stations and multichannel video program distributors. Each calendar year, approximately 5% of
all licensees and MVPDs will be selected for audit.




52        PERFORMANCE AND ACCOUNTABILITY REPORT                                     FISCAL YEAR 2004
    CHAPTER 2: PROGRAM PERFORMANCE

Furthermore, the Advisory Committee on Diversity for Communications in the Digital Age met three
times during this fiscal year. The Committee provides guidance to the Commission on policies and
practices that could increase the diversity of ownership and create opportunities for minorities and women
to advance to managerial positions in the communications sector as well as in other related sectors of the
economy. The Committee also develops best practices within the communications sector for promoting
diversity.
With respect to the competition goal, on June 17, 2004, the Commission released the Notice of Inquiry
for the annual competition report, In the Matter of Annual Assessment of the Status of Competition in the
Market for the Delivery of Video Programming. Further, with respect to localism and diversity, on
February 19, 2004, the FCC sent a Report to Congress on the results of the Low Power FM (LPFM)
Interference Testing Program, in accordance with Section 632 of the DC Appropriations Act, which
recommended the elimination of third-adjacent channel minimum distance separation requirements for
LPFM stations.


PERFORMANCE RESULTS AT-A-GLANCE

                                        MEDIA
                         FCC 2004 Performance Measure Scorecard
                                                                                             Data Not
                     Output Activities                        Met Goal   Did Not Meet Goal
                                                                                             Available
 1. Resolve challenges to revised rules issued in Third
    Biennial Review of Broadcast Ownership Rules and
    issue NPRM for Fourth Biennial Review of broadcast                          X
    ownership rules to assure that the rules reflect the
    current media marketplace.
 2. Adopt and enforce regulations to advance the digital
    transition and implement public education efforts,
    e.g., DTV Must-Carry, DTV Periodic Review, DTV
                                                                 X
    LPTV and TV Translators, Plug-and-Play, Broadcast
    Flag, Digital Audio Systems and Service Rules, and
    Disability Accessibility.
 3. Initiate any further actions to gather information and
    data from consumers, industry, civic organizations,
                                                                 X
    and others to assess broadcasters’ service to local
    communities.
 4. Resolve and enforce broadcast, cable and satellite
    operating matters in a timely way (e.g., children’s
    television, public files, leased access, main studio,        X
    EEO, political programming, closed captioning,
    analog must carry, and other non-technical rules).
 5. Conduct staff review of DTV technical rules to
    identify any changes needed to facilitate the
                                                                 X
    completion of the DTV transition mandated by
    statute.
 6. Foster the digital television transition by negotiating
                                                                 X
    cross-border agreements with Canada and Mexico.




FEDERAL COMMUNICATIONS COMMISSION                                                                        53
                                          FEDERAL COMMUNICATIONS COMMISSION

Performance Measure Not Met
Due to the parties’ appeal of the Commission’s Broadcast Ownership rules to the United States Court of
Appeals for the Third Circuit, and the extended time awaiting the court’s decision, the Commission did
not act on the pending petitions for reconsideration in FY 2004. The court’s decision was not issued until
June 24, 2004, and the Commission filed a Petition for Rehearing in August. Therefore, the challenges to
revised rules will be resolved in the next phase of this proceeding. Due to statutory changes that revised
the requirement to review the media ownership rules from every two to four years, a Notice of Proposed
Rulemaking for the Fourth Biennial Review of broadcast ownership rules was not completed in 2004.
The next such review is scheduled for 2006.


FUTURE PERFORMANCE MEASURES


FY 2005 - 2006 Outcome Indicators:
     » Increasing investment in and deployment of digital programming, equipment, and infrastructure
        by both industry and consumers
     » Promoting competition, diversity, and localism in the media marketplace



                                                         FY05 Output 4 – Initiate any further actions to
FY05 Output 1 – Continue monitoring and
                                                         gather information and data from consumers,
defense of, and if necessary, revision to Media
                                                         industry, civic organizations, and others to
Ownership Rules that reflect the current media
                                                         assess broadcasters’ service to local
marketplace.
                                                         communities.
FY05 Output 2 – Adopt, defend, and enforce
                                                         FY05 Output 5 – Protect both America’s
regulations and review technical rules to
                                                         children and freedom-of-speech through firm
advance the digital transition; implement
                                                         and fair action on indecency.
public education efforts to promote this
transition.                                              FY05 Output 6 – Maintain a dialogue with
                                                         policy makers around the globe as well as with
FY05 Output 3 – Resolve and enforce
                                                         research communities and industry groups on
broadcast, cable, and satellite operating matters
                                                         competition and new technologies in the media
in a timely way.
                                                         marketplace.
                                                                            ********




54         PERFORMANCE AND ACCOUNTABILITY REPORT               FISCAL YEAR 2004
   CHAPTER 2: PROGRAM PERFORMANCE




                                           HOMELAND SECURITY
                                                                           Strategic Goal:
                 Provide leadership in evaluating and strengthening the Nation’s
            communications infrastructure, in ensuring rapid restoration of that
          infrastructure in the event of disruption, and in ensuring that essential
               public health and safety personnel have effective communications
                               services available to them in emergency situations.

In the aftermath of the September 11, 2001, terrorist attacks, Americans were reminded of the importance
of reliable, readily available communications – for emergency personnel responding to a tragedy, for
individuals communicating with family and friends, and for the Nation as a whole, anxious to stay
informed of ongoing events on a minute-by-minute basis. The telecommunications, broadcast, and cable
industries that the Commission regulates are critically important to our national well being in times of
crisis. The reliance of numerous other critical industries, including banking, transportation, and energy,
on the telecommunications infrastructure as part of their operational backbone further underscores the
importance of that backbone and the FCC’s role in ensuring that it is secure.
Through its regulatory proceedings and important partnerships with other government entities and
industry, the FCC works to fulfill its responsibilities in promoting homeland security, network protection,
interoperability, redundancy, and reliability. The FCC aims to:

                                             •    Develop policies that promote access to effective
                                                  communications services by public safety, public
                                                  health, and other emergency and defense personnel in
                                                  emergency situations;
                                             •    Evaluate and strengthen measures for protecting the
                                                  Nation’s communications infrastructure; and
                                             •    Facilitate rapid restoration of the U.S. communications
                                                  infrastructure and facilities after disruption by a threat
                                                  or attack.


                                         Performance Goal
                                             ─ Promote a reliable, secure, and survivable
                                               communications infrastructure for the United States


                                         Outcome Indicators
                                             ─ Increasing deployment of E-911




FEDERAL COMMUNICATIONS COMMISSION                                                                      55
                                          FEDERAL COMMUNICATIONS COMMISSION

     ─ Increasing Telecommunications Service Priority (TSP) participation
     ─ Increasing amount and effective use of spectrum available for public safety communications


HIGHLIGHTS
Developing policies that promote access to effective communications services by public safety, public
health, and other emergency and defense personnel in emergency situations:
     •   E911 Proceedings – Adopted rules broadening the scope of E911 services to include mobile
         satellite services, certain telematic services, and resold and prepaid calling card services. The
         Commission also initiated a proceeding to determine whether IP-enabled voice services should be
         required to comply with our E911 rules. Finally, the Commission adopted additional
         requirements related to E911 services, including reporting requirements for mobile satellite
         service operators responsible for implementation of a call center.
     •   5.9 GHz Band Intelligent Transportation Systems Proceeding – Adopted licensing and service
         rules for dedicated short-range communications in the Intelligent Transportation Systems (ITS)
         Radio Service. ITS services will provide benefits to public safety entities such as the ability to
         monitor traffic from a control point and route first responders along the path of least resistance.
         They will also provide benefits to travelers, such as intersection collision avoidance and work
         zone warnings.
     •   800 MHz Public Safety Communications Proceeding – Adopted a plan to resolve the ongoing
         problem of interference to public safety systems operating in the 800 MHz band. This plan, once
         implemented, will help ensure interference-free operations for policemen, firemen, and other
         public safety personnel.
     •   4.9 GHz Interoperability Proceeding – Issued approximately 170 licenses to state and local
         agencies to operate in the 4.9 GHz band. This band was transferred from the Federal Government
         to non-government use in 1999. On April 23, 2003 the Commission adopted service and
         licensing rules for the band to accommodate a wide variety of broadband wireless applications in
         support of public safety, including, for example, wireless local area networks for incident scene
         management, dispatch operations, and vehicular operations.
     •   Rural Health Care Support Proceeding – Adopted rules that strengthen telemedicine and
         telehealth networks across the Nation and thereby enable health care providers to diagnose, treat,
         and contain possible outbreaks of disease more rapidly. These capabilities are particularly critical
         in light of potential threats of biological or chemical attacks.
     •   Maritime Radio Services Proceeding – Updated and streamlined Part 80 of the rules, particularly
         with respect to distress communications, and sought comment on additional rule changes to
         enhance maritime safety.
     •   Telecommunications Relay Services and Speech-to-Speech Services for Individuals with Hearing
         and Speech Disabilities Proceeding – Addressed cost recovery and other matters related to the
         provision of TRS pursuant to Title IV of the Americans with Disabilities Act of 1990.
     •   CALEA Proceeding – Proposed rules and issued a declaratory ruling regarding implementation of
         the Communications Assistance for Law Enforcement Act, particularly as it applies to broadband
         access and services, with the goal of ensuring that law enforcement has all of the resources that
         CALEA authorizes to combat crime and support homeland security.
     •   EAS Proceeding and EAS Enforcement – Opened a proceeding concerning how the Emergency
         Alert System (EAS) can be improved or supplemented to better meet the Nation’s needs to alert


56         PERFORMANCE AND ACCOUNTABILITY REPORT                 FISCAL YEAR 2004
   CHAPTER 2: PROGRAM PERFORMANCE

       citizens in times of crisis. Throughout FY 2004, the Commission strictly enforced EAS
       equipment and testing requirements, taking or proposing approximately 70 enforcement actions
       for EAS violations.
   •   E911 Coordination Initiatives II and III – Brought together E911 stakeholders to share
       experiences and devise strategies for expediting E911 deployment and addressing ongoing
       implementation issues. These partnership initiatives addressed key E911 concerns such as PSAP
       funding, wireless carrier implementation and prioritization, and challenges faced by rural carriers.
   •   E911 Solutions Summit – Brought together stakeholders to gather information concerning the
       ability of IP-enabled voice services, such as VoIP, to deliver callback number and location
       information. As more Americans subscribe to these services as an alternative to traditional
       circuit-switched voice services, this issue will take on additional importance.
   •   Disabilities Summit – Convened a day-long summit, bringing together disability organizations,
       service providers, Government agencies and other stakeholders to identify barriers faced by
       people with disabilities during national emergencies and to develop strategies for resolving them.
       The FCC also partnered with its international counterparts to address access to networks for
       persons with disabilities and standards that equipment manufacturers and network designers can
       use in developing equipment that allows all individuals to have access to communications
       networks.
   •   Media Forum – Co-sponsored a forum with the Department of Homeland Security to examine
       how the relationship between local media and Government can be strengthened to support
       operational readiness to cope with terrorist attacks and natural disasters.
   •   800 MHz Cross-Border Coordination – Subsequent to adoption of the 800 MHz rules, and in
       consultation with the Department of State, initiated coordination with Mexico and Canada
       concerning necessary modification of cross-border agreements.
   •   Support for Large Scale Government and Political Events – Partnered with Federal, state and
       local officials at the FY 2004 political conventions, the G8 Summit and other important large-
       scale Government events to help ensure interference-free communications for law enforcement
       and public safety.


Evaluating and strengthening measures for protecting the communications infrastructure and ensuring
rapid restoration in the event of disruption:
   •   Pipeline Safety Improvement Act Proceeding – Launched a rulemaking to simplify the Nation’s
       One Call notification system. Proposals under consideration would permit easier notification to
       underground operators of excavation activities. Damage from excavation activities can cause
       outages that disrupt our Nation’s energy supply, air traffic control operations, emergency
       response providers, law enforcement agencies, and military bases.
   •   Orbital Debris Proceeding – Adopted a comprehensive plan to mitigate the risks posed by orbital
       debris on satellite systems. Such debris could jeopardize the reliable use of orbital regimes for
       space-based services, including those that support homeland security.
   •   Outage Reporting Proceeding – Adopted rules extending mandatory outage reporting
       requirements to include not only wireline providers but also wireless and satellite providers. This
       requirement will ensure rapid, complete and accurate information on service disruptions that
       could impact homeland security, pubic health or safety, and our country’s economic well-being.



FEDERAL COMMUNICATIONS COMMISSION                                                                     57
                                        FEDERAL COMMUNICATIONS COMMISSION

     •   COSPAS-SARSAT International Satellite Location and Rescue System – Partnered with the
         National Oceanic and Atmospheric Administration at the site of the COSPAS-SARSAT system
         to address interagency cooperation aimed at eliminating harmful interference to the satellite
         constellation, which has become an integral part of homeland security.
     •   Executive Branch Consultation on Section 214 market access and Section 310 foreign ownership
         reviews – Coordinated 95 section 214 applications, Section 310 foreign ownership reviews, and
         submarine cable landing license applications with the Executive Branch to ensure consideration
         of national security, law enforcement, foreign policy and trade issues.
     •   Priority Services Project – Led an interagency working group to evaluate the following Federal
         priority service programs to determine ways to improve operations, changes that may be
         necessary as IP-based services become more prevalent, and methodologies for increasing
         participation by essential Federal, state and local emergency organizations: telecommunications
         service priority (TSP); Government emergency telephone services (GETs); wireless priority
         devices.
     •   Rural Satellite Forum – Held a one-day forum to highlight satellite-based communications
         systems and their various applications, including public safety, homeland security, and
         telemedicine.
     •   Tribal Communications Security Plan – Began the consultation process on a draft Tribal
         Communications Security Plan at the National Conference of American Indians. The Plan is
         designed to assist Tribal Governments in planning for the physical protection of critical
         communications infrastructure in their communities.
     •   Interdependencies Workshop – Together with the Department of Homeland Security, the Federal
         Energy Regulatory Commission, and the National Association of Regulatory Utility
         Commissioners, hosted a two-day “Interdependencies Workshop.” The workshop identified
         interdependencies among water, energy, and telecom and identified going-forward steps to
         increase coordination and preparedness.


Promoting new technologies that support homeland security:
     •   Aviation Radio Services Proceeding – Updated and streamlined Part 87 of the rules to
         accommodate technological advances and new safety-related services. The proceeding also
         sought comment on additional rule changes to enhance aviation safety.
     •   Cognitive Radio Proceeding – Proposed rules concerning uses of cognitive radio technology to
         improve spectrum use. Cognitive radio technology promises particular benefits for public safety
         entities because it will permit much more flexible, efficient use of spectrum and promote
         interoperability.
     •   Radio Frequency Identification (RFID) Systems Workshop – Held a one-day workshop to allow
         industry and RFID service providers to discuss with FCC officials the current state of the
         industry, and whether the current FCC rules allowed for the growth and development of this
         service. The RFID systems will have significant homeland security benefits, such as permitting
         the immediate identification of the entire contents of shipping containers and permitting a
         determination of whether tampering with contents has occurred.




58         PERFORMANCE AND ACCOUNTABILITY REPORT              FISCAL YEAR 2004
   CHAPTER 2: PROGRAM PERFORMANCE


PERFORMANCE MEASURE RESULTS
Increasing deployment of E-911. (Outcome 1)
From February 2003 to August 2004,
                                                                         Phase II E-911 Operational Growth
Phase II of E-911 Operational                                                       (2002 - 2004)
Growth increased by 444% (from           2,000                                                                                       1,904

350 to 1,904). This chart reflects the   1,800
                                                                                                                         1,689
number of Public Safety Answering
Points (PSAPs) receiving Phase II        1,600

                                                                                                             1,400
location information from at least       1,400                                                      1,307
one mobile service licensee. Phase II    1,200
                                                                                      1,225

rules require licensees to transmit
911 caller location information to       1,000

PSAPs with greater accuracy than          800
                                                                           810

Phase I deployment. In order to
                                          600
monitor E-911 progress closely, each
carrier is required to file quarterly     400                  350
                                                   246
reports with the FCC on February 1,       200
May 1, August 1, and November 1 of
                                           -
each year.                                       Nov. 2002   Feb. 2003   May 2003   Aug. 2003   Nov. 2003   Feb. 2004   May 2004   Aug. 2004

                                          Source: E-911 Quarterly Reports filed by Carriers.



Increasing telecommunications service priority participation. (Outcome 2)
The      FCC     established     the
Telecommunications           Service                           Additional TSP Lines for 911
Priority (TSP) program to support       4,500
                                                                          (2004)

priority       restoration        of
                                                                                            3,987
communications services that            4,000

support national security and
                                        3,500
emergency preparedness (NS/EP)
missions      during       disasters,   3,000

including terrorist attacks. The                         2,471
                                        2,500
National Communications System
(NCS)      oversees      day-to-day     2,000

operation of the TSP program.
                                        1,500
Any Federal, state, or local
government entity that relies on        1,000

telecommunications services to
                                          500
accomplish its NS/EP mission can
qualify for TSP. There were a             -
total of 55,000 911-center                               2003                               2004

communications lines in FY 2004.          Source: DHS-NCS Active TSP Participation Reports.
Although all 911-centers would
qualify for the TSP program, only a very small percentage of 911-centers participate. In FY 2004, the
FCC began an outreach program to inform 911 administrators of the TSP program and expedite their
enrollment. At the end of FY 2003, a total of 2,741 911-center communications lines were enrolled in the
TSP program. By the end of FY 2004, a total of 3,987 911-center communications lines were covered by
the TSP program. The TSP program increases the reliability of essential NS/EP communications services


FEDERAL COMMUNICATIONS COMMISSION                                                                                                    59
                                                      FEDERAL COMMUNICATIONS COMMISSION

by minimizing out-of-service times. As a result, these centers’ operations were made substantially more
reliable.


Increasing amount and effective use of spectrum available for public safety
communications. (Outcome 3)
Effective          public          safety                                   Public Safety Interference Cases
communications depends not just on 1,600                                              (2003 & 2004)

the amount of spectrum available to                         New cases (Receipts)         Cases closed (Disposals)        Open cases (Pending)

public safety entities but also on 1,400
interference-free operations. In an                                                                            1,250  1,275

                                          1,200
effort to help ensure that public safety
                                                       1,008        1,015
communications are free of unlawful 1,000
interference, the FCC’s field offices
have undertaken an outreach program         800


to public safety entities to inform         600

them of the FCC’s ability to locate the
sources of unlawful interference. The       400


FCC strives to quickly resolve public       200
safety       entities’       interference                                        93                                                  68

complaints. As a result of outreach,          0
                                                                  FY 2003                                            FY 2004
the     number       of    interference
complaints received from public               Source: Enforcement Bureau Quarterly Workload Summary Report.
safety entities increased by 24%
(from 1,008 to 1,250) during FY 2004. By contrast, the number of pending cases at the end of FY 2004
decreased by 27 percent.

OTHER ACCOMPLISHMENTS

Enhancing telecommunications and media network reliability, including emergency
preparedness.

The FCC worked with two of its Federal Advisory Committee Act (FACA) committees – the Network
Reliability and Interoperability Council (NRIC) and the Media Security and Reliability Council (MSRC)
– to enhance telecommunications and media network reliability. NRIC is comprised of Government
representatives and members from the wireline and wireless industries, ISPs, and equipment suppliers.
NRIC adopted or revised over 800 voluntary industry Best Practices focused on physical security,
cybersecurity, business continuity, and public safety. Information on Best Practices was disseminated
through numerous workshops, panels, and at the international level, through teleconferences. In addition,
over 600 stakeholders received a DVD about NRIC Best Practices.
MSRC, comprised of Government representatives and members from the broadcast, cable, and satellite
industries, developed over 100 voluntary industry Best Practices focused on public communications and
safety, communications infrastructure security, access, and restoration. Information on these Best
Practices was disseminated through panels, a joint workshop with the Department of Homeland Security,
and the distribution of over 13,000 brochures at industry conventions and other events. In addition, the
Florida Association of Broadcasters, in cooperation with MSRC’s Public Communications and Safety
Working Group, tested Best Practices and sought input from local emergency managers and officials at a
one day workshop in Tampa, Florida.



60            PERFORMANCE AND ACCOUNTABILITY REPORT                                 FISCAL YEAR 2004
   CHAPTER 2: PROGRAM PERFORMANCE


PERFORMANCE RESULTS AT-A-GLANCE

                               HOMELAND SECURITY
                        FCC 2004 Performance Measure Scorecard
                                                                    Did Not Meet
                   Output Activities                     Met Goal                  Data Not Available
                                                                        Goal
 1. Identify and engage domestic and international
                                                            X
    counterparts on homeland security issues.
 2. Develop regulations to ensure the security and
    survivability of the satellite communications
                                                            X
    infrastructure, including treatment of orbital
    debris.
 3. Ensure public safety has adequate means of
    meeting communications needs through spectrum           X
    and technology.
 4. Increase the deployment of Telecommunications
                                                            X
    Service Priority participation.
 5. Enhance consumer awareness of communications
    security and reliability issues in emergency            X
    situations.
 6. Enforce technical regulations and investigate
    harmful interference complaints affecting public
                                                            X
    safety communications systems and
    infrastructure.
 7. Complete rulemakings/issue regulations that
    further the accessibility of the
    telecommunications network to people with
    disabilities (e.g., Telecom Relay Services              X
    including annual review of TRS issues, and
    Section 255 accessibility to equipment and
    services).
 8. Coordinate Section 214 market access and
    Section 310 foreign ownership reviews with the          X
    Executive Branch.
 9. Facilitate deployment of enhanced 911 services
    through new regulations, clarification of existing
                                                            X
    regulations, enforcement proceedings, and data
    tracking.
10. Complete the deliverables required by the Network
    Reliability and Interoperability Council (NRIC)
                                                            X
    and Media Security and Reliability Council
    (MSRC) charters.
11. Enhance the Emergency Alert System through
    consistent, strong enforcement of Emergency
                                                            X
    Alert System (EAS) equipment and testing
    requirements.




FEDERAL COMMUNICATIONS COMMISSION                                                                  61
                                         FEDERAL COMMUNICATIONS COMMISSION

Performance Measures Discontinued
As noted in Chapter 1 (see page 5), the following outcome indicator, previously measured in FY 2003,
was eliminated at the end of FY 2003 in the FY 2003 Annual Program Performance Report (page 24,
http://www.fcc.gov/Reports/ar2003.pdf):
     •   Increasing deployment of Wireless Priority Access Service (WPAS).
During FY 2003, we determined that since the deployment of WPAS (managed by the Department of
Homeland Security, National Communications System) is voluntary it is not an appropriate measurement.
The following outcome indicator, previously measured in FY 2003, was temporarily suspended at the end
of FY 2003 because data will not be available in FY 2004:
     •   Increasing reporting of service outages across multiple platforms.
In the past, only wireline and cable telephony communications providers were required to report service
outages. In August 2004, the FCC adopted rules extending reporting requirements to wireless and
satellite providers. These actions will facilitate more reliable telecommunications throughout the U.S.
and promote homeland security. However, data will not be available until some point in FY 2005. This
measure will be included in the FY 2005 PAR.


FUTURE PERFORMANCE MEASURES


FY 2005 - 2006 Outcome Indicators:
     » Increasing deployment of E-911
     » Increasing Telecommunications Service Priority participation for 911-centers, state and local
         emergency operations centers, and Federal departments and agencies
     »   Enhancing telecommunications and media network reliability, including emergency preparedness
     »   Increasing amount and effective use of spectrum available for public safety communications
     »   Increasing reporting of service outages across multiple platforms
     »   Improving the effectiveness of an Emergency Alert System (EAS) by expanding its reach to users
         of additional communications technologies and media
     » Coordinating with other agencies regarding homeland security




62         PERFORMANCE AND ACCOUNTABILITY REPORT                FISCAL YEAR 2004
   CHAPTER 2: PROGRAM PERFORMANCE




FY05 Output 1 – Enhance the Emergency                FY05 Output 6 – Increase the deployment of
Alert System through consistent, strong              Telecommunications Service Priority services.
enforcement of EAS equipment and testing
                                                     FY05 Output 7 – Enhance consumer
requirements.
                                                     awareness of communications security and
FY05 Output 2 – Enforce technical regulations        reliability issues in emergency situations.
and    investigate     harmful    interference
                                                     FY05 Output 8 – Facilitate deployment of
complaints     affecting     public     safety
                                                     enhanced 911 services through new
communications systems and infrastructure.
                                                     regulations,     clarification  of     existing
FY05 Output 3 – Ensure public safety has             regulations, enforcement proceedings, and data
adequate means of meeting communications             tracking.
needs through spectrum and technology.
                                                     FY05 Output 9 – Develop regulations to
FY05 Output 4 – Develop and enforce                  ensure the security and survivability of the
regulations to implement CALEA for                   satellite    communications       infrastructure,
broadband     telecommunications     carriers;       including treatment of orbital debris.
measure      compliance      with    CALEA
                                                     FY05 Output 10 – Coordinate Section 214
requirements by providers with circuit-
                                                     market access and Section 310 foreign
switched technology by tracking the decline in
                                                     ownership reviews with the Executive Branch.
waiver and extension requests.
                                                     FY05 Output 11 – Monitor and analyze
FY05 Output 5 – Maintain a dialogue with
                                                     service outage reports.
regulators at the state, local, tribal, and global
levels as well as with industry groups on FCC-
related homeland security policies and                                  ********
practices.




FEDERAL COMMUNICATIONS COMMISSION                                                                 63
                                     FEDERAL COMMUNICATIONS COMMISSION



This page intentionally left blank




64       PERFORMANCE AND ACCOUNTABILITY REPORT       FISCAL YEAR 2004
   CHAPTER 2: PROGRAM PERFORMANCE




                                          MODERNIZE THE FCC
                                                                       Strategic Goal:
            Emphasize performance and results through excellent management.
                Develop and retain independent mission-critical expertise and
                        align the FCC with dynamic communications markets.

The FCC is committed to becoming an ever more responsive, efficient, and effective agency. While these
changes have begun, with an agency-wide reorganization and dedication of resources to recruiting,
training, equipping, and deploying an expert workforce, much work remains as the agency capitalizes on
its competencies in:
   •   Promoting competition, innovation, and investment in broadband services and facilities;
   •   Supporting the Nation’s economy by ensuring a competitive framework for the communications
       revolution;
   •   Encouraging the highest and best use of spectrum domestically and internationally;
   •   Revising media regulations so new technologies flourish alongside diversity and localism; and
   •   Strengthening the defense of the Nation’s communications infrastructure.
The FCC’s objectives are to:
   •   Structure the FCC so that it can flexibly respond to Congress, consumers, and the
       communications industries in a timely manner;
   •   Provide and sustain mission-critical training and development in order to ensure excellence
       among a diverse and expert staff; and
   •   Offer employees educational and advancement opportunities.




                                                           Performance Goal
                                                               ─ Become a more responsive,
                                                                 efficient, and effective agency


                                                           Outcome Indicators
                                                               ─ Reducing the average time
                                                                 required to complete rulemakings
                                                                 (improve workflow, document and
                                                                 knowledge management)




FEDERAL COMMUNICATIONS COMMISSION                                                                  65
                                           FEDERAL COMMUNICATIONS COMMISSION

     ─ Increasing efficiency in the processing of workload (measured by and reported in the Quarterly
       Performance and Results Review (QPRR))
     ─ Employing of appropriate number of attorneys, engineers and economists
     ─ All FCC employees participating in appropriate career development activities
     ─ Increasing rate of agency achievements of strategic objectives


HIGHLIGHTS


Electronic Initiatives
     •   Project IMPACT – Initiated a pilot project, Project IMPACT (Improving Management of Policy
         Activities through Collaborative Technologies) to improve the effectiveness of the policy and
         rulemaking process through the use of document and knowledge management software. In FY
         2004, 200 pilot participants were trained in the IMPACT suite of software tools, and
         organizations began using these tools in the rulemaking process. The pilot has been extended into
         FY 2005 to provide a better assessment of the technology.
     •   IT Steering Committee (ITSC) – Chartered the ITSC comprised of senior IT managers from all
         Bureaus and Offices. The ITSC developed recommendations for spending priorities based on
         agency-wide information technology requirements. It also established a licensing subgroup to
         develop a strategy for refreshing and evolving our licensing systems.
     •   Improved Customer Service –
         •    Replaced several aging components of our Internet infrastructure that improved system
              performance, security and capacity. We are now able to process a much higher volume of
              incoming email, and public access to FCC systems is more efficient and responsive.
         •    As part of the CIMS development effort, consumer inquiries are now automatically pre-sorted
              by key words or hot topics. This allows the staff to quickly identify the subject of the inquiry
              and provide a faster response to the consumer.
         •    The Equipment Authorization System now provides an on-line web-based form that
              accredited testing laboratories can use to certify radio frequency devices.
         •    In accordance with the Bipartisan Campaign Reform Act of 2002, made available an on-line
              database that determines whether a communication sent via a broadcast, cable, and/or satellite
              system can reach 50,000 or more people in a particular Congressional District or State.
         •    The Media Bureau’s licensing system, CDBS, can now process informal filings online (e.g.,
              name/address changes, special temporary authority, etc.). In addition, the Media Bureau
              introduced electronic filing for Signal Leakage Performance Reports via the Cable Operations
              and Licensing System.
         •    The Universal Licensing System now provides online capabilities for MDS and ITFS
              application/license data and spectrum leasing applications/notifications. In addition, the
              newly deployed ULS License Manager dramatically simplifies the submission of many types
              of filings such as renewals, cancellations, and administrative updates.
     •   BEAMS – Implemented BEAMS, a performance-based budgeting system that tracks time,
         resources, and expenditures by agency-wide output (performance) activities and strategic goals.
         This system integrates budget, performance goals, and resources.




66           PERFORMANCE AND ACCOUNTABILITY REPORT                FISCAL YEAR 2004
   CHAPTER 2: PROGRAM PERFORMANCE

Work Life Programs
   •   Commuter Friendliness – The Greater Washington Region's Best Workplaces for CommutersSM
       Coalition included the FCC on its 2004 list of the Greater Washington Region's Best Workplaces
       for Commuters. Factors for award included: offering the maximum allowable transit subsidy;
       telecommuting by 32% of the FCC staff; giving carpools preferred parking; offering shuttles to
       Metro in the evening; and permitting flexible work schedules that allow employees to balance
       work and family demands.
   •   FCC Best! – Implemented “FCC Best!” to make the FCC an even better place to work. Our
       efforts can be classified into three broad categories:
       •   Innovation and Efficiency. We develop ideas to improve the way the FCC works.
       •   Community Service. We promote interaction between the FCC and the local community.
           Some of our activities include arranging for FCC employees to speak at schools and
           community centers, and organizing book drives for local schools.
       •   Improving the Workplace/Having Fun. We find ways to make the work environment more
           enjoyable. We enjoyed a variety of activities, including an agency-wide picnic to celebrate
           the 70th anniversary of the Communications Act of 1934 and Take Your Child to Work Day.


PERFORMANCE MEASURE RESULTS
Reducing the average time required to complete rulemakings (improve workflow,
document and knowledge management). (Outcome 1)


                                                                    Average Time Required to Complete Rulemakings
                                                                                    (2003 - 2004)
The FCC’s processing time from          35
                                                  Circulation to Adoption        Adoption to Release   Items Released
                                                                                                                                                185

“circulation to adoption” remained                                                                             31        Items Released, 182

fairly constant at approximately one    30
                                                           28                                                                                   180

month to complete a rulemaking in FY
2004. In FY 2003, processing time       25
                                                                                                                                                175
from “circulation to adoption” was
28 days.                                20

                                                                                                                                                170
                                                                                                                              15
                                        15

                                                                      Items Released, 166
                                                                            10                                                                  165
                                        10


                                                                                                                                                160
                                            5



                                        -                                                                                                       155
                                                                 FY 2003                                            FY 2004



                                            Source: Quarterly Performance and Results Review, FY 2004.




FEDERAL COMMUNICATIONS COMMISSION                                                                                                              67
                                          FEDERAL COMMUNICATIONS COMMISSION



                                                                              Backlog Report of Policy Rulemakings

                                          100
                                                                       95
                                                                                                                          Total Backlog Items
                                           90


In FY 2004, the FCC backlog of             80

policy rulemakings totaled 53 items.       70
This represents a 44% decrease
                                           60
from the 95 policy rulemaking items                                                                                         53
backlogged in FY 2003.                     50


                                           40


                                           30


                                           20


                                           10


                                            0
                                                                September 30, 2003                                   September 30, 2004


                                                Source: Quarterly Performance and Results Review, FY 2004.




Increasing efficiency in the processing of workload (measured by and reported in the
QPRR). (Outcome 2)
In FY 2004, the FCC identified 21 outcome indicators for tracking and monitoring in the QPRR
categorized under the FCC’s six strategic goals. As reflected in the charts below, the FCC exceeded its
speed of disposal and electronic filing goals.

                                                      Percentage of Actions Disposed of within Speed of Disposal Goals Agency-
                                                                                        wide
                                            100%                                            (2001 - 2004)     98%                           97%
Speed of Disposal – At the end of         Goal: 95%
                                                          94%                         96%


FY 2004, 97% of the 1,705,973                90%


actions were disposed within the             80%

processing goals. In FY 2003, 98% of         70%

576,860 actions were disposed within         60%
the processing goals. For the third
                                             50%
year in a row, the agency exceeded the
95% goal. The primary reason the             40%


total number of actions more than            30%

doubled is a result of the inclusion of      20%

actions taken by the Consumer and            10%
Governmental Affairs Bureau for the
first time in FY 2004.                          0%
                                                         FY 2001                     FY 2002                FY 2003                       FY 2004


                                                Source: Quarterly Performance and Results Review, FY 2004.




68        PERFORMANCE AND ACCOUNTABILITY REPORT                                  FISCAL YEAR 2004
       CHAPTER 2: PROGRAM PERFORMANCE




                                                                       Percentage of Actions Filed Electronically Agency-wide
                                                                                          (FY 2001 - 2004)
                                              100%                                                            95%
                                                                                        92%                                      92%
                                                     Goal: 90%
     Actions Filed Electronically –            90%

     At the end of FY 2004, 92% of             80%               77%
     566,975 applications were filed           70%
     with electronic filing capability
     or online. In FY 2003, 95% of             60%


     575,838 applications were filed           50%

     with electronic filing capability         40%
     or online. For the fourth year in         30%
     a row, the FCC exceeded the
     90% goal.                                 20%

                                               10%

                                               0%
                                                             FY 2001                  FY 2002                FY 2003            FY 2004




                                               Source: Quarterly Performance and Results Review, FY 2004.


Employing of appropriate number of attorneys, engineers and economists. (Outcome 3)
A workforce planning report was completed and approved by the Chairman. The report includes an
assessment of the challenges confronting the agency and the extent to which the agency has the
appropriate mix of skills and staff to meet those challenges. The report pinpointed a need for additional
attorneys, engineers and economists. The FCC obtained Voluntary Early Retirement Authority from the
Office of Personnel Management in July 2004 as a way to help reshape the agency's workforce. In FY
2004, the FCC hired seven attorneys, four engineers, and one economist.


All FCC employees participating in appropriate career development activities. (Outcome 4)
To become a more efficient and effective agency, the FCC used the workforce analysis data to develop
new training programs and enhance existing training programs to provide career development assistance
to all employees. At the end of FY 2004, nearly all employees had prepared Personal Development Plans,
and a follow-up is scheduled in November 2004 (the first anniversary) to determine completion.
       •   Included three new occupational groups in the FCCU catalog: Clerical and Administrative,
           Consumer Affairs and Outreach, and Program and Management Analysts.
       •   Expanded the in-house training program by offering 319 sessions,16 providing training for FCC
           employees in professional, technical, general, and leadership competencies in 6,194 instances.17
           Additionally, FCC employees completed 287 online training courses.
       •   Increased the number of external courses completed to 749, representing an investment of almost
           $500,000.


16
   A training “session” is a subset of a training class or program. Classes may have more than one session (e.g., a
five-day training class or program has five sessions).
17
   A training “instance” occurs when a person attends a training session. Instances provide a relative gauge of
training frequency for individuals, and training activity and effort by the training administrative staff.

FEDERAL COMMUNICATIONS COMMISSION                                                                                                         69
                                         FEDERAL COMMUNICATIONS COMMISSION

     •   Obtained the first Continuing Legal Education (CLE) credits for FCC in-house training courses to
         help attorneys meet applicable professional requirements.
     •   Piloted a new web-based training package offering technical and crosscutting skills courses to the
         Enforcement Bureau’s field offices.
     •   Linked supervisors, managers, and employees performance appraisals to the strategic plan.
     •   Piloted 360-degree assessments for managers by supervisor, peers, and subordinates. Expanding
         the availability of this tool to everyone in FY 2005.

Increasing rate of agency achievement of strategic objectives. (Outcome 5)



                                                                                   Agency’s Strategic Plan Achievements
                                                                                            (FY 2004 Outcome Indicators)
                                                         Broadband            Competition        Spectrum       Media     Homeland Security      Modernize the FCC
                                          7
The FCC met 11 of its outcome
indicators, and did not meet one of       6

its indicators in FY 2004. Fiscal                                         5
year data were not available for the      5

nine additional indicators and were                 4                                                       4                                         4
                                          4
not included in our calculations.
                                              3          3    3   3                          3         3                                         3
                                          3


                                                                                                                                                              2
                                          2


                                                                                                  1                                    1
                                          1



                                          0
                                                  Total # of Indicators                     Achieved                    Not Achieved          Data Not Available until FY 05




70         PERFORMANCE AND ACCOUNTABILITY REPORT                                            FISCAL YEAR 2004
   CHAPTER 2: PROGRAM PERFORMANCE


PERFORMANCE RESULTS AT-A-GLANCE

                               MODERNIZE THE FCC
                        FCC 2004 Performance Measure Scorecard
                                                                        Did Not Meet   Data Not
                     Output Activities                       Met Goal
                                                                            Goal       Available
 1. Assess and report on the initial results of the IMPACT
                                                                X
    pilot.
 2. Bureau/Office efficiency initiatives reported in
                                                                X
    Quarterly Performance and Review Report.
 3. Ensure appropriate number of engineers, economists,
                                                                X
    and attorneys.
 4. All agency staff participates in appropriate career
                                                                X
    development discussions with their supervisor.
 5. Supervisory and managerial performance plans and
    awards are linked to the FCC’s Strategic Plan goals         X
    and measures.
 6. Implement performance-based budgeting based on
                                                                X
    OMB guidelines.
 7. To improve FCC operations, conduct audits,
    assessments and evaluations and make
    recommendations (e.g., Fiscal Year Financial
                                                                X
    Statements, Federal Information Security
    Management Act Evaluations, and Continuity of
    Operations Plan (COOP)).



FUTURE PERFORMANCE MEASURES


FY 2005 - 2006 Outcome Indicators:
    » Reducing the average time required to complete rulemakings (improve workflow, document, and
        knowledge management)
    » Increasing efficiency in the processing of workload, e.g., reducing rulemaking backlog and
        response times to consumer complaints (measured by and reported in the Quarterly Performance
        and Results Review)
    » Implementing Human Capital strategies to address skills and competencies required for
        accomplishment of strategic goals
    » Developing targeted skills and competencies for all FCC employees through appropriate career
        development aligned with strategic goals
    » Increasing rate of agency achievement of strategic objectives




FEDERAL COMMUNICATIONS COMMISSION                                                                  71
                                         FEDERAL COMMUNICATIONS COMMISSION




FY05 Output 1 – Expand the use of                   FY05 Output 5 – Implement performance-
technology to improve efficiency.                   based budgeting based on OMB guidelines.
FY05 Output 2 – Reduce rulemaking backlog,          FY05 Output 6 – Conduct audits, assessments,
respond to consumer complaints, and                 and evaluations and make recommendations.
implement other Bureau/Office efficiency
                                                    FY05 Output 7 – Ensure compliance with all
initiatives reported in the Quarterly
                                                    general administrative laws and regulations,
Performance and Results Review.
                                                    including the Freedom of Information Act,
FY05 Output 3 – Continue workforce planning         procurement,          ethics,     employment,
effort to efficiently and effectively deploy our    appropriations, and other rules and regulations
human resources.                                    pertaining to Federal agencies.
FY05 Output 4 – Implement a learning                                  ********
management system.




72        PERFORMANCE AND ACCOUNTABILITY REPORT           FISCAL YEAR 2004
3. Financial Statements and Auditors’
   Reports

MESSAGE FROM THE CHIEF FINANCIAL OFFICER

During FY 2004, we continued to improve our ability to provide timely, accurate and useful financial
information. This included successfully implementing the FCC’s cost allocation system, BEAMS, which
provides a robust and integrated addition to the Commission’s financial management systems. The
BEAMS fully supports the Statement of Net Cost for the financial statements, as well as detailed budget
execution and FTE reporting to support improved management of Commission resources. The
Commission is working to implement a fully integrated financial system in FY 2006.
We implemented an additional module in our Revenue and Accounting Management Information System
during FY 2004. The Auctions module was implemented during the third quarter. This module
automates the entire flow of information and financial activity for the FCC’s auctions process, from
collecting up-fronts and first-downs, to posting accounts receivables, and collecting final payments. A
second module, International Telecommunications Settlement (ITS), automates the ITS program’s
invoice, billing, collection, and payment processes was fully accepted and placed in service October 2004.
In FY 2004, the Commission adopted a Report & Order to fully implement the Debt Collection and
Improvement Act, and adopted rules governing the collection of debts owed the Commission, consistent
with the Debt Collection and Improvement Act and the Treasury regulations. These changes, effective
June 16, 2004, also increased the Commission’s authority to compromise, suspend, or terminate debts up
to $100,000, and increased the minimum amount of debt that may be transferred to the Department of
Justice to $2,500 (up from $600). Starting November 1, 2004, the FCC will implement the “Red Light”
rule, which requires pending applications to be dismissed if delinquent debt is not paid within 30 days of
written notice. Additionally, the “Red Light” rule will require all licensing systems and bureau/office
staff to check delinquent debt before issuing a license or permit, or granting a license or benefit.
At the end of FY 2003, USF receivables over 90-days old were transferred onto FCC’s books for final
collection activity and possible transfer to the Treasury for debt collection. In addition to USF debt, the
FCC now is receiving the 91-day-old debt for TRS and the NANP. As a result of these efforts, in
FY 2004, over $4.0 million was collected for the components, and $12.3 million of their debt was
transferred to Treasury.
The Commission mailed fee assessment notifications to media services licensees for the first time in
FY 2003.1 For FY 2004, the FCC billed for the yearly regulatory fees for two services. The Commission
mailed bills for regulatory fees to satellite space station licensees for their FY 2004 regulatory fees; last
year, the same licensees received assessment letters only. Also during FY 2004, the FCC continued to
generate and mail customized Interstate Telecommunications Service Provider Worksheets (FCC
1
 Fee assessments were issued for AM and FM Radio Stations and Construction Permits, FM Translators/Boosters, VHF and
UHF Television Stations and Construction Permits, Satellite Television Stations, Low Power Television (LPTV) Stations, and
LPTV Translators/Boosters. The FCC did not issue fee assessments for broadcast auxiliary stations in FY 2003 or FY 2004.



FEDERAL COMMUNICATIONS COMMISSION                                                                                   73
                                         FEDERAL COMMUNICATIONS COMMISSION

Form 159-W) to Interstate Telecommunications Service Providers (ITSPs). In the past, this customized
FCC Form 159-W served as an assessment for ITSPs. This year, however, these bills were actually
processed in the automated accounting system as accounts receivables. Both of these services accounted
for approximately $141 million of the nearly $273 million assessed in FY 2004. We intend to expand
these efforts, increasing the number of services billed each fiscal year.
As discussed in Chapter 1, the Management’s Discussion and Analysis, this is the first year the FCC is
incorporating the Federal Managers’ Financial Integrity Act (FMFIA) findings into the Performance and
Accountability Report. Exhibits 1 and 2 in Chapter 1 detail the pending and completed FMFIA material
weaknesses and instances noted of non-conformances identified by the auditors, OIG and GAO. The
exhibits detail the year first identified, the targeted corrective action date, key milestones for corrective
action, and instances where the agency was not able to meet key milestones from the previous year. The
FCC’s first financial statement audit in FY 1999 identified numerous recommendations related to material
weaknesses and instances noted of non-conformance. Over the past five years, the FCC has undertaken
numerous corrective actions to address the material weaknesses and instances noted of non-conformances
identified by OIG, GAO, and the independent auditors.
As of September 30, 2004, the Commission’s financial condition is challenging. Challenges include the
accounting and reporting of the USF under the GovGAAP requirements, the appropriate accounting for
the USF funding commitment letters issued yearly, and the suitable recognition of recoveries of USF
funds resulting from our expansion of beneficiary audit work. Payments to commercial vendors subject
to the Prompt Payment Act were 96 percent on time, and 90 percent of payments were made
electronically. Improper payments for the FCC Salaries & Expense Account were limited to less than
0.01 percent of the payments made.
The auditors recognized the challenging circumstances of fully integrating the USF into the FCC financial
operations as reflected in their FY 2004 opinion. In the last few days of the fiscal year, it was determined
that USF commitment letters were obligations of the U.S. Government. The FCC quickly directed a
restructuring of the USF investment portfolio ($3.5 billion) and processed a sufficient increase to the USF
apportionment ($10.5 billion) to assure that on September 30, 2004, the USF was not deficient. There
was not enough time, however, to obtain adequate assurance that the financial data provided by USAC
was sufficient for audit purposes. Accordingly, the FCC declined to provide assurance on the Statement
of Budgetary Resources and the Statement of Financing. The auditors disclaimed on those two
statements.
The FCC is committed to effectively managing its resources. Our goals and strategies for improving
financial management focus on creating an environment, which helps maintain unqualified audit opinions,
eliminates material internal control weaknesses and instances noted of non-conformance, and meets new
and accelerated reporting requirements.
Through the efforts and teamwork of program, financial management, and audit staff, we continue to
achieve our goals and ensure that our operations provide timely and reliable information that promotes
results, accountability, and efficiency. I anticipate another productive year in FY 2005, and look forward
to reporting our continued successes next year.




Mark Reger
Chief Financial Officer




74          PERFORMANCE AND ACCOUNTABILITY REPORT                FISCAL YEAR 2004
    CHAPTER 3: FINANCIAL STATEMENTS AND AUDITORS’ REPORTS



LIMITATIONS OF THE FINANCIAL STATEMENTS

The principal financial statements have been prepared to report the financial position and results of
operations of the FCC, pursuant to the requirements of 31 U.S.C. 3515(b). While the statements have
been prepared from the books and records of the FCC in accordance with generally accepted accounting
principles (GAAP) for Federal entities and the formats prescribed by OMB, the statements are in addition
to the financial reports used to monitor and control budgetary resources which are prepared from the same
books and records.
The statements should be read with the realization that they are for a component of the U.S. Government,
a sovereign entity. One implication of this is that liabilities cannot be liquidated without legislation that
provides resources to do so.




FEDERAL COMMUNICATIONS COMMISSION                                                                       75
                                 FEDERAL COMMUNICATIONS COMMISSION



This page intentionally left blank




76       PERFORMANCE AND ACCOUNTABILITY REPORT   FISCAL YEAR 2004
   CHAPTER 3: FINANCIAL STATEMENTS AND AUDITORS’ REPORTS


PRINCIPAL STATEMENTS

Note: The accompanying notes are an integral part of these statements.

CONSOLIDATED BALANCE SHEET
As of September 30, 2004 and 2003
(Dollars in thousands)
                                                                    2004            2003
        ASSETS (Note 2)
         Intragovernmental
           Fund Balance with Treasury (Note 3)                  $     487,904   $    409,998
           Investments (Note 5)                                     3,257,049            -
           Accounts Receivable (Note 6)                                 7,907         10,451
         Total Intragovernmental                                    3,752,860        420,449

         Cash and Other Monetary Assets (Note 4)                      291,612       2,412,912
         Investments (Note 5)                                             319         326,389
         Accounts Receivable, net (Note 6)                            577,768         648,690
         Loans Receivable, net (Note 7)                             2,691,858       4,428,805
         General Property, Plant, and Equipment, net (Note 9)          53,255          44,066
         Other                                                             26             -

        Total Assets                                            $   7,367,698   $   8,281,311

        LIABILITIES (Note 10)
         Intragovernmental
           Accounts Payable                                     $         -     $          10
           Debt (Note 11)                                           3,940,764       5,065,438
           Other (Note 12)
            Custodial                                                310,130         230,052
            Other                                                      1,612           1,304
           Total Other                                               311,742         231,356

         Total Intragovernmental                                    4,252,506       5,296,804

         Accounts Payable                                             56,377          64,708
         Debt Held by the Public (Note 11)                               -            55,848
         Other (Note 12)
          Deferred Revenue                                            74,174          76,823
          Prepaid Contributions                                      159,260          46,187
          Deposit/Unapplied Liability                                 90,853           9,867
          Accrued Liabilities for Universal Service                  385,989         340,479
          Other                                                       42,906          39,300
         Total Other                                                 753,182         512,656

        Total Liabilities                                       $   5,062,065   $   5,930,016

         Commitments and Contingencies (Note 14)

        NET POSITION
         Unexpended Appropriations                              $      38,155   $      43,055
         Cumulative Results of Operations                           2,267,478       2,308,240

        Total Net Position                                          2,305,633       2,351,295

        Total Liabilities and Net Position                      $   7,367,698   $   8,281,311




FEDERAL COMMUNICATIONS COMMISSION                                                               77
                                        FEDERAL COMMUNICATIONS COMMISSION


CONSOLIDATED STATEMENT OF NET COST FY 2004
For the Year Ended September 30, 2004
(Dollars in thousands)
                                                                     2004
       PROGRAM COSTS:
       Broadband:
        Intragovernmental gross costs                           $           5,416
        Less: Intragovernmental earned revenue                                -
        Intragovernmental net costs                                         5,416

         Gross costs with the public                                    14,800
         Less: Earned revenues from the public                         (21,388)
         Net costs with the public                                      (6,588)
          Total net cost                                                (1,172)

       Competition:
        Intragovernmental gross costs                           $          32,847
        Less: Intragovernmental earned revenue                                -
        Intragovernmental net costs                                        32,847

         Gross costs with the public                                 5,940,956
         Less: Earned revenues from the public                        (125,921)
         Net costs with the public                                   5,815,035
          Total net cost                                             5,847,882

       Spectrum:
        Intragovernmental gross costs                           $      396,417
        Less: Intragovernmental earned revenue                         (52,656)
        Intragovernmental net costs                                    343,761

         Gross costs with the public                                 1,319,520
         Less: Earned revenues from the public                        (494,710)
         Net costs with the public                                     824,810
          Total net cost                                             1,168,571

       Media:
        Intragovernmental gross costs                           $           7,870
        Less: Intragovernmental earned revenue                                -
        Intragovernmental net costs                                         7,870

         Gross costs with the public                                    21,520
         Less: Earned revenues from the public                         (29,068)
         Net costs with the public                                      (7,548)
          Total net cost                                                   322




78        PERFORMANCE AND ACCOUNTABILITY REPORT         FISCAL YEAR 2004
   CHAPTER 3: FINANCIAL STATEMENTS AND AUDITORS’ REPORTS


CONSOLIDATED STATEMENT OF NET COST FY 2004 (Continued)
For the Year Ended September 30, 2004
(Dollars in thousands)

                                                               2004
       PROGRAM COSTS:
       Homeland Security:
        Intragovernmental gross costs                      $      8,779
        Less: Intragovernmental earned revenue                     (544)
        Intragovernmental net costs                               8,235

         Gross costs with the public                              25,161
         Less: Earned revenues from the public                   (34,273)
         Net costs with the public                                (9,112)
          Total net cost                                            (877)

       Modernize the FCC:
        Intragovernmental gross costs                      $     12,913
        Less: Intragovernmental earned revenue                      -
        Intragovernmental net costs                              12,913

         Gross costs with the public                              39,248
         Less: Earned revenues from the public                   (52,009)
         Net costs with the public                               (12,761)
          Total net cost                                             152


       Total Net Program Costs                             $   7,014,878

       Cost not Assigned to Programs:
        Telecommunications Development Fund                          20
         Other Expenses                                           4,924

       Less: Earned Revenues not Attributed to Programs:
        Telecommunications Development Fund                           (20)

       Net Cost of Operations (Note 15)                    $   7,019,802




FEDERAL COMMUNICATIONS COMMISSION                                            79
                                             FEDERAL COMMUNICATIONS COMMISSION


CONSOLIDATED STATEMENT OF NET COST FY 2003
For the Year Ended September 30, 2003
(Dollars in thousands)
                                                                2003
       PROGRAM COSTS:
       Licensing:
        Intragovernmental gross costs                      $       19,891
        Less: Intragovernmental earned revenue                       (293)
        Intragovernmental net costs                                19,598

         Gross costs with the public                               53,282
         Less: Earned revenues from the public                    (83,607)
         Net costs with the public                                (30,325)
          Total net cost                                          (10,727)

       Competition:
        Intragovernmental gross costs                      $       30,151
        Less: Intragovernmental earned revenue                       (426)
        Intragovernmental net costs                                29,725

         Gross costs with the public                               80,772
         Less: Earned revenues from the public                   (122,055)
         Net costs with the public                                (41,283)
          Total net cost                                          (11,558)

       Enforcement:
        Intragovernmental gross costs                      $       19,629
        Less: Intragovernmental earned revenue                       (271)
        Intragovernmental net costs                                19,358

         Gross costs with the public                               52,587
         Less: Earned revenues from the public                    (77,608)
         Net costs with the public                                (25,021)
          Total net cost                                           (5,663)

       Consumer Information Services:
        Intragovernmental gross costs                      $       10,297
        Less: Intragovernmental earned revenue                       (142)
        Intragovernmental net costs                                10,155

         Gross costs with the public                               27,586
         Less: Earned revenues from the public                    (40,590)
         Net costs with the public                                (13,004)
          Total net cost                                           (2,849)

       Spectrum Management:
        Intragovernmental gross costs                      $       14,621
        Less: Intragovernmental earned revenue                       (210)
        Intragovernmental net costs                                14,411

         Gross costs with the public                               39,166
         Less: Earned revenues from the public                    (60,178)
         Net costs with the public                                (21,012)
          Total net cost                                           (6,601)




80        PERFORMANCE AND ACCOUNTABILITY REPORT                FISCAL YEAR 2004
   CHAPTER 3: FINANCIAL STATEMENTS AND AUDITORS’ REPORTS


CONSOLIDATED STATEMENT OF NET COST FY 2003 (Continued)
For the Year Ended September 30, 2003
(Dollars in thousands)
                                                               2003
       PROGRAM COSTS:
       Universal Service:
        Intragovernmental gross costs                      $          653
        Less: Intragovernmental earned revenue                         (9)
        Intragovernmental net costs                                   644

         Gross costs with the public                           5,562,217
         Less: Earned revenues from the public                    (2,559)
         Net costs with the public                             5,559,658
          Total net cost                                       5,560,302

       Numbering:
        Intragovernmental gross costs                      $          -
        Less: Intragovernmental earned revenue                        -
        Intragovernmental net costs                                   -

         Gross costs with the public                               9,871
         Less: Earned revenues from the public                    (4,997)
         Net costs with the public                                 4,874
          Total net cost                                           4,874

       Credit Reform:
        Intragovernmental gross costs                      $    392,486
        Less: Intragovernmental earned revenue                  (39,718)
        Intragovernmental net costs                             352,768

         Gross costs with the public                             612,704
         Less: Earned revenues from the public                  (412,601)
         Net costs with the public                               200,103
          Total net cost                                         552,871

       Total Net Program Costs                             $   6,080,649

       Cost not Assigned to Programs:
        Depreciation                                       $     13,007
        Telecommunications Development Fund                          22
        Other Expenses                                              549

       Less: Earned Revenues not Attributed to Programs:
        Telecommunications Development Fund                $          (22)

       Net Cost of Operations (Note 15)                    $   6,094,205




FEDERAL COMMUNICATIONS COMMISSION                                            81
                                                   FEDERAL COMMUNICATIONS COMMISSION


CONSOLIDATED STATEMENT OF CHANGES IN NET POSITION
For the Years Ended September 30, 2004 and September 30, 2003
(Dollars in thousands)


                                                                        2004                                    2003
                                                            Cumulative                              Cumulative
                                                              Results        Unexpended               Results        Unexpended
                                                           of Operations   Appropriations          of Operations   Appropriations

Beginning Balances                                     $       2,308,240    $       43,055     $       2,104,985    $      22,158

Budgetary Financing Sources:
 Appropriations received                                             -              639,087                  -            536,292
 Other adjustments (recission, etc) (+/-)                         (3,358)            (1,673)                 -               (991)
 Appropriations used                                             642,314           (642,314)             514,404         (514,404)
 Universal Fund Nonexchange Revenue                            6,350,269                -              5,795,335              -
  Loss on Disposition of Investments                              (4,808)               -                    -                -
 Transfers-in/out without reimbursement (+/-)                        -                  -                 (5,700)             -
 Other budgetary financing sources                                   235                -                    -                -

Other Financing Sources:
 Transfers-in/out without reimbursement (+/-)                    (20,159)               -                (19,952)             -
 Imputed financing from costs absorbed by others                  14,547                -                 13,404              -
 Other (+/-)                                                         -                  -                    (31)             -

Total Financing Sources                                        6,979,040             (4,900)           6,297,460           20,897

Less: Net Cost of Operations                                   7,019,802                               6,094,205

Ending Balances                                         $      2,267,478    $       38,155     $       2,308,240    $      43,055




82            PERFORMANCE AND ACCOUNTABILITY REPORT                             FISCAL YEAR 2004
     CHAPTER 3: FINANCIAL STATEMENTS AND AUDITORS’ REPORTS


UNAUDITED COMBINED STATEMENT OF BUDGETARY RESOURCES
For the Years Ended September 30, 2004 and September 30, 2003
(Dollars in thousands)
                                                                   2004                                   2003
                                                                      Non Budgetary                          Non Budgetary
                                                                      Credit Program                         Credit Program
                                                       Budgetary      Financing Acct          Budgetary      Financing Acct
Budgetary Resources:

Budget Authority
 Appropriations Received                           $     16,637,922     $         -       $      6,279,518    $          -
 Borrowing Authority                                            -               2,791                  -              25,346

Unobligated Balance:
 Beginning of Period                                      2,016,229            46,031            2,245,581            21,569
 Adjustment to Beginning Balance (Note 26)               (2,057,858)              -                    -                 -
 Adjusted - Beginning of Period                             (41,629)           46,031            2,245,581            21,569
Spending Authority from Offsetting Collections:
 Earned
   Collected                                                429,899         1,483,878             447,725          1,147,715
   Receivable from Federal Sources                              762               -                   -                  -
 Changed Unfilled Customer Orders
   Advance Received                                               (1)             -                    -                 -
   Without Advance from Federal Sources                         (73)              -                   (472)              -
 Anticipated for rest of year, without advances                 -                 -                    -                 -
Subtotal                                                 17,026,880         1,532,700            8,972,352         1,194,630

Recoveries of Prior Year Obligations                          8,719                -                 7,765               -
Temporarily not available pursuant to Public Law               (349)               -                   -                 -
Permanently not available                                   (60,805)        (1,127,464)            (66,860)         (730,823)

Total Budgetary Resources                          $     16,974,445     $     405,236     $      8,913,257    $      463,807



Status of Budgetary Resources:

Obligations Incurred (Note 16):
 Direct                                            $     16,685,910     $     345,729     $      6,895,344    $      417,776
 Reimbursable                                                 1,981               -                  1,684               -
 Subtotal                                                16,687,891           345,729            6,897,028           417,776
Unobligated Balance:
 Apportioned                                                  2,612               434                  -                 -
 Other Available                                            261,343               -              2,001,673               -
Unobligated Balance not Available                            22,599            59,073               14,556            46,031

Total Status of Budgetary Resources                $     16,974,445     $     405,236     $      8,913,257    $      463,807



Relationship of Obligations to Outlays:

Obligated Balance, net, Beginning of Period        $        140,398     $          -      $       452,831     $          -
Obligated Balance Transferred, net                              -                  -                  -                  -
Obligated Balance, net, End of Period:
 Accounts Receivable                                           (357)               -                  405                -
 Unfilled Customer Orders from Federal Sources                   13                -                  (60)               -
 Undelivered Orders                                       2,951,556                -               70,646                -
 Accounts Payable                                            71,044                -              409,886                -

Outlays:
 Disbursements                                           13,796,624            345,729           6,861,689           417,776
 Collections                                               (429,897)        (1,483,878)           (447,725)       (1,147,715)
 Subtotal                                                13,366,727         (1,138,149)          6,413,964          (729,939)
Less: Offsetting Receipts                                    20,159                -                19,952               -
Net Outlays                                        $     13,346,568 $       (1,138,149)   $      6,394,012 $        (729,939)




FEDERAL COMMUNICATIONS COMMISSION                                                                                               83
                                                                   FEDERAL COMMUNICATIONS COMMISSION


   UNAUDITED CONSOLIDATED STATEMENT OF FINANCING
   For the Years Ended September 30, 2004 and September 30, 2003
   (Dollars in thousands)


Resources Used to Finance Activities:                                                                           2004                 2003
Budgetary Resources Obligated
 Obligations incurred                                                                                      $      17,038,518     $      7,314,804
 Less: Spending authority from offsetting collections and recoveries                                               1,923,184            1,602,733
 Obligations net of offsetting collections and recoveries                                                         15,115,334            5,712,071
 Less: Offsetting receipts                                                                                            20,159               19,952
 Net obligations                                                                                                  15,095,175            5,692,119
Other Resources
 Transfers in/out without reimbursement (+/-)                                                                           20,159              19,952
 Imputed financing from costs absorbed by others                                                                        14,547              13,404
 Other (+/-)                                                                                                               -                    31
 Net other resources used to finance activities                                                                         34,706              33,387

Total resources used to finance activities                                                                        15,129,881            5,725,506

Resources Used to Finance Items not Part of the Net Cost of Operations:
 Change in budgetary resources obligated for goods, services and benefits
 ordered but not yet provided (+/-)                                                                                2,880,985                27,524
 Resources that fund expenses recognized in prior periods                                                            609,456                28,550
 Budgetary offsetting collections and receipts that do not affect net cost of operations
   Credit program collections which increase liabilities for loan guarantees
   or allowances for subsidy                                                                                      (1,486,208)          (1,172,627)
   Other                                                                                                             375,259              452,052
 Resources that finance the acquisition of assets                                                                  6,953,619              339,325
 Other resources or adjustments to net obligated resources that do not affect
 net cost of operations (+/-)                                                                                          375,373              10,028

  Total resources used to finance items not part of the net cost of operations                                     9,708,484            (315,148)

Total resources used to finance the net cost of operations                                                         5,421,397            6,040,654

Components of the Net Cost of Operations that will not Require or Generate
Resources in the Current Period:
Components Requiring or Generating Resources in Future Periods:
 Increase in annual leave liability                                                                                    1,079                 1,411
 Upward/Downward reestimates of credit subsidy (+/-)                                                               1,197,215                71,949
 Increase in exchange revenue receivable from the public                                                                 163                (5,065)
 Other (+/-)                                                                                                          45,386                 1,555

  Total components of Net Cost of Operations that will require or generate resources in future periods             1,243,843                69,850

Components not Requiring or Generating Resources:
 Depreciation and Amortization                                                                                          15,211               13,007
 Revaluation of assets or liabilities (+/-)                                                                                -                    -
 Other (+/-)                                                                                                           339,351              (29,306)

  Total components of Net Cost of Operations that will not require or generate resources                               354,562              (16,299)

Total components of Net Cost of Operations that will not require or generate
resources in the current period                                                                                    1,598,405                53,551

Net Cost of Operations                                                                                     $       7,019,802     $      6,094,205




   84               PERFORMANCE AND ACCOUNTABILITY REPORT                                          FISCAL YEAR 2004
    CHAPTER 3: FINANCIAL STATEMENTS AND AUDITORS’ REPORTS


CONSOLIDATED STATEMENT OF CUSTODIAL ACTIVITY
For the Years Ended September 30, 2004 and September 30, 2003
(Dollars in thousands)

                                                                       2004                  2003
Revenue Activity:
 Sources of Cash Collections:
   Spectrum Auctions                                               $          205,024    $          106,427
   Fines and Penalties                                                         24,636                51,682
   Credit Reform Interest                                                     343,257               392,486
   TDA Interest                                                                    20                    28
 Total Cash Collections                                                       572,937               550,623

 Accrual Adjustments
  Spectrum Auctions                                                               (63)               (1,420)
  Fines and Penalties                                                          (1,530)                  291
  TDA Interest                                                                    -                      (6)
 Total Accrual Adjustments                                                     (1,593)               (1,135)

Total Custodial Revenue                                                       571,344               549,488

Disposition of Collections:
 Transferred to Others:
    Recipient A: U.S. Treasury                                            (367,889)             (444,168)
    Recipient B: FCC Financing Acct - Credit Reform (Recoveries)               -                (468,419)

 (Increase)/Decrease in Amounts Yet to be Transferred                      (80,078)                 461,610
 Refunds and Other Payments                                                   (333)                  (1,683)
 Retained by the Reporting Entity                                         (123,044)                 (96,828)

Net Custodial Activity                                             $              -      $              -




FEDERAL COMMUNICATIONS COMMISSION                                                                      85
                                 FEDERAL COMMUNICATIONS COMMISSION



This page intentionally left blank




86      PERFORMANCE AND ACCOUNTABILITY REPORT    FISCAL YEAR 2004
   CHAPTER 3: FINANCIAL STATEMENTS AND AUDITORS’ REPORTS


NOTES TO THE CONSOLIDATED FINANCIAL STATEMENTS

September 30, 2004 and 2003
(Dollars in thousands unless otherwise stated)


Note 1 - Summary of Significant Accounting Policies

Reporting Entity

The Federal Communications Commission is an independent United States Government agency,
established by the Act as amended. The FCC is charged with regulating interstate and international
communications by radio, television, wire, satellite, and cable. The FCC’s jurisdiction spans the 50
states, the District of Columbia, and the U.S. possessions. Five commissioners direct the FCC; they are
appointed by the President of the United States and confirmed by the Senate for five-year terms, except
when filling an unexpired term.

The FCC comprises three reporting components. The primary component consists of FCC headquarters
and field offices. The two additional components are the Universal Service Fund and the North American
Numbering Plan. The USF reports the results of the four Universal Service support mechanisms
(established pursuant to Section 254 of the Act, as amended) and the results of the Telecommunications
Relay Service Fund (established by the Americans with Disabilities Act of 1990, Title IV). The NANP
reports the results of billing and collection activities conducted to support the NANP (47 C.F.R. §52.16,
52.17, 52.32, and 52.33).

Basis of Accounting and Presentation

The consolidated financial statements (financial statements) have been prepared from the accounting
records of the FCC in conformity with U.S. Federal generally accepted accounting principles and the
form and content for entity financial statements specified by the Office of Management and Budget in
OMB Bulletin No. 01-09, as applicable.

The preparation of financial statements in conformity with GAAP requires management to make
estimates and assumptions that affect the reported amounts of assets and liabilities, the disclosure of
contingent assets and liabilities at the date of the financial statements, and the reported amounts of
revenues and expenses during the reporting period. Actual results may differ from those estimates.

Fund Balance with Treasury

Funds with the Department of the Treasury (Treasury) primarily represent appropriated, revolving, and
deposit funds. The FCC may use the appropriated and revolving funds to finance expenditures,
depending on budgetary availability. The deposit accounts are used to hold funds temporarily until they
can be properly disbursed or distributed.




FEDERAL COMMUNICATIONS COMMISSION                                                                   87
                                         FEDERAL COMMUNICATIONS COMMISSION

Note 1 - Summary of Significant Accounting Policies (continued)

Cash and Other Monetary Assets

Cash and Other Monetary Assets represents cash on deposit at several commercial banks. The
commercial accounts consist of Money Market Mutual Funds that can easily be drawn against. Cash on
deposit typically exceeds federally insured limits.

Investments

Investments are reported net of any unamortized premium or discount. All investments are in marketable
debt securities.

Accounts Receivable, Net

Accounts Receivable consists of claims made for payment from other entities. Gross receivables are
reduced to net realizable value by an allowance for doubtful accounts.

Loans

The Federal Credit Reform Act (FCRA) of 1990, as amended, governs the reporting requirements for
direct loan obligations made after FY 1991. The FCRA requires that the present value of the subsidy
costs associated with direct loans be recognized as a cost in the year that the loan is obligated. (Present
value is calculated as the estimated cash outflows over the life of the loans, less the present value of the
estimated cash inflows, discounted at the interest rate of marketable Treasury securities with a similar
maturity term.) Direct loans are reported net of an allowance for subsidy at the present value.

Property, Plant and Equipment

The basis for recording purchased general Property, Plant, and Equipment (PP&E) is full cost, including
all costs incurred to bring the PP&E to and from a location suitable for its intended use. The cost of
PP&E transferred from other Federal entities is the net book value recorded by the transferring entity.

All PP&E with an initial acquisition cost of $25,000 or more and all internally developed software with a
development cost of $50,000 or more, and with an estimated useful life of two years or greater are
capitalized. Bulk purchases of similar items, individually worth less than $25,000 but collectively worth
more than $250,000, are also capitalized using the same equipment categories and useful lives as capital
acquisitions. PP&E are depreciated on a straight-line basis over the estimated useful life of the item. The
useful lives used are: 40 years for buildings, seven years for equipment, five years for computers and
vehicles, and three years for software. Land and land rights, including permanent improvements, are not
depreciated, neither is software in development. Normal maintenance and repair costs are expensed as
incurred.

Leasehold improvements include all costs incurred during the design and construction phase of the
improvement. These costs are amortized over the remaining life of the lease, or the useful life of the
improvements, whichever is shorter.




88         PERFORMANCE AND ACCOUNTABILITY REPORT                FISCAL YEAR 2004
   CHAPTER 3: FINANCIAL STATEMENTS AND AUDITORS’ REPORTS

Note 1 - Summary of Significant Accounting Policies (continued)

Property, Plant and Equipment (continued)

The FCC’s authority relative to seized and forfeited property is cited in 47 U.S.C., Section 510. Seized
property consists of personal property and equipment seized from illegal telecommunication operations.
The property is considered prohibited and is held, pending an outcome of court proceedings. Forfeited
property consists of seized property turned over to the FCC to be destroyed or disposed of through a
surplus process. The values assigned to the seized and forfeited property are determined by FCC
engineers and are based on current market values for comparable property.

Accounts Payable and Accrued Liabilities

Accounts Payable and Accrued Liabilities represent a probable future outflow or other sacrifice of
resources as a result of past transactions or events. Liabilities are recognized when they are incurred,
regardless of whether they are covered by available budgetary resources. Liabilities cannot be liquidated
without legislation that provides resources to do so. As a component of the U.S. Government, a sovereign
entity, payments of all liabilities other than contracts can be abrogated by the sovereign entity.

Deferred Revenue

The FCC collects proceeds from the sale of communications spectrum on behalf of the U.S. Government.
All proceeds collected up to the amount of the net winning bid are recognized as deferred revenue until a
“prepared to grant” or “grant” public notice is issued. The FCC also collects multi-year regulatory fees
for five- and ten-year periods that are recorded as deferred revenue and amortized over the period of the
fee. In addition, the TRS recognizes deferred revenue for contributions paid in full at the beginning of the
funding year (July) and amortizes the revenue over the course of the funding year.

Debt to the U.S. Treasury

This account represents amounts due to the Treasury’s Bureau of Public Debt (BPD) to support the
spectrum auction loans program. Borrowings from BPD are determined based on subsidy estimates and
re-estimates in accordance with the FCRA of 1990, as amended, and OMB guidance. Interest payment on
debt is calculated annually and remitted to BPD at the end of the fiscal year. These payments are recorded
in a receipt account maintained by the FCC.

Retirement Plans and Other Benefits

Federal employee benefits consist of the actuarial portions of future benefits earned by Federal
employees, including pensions, other retirement benefits, and other post-employment benefits. The
Office of Personnel Management (OPM) administers these benefits. The FCC does not recognize any
liability on the Consolidated Balance Sheet for pensions, other retirement benefits, and other post-
employment benefits. The FCC does recognize and allocate the imputed costs on the Statement of Net
Costs and recognizes imputed financing related to these costs on the Statement of Changes in Net
Position.




FEDERAL COMMUNICATIONS COMMISSION                                                                      89
                                         FEDERAL COMMUNICATIONS COMMISSION

Note 1 - Summary of Significant Accounting Policies (continued)

Retirement Plans and Other Benefits (continued)

Pensions provide benefits upon retirement and may also provide benefits for death, disability, or other
termination of employment before retirement. Pension plans may also include benefits to survivors and
dependents, and they may contain early retirement or other special features. Most FCC employees
participate in the Civil Service Retirement System (CSRS) or the Federal Employee Retirement System
(FERS). Under CSRS, FCC makes matching contributions equal to seven percent of basic pay. For
FERS employees, the FCC contributes the employer’s matching share for Social Security and contributes
an amount equal to one percent of employee pay to a savings plan and matches up to an additional four
percent of pay. Most employees hired after December 31, 1983, are covered by FERS.

The OPM reports on CSRS and FERS assets, accumulated plan benefits, and unfunded liabilities, if any,
applicable to Federal employees.

The actuarial liability for future workers’ compensation benefits includes the expected liability for death,
disability, medical and miscellaneous costs for approval compensation cases. The liability is determined
by using historical benefit payment patterns related to a specific incurred period to predict the ultimate
payment related to that period. The Department of Labor determines no actuarial liability for the FCC,
due to the immateriality to the Federal Government as a whole.

Leave

Annual leave is accrued as earned, and the accrual is reduced as leave is taken. Each year, the balance in
the accrued annual leave account is adjusted to reflect current leave balances and pay rates. Annual leave
is reflected as a liability that is not covered by current budgetary resources. Sick leave and other types of
non-vested leave are expensed as taken.

Revenue and Other Financing Sources

Regulatory Fee Collections (Exchange) - The Omnibus Budget Reconciliation Act of 1993 directed the
FCC to assess and collect regulatory fees to recover the costs incurred in carrying out certain provisions
of its mission. Section 9(a) of the Act, as amended, authorizes the FCC to assess and collect annual
regulatory fees to recover the costs, as determined annually by Congress, incurred in carrying out it’s
strategic goals of broadband, competition, spectrum, media, homeland security and modernize the FCC.
These fees were established by congressional authority, and, consistent with OMB Circular No. A-25
revised, User Charges, the FCC did not determine the full costs associated with its regulatory activity in
establishing regulatory fees. Since 1993, Congress has annually reviewed the regulatory fee collection
requirements of the Commission and established the total fee levels to be collected. Fees collected up to
the level established by Congress are applied against the FCC’s annual appropriation at the close of each
fiscal year. The regulatory fee level for FY 2004 of $272,958 was achieved. The regulatory fee level for
FY 2003 was $269,000, of which $265,746 was collected.




90         PERFORMANCE AND ACCOUNTABILITY REPORT                 FISCAL YEAR 2004
   CHAPTER 3: FINANCIAL STATEMENTS AND AUDITORS’ REPORTS

Note 1 - Summary of Significant Accounting Policies (continued)

Revenues and Other Financing Sources (continued)

Radio Spectrum Auction Proceeds (Exchange) – In accordance with the provisions of Statement of
Federal Financial Accounting Standards (SFFAS) 7, Accounting for Revenue and Other Financing
Sources, the FCC accounts for this exchange revenue as a custodial activity. Revenue from spectrum
auctions is recognized when a “prepared to grant” or “grant” public notice establishes the final payment
date. The value of available spectrum is determined by the market place at the time of auction. The FCC
recognized revenue of $204,961 in FY 2004 and $105,007 in FY 2003.

Offsetting Collections (Exchange) – One of the FCC’s primary functions is managing the spectrum
auction program. Proceeds from the auctions are initially remitted to the FCC and are later transferred to
the U.S. Treasury, net of anticipated auction related costs (under 47 U.S.C. Section 309, the FCC may
retain a portion of the spectrum auction proceeds to offset the cost of performing the auction function).
Collections used to offset the cost of performing auctions-related activity totaled $85,000 in FY 2004 and
$96,806 in FY 2003.

Application Fees (Exchange) - Congress authorized the FCC (Section 8, 47 U.S.C.) to impose and collect
application processing fees and directed the FCC to prescribe charges for certain types of application
processing or authorization services it provides to communications entities over which the FCC has
jurisdiction. The FCC amends its Schedule of Application Fees (47 C.F.R. Section 1.1102 et seq.) to
adjust the fees for processing applications and other filings. Section 8(b) of the Act, as amended, requires
the Commission to review and adjust its application fees every two years. The adjusted or increased fees
reflect the net change in the Consumer Price Index for all Urban Consumers (CPI-U), calculated over a
specific period of time. Application fees are deposited in the Treasury and are not available for the FCC’s
use. Application fees collected totaled $20,159 in FY 2004 and $19,952 in FY 2003.

Reimbursable Work Agreements (Exchange) – The FCC recognizes reimbursable work agreement
revenue when earned, i.e., goods that have been delivered or services rendered. The FCC executed
agreements totaling $1,668 in FY 2004 and $1,412 in FY 2003.

Annual Appropriations (Financing Source) – The FCC receives an annual Salaries and Expenses
appropriation from Congress. These funds are used to pay for operations during the fiscal year and are
repaid to the Treasury once regulatory fees are collected. The annual appropriation for FY 2004 was
$273,947, with regulatory fee collections of $272,958, resulting in a net appropriation of $989. The
appropriation for FY 2003 was $270,987, with anticipated regulatory fee collections of $269,000 and
actual collections of $265,746, resulting in a net appropriation of $5,241.

Subsidy Estimates and Reestimates (Financing Source) – The FCC receives permanent-indefinite
authority for its credit reform program account in accordance with the FCRA of 1990, as amended, to
fund its subsidy estimates and reestimates, unless otherwise prescribed by OMB. This account records
the subsidy costs associated with the direct loans obligated in 1992 and beyond (including modifications
of direct loans or loan guarantees that resulted from obligations or commitments in any year), as well as
administrative expenses of the loan program. The FCC received appropriations of $638,098 in FY 2004
and $531,052 in FY 2003 for these purposes. These appropriations are available until used.




FEDERAL COMMUNICATIONS COMMISSION                                                                      91
                                         FEDERAL COMMUNICATIONS COMMISSION

Note 1 - Summary of Significant Accounting Policies (continued)

Revenues and Other Financing Sources (continued)

USF (Nonexchange) – Carriers conducting interstate telecommunications are required to contribute a
portion of their revenues to fund the cost of providing universal service. These contributions represent
appropriated dedicated and earmarked receipts and are accounted for as a budgetary financing source.
Contributions and related interest totaled $6,350,269 in FY 2004 and $5,795,335 in FY 2003.

Transactions with Related Parties

The FCC has relationships and conducts financial transactions with numerous Federal agencies, most
prominently the Treasury. In addition to its Federal relationships, the FCC has a direct relationship with
the administrators of those funds that are components under the overall FCC entity.

Net Position

Net Position is the residual difference between assets and liabilities and comprises Unexpended
Appropriations and Cumulative Results of Operations. Unexpended Appropriations represents the
amount of unobligated and unexpended budget authority. Unobligated Balance is the amount of
appropriations or other authority remaining after deducting the cumulative obligations from the amount
available for obligation. Cumulative Results of Operations is the net result of FCC’s operations since
inception.

Reclassifications

Certain FY 2003 balances have been reclassified, retitled, or combined with other financial statement line
items for consistency with current year presentation.

Note 2 - Non-entity Assets

The following summarizes Non-entity Assets as of September 30, 2004 and 2003:

                                                                        2004                    2003
      Intragovernmental:
          Fund Balance with Treasury                              $    328,473              $    265,540
          Accounts Receivable, Net                                       7,907                    10,451
       Total Intragovernmental                                         336,380                   275,991

      Cash and Other Monetary Asset                                    82,583                       743
      Accounts Receivable, Net                                         16,103                    21,970
      Total Non-entity Assets                                         435,066                   298,704
      Total Entity Assets                                           6,932,632                 7,982,607
      Total Assets                                                $ 7,367,698               $ 8,281,311

Non-entity Fund Balance with Treasury primarily represents deposits made towards spectrum auction
winning bids. These deposits accounted for $326,284 in FY 2004 and $262,862 in FY 2003. Non-entity
Cash and Other Monetary Assets consist of upfront deposits made by potential spectrum auction bidders.
Receivables considered non-entity are for regulatory fees, application fees, fines and forfeitures, spectrum
auction receivables, and ITS charges.



92         PERFORMANCE AND ACCOUNTABILITY REPORT                FISCAL YEAR 2004
   CHAPTER 3: FINANCIAL STATEMENTS AND AUDITORS’ REPORTS

Note 3 - Fund Balance with Treasury

The following summarizes Fund Balance with Treasury as of September 30, 2004 and 2003:


Fund Balances:                                       Status of Fund Balances:
                            2004           2003                                     2004      2003
                                                         Unobligated Balance
  Appropriated Funds $ 99,925          $    98,428       Available              $    75,142 $ 50,807
  Revolving Funds       59,506              46,030       Unavailable                338,050  275,322
  Deposit Funds        328,473             265,540       Obligated Balance
                                                         not yet disbursed           74,712     83,869
Total Fund Balance     $   487,904     $   409,998 Total                        $   487,904 $ 409,998

Appropriated Funds – Includes the salaries and expense appropriation used to fund agency operations, the
auction and reimbursable accounts, the no-year accounts used to carry over spectrum auction and
regulatory fee funds not obligated in the year received, and the credit reform program account.

Revolving Funds – Includes the credit reform financing account used to record cash flows associated with
the FCC’s spectrum auction loan program.

Deposit Funds – Includes monies being held for spectrum auctions, ITS, and regulatory fees. Deposit
funds are not available for use by the FCC unless they are properly identified or reclassified as FCC
funds. Otherwise, these funds are returned to the depositor or transferred to the Treasury.

Note 4 – Cash and Other Monetary Assets

The following summarizes Cash and Other Monetary Assets as of September 30, 2004 and 2003.
                                        2004                    2003
Cash and Cash Equivalents            $ 289,714              $ 2,411,121
Accrued Interest                           1,898                   1,791
Total                                $ 291,612              $ 2,412,912

USF and NANP contributions and third party deposits made pursuant to spectrum auction activities are
the source of funds for these balances. Third-party deposits, unless refunded, are held until 45 days after
the close of a given auction and then transferred to the FCC’s Treasury account. Interest earned on cash
and other monetary assets is reinvested, with the exception of interest earned on third-party deposits,
which is transferred to the Telecommunications Development Fund (TDF).

In FY 2004, Cash and Other Monetary Assets included no deposits in transit and $82,583 in up-front
deposits or related accrued interest being held for spectrum auctions. A total of $199,784 in USF
contributions and related accrued interest is being held for distribution, as well as $9,245 in NANP
deposits and related accrued interest. The significant decrease in the FY 2004 balance is a result of the
liquidation of Money Market balances to purchase Treasury securities (see Note 24).

In FY 2003, Cash and Other Monetary Assets included $85 in deposits in transit and $743 in upfront
deposits and related accrued interest being held for spectrum auctions. There were $2,400,128 in USF
contributions and related accrued interest being held for distribution and $11,956 in NANP deposits and
related accrued interest.

FEDERAL COMMUNICATIONS COMMISSION                                                                     93
                                          FEDERAL COMMUNICATIONS COMMISSION

Note 5 - Investments

The following summarizes Investments as of September 30, 2004 and 2003:

                                                      Unamortized            Market
                                         Amortization (Premium) Investments, Value
FY 2004                              Cost Method        Discount    Net     Disclosure
Intragovernmental Securities:

     Marketable Securities:
     Treasury Bills              $3,236,836   EI      $     6,914 $ 3,243,750 $3,236,860
     Treasury Notes                  19,961   EI               39      20,000     19,942
     Accrued Interest                   252   NA                           -         252
     Total                       $3,257,049                                   $3,257,054

Other Securities:

    Marketable Securities        $ 317 EI $                    -   $     317 $         316
    Accrued Interest                 2 NA                                  -             2
Total                            $ 319                                       $         318
T t                              T t

FY 2003
Intragovernmental Securities:

     Marketable Securities       $        -   EI      $       -    $     -        $    -
     Accrued Interest                     -   NA                         -             -
     Total                       $        -                                       $    -

Other Securities:

     Marketable Securities       $ 324,313    EI          $ (2,110) $ 322,203 $ 324,520
     Accrued Interest                2,076    NA                           -      2,076
     Total                       $ 326,389                                    $ 326,596

EI – Effective Interest Method
NA – Not Applicable

Prior to September 2004 Investments were held in a combination of Federal and Non-Federal low-risk
marketable securities. In September 2004, existing Non-Federal Investments were liquidated and Federal
marketable securities were purchased to create the Budgetary Authority needed to cover $2,900,130 in
previously unrecorded obligations (see Note 24). The unanticipated sale of $3,450,310 in investments
prior to maturity resulted in a net loss of $3,752. An additional net loss of $1,094 was incurred on the
disposal of mutual funds that did not meet the investment guidelines of the FCC. Other transactions
during the course of the year resulted in a net gain of $38.

The portfolio at the end of FY 2004 consisted primarily of Treasury Bills with original maturities not
greater than 90 days. All Treasury securities, regardless of the original maturity date, are reported as
Investments. The FCC generally expects to hold all investments to maturity; therefore, no adjustments
have been made to present market values.



94         PERFORMANCE AND ACCOUNTABILITY REPORT               FISCAL YEAR 2004
   CHAPTER 3: FINANCIAL STATEMENTS AND AUDITORS’ REPORTS

Note 6 - Accounts Receivable, Net

The following summarizes Accounts Receivable, Net as of September 30, 2004 and 2003:

                                         Intragovernmental           Public               Total
FY 2004
 Gross Accounts Receivable               $        7,907          $1,255,303           $ 1,263,210
 Allowance for Doubtful Accounts             (        -)         ( 677,535)           ( 677,535)
Net Accounts Receivable                      $    7,907          $ 577,768            $ 585,675

Interest on Delinquent AR                    $        -          $    45,856          $     45,856

FY 2003
 Gross Accounts Receivable                   $    10,451         $ 1,261,981         $ 1,272,432
 Allowance for Doubtful Accounts             (         -)        ( 613,291)           ( 613,291)
Net Accounts Receivable                      $    10,451         $ 648,690            $ 659,141

Interest on Delinquent AR                    $            -      $     32,076         $     32,076


Accounts receivable are recorded net of any related allowance for doubtful accounts. The FCC’s portion
is determined by applying predetermined percentages against the respective date the receivable was
established. The current formula for the FCC’s allowance is 25% for receivables 91-180 days
outstanding, 75% for those 181-365 days outstanding, and 100% for anything greater than 365 days
outstanding. An additional analysis of higher dollar value receivables is also performed on individual
account balances. The USF portion is determined by calculating an estimated general allowance for
doubtful accounts receivable, and reserving 100% for known bankruptcy and inactive accounts. The
general allowance is calculated by multiplying the aged billing amounts by the percentage of the monthly
delinquent accounts receivable over the monthly billing amounts.

A 100% allowance is also made for all Notice of Apparent Liabilities (NAL) receivables and
Commitment Adjustment (COMAD) audit receivables. The NAL receivables represent preliminary
notifications of a forfeiture, subject to final determination. While these receivables are included on the
Treasury Report on Receivables at the request of Treasury, the ability to collect these receivables is not
determined until a final judgment is issued. Similarly, the COMAD audit receivables represent
preliminary audit findings that are subject to appeal by the auditee and are not considered final until the
appeals period has lapsed or a final determination has been issued.

                                      FY 2004                                     FY 2003              .

                        Accounts                          Accounts
                        Receivable  Allowance Net        Receivable              Allowance      Net
USF                     $ 762,723 $ (201,715) $ 561,008 $ 809,491               $ (183,319) $ 626,172
COMAD                       31,063   ( 31,063)         -           -                     -          -
Regulatory Fees             25,650   ( 14,231)    11,419     25,241               ( 9,331)     15,910
Spectrum Auction           401,366   (401,320)        46    377,707              ( 377,597)       110
Forfeitures                 27,186   ( 24,963)     2,223     42,294              ( 40,417)      1,877
Other                       15,222   ( 4,243)     10,979      17,699                 2,627)    15,072
Total                   $1,263,210 $ (677,535) $ 585,675 $ 1,272,432            $ (613,291) $ 659,141



FEDERAL COMMUNICATIONS COMMISSION                                                                     95
                                         FEDERAL COMMUNICATIONS COMMISSION

Note 7 – Loans Receivable, Net

Under Section 309(j)(3) of the Act, as amended, Congress directed the FCC to implement a competitive
bidding (auctions) system for licensing spectrum to expand economic opportunity, promote competition,
and facilitate the development and delivery of new and improved telecommunications services to the
public. Section 309(j)(4) of the Act gave the Commission certain instructions for implementing
regulations for this system, including a directive to ensure that small businesses, rural telephone
companies, and women and minority-owned businesses have an opportunity to participate in providing
spectrum-based services. The FCC can use various means to facilitate expanded participation, including
alternative payment schedules, tax certificates, bidding preferences, and other procedures.

To address the mandate, the FCC provided installment financing in connection with its spectrum auction
events, including the C Block Broadband Personal Communications Services (PCS), F Block PCS,
Narrowband PCS, IVDS, MDS, and 900MHz Specialized Mobile Radio (SMR). Under the installment
financing program, winning bidders were generally given five or ten years to repay their net winning bid
amount (less the down payment), with up to five-year, interest-only initial payment periods. Interest rates
varied by the type of borrower. Retention of licenses granted at auction was strictly conditioned on
making full and timely payment of amounts as they become due. The return or repossession of auctioned
licenses, which may have previously been associated with installment payment plans, does not directly or
immediately affect the amount of the outstanding debt recorded in the agency’s financial records.
Outstanding debt adjustments are subject to a separate process.

The FCC’s first auction was conducted in 1994, and starting in 1995 installment payment mechanisms
were used to finance portions of some winning bids. The FCC’s installment loan portfolio is tracked
under ten cohorts.

As required under the FCRA of 1990, as amended, the FCC coordinates with the OMB in developing
estimation guidelines, regulations, and the criteria used in calculating the subsidy estimates and
reestimates. This joint effort develops and improves cost and recovery rate estimates. The subsidy cost
allowance has thus been prepared under specific OMB guidance in an effort to ensure the Federal
Government’s objectives are achieved, and may not represent the FCC’s current policy position on the
auction of spectrum previously held by other parties.

The most recent subsidy reestimate was completed in September 2004 for actual performance data
through June 30, 2004 and estimated data from July through September, 2004. This reestimate resulted in
a net upward adjustment of $732,660 reported in the FY 2004 financial statements. The increase was
primarily due to recovery assumption changes stemming from the NextWave settlement agreement. The
agreement is divided into three parts – licenses sold to Cingular Wireless, licenses retained by NextWave,
and licenses returned to the FCC. On the licenses sold to Cingular the FCC recognized a recovery of
$714,000 in the 3rd quarter of FY 2004 that was greater than the 100% of outstanding principal originally
projected. On the licenses returned to the FCC, the FCC continues to project a 100% recovery. On the
licenses retained by NextWave, the FCC adjusted the previous 100% recovery projection to reflect a
recovery of only $398,100 against an original projection of $1,547,600, a decrease of $1,149,500.

Loans Receivable – Loans receivable are recorded at the principal outstanding, net of allowance for
subsidy. Allowance for subsidy costs represents the difference between the present values of estimated
net cash inflows and outflows of the spectrum auction loans. The allowance for subsidy cost is amortized
using the effective interest method based on the Treasury’s interest rate for the year the loans were
disbursed. The allowance for subsidy also provides for write-offs on defaults and other costs that may
affect cash flows.



96        PERFORMANCE AND ACCOUNTABILITY REPORT                 FISCAL YEAR 2004
   CHAPTER 3: FINANCIAL STATEMENTS AND AUDITORS’ REPORTS

Note 7 – Loans Receivable, Net (continued)

Accrued Interest – The FCC accrues interest on loans as it is earned. Current FCC policy automatically
grants spectrum auction loans two sequential three-month grace periods for which borrowers are charged
late fees. In accordance with FCC rules, at the end of the total six-month grace period loans are
considered to be in default and the license is automatically cancelled. For financial reporting purposes,
the FCC discontinues accruing interest on loans beyond the six-month grace period, since these loans are
considered non-performing. Under FCC policy, only interest on the performing loans is accrued and
recorded for financial reporting purposes.

In conjunction with the NextWave settlement agreement reached in FY 2004, the FCC adjusted the
interest receivable from NextWave loans. The adjustment recognized interest receivable and revenue of
approximately $1,913,127 in FY 2004, which represents true-up of interest through the point of the
license sale or return, or through year-end for some licenses retained by NextWave. Prior to FY 2004, the
NextWave loans were in bankruptcy and treated as non-performing loans where interest accruals were
discontinued according to the policy stated above. The interest adjustment is recognized entirely in the
current fiscal year because there is no effect, net of the subsidy amortization, on either the Loans
Receivable, net or the Earned revenues from the public balances.

Direct Loans

                        Loans                                                Allowance for    Value of
                        Receivable,        Interest         Other            Subsidy Cost      Assets Related
Loan Program            Gross              Receivable       Receivables     (Present Value) to Direct Loans
Spectrum Auctions:
   FY 2004              $ 4,313,522        $ 2,189,035      $   20,952       $ (3,831,651)       $ 2,691,858

    FY 2003             $ 5,112,431        $   280,681      $       3,716    $   (968,023)       $ 4,428,805

Interest accrued on bankrupt and defaulted loans totaled $2,186,907 in FY 04 and $278,081 in FY 03.

Total Amount of Direct Loans Disbursed

Loan Program                 FY 2004                     FY 2003

Spectrum Auctions       $              -          $             -

No new loans were issued as of September 30, 2004 and 2003.

Subsidy Expense for Direct Loans by Program and Component

1. Subsidy Expense for New Direct Loans Disbursed:

                        Interest
    Loan Program        Differential       Defaults         Fees             Other            Total
    FY 2004             $        -         $      -         $ -              $   -           $      -

    FY 2003             $        -         $      -         $   -            $    -          $      -




FEDERAL COMMUNICATIONS COMMISSION                                                                        97
                                        FEDERAL COMMUNICATIONS COMMISSION

Note 7 – Loans Receivable, Net (continued)

Subsidy Expense for Direct Loans by Program and Component

2. Direct Loan Modifications and Reestimates:
                                         Interest Rate         Technical            Total
   Loan Program       Modifications      Reestimates           Reestimates          Reestimates
   Spectrum Auctions

     FY 2004 (Net)      $         -           $    -            $   732,660         $    732,660

     FY 2003 (Net)      $         -           $    -            $   380,055         $    380,055

3. Total Direct Loan Subsidy Expense:

     FY 2004            $   732,660
     FY 2003            $   380,055

Subsidy Rates for Direct Loans by Program and Component

                          Interest
  Loan Program          Differential   Defaults        Fees            Other             Total
  FY 2004                      0%          0%             0%              0%                  0%
  FY 2003                      0%          0%             0%              0%                  0%


Schedule for Reconciling Subsidy Cost Allowance Balances

                                                             2004                    2003
Beginning Balance of the Subsidy Cost Allowance           $ 968,023            $    329,067

Subsidy expense for direct loans disbursed:
During the reporting years by component:
        Interest rate differential costs                              -                   -
        Default costs (net of recoveries)                             -                   -

Adjustments:
       Recoveries                                                      -            468,419
       Loans written off                                         (77,674)           (50,134)
       Subsidy allowance amortization                          2,208,286           (160,520)
       Other                                                         356              1,136
Ending balance before reestimates                              3,098,991            587,968

Subsidy reestimates:
       Technical/default reestimate                             732,660             380,055

Ending balance of the subsidy cost allowance               $ 3,831,651         $    968,023




98         PERFORMANCE AND ACCOUNTABILITY REPORT           FISCAL YEAR 2004
    CHAPTER 3: FINANCIAL STATEMENTS AND AUDITORS’ REPORTS

Note 7 – Loans Receivable, Net (continued)

Administrative Expense                                              2004                  2003

    Spectrum Auctions                                             $ 43,608            $   8,624

Note 8 – Seized and Forfeited Property

The FCC seizes property from illegally operated radio and other communication operations. The property
is comprised of radio frequency, audio, and other communications equipment. Forfeited property consists
of seized property legally turned over to the FCC. Although seized and forfeited property cannot be sold
due to legal restrictions, and is not recognized for financial purposes, the quantity and value of seized and
forfeited property is reported below. The property is tracked using the lot number assigned when seized.
The following summarizes Seized and Forfeited Property as of September 30, 2004 and 2003:

                                FY 2004                            FY 2003
                           No. of       Dollar            No. of             Dollar
                           Lots         Value             Lots               Value
Seized Property
Beginning Balance            37          $   73             24               $ 53
Seized                       21              20             18                 36
Forfeited                   (18)             (1)            (5)               (16)
Ending Balance               40          $   92             37               $ 73


                                FY 2004                            FY 2003
                           No. of       Dollar            No. of             Dollar
                           Lots         Value             Lots               Value
Forfeited Property
Beginning Balance            8           $   6              7                $  6
Forfeited                   24              10              5                  16
Disposed                   (18)             (6)            (4)                (16)
Ending Balance              14            $ 10              8                $ 6




FEDERAL COMMUNICATIONS COMMISSION                                                                       99
                                           FEDERAL COMMUNICATIONS COMMISSION

Note 9 - General Property, Plant and Equipment, Net

The following summarizes General PP&E as of September 30, 2004 and 2003:
                            FY 2004                                 FY 2003        .
                                Accum. Net Book                 Accum Net Book Estimated
Major Classes        Cost       Deprec     Value       Cost     Deprec    Value      Useful Life
Land              $ 1,443 $             - $ 1,443 $ 1,443 $            - $ 1,443        N/A
Buildings             5,493         3,890    1,603       4,537    3,876       661       40
Non-Computer
Equipment            36,220        28,413    7,807     34,579 24,243       10,336       7
Computer
Equipment            27,756       16,048    11,708     23,777 15,121        8,656       5
Vehicle Systems       4,485         3,058    1,427       3,196    2,701       495       5
Leasehold
Improvements          3,108          259     2,849           -         -         -      10
ADP Software         39,187       26,799    12,388     31,901 20,305       11,596       3
Software
in Development       14,030             -   14,030     10,879          -   10,879       N/A

Total                $ 131,722     $   78,467 $ 53,255        $110,312 $ 66,246 $ 44,066

All asset classes are depreciated on a straight-line basis.

Note 10 - Liabilities Not Covered by Budgetary Resources

The following summarizes Liabilities Not Covered by Budgetary Resources as of September 30, 2004
and 2003:

                                                                          2004                 2003
        Intragovernmental:
             Other:
                FECA Liability                                       $      448            $          426

        Other:
             Unfunded Leave                                              17,102            16,023
             Accrued Liabilities for Universal Service                  385,989           340,479
        Total Liabilities not covered by budgetary resources            403,539           356,928
        Total Liabilities covered by budgetary resources              4,658,526         5,573,088
        Total Liabilities                                            $ 5,062,065      $ 5,930,016

The Federal Employees Compensation Act (FECA) liability represents the amount of bills received by the
Department of Labor for worker’s compensation. These bills are received one year in advance of when
they are due and are not funded until the subsequent fiscal year.

Unfunded Leave is funded at the time the leave is taken, and is therefore not funded with current year
budgetary resources.




100        PERFORMANCE AND ACCOUNTABILITY REPORT                  FISCAL YEAR 2004
   CHAPTER 3: FINANCIAL STATEMENTS AND AUDITORS’ REPORTS

Note 11 - Debt

                                 2003                          2003                        2004
                               Beginning        Net           Ending         Net          Ending
                                Balance       Borrowing       Balance      Borrowing      Balance

Agency Debt:
    Held by the Public          $ 114,425        (58,577)        55,848       (55,848)              -

Other Debt:
    Debt to the Treasury        5,770,915      (705,477)       5,065,438    (1,124,674)   3,940,764

Total Debt                     $ 5,885,340   $ (764,054)      $5,121,286 $(1,180,522) $ 3,940,764


Classification of Debt:
                                                    2004                    2003
     Debt to the Treasury                       $ 3,940,764             $ 5,065,438
     Debt held by the Public                              -                  55,848
                 Total Debt                     $ 3,940,764             $ 5,121,286


Agency debt represents the remaining liability on an initial voucher of $125,274 issued to settle
successful litigation against the FCC. The voucher can be used to satisfy existing spectrum auction loans
and as credit for payment against spectrum auction winning bid amounts in future auctions. An extension
was approved during FY 2004, extending the expiration date on the voucher to September 8, 2004.

The FCC also borrows from the Treasury for costs associated with its spectrum auction loan program.
Borrowings, pertaining to all loan cohorts, are determined by calculating the subsidy estimates and
reestimates in accordance with the FCRA of 1990, as amended.




FEDERAL COMMUNICATIONS COMMISSION                                                                   101
                                        FEDERAL COMMUNICATIONS COMMISSION

Note 12 - Other Liabilities

The following summarizes Other Liabilities as of September 30, 2004 and 2003:

FY 2004                                     Non-Current           Current          Total
Intragovernmental
    Custodial Liability                       $           -   $      310,130   $ 310,130
    Other:
        Accrued Payroll                                -              1,164        1,164
        FECA Liability                                -                 448          448
        Total Other                                   -               1,612        1,612
Total Intragovernmental                       $       -       $      311,742   $ 311,742

Deferred Revenue                              $   16,967      $       57,207   $    74,174
Prepaid Contributions                                  -             159,260       159,260
Deposit/Unapplied Liability                            -              90,853        90,853
Accrued Liabilities for Universal Service              -             385,989       385,989
Other:
        Accrued Payroll                                -              6,316        6,316
        Unfunded Leave                                 -             17,102       17,102
        Other                                          -             19,488       19,488
Total Other                                            -             42,906       42,906
Total Other Public                            $   16,967          $ 736,215    $ 753,182

FY 2003                                     Non-Current           Current          Total
Intragovernmental
    Custodial Liability                       $       -       $      230,052   $ 230,052
    Other:
        Accrued Payroll                               -                 878          878
        FECA Liability                                -                 426          426
        Total Other                                   -               1,304        1,304
Total Intragovernmental                       $       -       $     231,356    $ 231,356

Deferred Revenue                              $   15,911      $       60,912   $    76,823
Prepaid Contributions                                  -              46,187        46,187
Deposit/Unapplied Liability                            -               9,867         9,867
Accrued Liabilities for Universal Service              -             340,479       340,479
Other:
        Accrued Payroll                                -               4,813       4,813
        Unfunded Leave                                 -              16,023      16,023
        Other                                          -              18,464      18,464
Total Other                                            -              39,300      39,300
Total Other Public                            $   15,911      $      496,745   $ 512,656




102       PERFORMANCE AND ACCOUNTABILITY REPORT                   FISCAL YEAR 2004
   CHAPTER 3: FINANCIAL STATEMENTS AND AUDITORS’ REPORTS

Note 12 - Other Liabilities (continued)

The Custodial Liability includes both cash collected and receivables being held for transfer to the
Treasury’s General Fund. The FCC collects the following types of custodial revenue: spectrum auction
revenue, fines and forfeitures revenue, penalty revenue on regulatory fees, ITS processing fees, and
interest revenue on auction deposits (held for TDF).

Deposit/Unapplied Liability represents upfront deposits made by auction bidders as well as funds
received that are being held until proper application is determined. Prepaid Contributions includes
contribution overpayments that may be refunded and USF contributions paid in advance that will be
drawn down during the year. Accrued Liabilities for Universal Service represent liabilities recorded by
the USF for anticipated subsidies in the High Cost, Low Income, and TRS programs. The obligation for
these subsidies is not recognized until payment files are approved in the subsequent month.

Note 13 - Leases

Operating Leases

The FCC has operating leases for rental of office space and office equipment. The copier lease
arrangements are renewable annually with five possible annual renewal periods. As a Federal agency, the
FCC is not liable for any lease terms beyond one year. The FCC anticipates that space levels consistent
with FY 2004 will be required for the next five years and has estimated space and copier payments
consistent with the schedule below. No estimates beyond five years have been provided because of the
cancelable nature of the agreements.

Anticipated lease requirements are as follows:

        Fiscal Year                Building                Copier                Total

            2005                    $ 38,493               $ 1,419             $ 39,912
            2006                       38,795                1,419               40,214
            2007                       39,104                1,419               40,523
            2008                       39,423                1,419               40,842
            2009                       39,423                1,419               40,842
    Total Future Lease Payments     $ 195,238              $ 7,095             $202,333

Note 14 - Commitments and Contingencies

The FCC, USAC, and the Department of Justice are investigating several cases related to disbursements
of USF funds from the Schools and Libraries program, which might result in future proceedings or
actions. The complexity of these actions precludes management from estimating the total amount of
recovery that may result from these actions.

The FCC is a party in various administrative proceedings, legal actions, and claims brought by or against
the agency. In addition, several bankruptcy proceedings are ongoing related to the loan portfolio. In the
opinion of FCC management, the ultimate resolution of proceedings, actions and claims, outside of the
loans, will not materially affect the FCC’s financial position or results of operations.

The FCC has examined its obligations related to FY 1999 canceled authority and believes it has no
outstanding commitments requiring future resources.

FEDERAL COMMUNICATIONS COMMISSION                                                                  103
                                       FEDERAL COMMUNICATIONS COMMISSION


Note 15 - Gross Costs and Earned Revenue by Budget Functional Classification

All FCC costs and revenues are reported under budget functional classification 376, Other Advancement
of Commerce.

Note 16 - Apportionment Categories of Obligations Incurred

The following summarizes Apportionment Categories of Obligations Incurred as of September 30, 2004
and 2003:

                                           FY 2004                              FY 2003
                                   Budgetary      Non-Budgetary          Budgetary   Non-Budgetary
Direct
     Category A                $     362,806         $           -       $   370,522    $         -
     Category B                   16,323,104               345,729           555,202        417,776
     Exempt from Apportionment             -                     -         5,969,620              -
Total Direct                   $ 16,685,910          $     345,729       $ 6,895,344   $    417,776

Reimbursable
     Category A                $           1,981     $            -      $    1,684     $          -
     Category B                                -                  -                -               -
     Exempt from Apportionment                 -                  -               -                -
Total Reimbursable             $           1,981     $            -      $    1,684    $           -


Category A – Apportioned by Quarter
Category B – Apportioned by Purpose

Note 17 - Available Borrowing/Contract Authority, End of Period

The FCC receives borrowing authority consistent with the FCRA of 1990, as amended. The borrowing is
authorized through an indefinite permanent authority at interest rates set each year by the Treasury. In
addition, the FCC has permanent indefinite authority for subsidizing the spectrum auction direct loan
program.

With the exception of a monetary credit that resulted as a judgment against the FCC, all borrowings are
from the BPD. In accordance with applicable standards, all funds are borrowed at the beginning of the
period. Therefore, the FCC does not carry over any unused borrowing authority. Repayments of
borrowings are made in accordance with the terms of the FCRA of 1990, as amended. Financing sources
for repayment are collections from borrowers or subsidy. The FCC had no available borrowing authority
at September 30, 2004.

Note 18 - Terms of Borrowing Authority Used

The FCC has three types of financing sources: loan payments made by the public, interest from the
Treasury, and subsidy expenses received from the Treasury. The FCRA of 1990 stipulates that the rate
used for subsidy calculations, borrowings, and interest on uninvested funds must be for a maturity
comparable to the maturity of the direct loans made to the public. The majority of FCC’s direct loans
have a maturity of ten years.



104       PERFORMANCE AND ACCOUNTABILITY REPORT               FISCAL YEAR 2004
    CHAPTER 3: FINANCIAL STATEMENTS AND AUDITORS’ REPORTS

Note 19 – Legal Arrangements Affecting Use of Unobligated Balances

The FCC may carry forward regulatory fees received in excess of the legislative level contained in the
FCC’s annual appropriation language for use in the next fiscal year, subject to notification of the
congressional appropriations subcommittees. All other no-year unobligated balances are available
without restriction at the start of the next fiscal year, following apportionment by the OMB.

Note 20 - Explanation of Differences Between the Statement of Budgetary Resources and the
Budget of the U.S. Government

The schedule below presents differences for FY 2003. The Budget of the United States Government with
actual numbers for FY 2004 has not been published. Pursuant to 31 USC 1105, the Budget of the United
States Government will be released the first Monday in February, and will be available at the following
website: http:/www.whitehouse.gov/omb.

                                                  Combined Statement       President’s
                                                 of Budgetary Resources     Budget
Budgetary Resources ($ in millions):                      2003                2003       Difference

    Budget Authority                                     $ 6,305          $ 6,298        $   (7)      A
    Unobligated Balances – Beginning of Period             2,267            2,294            27       B
    Spending Authority from Offsetting Collections         1,595            1,595             -
    Adjustments                                            (790)             (788)            2       C
    Total Budgetary Resources                              9,377            9,399            22

Status of Budgetary Resources ($ in millions):

    Obligations Incurred                                 $ 7,314          $ 7,346        $    32      D
    Unobligated Balances – Available                       2,002            2,053             51      E
    Unobligated Balances – Not Available                      61                -            (61)     F
    Total, Status of Budgetary Resources                   9,377            9,399             22

Outlays ($ in millions):

    Obligations Incurred                                 $ 7,314          $ 7,346        $   32       D
    Less: Spending Authority from Offsetting
          Collections and Adjustments                     ( 1,595)         ( 1,595)             -
    Obligated Balance, net – Beginning of Period              453              453              -
    Less: Obligated Balance, net – End of Period             (481)          ( 481)              -
    Total Outlays                                           5,691            5,723            32      D
    Less: Offsetting Receipts                                  20               20             -
    Net Outlays                                          $ 5,671          $ 5,703        $    32

A – The budget includes the rescission of ($7) million on this line while the financial statements report
the rescission on the adjustments line.




FEDERAL COMMUNICATIONS COMMISSION                                                                   105
                                         FEDERAL COMMUNICATIONS COMMISSION

Note 20 - Explanation of Differences Between the Statement of Budgetary Resources and the
Budget of the U.S. Government (continued)

B – A correction was made to the financial statement balances in FY 2002 for outstanding USF checks of
$35 million. The correction was processed after the submission of the budget and resulted in a difference
in the ending unobligated balance. The difference is carried forward from the ending balance to the
beginning balance in FY 2003 and was corrected through outlays in FY 2003. The FY 2003 ending
unobligated USF balances agree. The other portion of the difference is the exclusion of ($8) million in
unobligated balances – unavailable from the budget, which only incorporates available authority.

C – The budget does not include recoveries of ($8) million or cancelled authority of $3 million on the
adjustments line. Additionally, rescinded authority of $6 million is included as part of budget authority
instead of adjustments (See A). The remaining $1 million is the result of rounding.

D – The USF correction in Explanation B accounts for $35 million and the exclusion of upward
adjustments in the budget accounts for the remaining ($3) million.

E – The unobligated balances for all no-year accounts, totaling $51 million, are reported in the budget as
available but are reported as unavailable in the financial statements until they are re-apportioned the
following year.

F – The financial statements include expired unobligated balances of ($10) million, while the budget does
not reflect this amount. In addition, the budget reports ($51) million in unobligated balances for no-year
accounts on the available line (see Explanation E).

Note 21 - Explanation of the Relationship Between Liabilities Not Covered by Budgetary Resources
on the Balance Sheet and the Change in Components Requiring or Generating Resources in Future
Periods

Three amounts are shown in Note 10 as not covered by budgetary resources: FECA Liability, Unfunded
Leave, and Accrued Liabilities for Universal Service. The increase in FECA Liability of $22 is included
as part of the Resources that fund expenses recognized in prior periods line item. The changes in the
other two balances between FY 2003 and FY 2004 are reflected as part of Components Requiring or
Generating Resources in Future Periods on the Statement of Financing. The increase in Unfunded Leave
of $1,079 is included in the increase in Annual Leave line item while the increase in Accrued Liabilities
for Universal Service of $45,510 is reflected in the Other line item.

Note 22 - Description of Transfers that Appear as a Reconciling Item on the Statement of Financing

The FCC collects applications fees to cover the cost of processing license applications. The FCC reports
the revenue associated with these fees as a revenue source on its Statement of Net Cost, but does not
retain the fees. To reflect the transfer of these fees to the Treasury, the FCC recognizes a transfer out on
the Statement of Changes in Net Position. The amount of $20,159 included in the Offsetting Receipts
line on the Statement of Financing is the total transferred for application fees.




106        PERFORMANCE AND ACCOUNTABILITY REPORT                FISCAL YEAR 2004
   CHAPTER 3: FINANCIAL STATEMENTS AND AUDITORS’ REPORTS

Note 23 - Dedicated Collections

U.S. telecommunication companies are obligated to pay assessments for Universal Service support and
for Telecommunications Relay Service, established by the FCC. These assessments are accounted for in
the Budget of the U.S. Government as the “Universal Service Fund.” The FCC currently recognizes the
assessments collected under the USF Program as non-exchange revenue on its Statement of Changes in
Net Position, and the related disbursements as program expenses on the Statement of Net Cost.

The following summarizes the significant assets, liabilities, and related costs incurred with managing the
USF Program. See Required Supplementary Information for complete disclosure of all activity related to
the USF Program.

The following summarizes Dedicated Collections as of September 30, 2004 and 2003:

                                                 FY 2004                             FY 2003
Assets

Cash and Other
Monetary Asset (Note 4)                         $     199,784                    $ 2,400,128
Investments (Note 5)                                 3,257,368                       326,389
Accounts Receivable, Net (Note 6)               $      561,157                   $   626,172

Liabilities & Net Position

Accounts Payable                                $      47,413                    $    56,185
Unearned Revenue                                       30,000                         13,400
Prepaid Contributions                                 159,221                         46,168
Accrued Liabilities                                   385,989                        340,479
Net Position                                    $   3,395,686                    $ 2,896,457

Revenues & Expenses

Contributions                                   $   6,309,741                    $ 5,765,603
Interest Revenue                                       36,162                         29,732
Penalty Revenue                                         4,366                              -

Provider Related Expenses                       $   5,779,605                    $ 5,501,751
Fund Administration Expenses                           66,627                         58,718
Loss on Disposition of Investments                      4,808                              -

Administrative costs are expenses related to managing and overseeing the USF Program. The USF
Program is charged administrative expenses by the USAC and the NECA for expenses such as salaries
and benefits of the employees dedicated to managing the universal service support mechanisms and the
telecommunications relay services mechanism; rent and utilities for office space used; providing
accounting and other financial reporting related services; and other miscellaneous activities.




FEDERAL COMMUNICATIONS COMMISSION                                                                   107
                                        FEDERAL COMMUNICATIONS COMMISSION

Note 24 – Comparability of the Financial Statements

At the end of FY 2003 the FCC issued an order to the USAC requiring them to establish an internal
accounting structure that was capable of reporting the activities of the USF in accordance with
Governmental GAAP beginning in FY 2005. During the course of working with its component entities to
bring them into compliance, the FCC and USAC began to address issues concerning the recognition of
commitment letters and Money Market fund purchases that represented a substantial increase to the
obligations of the fund. These issues could not be resolved until the final weeks of the 2004 fiscal year.
The timing of the resolution prevented the FCC management from performing the steps necessary to
obtain adequate assurance on the financial data provided for the Combined Statement of Budgetary
Resources (SBR) and Consolidated Statement of Financing (SOF), relative to the changes made
surrounding these issues. The impact on the comparability of the financial statements regarding these
issues and a change in reporting related to net costs is discussed in the paragraphs below.

In FY 2003 the FCC reported Money Market funds on the Balance Sheet as cash equivalents and as
available budgetary authority on the SBR. In FY 2004, subsequent re-evaluation of OMB Circular A-11
(OMB A-11) Preparation, Submission, and Execution of the Budget, guidance led the FCC to believe that
if the Money Market shares are not purchased in funds backed wholly by Treasury securities, they should
be recorded as outlays and therefore do not represent available budgetary authority. Accordingly, Money
Market funds were reported as outlays in FY 2004. The effects of this correction on FY 2003 could not
be determined; hence the amounts presented in the FY 2003 SBR and SOF were not restated. A
beginning balance decrease of $2,398,337 was made to the Unobligated Balance: Beginning of Period in
FY 2004 to reflect the impact on opening balances. This adjustment is part of the total amount of
$2,057,858 reported as the Adjustment to Beginning Balance on the SBR.

In FY 2003, purchases of investments were recorded as disbursements/obligations incurred and receipts
were recorded as an offset to disbursements/obligations incurred. In connection with the determination
above and further discussion with both Treasury and OMB in FY 2004 it was also determined that the
redemption of investments should be recorded as a receipt instead of an offset to
disbursements/obligations. In FY 2004, the FCC made the changes necessary to report investment
activity in accordance with the Treasury Financial Manual (TFM) Volume I, Part 2, Chapter 3400;
Accounting for and Reporting on Cash and Investments Held Outside of the U.S. Treasury and OMB
A-11. The effects of this correction on FY 2003 could not be determined; hence, the amounts presented
in the FY 2003 SBR and SOF were not restated.

The FCC reclassified the presentation of USF’s High Cost, Low Income, and TRS support mechanisms’
acounts payable totaling $385,989 and $340,479, in FYs 2004 and 2003 respectively, from accounts
payable to accrued liability for universal service (other liabilities). The FCC also determined, in
consultation with the Treasury and OMB, that the estimated accrued liabilities were not obligations as of
September 30, 2004 and 2003. A beginning balance adjustment of $340,479 was made to the
Unobligated Balance: Beginning of Period in FY 2004 to reflect the impact on opening balances. This
adjustment is part of the total amount of $2,057,858 reported as the Adjustment to Beginning Balance on
the SBR.




108       PERFORMANCE AND ACCOUNTABILITY REPORT                FISCAL YEAR 2004
   CHAPTER 3: FINANCIAL STATEMENTS AND AUDITORS’ REPORTS

Note 24 – Comparability of the Financial Statements (continued)

In FY 2004, the FCC, in consultation with the OMB, determined that USF commitment letters for the
Schools and Libraries and Rural Health Care programs met the definition of an obligation. In response to
this determination, the USF recorded an obligation of $2,900,130, which is equal to the outstanding
balance on all previously issued commitment letters as of September 30, 2004. In addition, the USF,
which was an appropriation not subject to apportionment in prior years, was apportioned by OMB for the
first time in FY 2004. Due to the timing of the change, FCC management was unable to determine the
completeness and accuracy of the budgetary information related to these commitment letters reported in
the SBR and SOF for the year ended September 30, 2004.

A reporting change was also made for FY 2004 that impacted the comparability of the FY 2004 Statement
of Net Cost with FY 2003. Effective for FY 2004, the FCC began accounting for costs under the new
strategic goals presented in the FY 2003-2008 Strategic Plan. These goals replaced the activity based
programs included in the previous Strategic Plan.




FEDERAL COMMUNICATIONS COMMISSION                                                                 109
                                 FEDERAL COMMUNICATIONS COMMISSION



This page intentionally left blank




110     PERFORMANCE AND ACCOUNTABILITY REPORT    FISCAL YEAR 2004
   CHAPTER 3: FINANCIAL STATEMENTS AND AUDITORS’ REPORTS


REQUIRED SUPPLEMENTARY INFORMATION

Note: The accompanying notes are an integral part of these statements

INTRAGOVERNMENTAL ASSETS
As of September 30, 2004
(Dollars in thousands)
                                                      Intra-Governmental Assets




    Partner                                       Fund              Accounts
    Code    Trading Partner                      Balance            Receivable        Investments        Total

    13     NTIA                                                               340                                 340

    15     Department of Justice                                                  1                                 1

    17     Navy                                                               443                                 443

    19     Department of State                                                    4                                 4

    20     Department of Treasury                    487,904                      -      3,257,049        3,744,953

    21     Army                                                             1,785                                1,785

    24     Office of Personnel Management                                         4                                 4

    47     Genersal Services Administration                                       3                                 3

    57     Air Force                                                             42                                42

    69     Department of Transportation                                          17                                17

    70     Homeland Security                                                     79                                79

    80     NASA                                                                   1                                 1

    95     Board of International Broadcasting                                   45                                45

    97     Department of Defense                            -               5,143                                5,143

           Total                                     487,904                7,907        3,257,049        3,752,860




                                                    Intra-Governmental Liabilities




                                                                    Borrowings
    Partner                                      Accounts             From              Other
    Code    Trading Partner                      Payable          Treasury (BPD)       Liabilities       Total

           Funded

    20     Department of Treasury                           -           3,940,764                    -    3,940,764

    16     Department of Labor                              -                     -            448                448

    24     Office of Personnel Management                   -                     -          1,164               1,164

    99     General Fund/Other                               -                     -        310,130          310,130

           Total                                            -           3,940,764          311,742        4,252,506




FEDERAL COMMUNICATIONS COMMISSION                                                                                        111
                                                  FEDERAL COMMUNICATIONS COMMISSION



INTRAGOVERNMENTAL EARNED REVENUES AND RELATED COSTS
As of September 30, 2004
(Dollars in thousands)
                                          Intragovernmental Earned Revenues and Related Costs

Partner
Code    Trading Partner                                         Earned Revenue                  Expenses

03      Library of Congress                                     $                -              $               9

04      Government Printing Office                                               -                           1,529

10      Judiciary System                                                         -                              2

11                                                                               1                               -

12      Department of Agriculture & NFC                                          -                            232

13      Department of Commerce                                                358                             103

14      Department of Interior                                                   -                           4,415

15      Department Of Justice                                                 150                           21,641

16      Department of Labor                                                      -                            260

18      United States Postal Service                                             -                            258

19      U. S. Department of State                                                -                              6

20      Department of Treasury                                              51,564                         343,403

24      Office of Personnel Management                                           4                          41,844

45      Equal Employment Opportunity                                             -                              3

47      General Services Administration                                          -                          41,253

69      Dept. of Transportation - USCG                                           -                            165

70      Homeland Security Admin.                                              352                              47

75      Health and Human Services -FOH                                           -                             51

95      Board for International Broadcasting                                  221                               1

97      Department of Defense                                                 550                             103

99      U S Treasury General Fund/Payroll Taxes                                  -                           8,917

        Total                                                               53,200                         464,242

Collections on Behalf of the US Treasury (SGL 5990-5991)
99       General Fund                                                     (533,307)

NFC - National Finance Center
USCG - United States Coast Guard
FOH - Federal Occupational Health




112         PERFORMANCE AND ACCOUNTABILITY REPORT                          FISCAL YEAR 2004
   CHAPTER 3: FINANCIAL STATEMENTS AND AUDITORS’ REPORTS



DEFERRED MAINTENANCE
As of September 30, 2004
(Dollars in thousands)

To determine the original estimated cost of deferred maintenance in FY 2000, the FCC contracted with
professional building inspectors to inspect its real property holdings, including buildings and structures.
The inspection reports were, in most cases, comprehensive reviews of the buildings and ground
conditions and included all items that required attention, whether critical to the functionality of the
building or a cosmetic feature. Each year, the FCC updates the report from the previous year for items
completed and newly identified projects. The estimated deferred maintenance for FY 2004 is $1,411.




FEDERAL COMMUNICATIONS COMMISSION                                                                    113
                                                        FEDERAL COMMUNICATIONS COMMISSION


CONSOLIDATING BALANCE SHEET
As of September 30, 2004
(Dollars in thousands)

                                                            FCC               USF             NANP       Eliminations     Consolidated
ASSETS
 Intragovernmental
   Fund Balance with Treasury (Note 3)                  $     487,904     $         -     $          -   $         -      $     487,904
   Investments (Note 5)                                                       3,257,049              -             -          3,257,049
   Accounts Receivable (Note 6)                                 7,907               -                -             -              7,907
 Total Intragovernmental                                      495,811         3,257,049              -             -          3,752,860

 Cash and Other Monetary Assets (Note 4)                       82,583          199,784           9,245             -            291,612
 Investments (Note 5)                                             -                319             -               -                319
 Accounts Receivable, net (Note 6)                             67,947          561,157             302         (51,638)         577,768
 Loans Receivable, net (Note 7)                             2,691,858              -               -               -          2,691,858
 General Property, Plant, and Equipment, net (Note 9)          53,255              -               -               -             53,255
  Other                                                           -                -                26             -                 26

Total Assets                                            $   3,391,454     $   4,018,309   $      9,573   $     (51,638)   $   7,367,698

LIABILITIES
 Intragovernmental
   Accounts Payable                                     $         -       $         -     $          -   $         -      $         -
   Debt (Note 11)                                           3,940,764               -                -             -          3,940,764
   Other (Note 12)
    Custodial                                                 310,130               -                -             -           310,130
    Other                                                       1,612               -                -             -             1,612
   Total Other                                                311,742               -                -             -           311,742

 Total Intragovernmental                                    4,252,506               -                -             -          4,252,506

 Accounts Payable                                               6,006           47,413           2,958             -            56,377
 Debt Held by the Public (Note 11)                                -                                -               -               -
 Other (Note 12)
  Deferred Revenue                                             42,139           30,000           2,035             -            74,174
  Prepaid Contributions                                           -            159,221              39             -           159,260
  Deposit/Unapplied Liability                                  90,853              -               -               -            90,853
  Accrued Liabilities for Universal Service                       -            385,989             -               -           385,989
  Other                                                        94,544              -               -           (51,638)         42,906
 Total Other                                                  227,536          575,210           2,074         (51,638)        753,182

Total Liabilities                                       $   4,486,048     $    622,623    $      5,032   $     (51,638)   $   5,062,065

 Commitments and Contingencies (Note 14)

NET POSITION
 Unexpended Appropriations                              $       38,155    $         -     $        -     $         -      $      38,155
 Cumulative Results of Operations                           (1,132,749)       3,395,686          4,541             -          2,267,478

Total Net Position                                          (1,094,594)       3,395,686          4,541             -          2,305,633

Total Liabilities and Net Position                      $   3,391,454     $   4,018,309   $      9,573   $     (51,638)   $   7,367,698




114             PERFORMANCE AND ACCOUNTABILITY REPORT                               FISCAL YEAR 2004
   CHAPTER 3: FINANCIAL STATEMENTS AND AUDITORS’ REPORTS


CONSOLIDATING STATEMENT OF NET COST
As of September 30, 2004
(Dollars in thousands)
                                                                FCC                 USF             NANP               Consolidated
        PROGRAM COSTS:
        Broadband:
          Intragovernmental gross costs                     $          5,416    $         -     $            -     $             5,416
          Less: Intragovernmental earned revenue                         -                -                  -                        -
          Intragovernmental net costs                                  5,416              -                  -                   5,416

          Gross costs with the public                                 14,800              -                  -                 14,800
          Less: Earned revenues from the public                    (21,388)               -                  -                 (21,388)
          Net costs with the public                                   (6,588)             -                  -                  (6,588)
            Total net cost                                            (1,172)             -                  -                  (1,172)

        Competition:
          Intragovernmental gross costs                     $         32,847    $         -     $            -     $            32,847
          Less: Intragovernmental earned revenue                         -                -                  -                        -
          Intragovernmental net costs                                 32,847              -                  -                 32,847

          Gross costs with the public                                 86,768        5,846,232              7,956             5,940,956
          Less: Earned revenues from the public                  (120,656)                -            (5,265)                (125,921)
          Net costs with the public                                (33,888)         5,846,232              2,691             5,815,035
            Total net cost                                            (1,041)       5,846,232              2,691             5,847,882

        Spectrum:
          Intragovernmental gross costs                     $     396,417       $         -     $            -     $          396,417
          Less: Intragovernmental earned revenue                   (52,656)               -                  -                 (52,656)
          Intragovernmental net costs                             343,761                 -                  -                343,761

          Gross costs with the public                            1,319,520                -                                  1,319,520
          Less: Earned revenues from the public                  (494,710)                -                                   (494,710)
          Net costs with the public                               824,810                 -                  -                824,810
            Total net cost                                       1,168,571                -                  -               1,168,571

        Media:
          Intragovernmental gross costs                     $          7,870    $         -     $            -     $             7,870
          Less: Intragovernmental earned revenue                         -                -                  -                        -
          Intragovernmental net costs                                  7,870              -                  -                   7,870

          Gross costs with the public                                 21,520              -                  -                 21,520
          Less: Earned revenues from the public                    (29,068)               -                  -                 (29,068)
          Net costs with the public                                   (7,548)             -                  -                  (7,548)
            Total net cost                                              322               -                  -                    322

        Homeland Security:
          Intragovernmental gross costs                     $          8,779    $         -     $            -     $             8,779
          Less: Intragovernmental earned revenue                        (544)             -                  -                    (544)
          Intragovernmental net costs                                  8,235              -                  -                   8,235

          Gross costs with the public                                 25,161              -                  -                 25,161
          Less: Earned revenues from the public                    (34,273)               -                  -                 (34,273)
          Net costs with the public                                   (9,112)             -                  -                  (9,112)
            Total net cost                                             (877)              -                  -                    (877)

        Modernize the FCC:
          Intragovernmental gross costs                     $         12,913    $         -     $            -     $            12,913
          Less: Intragovernmental earned revenue                         -                -                  -                        -
          Intragovernmental net costs                                 12,913              -                  -                 12,913

          Gross costs with the public                                 39,248              -                  -                 39,248
          Less: Earned revenues from the public                    (52,009)               -                  -                 (52,009)
          Net costs with the public                                (12,761)               -                  -                 (12,761)
            Total net cost                                              152               -                  -                    152

        Total Net Program Costs                             $    1,165,955      $   5,846,232   $          2,691   $         7,014,878

        Cost not Assigned to Programs:
          Telecommunications Development Fund                            20               -                  -                            20
           Other Expenses                                              4,924              -                  -                   4,924

        Less: Earned Revenues not Attributed to Programs:
          Telecommunications Development Fund                            (20)             -                  -                        (20)

        Net Cost of Operations (Note 15)                    $    1,170,879      $   5,846,232   $          2,691   $         7,019,802




FEDERAL COMMUNICATIONS COMMISSION                                                                                                              115
                                                     FEDERAL COMMUNICATIONS COMMISSION


CONSOLIDATING STATEMENT OF CHANGES IN NET POSITION
As of September 30, 2004
(Dollars in thousands)


                                                                           FCC                                           USF                                        NANP                                   Consolidated
                                                          Cumulative                                    Cumulative                                 Cumulative                                 Cumulative
                                                             Results              Unexpended               Results             Unexpended             Results             Unexpended             Results              Unexpended
                                                          of Operations          Appropriations         of Operations         Appropriations       of Operations         Appropriations       of Operations          Appropriations


Beginning Balances                                    $         (595,449) $               43,055    $        2,896,457    $               -    $           7,232     $               -    $        2,308,240     $            43,055


Budgetary Financing Sources:
  Appropriations received                                              -                 639,087                     -                    -                     -                    -                     -                 639,087
  Other adjustments (recission, etc) (+/-)                         (3,358)                (1,673)                    -                    -                     -                    -                (3,358)                 (1,673)
  Appropriations used                                            642,314                (642,314)                    -                    -                     -                    -              642,314                 (642,314)
  Universal Fund Nonexchange Revenue                                   -                     -               6,350,269                    -                     -                    -             6,350,269                     -
  Loss on Disposition of Investments                                   -                     -                  (4,808)                   -                     -                    -                (4,808)                    -
  Transfers-in/out without reimbursement (+/-)                         -                     -                       -                    -                     -                    -                     -                     -
  Other budgetary financing sources                                    235                   -                       -                    -                     -                    -                     235                   -


Other Financing Sources:
  Transfers-in/out without reimbursement (+/-)                   (20,159)                    -                       -                    -                     -                    -               (20,159)                    -
  Imputed financing from costs absorbed by others                 14,547                     -                       -                    -                     -                    -                14,547                     -
  Other (+/-)                                                          -                     -                       -                    -                     -                    -                     -                     -


Total Financing Sources                                          633,579                  (4,900)            6,345,461                    -                     -                    -             6,979,040                  (4,900)


Less: Net Cost of Operations                                   1,170,879                                     5,846,232                                     2,691                                   7,019,802


Ending Balances                                       $        (1,132,749) $              38,155    $        3,395,686    $               -    $           4,541     $               -    $        2,267,478     $            38,155




116                                   PERFORMANCE AND ACCOUNTABILITY REPORT                                               FISCAL YEAR 2004
            CHAPTER 3: FINANCIAL STATEMENTS AND AUDITORS’ REPORTS



      UNAUDITED COMBINING STATEMENT OF BUDGETARY RESOURCES
      As of September 30, 2004
      (Dollars in thousands)
                                                                 FCC                                    USF                               Combined
                                                                   Non Budgetary                           Non Budgetary                       Non Budgetary
                                                                   Credit Program                         Credit Program                      Credit Program
                                                       Budgetary    Financing Acct            Budgetary    Financing Acct         Budgetary    Financing Acct
Budgetary Resources:

Budget Authority
 Appropriations Received                           $       639,087      $         -       $     15,998,835    $       -       $     16,637,922     $         -
 Borrowing Authority                                           -                2,791                  -              -                    -               2,791

Unobligated Balance:
Beginning of Period                                          14,556            46,031            2,001,673            -              2,016,229            46,031
  Adjustment to Beginning Balance (Note 25)                     -                 -             (2,057,858)           -             (2,057,858)              -
  Adjusted - Beginning of Period                             14,556            46,031              (56,185)           -                (41,629)           46,031
Spending Authority from Offsetting Collections:
  Earned
   Collected                                               429,899          1,483,878                  -              -                429,899         1,483,878
   Receivable from Federal Sources                             762                -                    -              -                    762               -
  Changed Unfilled Customer Orders                                                                                                         -
   Advance Received                                               (1)             -                    -              -                      (1)             -
   Without Advance from Federal Sources                         (73)              -                    -              -                    (73)              -
  Anticipated for rest of year, without advances                -                 -                    -              -                    -                 -
 Subtotal                                                 1,084,230         1,532,700           15,942,650                -         17,026,880         1,532,700

Recoveries of Prior Year Obligations                          8,719                -                   -              -                  8,719                -
Temporarily not available pursuant to Public Law               (349)                                                                      (349)               -
Permanently not available                                   (60,805)        (1,127,464)                -              -                (60,805)        (1,127,464)

Total Budgetary Resources                          $      1,031,795     $     405,236     $     15,942,650    $       -       $     16,974,445     $     405,236



Status of Budgetary Resources:

Obligations Incurred (Note 16):
 Direct                                            $      1,004,603     $     345,729     $     15,681,307    $       -       $     16,685,910     $     345,729
 Reimbursable                                                 1,981               -                    -              -                  1,981               -
 Subtotal                                                 1,006,584           345,729           15,681,307            -             16,687,891           345,729
Unobligated Balance:
 Apportioned                                                  2,612               434                 -               -                  2,612               434
 Other Available                                                -                 -               261,343             -                261,343               -
Unobligated Balance not Available                            22,599            59,073                 -               -                 22,599            59,073

Total Status of Budgetary Resources                $      1,031,795     $     405,236     $     15,942,650    $       -       $     16,974,445     $     405,236



Relationship of Obligations to Outlays:

Obligated Balance, net, Beginning of Period        $         84,213     $          -      $        56,185     $       -       $        140,398     $          -
Obligated Balance Transferred, net                              -                  -                  -               -                    -                  -
Obligated Balance, net, End of Period:
 Accounts Receivable                                           (357)               -                   -              -                   (357)               -
 Unfilled Customer Orders from Federal Sources                   13                -                   -              -                     13                -
 Undelivered Orders                                          51,426                -             2,900,130            -              2,951,556                -
 Accounts Payable                                            23,631                -                47,413            -                 71,044                -

Outlays:
 Disbursements                                            1,006,675            345,729          12,789,949            -             13,796,624            345,729
 Collections                                               (429,897)        (1,483,878)                -              -               (429,897)        (1,483,878)
 Subtotal                                                   576,778         (1,138,149)         12,789,949            -             13,366,727         (1,138,149)
Less: Offsetting Receipts                                    20,159                  -                 -              -                 20,159                -
Net Outlays                                                 556,619         (1,138,149)         12,789,949            -             13,346,568         (1,138,149)




      FEDERAL COMMUNICATIONS COMMISSION                                                                                                                117
                                                                                FEDERAL COMMUNICATIONS COMMISSION


      UNAUDITED CONSOLIDATING STATEMENT OF FINANCING
      As of September 30, 2004
      (Dollars in thousands)


                                                                                          FCC                    USF                 NANP               Consolidated
Resources Used to Finance Activities:

Budgetary Resources Obligated
 Obligations incurred                                                                 $    1,352,313         $    15,686,205     $            -     $        17,038,518
 Less: Spending authority from offsetting collections and recoveries                       1,923,184                     -                    -               1,923,184
 Obligations net of offsetting collections and recoveries                                   (570,871)             15,686,205                  -              15,115,334
 Less: Offsetting receipts                                                                    20,159                     -                    -                  20,159
 Net obligations                                                                            (591,030)             15,686,205                  -              15,095,175
Other Resources
 Transfers in/out without reimbursement (+/-)                                                   20,159                     -                  -                 20,159
 Imputed financing from costs absorbed by others                                                14,547                     -                  -                 14,547
 Other (+/-)                                                                                       -                       -                  -                    -
 Net other resources used to finance activities                                                 34,706                     -                  -                 34,706

Total resources used to finance activities                                                  (556,324)             15,686,205                  -              15,129,881

Resources Used to Finance Items not Part of the Net Cost of Operations

 Change in budgetary resources obligated for goods, services and benefits
 ordered but not yet provided (+/-)                                                          (19,145)              2,900,130                  -               2,880,985
 Resources that fund expenses recognized in prior periods                                    609,456                     -                    -                 609,456
 Budgetary offsetting collections and receipts that do not affect net cost of
 operations
   Credit program collections which increase liabilities for loan guarantees
   or allowances for subsidy                                                               (1,486,208)                   -                    -              (1,486,208)
   Other                                                                                      375,259                    -                    -                 375,259
 Resources that finance the acquisition of assets                                              23,455              6,930,164                  -               6,953,619
 Other resources or adjustments to net obligated resources that do not affect
 net cost of operations (+/-)                                                                   (56,276)               431,649                -                375,373

 Total resources used to finance items not part of the net cost of operations               (553,459)             10,261,943                  -               9,708,484

Total resources used to finance the net cost of operations                                       (2,865)           5,424,262                  -               5,421,397

Components of the Net Cost of Operations that will not Require or Generate
Resources in the Current Period:

Components Requiring or Generating Resources in Future Periods:
 Increase in annual leave liability                                                            1,079                       -                  -                   1,079
 Upward/Downward reestimates of credit subsidy (+/-)                                       1,197,215                       -                  -               1,197,215
 Increase in exchange revenue receivable from the public                                         163                       -                  -                     163
 Other (+/-)                                                                                    (124)                   45,510                -                  45,386
 Total components of Net Cost of Operations that will require or generate
 resources in future periods                                                               1,198,333                    45,510                -               1,243,843

Components not Requiring or Generating Resources:
 Depreciation and Amortization                                                                   15,211                    -                  -                 15,211
 Other (+/-)                                                                                    (39,800)               376,460              2,691              339,351
 Total components of Net Cost of Operations that will not require or generate
 resources                                                                                      (24,589)               376,460              2,691              354,562

Total components of Net Cost of Operations that will not require or generate
resources in the current period                                                            1,173,744                   421,970              2,691             1,598,405

Net Cost of Operations                                                                $    1,170,879         $     5,846,232     $          2,691   $         7,019,802




      118                  PERFORMANCE AND ACCOUNTABILITY REPORT                                           FISCAL YEAR 2004
    CHAPTER 3: FINANCIAL STATEMENTS AND AUDITORS’ REPORTS



UNAUDITED REQUIRED SUPPLEMENTARY INFORMATION – STATEMENT OF BUDGETARY RESOURCES
For the Period Ended September 30, 2004 and 2003
(Dollars in thousands)

STATEMENT OF BUDGETARY RESOURCES

The Office of Management and Budget (OMB) Bulletin No. 01-09, Form and Content of Federal Agency Financial Statements requires
additional disclosure of an entity's budgetary information by major budgetary account if the information was aggregated for presentation
purposes on the Statement of Budgetary Resources. The major budget accounts include the FCC and the Universal Service Fund. Reflected
in the chart below are the major accounts of the FCC that are aggregated and presented in the September 30, 2004 and September 30, 2003
Combined Statement of Budgetary Resources.




FY2004                                                       S&E            Credit       Auctions           USF               Total
Budgetary Resources:

Budget authority                                         $       990    $    640,888     $      -       $ 15,998,835 $        16,640,713
Unobligated balances - beginning of period                     4,451          49,988          6,148          (56,185)              4,402
Spending authority from offsetting collections               343,217       1,486,248         85,000                -           1,914,465
Adjustments                                                  (51,173)     (1,127,277)        (1,449)               -          (1,179,899)
Total budgetary resources                                $   297,485    $ 1,049,847      $   89,699     $ 15,942,650 $        17,379,681


Status of Budgetary Resources:

Obligations incurred                                     $   279,480    $   987,526      $   85,307     $ 15,681,307 $        17,033,620
Unobligated balances - available                                 (15)         3,060               1          261,343             264,389
Unobligated balances - not available                          18,020         59,261           4,391                -              81,672
Total, status of budgetary resources                     $   297,485    $ 1,049,847      $   89,699     $ 15,942,650 $        17,379,681


Relationship of Obligations to Outlays:

Obligated balance, net, beginning of period              $    35,579    $      17,888    $   30,746     $      56,185   $        140,398
Obligated balance transferred, net                                 -                -             -                 -                  -
Obligated balance, net, end of period                         30,229           15,804        28,680         2,947,543          3,022,256

Outlays:
 Disbursements                                              277,396         989,422         85,586        12,789,949          14,142,353
 Collections                                               (342,527)     (1,486,248)       (85,000)                -          (1,913,775)
 Subtotal                                                   (65,131)       (496,826)           586        12,789,949          12,228,578
Less: Offsetting Receipts                                    20,159               -              -                 -              20,159
Net Outlays                                              $ (85,290)     $ (496,826)      $     586      $ 12,789,949        $ 12,208,419




FEDERAL COMMUNICATIONS COMMISSION                                                                                                 119
                                                 FEDERAL COMMUNICATIONS COMMISSION


UNAUDITED REQUIRED SUPPLEMENTARY INFORMATION – STATEMENT OF BUDGETARY RESOURCES
(continued)
For the Period Ended September 30, 2004 and 2003
(Dollars in thousands)


FY 2003                                                  S&E            Credit      Auctions         USF               Total
Budgetary Resources:

Budget authority                                     $     5,241    $   556,397     $     -      $   5,743,226   $      6,304,864
Unobligated balances - beginning of period                 8,350         24,462         6,271        2,228,067          2,267,150
Spending authority from offsetting collections           325,266      1,172,895        96,807                -          1,594,968
Adjustments                                              (59,257)      (730,789)          128                -           (789,918)
Total budgetary resources                            $   279,600    $ 1,022,965     $ 103,206    $   7,971,293   $      9,377,064


Status of Budgetary Resources:

Obligations incurred                                 $   275,149    $   972,977     $  97,058    $   5,969,620   $      7,314,804
Unobligated balances - available                               -              -             -        2,001,673          2,001,673
Unobligated balances - not available                       4,451         49,988         6,148                -             60,587
Total, status of budgetary resources                 $   279,600    $ 1,022,965     $ 103,206    $   7,971,293   $      9,377,064


Relationship of Obligations to Outlays:

Obligated balance, net, beginning of period          $    31,487    $       2,919   $   21,245   $    397,180    $        452,831
Obligated balance transferred, net                             -                -            -              -                   -
Obligated balance, net, end of period                     35,579           17,888       30,746        396,664             480,877

Outlays:
 Disbursements                                          265,723         957,974        85,632        5,970,136          7,279,465
 Collections                                           (325,738)     (1,172,895)      (96,807)               -         (1,595,440)
 Subtotal                                               (60,015)       (214,921)      (11,175)       5,970,136          5,684,025
Less: Offsetting Receipts                                19,952               -             -                -             19,952
Net Outlays                                          $ (79,967)     $ (214,921)     $ (11,175)   $   5,970,136       $ 5,664,073




120          PERFORMANCE AND ACCOUNTABILITY REPORT                        FISCAL YEAR 2004
Appendix A: Glossary of Acronyms

The           The Telecommunications Act        CLE          Continuing Legal Education
Telecom-      of 1996
                                                CLEC         Competitive Local Exchange
munications
                                                             Carrier
Act
                                                CMRS         Commercial Mobile Radio
The Act       The Communications Act of
                                                             Services
              1934, as amended
                                                Commission   Federal Communications
ADA           Americans with Disabilities
                                                             Commission
              Act
                                                COOP         Continuity of Operations Plan
ADSL          Asymmetric Digital Subscriber
              Lines                             COTS         Commercial off-the-shelf
Agency        Federal Communications            CPIC         Capital Planning and
              Commission                                     Investment Control
APOA          Alternate Processing Options      CPI          Consumer Price Index
              Analysis                          CSP          Computer Security Program
ARC           Appalachian Regional              CSRS         Civil Service Retirement
              Commission                                     System
AWS           Advanced Wireless Services        DAB          Digital Audio Broadcasting
BEAMS         Budget Execution and              DBS          Direct broadcast satellite
              Management System
                                                DCIA         Debt Collection Improvement
BPD           Bureau of Public Debt                          Act
BIA           Business Impact Analysis          DRP          Disaster Recovery Plan
Big LEO       Low-Earth Orbit Mobile-           DSL          Digital Subscriber Lines
              Satellite systems
                                                DSRC         Dedicated Short-Range
BPL           Broadband Power Lines                          Communications
C&A           Certification and Accreditation   DTV          Digital Television
CALEA         Communications Assistance         EAS          Emergency Alert System
              for Law Enforcement Act
                                                EI           Effective interest method
CDBS          Consolidated Database System
                                                ESV          Earth Station on Vessel
CDMA          Code Division Multiple Access
                                                EV-DO        Evolution-Data Only
CEPT          European Conference of Postal
              and Telecommunications            FACA         Federal Advisory Committee
              Administrations                                Act
CITEL         Comision Interamericana de        FACTS 1      Federal Agency Centralized
              Telecommunicaciones                            Trial Balance System


FEDERAL COMMUNICATIONS COMMISSION                                                         171
                                       FEDERAL COMMUNICATIONS COMMISSION

FBI          Federal Bureau of Investigation                    Policy Activities through
                                                                Collaborative Technologies
FCC          Federal Communications
             Commission                           IP            Internet Protocol
FCCU         FCC University
FCRA         Federal Credit Reform Act of         IPIA          Improper Payments
             1990                                               Information Act
FECA         Federal Employee                     ISP           International Settlements
             Compensation Act                                   Priority
FERS         Federal Employee Retirement          ISP           Internet Services Provider
             System
                                                  IT            Information Technology
                                                  IT DRP        Information Technology
FFMIA        Federal Financial Management                       Disaster Recovery Plan
             Improvement Act
                                                  ITFS          Instructional Television Fixed
FFS          Federal Financial System                           Service
FISMA        Federal Information Security         ITS           Intelligent Transportation
             Management Act                                     System
FMFIA        Federal Managers Financial           ITS           International
             Integrity Act                                      Telecommunications
                                                                Settlement
FOH          Federal Occupational Health
                                                  ITSP          Interstate Telecommunications
FTE          Full-time equivalents
                                                                Service Providers
FY           Fiscal year
                                                  ITU           International
GAAP         Generally accepted accounting                      Telecommunications Union
             principles
                                                  IVDS          Interactive Video and Data
GAO          Government Accountability                          Service
             Office
                                                  JFMIP         Joint Financial Management
GET          Government Emergency                               Improvement Program
             Telephone services
                                                  JSA           Joint Services Agreement
GHz          Gigahertz
                                                  Kbps          Kilobits per second
GPRA         Government Performance and
                                                  LMDS          Local Multichannel
             Results Act of 1993
                                                                Distribution Service
HD           High Definition
                                                  LNP           Local Number Portability
IB           International Bureau
                                                  LPFM          Low Power FM
IBOC         In-Band On-Channel
                                                  LPTV          Low Power Television
ICASS        International Cooperative
                                                  MDS           Multichannel Distribution
             Administrative Support
                                                                Service
             Services
                                                  MHz           Megahertz
IEEE         Institute of Electrical and
             Electronic Engineers                 MMDS          Multichannel Multipoint
                                                                Distribution System
IMPACT       Improving Management of



172      PERFORMANCE AND ACCOUNTABILITY REPORT           FISCAL YEAR 2004
     APPENDIX A: GLOSSARY OF ACRONYMS

MSRC         Media Security and Reliability              Accountability Report
             Council
                                              PART       Program Assessment and
MVPD         Multichannel Video                          Rating Tool
             Programming Distribution
                                              PCS        Personal Communications
NA           Not applicable                              Service
NAL          Notice of Apparent Liability     PDA        Personal Digital Assistants
NANP         North American Numbering         PERM       Performance Evaluation and
             Plan                                        Records Management
NANPA        North American Numbering         PP&E       Property, Plant and Equipment
             Plan Administrator
                                              PSAP       Public Safety Answering
NCS          National Communications                     Points
             System
                                              PSIP       Program and System
NECA         National Exchange Carriers                  Information Protocol
             Association
                                              QPRR       Quarterly Performance and
NEPA         National Environmental Policy               Results Review
             Act
                                              RAMIS      Revenue Accounting and
NFC          National Finance Center                     Management Information
                                                         System
NOI          Notice of Inquiry
                                              Report     Performance and
NPRM         Notice of Proposed
                                                         Accountability Report
             Rulemaking
                                              RF         Radio Frequency
NRIC         Network Reliability
             Interoperability Council         RFID       Radio Frequency Identification
NS/EP        National Security / Emergency    RUS        Rural Utilities Service
             Preparedness
                                              S&E        Salaries & Expenses
NTIA         National Telecommunications
                                              SFFAS      Statement of Federal Financial
             and Information
                                                         Accounting Standards
             Administration
                                              SMR        Specialized Mobile Radio
OET          Office of Engineering and
             Technology                       SPTF       Spectrum Policy Task Force
OFDM         Orthogonal Frequency Division    SSP        System Security Plan
             Multiplexing                     ST&E       Security Test and Evaluation
OIG          Office of Inspector General      STA        Special Temporary Authority
OMB          Office of Management and         TCB        Telecommunication
             Budget                                      Certification Bodies
OMD          Office of the Managing           TDF        Telecommunications
             Director                                    Development Fund
OPM          Office of Personnel              TELRIC     Total Element Long-Run
             Management                                  Incremental Cost
PA           Pooling Administrator            Treasury   U.S. Department of the
PAR          Performance and                             Treasury

FEDERAL COMMUNICATIONS COMMISSION                                                      173
                                      FEDERAL COMMUNICATIONS COMMISSION

TRS          Telecommunications Relay
             Service (Fund)
TSP          Telecommunications Service
             Priority
TV           Television
UCC          Uniform Commercial Code
UNE          Unbundled Network Element
U.S.         United States
USAC         Universal Service
             Administrative Company
U.S.C.       United States Code
USDA         United States Department of
             Agriculture
USF          Universal Service Fund
USCG         United States Coast Guard
UWB          Ultra-wideband
VERA         Voluntary Early Retirement
             Authority
VoIP         Voice-over Internet Protocol
W-CDMA       Wideband Code Division
             Multiple Access
Wi-Fi        Wireless Fidelity
WISP         Wireless Internet Services
             Provider
WLAN         Wireless Local Area Network
WPAS         Wireless priority access service
WRC-07       World Radiocommunication
             Conference 2007
WTO          World Trade Organization
UNE          Unbundled Network Element
U.S.         United States




174      PERFORMANCE AND ACCOUNTABILITY REPORT        FISCAL YEAR 2004
             SECTION VI

  STATUS OF RECOMMENDATIONS FROM
PRIOR YEAR FINANCIAL STATEMENT AUDIT
This page intentionally left blank
 SECTION VI                 STATUS OF RECOMMENDATIONS FROM
                            PRIOR YEAR FINANCIAL STATEMENT AUDIT


  Starting with fiscal year 1999, the FCC’s financial statements have been subjected to audit pursuant to the
  Chief Financial Officers Act of 1990, as amended. This matrix consists of prior year financial statement
  audit recommendations to correct identified internal control weaknesses and their resolution status at the
  completion of the FY 2004 audit. A determination as to the status of each recommendation was based on
  the audit fieldwork at FCC and discussion with FCC officials.
                                                                                                  Resolution Classification (X)




                                                                                                               In Progress




                                                                                                                                        No Action
                                                                                                    Complete




                                                                                                                             Planning
            CONDITIONS                                 RECOMMENDATIONS




MATERIAL
WEAKNESSES
I. Financial Reporting
   (Repeat Condition)
   A. Integrated Financial Management Systems
      (Modified Repeat Condition)
                                          1.   Assess the degree of adequacy of planned                        X
                                               integration for the overall financial
                                               management systems.        These integrations
                                               should include all receivable transactions to be
                                               recorded in RAMIS, the fee billing system, the
                                               interface with the loan servicer systems, the
                                               auction subsidiary systems, the cost systems,
                                               and the various stand alone systems such as
                                               property management systems, spreadsheets
                                               and financial reporting.
                                          2.   Continue open communication with the                            X
                                               reporting components' management and if
                                               necessary, develop guidance for their
                                               compliance with the Federal GAAP.
   B. Spreadsheet Subsidiary Ledger Systems
      (Modified Repeat Condition)
                                          3.   Ensure RAMIS includes all the functional                        X
                                               requirements for an auction financial
                                               accounting system.
                                          4.   Ensure transition and conversion controls from       X
                                               the current system to RAMIS in FY 2004 are
                                               implemented
                                          5.   Ensure transition and conversion controls from       X
                                               the current loan system to the outside loan-
                                               servicer systems in FY 2004 are implemented.




04-AUD-05-07             REPORT ON THE FEDERAL COMMUNICATIONS                                                                           Page 1
                         COMMISSION’S FY 2004 FINANCIAL STATEMENTS
SECTION VI               STATUS OF RECOMMENDATIONS FROM
                         PRIOR YEAR FINANCIAL STATEMENT AUDIT

                                                                                                Resolution Classification (X)




                                                                                                             In Progress




                                                                                                                                      No Action
                                                                                                  Complete




                                                                                                                           Planning
            CONDITIONS                               RECOMMENDATIONS




   C. Timely Recording and Analysis of FCC and Reporting Components’ Financial Activities
      (Modified Repeat Condition)
                                        6.   Implement procedures to ensure financial                        X
                                             transactions are recorded and analyzed at least
                                             once a month or more frequently as
                                             appropriate. For example, perform analysis of
                                             current year, multi-year regulatory fee
                                             collections at least quarterly in addition to
                                             evaluating the effect of multi-year regulatory
                                             fees received in prior years and report the
                                             current activities or balances in the interim
                                             financial statements.
   D. FCC Supervisory Review of the USF Financial Reporting Process
      (Modified Repeat Condition)
                                        7.   Conduct a comprehensive review of the                           X
                                             reporting components' financial accounting
                                             and reporting policies to ensure their policies
                                             are acceptable and in compliance with FCC's
                                             policies.
                                        8.   Perform a quality control review of the                         X
                                             reporting components' financial information to
                                             ensure that the information is complete,
                                             accurate, reasonable, and properly present
                                             prior to incorporation in FCC's consolidated
                                             financial statements.
                                        9.   Finalize and implement the FCC policies and                     X
                                             procedures       related    to     the reporting
                                             components' financial reporting, compilation,
                                             and review process to include review
                                             procedures that will assess and assure data
                                             integrity, completeness, existence, quality and
                                             reliability of the financial data.
   E. Federal Financial System Setup and Posting Model Definitions
      (Modified Repeat Condition)
                                        10. Perform a periodic or quarterly update of FFS                    X
                                            system setup and posting model definitions to
                                            ensure timely correction of outdated models
                                            and compliance with the latest transactions
                                            posting models consistent with USSGL
                                            guidance and policies for recording and
                                            classifying transactions. Also, ensure changes

04-AUD-05-07          REPORT ON THE FEDERAL COMMUNICATIONS                                                                            Page 2
                      COMMISSION’S FY 2004 FINANCIAL STATEMENTS
SECTION VI                 STATUS OF RECOMMENDATIONS FROM
                           PRIOR YEAR FINANCIAL STATEMENT AUDIT

                                                                                               Resolution Classification (X)




                                                                                                            In Progress




                                                                                                                                     No Action
                                                                                                 Complete




                                                                                                                          Planning
             CONDITIONS                               RECOMMENDATIONS




                                             made to FFS are tested and accepted before
                                             entering production.

II. Auction Transactions

                                         11. Establish an effective process between WTB                     X
                                             and FOC to ensure that all financial related
                                             activities of auction and licensing operations
                                             are recorded and timely recorded.
                                         12. Establish a database linked to RAMIS and the                   X
                                             future auction/loan subsidiary system to create
                                             an audit trail or record of delinquent winning
                                             bidders whose licenses were cancelled and
                                             then re-auctioned, and the amounts collected
                                             or receivable from the reauction. While
                                             RAMIS is not yet operational for auction
                                             receivables, FCC should create and maintain a
                                             comprehensive schedule should be subjected
                                             to a subject to a quality control review and
                                             reconciliation should be performed on a
                                             periodic basis.
                                         13. Establish      and     implement     collection                X
                                             enforcement procedures for outstanding
                                             receivables.
III. Cost Accounting
     (Repeat Condition)
   A.   Cost Accounting System
        (Repeat Condition)
                                         14. Ensure the cost systems to be implemented in                   X
                                             FY 2004 meet the minimum requirements
                                             outlined in the JFMIP system requirements.
                                         15. Ensure the cost system to be implemented in                    X
                                             FY 2004 will provide information to meet the
                                             requirements of SFFAS No. 4.
   B.   Cost Allocation Process and Cost Finding Techniques
        (Modified Repeat Condition)
   C.   Matching Revenues to Costs
        (Repeat Condition)
                                         16. Review the propriety of the costing                            X
                                             methodology and the matching of earned
                                             revenue against costs.

04-AUD-05-07              REPORT ON THE FEDERAL COMMUNICATIONS                                                                       Page 3
                          COMMISSION’S FY 2004 FINANCIAL STATEMENTS
SECTION VI                 STATUS OF RECOMMENDATIONS FROM
                           PRIOR YEAR FINANCIAL STATEMENT AUDIT

                                                                                                 Resolution Classification (X)




                                                                                                              In Progress




                                                                                                                                       No Action
                                                                                                   Complete




                                                                                                                            Planning
             CONDITIONS                                 RECOMMENDATIONS




IV. USF Financial Reporting: Accounting and Reporting Controls
    (Repeat Condition)
                                         17. Account for USF activities in accordance with                    X
                                             the Federal GAAP.
                                         18. Ensure effective implementation of the                           X
                                             supervisory reviews.
                                         19. Tighten controls to ensure that timely                           X
                                             communication to appropriate parties is made
                                             regarding service providers that are placed on
                                             the watch list. Compare payments to be made
                                             against the disbursement watch list prior to
                                             releasing a payment, or institute a payment
                                             system, flagging the service providers in the
                                             "do not disburse" list.
V. Financial Information Technology (IT)
   (Modified Repeat Condition)
    B. Compliance with OMB Circular No. A-130 Requirement for a Comprehensive Security Plan
       (Modified Repeat Condition)
                                           20. Issue a new directive to replace the expired                   X
                                               information security directive.
                                           21. Complete the implementation, certification                     X
                                               and accreditation of an FCC-wide security
                                               plan as prescribed by OMB Circular No. A-
                                               130.
                                           22. Conduct current risk assessments for the two                   X
                                               FCC general support systems and seven major
                                               applications.
                                           23. Develop and implement security plans for            X
                                               FCC's one major applications system, FPPS.
                                           24. Establish a system to periodically review                      X
                                               security controls over FCC's computer
                                               systems in accordance with OMB Circular No,
                                               A-130, Appendix III.
                                           25. Complete the certification and accreditation of     X
                                               FCC's major applications and general support
                                               systems based on the security plans developed
                                               and implemented.
                                           26. Enhance audit trail facility utilization and                   X
                                               review.




04-AUD-05-07             REPORT ON THE FEDERAL COMMUNICATIONS                                                                          Page 4
                         COMMISSION’S FY 2004 FINANCIAL STATEMENTS
SECTION VI              STATUS OF RECOMMENDATIONS FROM
                        PRIOR YEAR FINANCIAL STATEMENT AUDIT

                                                                                               Resolution Classification (X)




                                                                                                            In Progress




                                                                                                                                     No Action
                                                                                                 Complete




                                                                                                                          Planning
           CONDITIONS                                RECOMMENDATIONS




   B. Accelerate Efforts to Develop and Test FCC’s Contingency Plans
      (Modified Repeat Conditions)
                                        27. Develop and test contingency plans for FCC's                    X
                                            major applications, networks, and
                                            telecommunications facilities.
                                        28. Obtain written documentation from FCC's                         X
                                            data centers of developed and tested
                                            contingency plans and participate in the
                                            scheduled tests of the plans.
                                        29. Develop a comprehensive contingency plan                        X
                                            that integrates the individual plans of its data
                                            centers, networks, and telecommunications
                                            facilities.

   A. Inadequate Password Controls for USF Major Applications

                                        30. Strengthen password controls to comply with                     X
                                            FIPS PUBS 112 Password Usage.

   B. Non-compliance with OMB Circular A-130 Requirements for the USF

                                        31. Perform risk assessments for all USF major                      X
                                            applications every three years or whenever
                                            there is a major change to system software or
                                            hardware.
                                        32. Develop and implement security plans for                        X
                                            each USF major application.

   C. Disaster Recovery for the USF

                                        33. Periodically review and update the disaster                     X
                                            recovery manual to reflect current conditions.
                                            Recent plan reassessments should be
                                            documented. The disaster recovery testing
                                            should be performed at least once a year. The
                                            test results should be analyzed and the plan
                                            should be changed accordingly.




04-AUD-05-07          REPORT ON THE FEDERAL COMMUNICATIONS                                                                           Page 5
                      COMMISSION’S FY 2004 FINANCIAL STATEMENTS
SECTION VI                 STATUS OF RECOMMENDATIONS FROM
                           PRIOR YEAR FINANCIAL STATEMENT AUDIT

                                                                                                  Resolution Classification (X)




                                                                                                               In Progress




                                                                                                                                        No Action
                                                                                                    Complete




                                                                                                                             Planning
              CONDITIONS                                RECOMMENDATIONS




REPORTABLE
CONDITIONS
VI.     Revenue Recognition
        (Modified Repeat Condition)
                                           34. Establish and implement accounting                              X
                                               procedures that will track the statue (issuance
                                               of Prepared to Grant Public Notice) of auction
                                               licenses as "not granted," "ready to grant," and
                                               "granted." This will include tracking the dates
                                               when the status of the license changed and
                                               reference to supporting documentation such as
                                               the Prepared to Grant Public Notice.
                                           35. Implement procedures to ensure that revenue                     X
                                               transactions are recorded in the proper
                                               accounting period. One of these procedures
                                               should include the use of the billing
                                               documents on all revenue related transactions
                                               and properly and timely applying collections
                                               to the billing documents.

VII. RAMIS Application and Processes


      A. Electronic Data Processing Controls

                                           36. Develop and/or revise existing procedures to                    X
                                               address the weaknesses noted in the FCC OIG
                                               audit report on the RAMIS system.

      B. RAMIS Accounts Receivable Module

                                           37. Perform post-implementation tests of the             X
                                               RAMIS accounts receivable application to
                                               ensure that all potential limitations and
                                               additional requirements are identified and
                                               corrected.
                                           38. Implement procedures to ensure that FOC              X
                                               receives all supporting documentation of a
                                               fines and forfeiture financial activity.
                                           39. Implement records maintenance procedures to          X
                                               prevent documentation from being misplaced.
                                           40. Strengthen supervisory review procedures.            X



04-AUD-05-07             REPORT ON THE FEDERAL COMMUNICATIONS                                                                           Page 6
                         COMMISSION’S FY 2004 FINANCIAL STATEMENTS
SECTION VI                 STATUS OF RECOMMENDATIONS FROM
                           PRIOR YEAR FINANCIAL STATEMENT AUDIT

                                                                                                 Resolution Classification (X)




                                                                                                              In Progress




                                                                                                                                       No Action
                                                                                                   Complete




                                                                                                                            Planning
              CONDITIONS                               RECOMMENDATIONS




      C. Collection in RAMIS

                                          41. Create reports in RAMIS that will provide            X
                                              details of each summary line item posted in
                                              FFS.
                                          42. Re-write and test the RAMIS Receipts Detail          X
                                              Report to ensure that RAMIS accurately
                                              captures the bank's detail deposit information
                                              accurately and timely.
VIII. Payroll Activities
      (Modified Repeat Condition)
                                          43. Perform a periodic reconciliation of all the                    X
                                              leave categories from the two systems, NFC
                                              and FCC records.
                                          44. Conduct employee training to re-emphasize            X
                                              the importance of proper coding and to ensure
                                              the timesheets are properly completed and
                                              certified by supervisors.
                                          45. Ensure that timekeepers reconcile time and                      X
                                              attendance report errors generated from the
                                              FCC's desktop payroll reconciliation system.
IX.     Debt Collection Improvement Act Reporting
       (Modified Repeat Condition)
                                          46. Develop TROR policies and procedures to                         X
                                              include the Department of the Treasury
                                              referral requirements for the reporting
                                              components' accounts receivables. Ensure the
                                              policies and procedures also include a
                                              requirement for periodic review and update of
                                              existing procedures.
                                          47. Refer eligible delinquent debt, more than 180                   X
                                              days old, to the Department of the Treasury
                                              for offset or timely cross-servicing.
                                          48. Perform a review of the delinquency debt                        X
                                              letter procedures to ensure that all delinquent
                                              debtors are receiving the dunning efforts and
                                              that interest, penalties and administrative fees
                                              are being assessed in conjunction with the
                                              submission of the letters to the debtors.



04-AUD-05-07             REPORT ON THE FEDERAL COMMUNICATIONS                                                                          Page 7
                         COMMISSION’S FY 2004 FINANCIAL STATEMENTS
SECTION VI               STATUS OF RECOMMENDATIONS FROM
                         PRIOR YEAR FINANCIAL STATEMENT AUDIT

                                                                                          Resolution Classification (X)




                                                                                                       In Progress




                                                                                                                                No Action
                                                                                            Complete




                                                                                                                     Planning
            CONDITIONS                            RECOMMENDATIONS




X. OMB Circular Nos. A-127 and A-130 Reviews
   (Repeat Condition)
                                      49. Institute a program for conducting periodic                  X
                                          reviews in accordance reviews in accordance
                                          with OMB Circular Nos. A-127 and A-130
                                          and perform the reviews timely.
                                      50. Establish policy and procedures in a proper                  X
                                          manner for conducting periodic reviews of the
                                          reporting components in accordance with
                                          OMB Circular Nos. A-127 and A-130.




04-AUD-05-07          REPORT ON THE FEDERAL COMMUNICATIONS                                                                      Page 8
                      COMMISSION’S FY 2004 FINANCIAL STATEMENTS
       SECTION VII

ACRONYMS & ABBREVIATIONS
This page intentionally left blank
SECTION VII       ACRONYMS & ABBREVIATIONS



   BEAMS          Budget Execution and Management System
   CFO Act        Chief Financial Officers Act of 1990
   CFO            Chief Financial Officer
   CFR            Code of Federal Regulations
   CIO            Chief Information Officer
   COOP           Continuity of operations plan
   CSO            Computer Security Officer
   DCIA           Debt Collection Improvement Act of 1996
   DRP            Disaster recovery plan
   EAS            Equipment Authorization System
   EDP            Electronic data processing
   ELS            Experimental Licensing System
   FACTS II       Federal Agencies’ Centralized Trial Balance System II
   FCC            Federal Communications Commission
   Federal GAAP   Generally accepted accounting principles for Federal entities
   FFMIA          Federal Financial Management Improvement Act of 1996
   FFS            Federal Financial System
   FIPS PUBS      Federal Information Processing Standards Publications
   FMFIA          Federal Managers’ Financial Integrity Act of 1982
   FOC            Financial Operations Center
   FY             Fiscal year
   GAAP           Generally accepted accounting principles
   GAO            General Accounting Office or Government Accountability Office
   GL             General ledger
   GMRA           Government Management Reform Act of 1994
   IC Report      Independent Auditor’s Report on Internal Control
   IT             Information technology
   ITC            Information Technology Center
   ITS            International Telecommunication Services
   JFMIP          Joint Financial Management Improvement Program
   NANP           North American Numbering Plan
   NFC            National Finance Center
   OET            Office of Engineering and Technology
   OIG            Office of Inspector General
   OMB            Office of Management and Budget
   PAR            Performance and Accountability Report
   RAMIS          Revenue Accounting and Management Information System
   SFFAS          Statement of Federal Financial Accounting Standards
   SLD            Schools and Libraries Division
   SNC            Statement of Net Cost
   TROR           Treasury Report on Receivables
   TRS            Telecommunications Relay Service Fund




04-AUD-05-07      REPORT ON THE FEDERAL COMMUNICATIONS                     Page 1
                  COMMISSION’S FY 2004 FINANCIAL STATEMENTS
SECTION VII    ACRONYMS & ABBREVIATIONS



   USAC        Universal Service Administrative Company
   USF         Universal Service Fund
   USSGL       United States Standard General Ledger
   WTB         Wireless Telecommunications Bureau




04-AUD-05-07   REPORT ON THE FEDERAL COMMUNICATIONS        Page 2
               COMMISSION’S FY 2004 FINANCIAL STATEMENTS
